Audit Report




OIG-12-015
Audit of the Department of the Treasury’s Fiscal Years 2011 and
2010 Financial Statements
November 15, 2011




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2011
             Agency Financial Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF                                      November 15, 2011
INSPECTOR GENERAL




            INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                      Eric M. Thorson
                                       Inspector General

            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2011 and 2010


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2011
            and 2010.

            The Chief Financial Officer’s Act of 1990, as amended, requires the Department of the Treasury
            Office of Inspector General or an independent auditor, as determined by the Inspector General, to
            audit the Department’s financial statements. Under a contract monitored by my office, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the Department’s
            FY 2011 and 2010 financial statements. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards issued by the Comptroller
            General of the United States; Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE Financial
            Audit Manual.

            RESULTS OF INDEPENDENT AUDIT

            In its audit of the Department, KPMG LLP

                •   reported that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   reported that two material weaknesses related to unpaid tax assessments and information
                    security and a significant deficiency related to tax refund disbursements identified by the
                    auditor of the Internal Revenue Service collectively represent a material weakness for the
                    Department as a whole;

                •   reported that weaknesses related to 1) financial reporting practices at the Departmental
                    level, 2) financial accounting and reporting at the Office of Financial Stability, and
                    3) information systems controls at the Financial Management Service represent
                    significant deficiencies for the Department as a whole;
Page 2

   •     reported an instance of noncompliance with laws and regulations related to the Internal
         Revenue Code Section 6325 whereby the IRS did not always release federal tax liens
         against taxpayers’ property within the 30-day legal requirement;

   •     reported that the Department’s financial management systems did not substantially
         comply with the requirements of the Federal Financial Management Improvement Act of
         1996 related to Federal financial management system requirements and applicable
         Federal accounting standards; and

   •     reported an instance of a potential Anti-deficiency Act violation related to voluntary
         services provided to the Departmental Offices.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. Additionally, we provide oversight of the
audits of financial statements and certain accounts and activities conducted at 13 component
entities of the Department. Our review, as differentiated from an audit performed in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or on whether the Department’s financial management systems
substantially complied with the Federal Financial Management Improvement Act of 1996 or
conclusions on compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ report dated November 15, 2011, and the conclusions expressed in that report.
However, our review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Daniel Tangherlini
    Assistant Secretary for Management
       and Chief Financial Officer
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                                 KPMG LLP
                                 2001 M Street, NW
                                 Washington, DC 20036-3389




                                         Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury
(Department) as of September 30, 2011 and 2010, and the related consolidated statements of net cost,
changes in net position, the combined statements of budgetary resources, and the statements of custodial
activity (hereinafter referred to as “consolidated financial statements”) for the years then ended. The
objective of our audits was to express an opinion on the fair presentation of these consolidated financial
statements. These consolidated financial statements are incorporated in the accompanying U.S. Department
of the Treasury Fiscal Year 2011 Agency Financial Report (AFR).

We did not audit the amounts included in the consolidated financial statements related to the Internal
Revenue Service (IRS) and the Office of Financial Stability (OFS), component entities of the Department.
The financial statements of IRS and OFS were audited by another auditor whose reports have been
provided to us. Our opinion, insofar as it relates to the amounts included for IRS and OFS, is based solely
on the reports of the other auditor.

In connection with our fiscal year 2011 audit, we, and the other auditor, also considered the Department’s
internal control over financial reporting and tested the Department’s compliance with certain provisions of
applicable laws, regulations, contracts, and grant agreements that could have a direct and material effect on
these consolidated financial statements. Our conclusions on internal control over financial reporting and
compliance and other matters, insofar as they relate to IRS and OFS, are based solely on the reports of the
other auditor.

Summary
As stated in our opinion on the consolidated financial statements, based on our audits and the reports of the
other auditor, we concluded that the Department’s consolidated financial statements as of, and for the years
ended, September 30, 2011 and 2010, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

As discussed in Notes 7, 8, 11 and 26, the Department is a participant in significant legislation and
transactions whose purpose is to assist in stabilizing the financial markets.

Notes 1A, 1V, 7, 8, and 11, respectively, discuss the following matters:

•   The consolidated financial statements do not include the assets, liabilities, or results of operations of
    commercial entities in which the Department has a significant equity interest as it has determined that
    none of these entities meet the criteria for inclusion as a federal entity and are therefore not included in
    the consolidated financial statements.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
U.S. Department of the Treasury
November 15, 2011
Page 2 of 11




•   The valuation of certain investments, loans, commitments, and asset guarantees is based on estimates.
    These estimates are inherently subject to substantial uncertainty arising from the likelihood of future
    changes in general economic, regulatory, and market conditions. In addition, there are significant
    uncertainties related to the amounts that the Department will realize from its investments. As such,
    there will be differences between the net estimated value of these investments, loans, commitments,
    and asset guarantees at September 30, 2011, and the amounts that will ultimately be realized from these
    assets or be required to pay to settle these commitments and guarantees. Such differences may be
    material and will also affect the ultimate cost of these programs.

Our, and the other auditor’s, consideration of internal control over financial reporting resulted in
identifying certain deficiencies that we consider to collectively be a material weakness and other
deficiencies that we consider to be significant deficiencies, as defined in the Internal Control Over
Financial Reporting section of this report, as follows:

Material Weakness

    •   Financial Systems and Reporting at the Internal Revenue Service (Repeat Condition)

Significant Deficiencies

    •   Financial Reporting Practices at the Departmental Level (Repeat Condition)

    •   Financial Accounting and Reporting at the Office of Financial Stability (Repeat Condition)

    •   Information Systems Controls at the Financial Management Service (Repeat Condition)

The results of our tests, and the tests performed by the other auditor, of compliance with certain provisions
of laws, regulations, contracts, and grant agreements disclosed an instance of noncompliance with Internal
Revenue Code (IRC) Section 6325, that is required to be reported under Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. In addition, the
Department’s financial management systems did not substantially comply with the Federal Financial
Management Improvement Act of 1996 (FFMIA) requirements related to compliance with Federal financial
management system requirements and applicable Federal accounting standards. Our, and the other
auditor’s, audits disclosed no instances in which the Department’s financial management systems did not
substantially comply with the U.S. Standard General Ledger at the transaction level.

The Department informed us of an instance of a potential violation of the Anti-Deficiency Act related to
voluntary services provided to the Departmental Offices. The Department is reviewing this matter.

The following sections discuss our opinion on the Department’s consolidated financial statements; our, and
the other auditor’s, consideration of the Department’s internal control over financial reporting; our, and the
other auditor’s, tests of the Department’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements; and management’s and our responsibilities.
U.S. Department of the Treasury
November 15, 2011
Page 3 of 11




Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury as
of September 30, 2011 and 2010, and the related consolidated statements of net cost, changes in net
position, the combined statements of budgetary resources, and the statements of custodial activity, for the
years then ended.

We did not audit the amounts included in the consolidated financial statements related to IRS, a component
entity of the Department, which consist of total assets of $43.3 billion and $43.2 billion, net cost of
operations of $13.0 billion and $13.4 billion before applicable eliminating entries, budgetary resources of
$13.5 billion and $13.4 billion, and custodial revenues of $2.4 trillion and $2.3 trillion, each as of and for
the years ended September 30, 2011 and September 30, 2010, respectively. The IRS financial statements
were audited by another auditor whose report dated November 4, 2011 has been furnished to us, and our
opinion, insofar as it relates to the amounts included for IRS, is based solely on the report of the other
auditor.

We did not audit the amounts included in the consolidated financial statements related to OFS, a
component entity of the Department, which consist of total assets of $164.2 billion and $244.2 billion, net
cost of operations and net (income) of $9.5 billion and ($23.1) billion before applicable eliminating entries,
and budgetary resources of $103.0 billion and $195.3 billion, each as of and for the years ended September
30, 2011 and September 30, 2010, respectively. The OFS financial statements were audited by another
auditor whose report dated November 4, 2011 has been furnished to us, and our opinion, insofar as it
relates to the amounts included for OFS, is based solely on the report of the other auditor.

In our opinion, based on our audits, and the reports of the other auditor, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the U.S.
Department of the Treasury as of September 30, 2011 and 2010, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended, in conformity with U.S. generally
accepted accounting principles.

As discussed in Notes 7, 8, 11, and 26, the Department is a participant in significant transactions whose
purpose is to assist in stabilizing the financial markets.

Notes 1A, 1V, 7, 8, and 11, respectively, discuss the following matters:

•   The consolidated financial statements do not include the assets, liabilities, or results of operations of
    commercial entities in which the Department has a significant equity interest as it has determined that
    none of these entities meet the criteria for inclusion as a federal entity and are therefore not included in
    the consolidated financial statements.

•   The valuation of certain investments, loans, commitments, and asset guarantees is based on estimates.
    These estimates are inherently subject to substantial uncertainty arising from the likelihood of future
    changes in general economic, regulatory, and market conditions. In addition, there are significant
    uncertainties related to the amounts that the Department will realize from its investments. As such,
    there will be differences between the net estimated value of these investments, loans, commitments,
    and asset guarantees at September 30, 2011, and the amounts that will ultimately be realized from these
U.S. Department of the Treasury
November 15, 2011
Page 4 of 11




    assets or be required to pay to settle these commitments and guarantees. Such differences may be
    material and will also affect the ultimate cost of these programs.

The information, in the AFR in Part 1: Management’s Discussion and Analysis (MD&A) and the Required
Supplemental Information in Part 2: Annual Financial Report, is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

Our audits, and the audits of the other auditor, were conducted for the purpose of forming an opinion on the
consolidated financial statements taken as a whole. The information in the Message from the Secretary of
the Treasury, the Message from the Assistant Secretary for Management and Chief Financial Officer, and
the Inspector General’s Transmittal Letter in Part 2, and Part 3: Other Accompanying Information is
presented for purposes of additional analysis and is not required as part of the consolidated financial
statements. This information has not been subjected to auditing procedures and, accordingly, we express no
opinion on it.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and was not designed to identify all deficiencies in internal
control over financial reporting that might be significant deficiencies or material weaknesses and therefore,
there can be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. This report also includes our consideration of the results of the other auditor’s testing of internal
control over financial reporting that is reported on separately by the other auditor. The other auditor
performed an examination of internal control over financial reporting for the purpose of providing an
opinion on the effectiveness of IRS’s and OFS’s internal controls. This report, insofar as it relates to the
results of the other auditor, is based solely on the reports of the other auditor.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of the
entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance. In our
fiscal year 2011 audit, we, and the other auditor, identified the significant deficiencies in internal control
over financial reporting, discussed below.

The significant deficiency related to Financial Systems and Reporting at the IRS is considered to be a
material weakness. Because of the IRS material weakness in internal control over financial reporting
discussed below, the other auditor’s opinion on IRS’s internal control over financial reporting stated that
IRS did not maintain effective internal control over financial reporting as of September 30, 2011, and thus
did not provide reasonable assurance that losses and misstatements that were material in relation to the
IRS’s financial statements would be prevented or detected and corrected on a timely basis. The other
auditor’s opinion on OFS’s internal control stated that OFS maintained, in all material respects, effective
U.S. Department of the Treasury
November 15, 2011
Page 5 of 11




internal control over financial reporting as of September 30, 2011. However, because of its inherent
limitations, internal control over financial reporting may not prevent or detect misstatements. Also,
projections of any evaluation of effectiveness to future periods are subject to the risk that controls may
become inadequate because of changes in conditions, or that the degree of compliance with the policies or
procedures may deteriorate.

MATERIAL WEAKNESS

Financial Systems and Reporting at the IRS (Repeat Condition)

IRS continued to make progress in addressing its deficiencies in internal control over financial reporting.
However, material weaknesses related to unpaid tax assessments and information security, and a significant
deficiency related to tax refund disbursements at the IRS, continued to exist in fiscal year 2011 and are
collectively considered a material weakness at the Department level.

This material weakness represents a significant IRS management challenge and has (1) impaired
management’s ability to prepare its financial statements without extensive compensating procedures, (2)
limited the availability of reliable information to assist management in making well-informed decisions
concerning its unpaid tax assessments on an ongoing basis, (3) resulted in errors in taxpayer accounts that
increased taxpayer burden, and (4) reduced assurance that data processed by IRS’s information systems are
reliable and that sensitive taxpayer information is appropriately protected. This deficiency is summarized
as follows:

    •   Serious internal control deficiencies continue to affect IRS’s management of unpaid tax
        assessments. Specifically, 1) IRS’s reported balances for taxes receivable and other unpaid tax
        assessments were not traceable from its general ledger system for tax administration-related
        transactions to individual transactions in underlying source records, 2) IRS lacked a subsidiary
        ledger for unpaid tax assessments that would allow it to produce reliable, useful, and timely
        information with which to manage and report externally on its unpaid tax assessments, and 3) IRS
        experienced errors and delays in recording taxpayer information, payments, and other tax
        assessment-related activities. (Material Weakness)

    •   Internal control over information security continued to be ineffective, particularly as it relates to
        access controls over the automated systems and software applications relied upon to process its
        financial transactions, produce its internal and external financial reports, and safeguard related
        sensitive information. As a result, the IRS could not rely on the internal controls over its
        automated financial management system to provide reasonable assurance that 1) its financial
        statements, taken as a whole, were fairly presented, 2) the financial information IRS relied on to
        make decisions on a daily basis was accurate, complete, and timely, and 3) proprietary financial
        and taxpayer information was appropriately safeguarded. (Material Weakness)

    •   Weaknesses in IRS’s internal controls over tax refund disbursements resulting from the processing
        of manually prepared tax refunds and First-time Homebuyer Credit claims. (Significant
        Deficiency)
U.S. Department of the Treasury
November 15, 2011
Page 6 of 11




The other auditor noted that the deficiencies in internal control noted above may adversely affect any
decision by IRS’s management that are based, in whole or in part, on information that is inaccurate because
of these deficiencies.

Additional details related to the deficiencies identified above have been provided separately to IRS
management by the auditor of the IRS’s financial statements

Recommendation

The other auditor separately provided IRS management with recommendations to address the above
material weakness. We recommend that the Assistant Secretary for Management and Chief Financial
Officer (ASM/CFO) ensure that IRS takes corrective action to improve controls over its financial systems
and reporting.

SIGNIFICANT DEFICIENCIES

Financial Reporting Practices at the Departmental Level (Repeat Condition)

While the Department continued to improve its financial reporting processes during fiscal year 2011, we
identified incorrect amounts and disclosures in unique program transactions which the Department records
annually in the financial statements and notes. The Department did not detect these items in its review
process. Specifically, the Department misclassified the amounts related to the Government-Sponsored
Enterprise Senior Preferred Stock Purchase Program in its draft Statement of Budgetary Resources. In
addition, because the Department does not have documented accounting and reporting policies and
procedures related to investments in, and letters of commitment to, the Multilateral Development Banks
(MDBs), it did not disclose certain commitments to MDBs in its draft notes to the financial statements.
The Department subsequently revised its financial statements to correct for this misclassification and
inadequate disclosure.

Recommendations

We recommend that the ASM/CFO ensure that the Department’s Office of Accounting and Internal
Control:

    1. Perform, in conjunction with the Office of Financial Management and the Office of Performance
       Budgeting, a comprehensive analysis of amounts reported in the financial statements and notes as
       part of its year-end reporting procedures, and

    2. Develop, document, and implement, in conjunction with the Office of International Assistance,
       policies and procedures surrounding the accounting treatment and disclosure of financial
       transactions related to the MDBs.

Financial Accounting and Reporting at the Office of Financial Stability (Repeat Condition)

During fiscal year 2011, OFS addressed several of the internal control issues related to its significant
deficiency concerning accounting and financial reporting processes. However, the remaining control issues
along with other control deficiencies that the other auditor identified collectively represent a continuing
significant deficiency in OFS’s internal control over its accounting and financial reporting processes. The
U.S. Department of the Treasury
November 15, 2011
Page 7 of 11




OFS deficiencies identified by the other auditor also collectively constitute a significant deficiency for the
Department and are summarized below:

    •   Significant, but not material, incorrect amounts and inconsistent disclosures in OFS’s draft
        financial statements that OFS did not detect.

    •   Instances where OFS’s accounting and financial reporting procedures were not complete or
        effectively implemented.

For significant errors and issues that were identified, OFS revised the financial statements, notes and
MD&A, as appropriate. Properly designed and implemented controls over the accounting and financial
reporting processes are key to providing reasonable assurance regarding the reliability of the balances and
disclosures reported in the financial statements and related notes in conformity with generally accepted
accounting principles. Misstatements may occur in other financial information reported by OFS and not be
prevented or detected by OFS because of this significant deficiency.

Additional details related to the significant deficiency identified above have been provided separately to
OFS management by the auditor of the OFS’s financial statements.

Recommendation

The other auditor separately provided OFS management with recommendations to address the above
significant deficiency. We recommend that the ASM/CFO ensure that OFS takes corrective action to
improve controls over its financial accounting and reporting processes.

Information Systems Controls at the Financial Management Service (Repeat Condition)

The Financial Management Service (FMS) made progress in its efforts to address prior year weaknesses in
the Information System (IT) controls and security programs it manages. Despite these improvements,
current year tests conducted over IT general controls revealed that the necessary policies and procedures to
detect and correct control and functionality weaknesses have not been consistently documented,
implemented, or enforced. Specifically, issues were identified in the areas of 1) security management, 2)
access, 3) change configuration, 4) segregation of duties, and 5) contingency planning. These weaknesses
could compromise FMS’s ability to ensure security over sensitive financial data and reliability of key
systems and collectively serve to weaken the IT general control environment at FMS.

Recommendation

We separately provided FMS management with recommendations to address the above significant
deficiency. We recommend that the ASM/CFO ensure that FMS takes corrective action to improve its
information systems controls.

Compliance
The results of certain of our tests, and the tests performed by the other auditor, of compliance as described
in the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed the
following instance of noncompliance or other matters that is required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04.
U.S. Department of the Treasury
November 15, 2011
Page 8 of 11




    •   Noncompliance with Internal Revenue Code Section 6325

    The IRC grants IRS the authority to obtain a statutory lien against the property of any taxpayer who
    neglects or refuses to pay all assessed federal taxes. Under IRC Section 6325, IRS is required to
    release federal tax liens within 30 days after the date the tax liability is satisfied or has become legally
    unenforceable or the Secretary of the Treasury has accepted a bond for the assessed tax. Despite
    actions taken over the years to improve its lien release processing, the other auditor continued to find
    that the IRS did not always release all tax liens within 30 days after taxpayers paid or were otherwise
    relieved of a tax liability. (Repeat Condition)

The results of our other tests, and the tests performed by the other auditor, of compliance as described in
the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed no other
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards and OMB Bulletin No. 07-04.

The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed instances where
the Department’s financial management systems did not substantially comply with FFMIA Section 803(a)
requirements (Repeat Condition) related to compliance with (1) federal financial management systems
requirements (FFMSR), and (2) applicable Federal accounting standards. Our, and the other auditor’s,
audit disclosed no instances in which the Department’s financial management systems did not substantially
comply with the U.S. Standard General Ledger at the transaction level.

    The instance of noncompliance with FFMSR is summarized below:

    •   Persistent deficiencies in IRS’s internal control over unpaid tax assessment systems and
        information security remain uncorrected. As a result of these deficiencies, IRS was 1) unable to
        rely upon its systems or compensating and mitigating controls to provide reasonable assurance that
        is financial statements are fairly presented, 2) unable to ensure the reliability of other financial
        management information produced by its systems, and 3) at increased risk of compromising
        confidential IRS and taxpayer information. (Repeat Condition)

    The instance of noncompliance with Federal accounting standards is summarized below:

    •   IRS’s automated systems for tax-related transactions did not support the net federal taxes
        receivable amount on IRS’s balance sheet and other required supplementary information related to
        uncollected taxes – compliance assessments and write offs – as required by Statement of Federal
        Financial Accounting Standards No. 7, Accounting for Revenue and Other Financing Sources and
        Concepts for Reconciling Budgetary and Financial Accounting. (Repeat Condition)

The Secretary of the Treasury also stated in his Letter of Assurance, included in Part 1: MD&A, of the
accompanying AFR, that the Department’s financial management systems are not in substantial compliance
with FFMIA. IRS established a remediation plan to address the conditions that led to its systems’
substantial noncompliance with the FFMIA requirements. This plan outlines the actions to be taken to
resolve these issues and defines related resources and responsible organizational units. Many of the actions
detailed in the plan are long-term in nature and are tied to IRS’s systems modernization efforts. In
summary, the remaining remedial steps to be implemented include the development of a single system that
provides for daily processing of taxpayer accounts in order to improve its internal control over unpaid tax
U.S. Department of the Treasury
November 15, 2011
Page 9 of 11




assessments, and the development of application, network and system monitoring capabilities in order to
improve computer security controls. The Department’s remedial actions and related timeframes are
presented in Part 3, Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems, of the
AFR.

Recommendations

We recommend that the ASM/CFO ensure that 1) IRS implements appropriate controls so that Federal tax
liens are released in accordance with Section 6325 of the IRC; and 2) IRS implements its plan of action to
solve financial management problems so as to enable resolving the identified instances of financial
management systems’ noncompliance with the requirements of FFMIA. Detailed recommendations to
address the noncompliance findings discussed above have been provided to IRS management by the
auditor of the IRS’s financial statements.

Other Matter

The Department informed us of an instance of a potential violation of the Anti-Deficiency Act related to
voluntary services provided to the Departmental Offices. The Department is reviewing this matter.

Department’s Response to Internal Control and Compliance Findings

The Department indicated in a separate letter immediately following this report that it concurs with the
findings presented in this section of our report. Further, the Department responded that it will take
corrective action, as necessary, to ensure the respective component management within the Department
address the matters presented. We did not audit the Department’s response and, accordingly, we express
no opinion on it.

We noted certain additional matters that we will report to management of the Department in a separate
letter.

                                                *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to the Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
consolidated financial statements of the Department based on our audits and the reports of the other
auditor. We, and the other auditor, conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and OMB
Bulletin No. 07-04, as amended. Those standards and OMB Bulletin No. 07-04 require that we plan and
perform the audits to obtain reasonable assurance about whether the consolidated financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as
a basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
U.S. Department of the Treasury
November 15, 2011
Page 10 of 11




expressing an opinion on the effectiveness of the Department’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audits, and the reports of the other auditor related to the amounts included for IRS and
OFS, provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2011 audit, we considered the Department’s internal control
over financial reporting, exclusive of the internal control over financial reporting related to IRS and OFS,
by obtaining an understanding of the design effectiveness of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the Department’s internal control over financial reporting.

Internal control over financial reporting related to IRS and OFS was considered by the other auditor whose
reports thereon dated November 4, 2011, have been provided to us. We, and the other auditor, did not test
all controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of the other auditor’s audits was to express an opinion on the
effectiveness of the IRS’s and OFS’s internal control over financial reporting. Because of the IRS material
weakness in internal control over financial reporting, the other auditor’s opinion on the IRS’s internal
control over financial reporting stated that IRS did not maintain effective internal control over financial
reporting as of September 30, 2011. The other auditor’s opinion on OFS’s internal control over financial
reporting stated that OFS maintained, in all material respects, effective internal control over financial
reporting as of September 30, 2011. However, because of its inherent limitations, internal control over
financial reporting may not prevent or detect misstatements. Also, projections of any evaluation of
effectiveness to future periods are subject to the risk that controls may become inadequate because of
changes in conditions, or that the degree of compliance with the policies or procedures may deteriorate.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2011 consolidated
financial statements are free of material misstatement, we, and the other auditor, performed tests of the
Department’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We, and the other
auditor, limited our tests of compliance to the provisions described in the preceding sentence, and we, and
the other auditor, did not test compliance with all laws, regulations, contracts, and grant agreements
applicable to the Department. However, providing an opinion on compliance with laws, regulations,
U.S. Department of the Treasury
November 15, 2011
Page 11 of 11




contracts, and grant agreements was not an objective of our audit and, accordingly, we, and the other
auditor, do not express such an opinion.

                                  ______________________________

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 15, 2011
                                                       U.S. Department of the Treasury | Fiscal Year 2011


MANAGEMENT’S RESPONSE TO INDEPENDENT AUDITORS’
REPORT




                                              November 15, 2011



KPMG LLP
2001 M Street, N.W.
Washington, DC 20036

Ladies and Gentlemen:

On behalf of Secretary Geithner, I am responding to your draft audit report on the Department of
the Treasury’s fiscal year 2011 consolidated financial statements. Our bureaus and program offices
all can be proud of the Department’s success in achieving an unqualified opinion on the
Department’s financial statements for the twelfth consecutive year. We are also proud of the third
unqualified opinion from the Government Accountability Office (GAO) on the Office of Financial
Stability’s (OFS) financial statements.

The high level of professionalism, technical expertise, and partnership demonstrated by KPMG in
conducting this year’s audit contributed greatly to Treasury’s successful fiscal year 2011 results.
We appreciate your efforts during the audit process to provide timely, constructive advice on how to
improve our financial reporting. We also appreciate the expertise and commitment demonstrated by
the other organizations involved in the audit process – the Office of the Inspector General, GAO,
and the firms that audited several of our bureaus.

KPMG recognized Treasury’s strong efforts in fiscal year 2011 to address the significant deficiency
in financial reporting practices at the Departmental level. While we have made substantial progress
in some areas, we know we have work to do in other areas to eliminate this significant deficiency.
As reported by GAO, the Internal Revenue Service and OFS continued to address their deficiencies
in internal control in fiscal year 2011.

We acknowledge the Departmental level material weakness, significant deficiencies, and instances
of noncompliance with laws and regulations described in your report. We agree with your
recommendations, and will focus on necessary corrective actions to address each of the issues.




                                            Dan Tangherlini
                                            Assistant Secretary for Management
                                            and Chief Financial Officer

                                                 51
        SECTION II –

DEPARTMENT OF THE TREASURY
     FISCAL YEAR 2011
  AGENCY FINANCIAL REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
    U.S. Department of the Treasury | Fiscal Year 2011



x
      U.S. Department of the Treasury | Fiscal Year 2011




iii
     U.S. Department of the Treasury | Fiscal Year 2011




iv
                                 U.S. Department of the Treasury | Fiscal Year 2011




For the online version of this report, please visit:
              http://www.treasury.gov
           and search for “2011 AFR”




           This page left intentionally blank

                           ii
                                                                                                           U.S. Department of the Treasury | Fiscal Year 2011

TABLE OF CONTENTS
Message from the Secretary of the Treasury .................................................................................................................. iv
Part 1: Management’s Discussion and Analysis
    Introduction ..................................................................................................................................................................................... 3
    Organization ..................................................................................................................................................................................... 4
    Treasury’s Fiscal Years 2007-2012 Strategic Framework ...............................................................................................................7
    Treasury’s Fiscal Year 2010-2011 Priority Performance Goals ...................................................................................................... 8
    Fiscal Year 2011 Performance By Strategic Goal ...........................................................................................................................10
    Department’s Key Performance Measures for 2011 ..................................................................................................................... 24
    Highlights of Management and Performance Challenges ............................................................................................................ 26
    Financial Overview ......................................................................................................................................................................... 27
    Summary of Auditors’ Report on the Treasury Department’s Financial Statements ................................................................. 29
    Limitations on the Principal Financial Statements ...................................................................................................................... 29
    Management Assurances ............................................................................................................................................................... 30
    Improper Payments ....................................................................................................................................................................... 33
    Audit Follow-up Program .............................................................................................................................................................. 33
Part 2: Annual Financial Report
    Message from the Assistant Secretary for Management and Chief Financial Officer ................................................................. 37
    Inspector General’s Transmittal Letter ......................................................................................................................................... 38
    Independent Auditors’ Report on the Department’s Financial Statements ................................................................................ 40
    Management’s Response to Independent Auditors’ Report.......................................................................................................... 51
    Financial Statements...................................................................................................................................................................... 52
    Notes to the Financial Statements................................................................................................................................................. 60
    Required Supplemental Information (Unaudited) .....................................................................................................................145

Part 3: Other Accompanying Information
    Appendix A: Other Accompanying Information (Unaudited)....................................................................................................152
    Appendix B: Improper Payments ................................................................................................................................................156
    Appendix C: Management and Performance Challenges and Responses..................................................................................162
    Appendix D: Material Weaknesses, Audit Follow-Up, and Financial Systems ........................................................................ 207
    Appendix E: Glossary of Acronyms .............................................................................................................................................214




                                                                                                 iii
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

MESSAGE FROM THE SECRETARY OF THE TREASURY
                                    During the last three years, President Obama has taken a series of tough but necessary steps
                                    to help break the back of an historic financial crisis and restart economic growth. Because of
                                    those actions, we are in a much better position as a nation, but we still face many challenges
                                    ahead.

                                    Although the economy is expanding, it is not growing fast enough. The private sector is
                                    creating jobs, but too many Americans are still out of work. The scars of the financial crisis
                                    were deep and it will take a consistent, determined effort to heal the damage that it caused to
                                    families and businesses across our nation. That is why President Obama is relentlessly
                                    focused on doing everything he can to strengthen growth and job creation – both right now
                                    and for the long term.

In September, the President put forward the American Jobs Act to Congress. This proposal includes a powerful package of tax
cuts and new investments that will help put more Americans back to work right away.

He is working with federal agencies – through a series of executive actions – to make it easier for Americans to refinance their
mortgages and lower the cost of their student loans, which will help put more money in the pockets of average families.

Importantly, he is also partnering those immediate steps to strengthen job creation with long-term reforms that provide more
certainty that we can sustain growth in the future.

The President is working to reduce our long-term deficits in a balanced way that protects health care and retirement security,
and creates room to invest in the areas we need to keep our economy competitive.

The President, the Treasury Department, and key regulatory agencies are putting in place financial reforms that will help ensure
businesses can access the capital they need to expand and create new jobs, and consumers are protected from fraud and abuse.

We are also continuing to work with our G-20 partners to promote sustainable and balanced global growth, achieve needed
financial reforms across the globe, and address fiscal pressures in Europe.

The Treasury Department has and will continue to work diligently in support of those efforts to strengthen job growth and
achieve the reforms necessary to secure our nation's economic future.

The Treasury Department again received an unqualified opinion on its consolidated financial statements, and we also received
another unqualified opinion on the financial statements of our Office of Financial Stability/Troubled Asset Relief Program.
Rather than providing a single Performance and Accountability Report for fiscal year 2011, we are producing separate financial
and performance reports. The Annual Performance Report will be included in the Congressional Budget Justification in
February 2012.

We have validated the accuracy, completeness, and reliability of the financial and performance data in this report. Maintaining
our commitment to continuous program and operational improvement, the Department also made progress in reducing
management control weaknesses and in efforts to achieve federal financial systems and control objectives.




Timothy F. Geithner
November 15, 2011
                                                                iv
5
U.S. Department of the Treasury | FY 2011




                                       6
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

INTRODUCTION                                                           billion in funds for community banks and community
                                                                       development loan funds to increase lending to small
In fiscal year 2011, Treasury continued to implement the
                                                                       businesses through the SBLF. In that same time, SSBCI
Dodd-Frank Wall Street Reform and Consumer Protection
                                                                       disbursed $474 million in funds that are expected to leverage
Act of 2010 (Dodd-Frank Act), wind down emergency
                                                                       approximately $4.7 billion in new small business lending.
financial stabilization programs that began in 2008 and 2009
in the wake of the financial crisis, and promote a better              In fiscal year 2011, the Internal Revenue Service (IRS)

environment for investment and job creation.                           received a record of more than 100 million electronic
                                                                       individual tax returns in a single season as a result of its
Pursuant to the Dodd-Frank Act, Treasury established the
                                                                       electronic filing programs. The IRS also continued to
Consumer Financial Protection Bureau (CFPB), the Financial
                                                                       increase the amount of tax information and services provided
Stability Oversight Council (FSOC), the Federal Insurance
                                                                       to taxpayers through IRS.gov, and received a “Best of the
Office (FIO), and the Office of Financial Research (OFR);
                                                                       Web” award for performance and quality.
accomplished the closure of the Office of Thrift Supervision
(OTS) and the integration of many of its functions into the            Treasury’s financial intelligence and enforcement activities

Office of the Comptroller of the Currency (OCC); and worked            had a significant impact in combating money laundering and

with other government agencies to develop new market                   terrorist financing in 2011. In response to recent unrest in

regulations and guidance. Over the past year, Treasury has             the Middle East and North Africa, the Department tracked

worked tirelessly with the new regulatory bodies and other             the assets of regimes that violently suppressed protestors and

agencies to strengthen safeguards for consumers and                    imposed sanctions on the Syrian and Libyan governments for

investors and to provide better tools for limiting risk in major       human rights violations. Treasury also collaborated with

financial institutions and financial markets.                          U.S. and Mexican counterparts to step up efforts to expose
                                                                       and disrupt Mexican cartels and their money laundering
Treasury achieved several major milestones during the third
                                                                       networks. In addition to these efforts, Treasury worked with
year of the Troubled Asset Relief Program (TARP). The
                                                                       its law enforcement and intelligence community partners to
program’s banking investments have resulted in a positive
                                                                       administer new sanction programs addressing Iran, North
return for taxpayers, and more than three-quarters of the
                                                                       Korea, Syria, Afghanistan, Somalia, and transnational
overall funds disbursed for TARP have been recovered. In
                                                                       organized crime groups.
2011, Treasury began selling its mortgage-backed security
portfolio acquired under the Housing and Economic                      Finally, Treasury continued to take steps to reduce costs to

Recovery Act. Although the housing market continues to                 taxpayers and operate the Department efficiently. In fiscal

face challenges, TARP’s initiatives to assist struggling               year 2011, the Bureau of the Public Debt ended the sale of

homeowners have provided more than 800,000 families with               paper payroll savings bonds and announced that the issuance

permanent mortgage modifications. Furthermore, Hardest                 of paper savings bonds sold over-the-counter at financial

Hit Fund initiatives have equipped states with the ability to          institutions would end by December 31, 2011. These actions,

tailor solutions to their unique housing challenges.                   combined with other continuing efforts to increase electronic
                                                                       transactions, are projected to create savings of more than
In September 2010, President Obama signed the Small
                                                                       $500 million and 12 million pounds of paper over the next
Business Jobs Act into law to provide critical resources to
                                                                       five years. In December 2010, Treasury published a
help small businesses continue to drive economic recovery
                                                                       regulation requiring all businesses with a deposit liability of
and create jobs. Treasury played an important role in
                                                                       $2,500 per quarter to pay taxes electronically through the
implementing the law by initiating two programs that
                                                                       Electronic Federal Tax Payment System. This initiative will
increase capital to small businesses: the Small Business
                                                                       eliminate the processing of approximately 20 million paper
Lending Fund (SBLF) and the State Small Business Credit
                                                                       coupons annually, and will result in fewer processing errors
Initiative (SSBCI). In fiscal year 2011, Treasury approved $4
                                                                       that could result in erroneous fines or penalties for taxpayers.

                                                                   3
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

ORGANIZATION                                                            international tax policy decisions. Tax Policy also provides
                                                                        revenue estimates for the President’s Budget.
The Department of the Treasury is the executive agency
responsible for promoting economic prosperity and ensuring              Treasurer of the United States has direct oversight over

the financial security of the United States. The Department is          the U.S. Mint and the Bureau of Engraving and Printing, and

organized into the Departmental Offices, eight operating                is a key liaison with the Federal Reserve. In addition, the

bureaus, and three inspectors general. The Departmental                 Treasurer serves as a senior advisor to the Secretary in the

Offices are primarily responsible for policy formulation,               areas of community development and public engagement.

while the bureaus are primarily the operating units of the              Community Development Financial Institutions
organization.                                                           (CDFI) Fund increases economic opportunity and promotes
                                                                        community development investments for underserved
DEPARTMENTAL OFFICES
                                                                        populations and in distressed communities in the United
Domestic Finance advises and assists in areas of domestic
                                                                        States.
finance, banking, and other related economic matters. In
addition, this office develops policies and guidance for                Other Offices
Treasury Department responsibilities in the areas of financial          Internally, the Departmental Offices are responsible for
institutions, federal debt finance, financial regulation, capital       overall management of the Department. The Office of
markets, financial management, fiscal policy, and cash
                                                                        Management and the Chief Financial Officer is responsible
management decisions. OFR and FIO, created under the
                                                                        for managing the Department’s financial resources and
Dodd-Frank Act, reside within Domestic Finance, as does the             oversees Treasury-wide programs, including human capital
Office of Financial Stability, which is responsible for                 information and technology, and minority and women
overseeing TARP programs.                                               inclusion.
International Affairs protects and supports U.S. economic
                                                                        Other support programs include General Counsel, Legislative
prosperity by strengthening the external environment for
                                                                        Affairs, and Public Affairs. Also, three inspectors general—
U.S. growth, preventing and mitigating global financial
                                                                        the Office of the Inspector General (OIG), the Treasury
instability, and managing key global challenges.                        Inspector General for Tax Administration (TIGTA), and the
Terrorism and Financial Intelligence (TFI) marshals                     Special Inspector General for the Troubled Asset Relief
the Department’s intelligence and enforcement functions                 Program (SIGTARP) — provide independent audits,
with the twin aims of safeguarding the financial system                 investigations, and oversight of the Department of the
against illicit use and combating intransigent regimes,                 Treasury and its programs. While SIGTARP is
terrorist facilitators, money launderers, drug kingpins, and            organizationally placed in Treasury, it is not under the
other national security threats.                                        general supervision of the Secretary.

Economic Policy reports on current and prospective                      BUREAUS
economic developments and assists in the determination of               Bureaus employ 98 percent of Treasury’s workforce and are
appropriate economic policies. The office is responsible for            responsible for carrying out specific operations assigned to
the review and analysis of domestic economic issues and                 the Department.
developments in the financial markets.
                                                                        The Alcohol and Tobacco Tax and Trade Bureau
Tax Policy develops and implements tax policies and                     (TTB) collects federal excise taxes on alcohol, tobacco,
programs, reviews regulations and rulings to administer the             firearms, and ammunition and assures compliance with
Internal Revenue Code, negotiates tax treaties, and provides            tobacco permitting and alcohol permitting, labeling, and
economic and legal policy analysis for domestic and                     marketing requirements to protect consumers.



                                                                    4
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

The Bureau of Engraving and Printing (BEP) designs                   compliance with consumer laws. OTS was closed on July 21,
and manufactures high quality currency notes and other               2011, and its responsibilities were distributed to a number of
financial documents that deter counterfeiting and meet               other regulatory bodies, including OCC, FDIC, and the
customer requirements for quality, quantity, and                     Federal Reserve.
performance.

The Bureau of the Public Debt (BPD) borrows the
money needed to operate the Federal Government through
the sale of marketable, savings, and special purpose U.S.
Treasury securities. In addition, it accounts for and services
the public debt and provides reimbursable administrative
support services to federal agencies.

The Financial Crimes Enforcement Network
(FinCEN) safeguards the financial system from the abuses
of financial crime, including terrorist financing, money
laundering, and other illicit activity.

The Financial Management Service (FMS) provides
central payment services to federal program agencies,
operates the Federal Government’s collections and deposit
systems, provides government-wide accounting and
reporting services, and manages the collection of delinquent
debt owed to the U.S. Government.

The Internal Revenue Service (IRS) is the largest of the
Department’s bureaus and determines, assesses, and collects
tax revenue for the Federal Government.

The United States Mint designs, produces, and issues
circulating and bullion coins, numismatic coins and other
items, Congressional gold medals, and other medals of
national significance. The United States Mint maintains
physical custody and protection of most of the nation’s gold
and all of its silver.

The Office of the Comptroller of the Currency (OCC)
charters, regulates, and supervises national banks and federal
savings associations to ensure compliance with consumer
laws and regulations and a safe, sound, and competitive
banking system that supports citizens, communities, and the
economy.

The Office of Thrift Supervision (OTS) chartered,
examined, supervised, and regulated federal and state-
chartered savings associations and their holding companies
in order to maintain each thrift’s safety and soundness and


                                                                 5
                                    U.S. Department of the Treasury | Fiscal Year 2011

THE DEPARTMENT OF THE TREASURY ORGANIZATIONAL CHART




                                6
                                                                               U.S. Department of the Treasury | Fiscal Year 2011

        TREASURY’S FISCAL YEARS 2007-2012 STRATEGIC FRAMEWORK
        The Treasury’s Strategic Framework is a summary of the Department’s goals and objectives. This framework provides the basis
        for performance planning and continuous improvement.


                      Strategic Goals                   Strategic Objectives                             Outcomes

             Goal 1: Effectively Managed U.S.     Cash Resources are available to     • Revenue collected when due through a fair
             Government Finances                  operate the government                and uniform application of the law

                                                                                      • Timely and accurate payments at the lowest
                                                                                        possible cost
Financial




                                                                                      • Government financing at the lowest possible
                                                                                        cost over time

                                                                                      • Effective cash management
                                                                                      • Accurate, timely, useful, transparent and
                                                                                        accessible financial information

             Goal 2: U.S. and World Economies     Improved economic                   • Strong U.S. economic competitiveness
             Perform at Full Economic Potential   opportunity, mobility and
                                                                                      • Competitive capital markets
                                                  security with robust, real,
                                                  sustainable economic growth at      • Free trade and investment
Economic




                                                  home and abroad
                                                                                      • Prevented and mitigated financial and
                                                  Trust and Confidence in U.S.          economic crises
                                                  currency worldwide
                                                                                      • Decreased gap in global standard of living

                                                                                      • Commerce enabled through safe, secure U.S.
                                                                                        notes and coins


             Goal 3: Prevented Terrorism and      Pre-empted and neutralized          • Removed or reduced threats to national
             Promoted the Nation’s Security       threats to the international          security from terrorism, proliferation of
             Through Strengthened International   financial system and enhanced         weapons of mass destruction, drug trafficking
Security




             Financial Systems                    U.S. national security                and other criminal activity on the part of
                                                                                        rogue regimes, individuals, and their support
                                                                                        networks
                                                                                      • Safer and more transparent U.S. and
                                                                                        international financial system

             Goal 4: Management and               Enabled and Effective Treasury      • A citizen-centered, results-oriented and
Management




             Organizational Excellence            Department                            strategically aligned organization

                                                                                      • Exceptional accountability and transparency




                                                                       7
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

TREASURY’S FISCAL YEAR 2010-2011
PRIORITY PERFORMANCE GOALS
In 2010, the Department established three Agency Priority           investors, improved underwriting standards, and other
goals to support improvements in near-term outcomes                 critical measures.
related to the strategic plan. Treasury made significant
progress on these goals in 2011.

GOAL #1: REPAIR AND REFORM THE
FINANCIAL SYSTEM
KEY STRATEGIES:

  •   Implement strong, comprehensive regulatory reform

  •   Restore stability and accountability to the financial
      system

  •   Manage and exit emergency financial crisis intervention       Figure 1
      programs

  •   Support recovery in the housing market and reduce
                                                                    GOAL #2: INCREASE VOLUNTARY TAX
      avoidable foreclosures                                        COMPLIANCE
  • Devise long-term, solutions for our nation's system of          KEY STRATEGIES:
    housing finance
                                                                      •    Simplify the tax code by providing and improving
In fiscal year 2011, the Department coordinated with the                   taxpayer services to enable taxpayers to understand and
appropriate regulators to implement additional protections                 meet their tax obligations
passed in the Dodd-Frank Act, including writing new rules             • Provide and improve enforcement to ensure that all
that create heightened standards for non-bank financial firms           businesses and individuals pay the tax they owe
if their material financial distress could threaten financial       A voluntary compliance tax system requires effective services
stability; improve alignment of interests between mortgage          so that taxpayers understand and meet their tax obligations.
originators, securitizers, and investors; and restrict banks’       It also requires effective enforcement to ensure that all
speculative activity.                                               businesses and individuals pay the tax that they owe. During
The financial recovery bank programs under the investment           fiscal year 2011, the IRS continued to develop and improve on
portion of the TARP have provided a substantial positive            products and services such as updating forms to help
return to the taxpayer. Moving forward, Treasury is working         taxpayers comply with filing requirements, converting forms
to exit the remaining investments and continue recovering           for visually impaired taxpayers, translating more tax
tax payer dollars. Figure 1 depicts the income received from        products into multilingual forms, reducing taxpayer
the TARP investments since June 2009.                               telephone wait time, expanding information on IRS.gov and
                                                                    social media sites, and working with banks so that taxpayers
In February 2011, Treasury delivered a report to Congress
                                                                    without bank accounts could receive refunds on prepaid debit
that provides a path forward for reforming America’s housing
                                                                    cards in the 2011 filing season.
finance market. The Administration’s plan would wind down
Fannie Mae and Freddie Mac and shrink the government's              In the 2011 filing season, the IRS processed more than 100
current footprint in housing finance on a responsible               million individual tax returns electronically and completed
timeline. The plan also recommended reforms to continue             76.5 million phone calls through its live assistors and
fixing the fundamental flaws in the mortgage market through         automated prompts and partnered with state taxing
stronger consumer protection, increased transparency for            authorities, volunteer groups, and other organizations to


                                                                8
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

enhance taxpayer outreach and education. The IRS and its              Recognizing that paper processes are often slow, inaccurate,
partners continued to provide free tax assistance to the              expensive, and wasteful, Treasury continues to reduce paper
elderly, disabled, and limited English proficient individuals         transactions with the public. The Secretary approved several
and families at Volunteer Income Tax Assistance and Tax               initiatives to move toward electronic transactions: electronic
Counseling for the Elderly sites. These two programs, along           payroll savings bonds, electronic payments to federal
with the IRS walk-in sites at the Taxpayer Assistance Centers         beneficiaries, and electronic tax collections. Treasury’s
(TACs), helped more than five million taxpayers complete              initiative to increase the number of paperless transactions it
their tax returns.                                                    conducts with the public is expected to save more than $500
                                                                      million and 12 million pounds of paper over its first five years
IRS enforcement activities, such as examination and
                                                                      alone. These efforts also contribute to the Department's
collection, continued to remain a high priority. The IRS also
                                                                      environmental sustainability.
expanded its enforcement presence in the international field,
continued to pursue high net-worth noncompliant taxpayers,            In fiscal year 2011, Treasury implemented many of the
and initiated action to better leverage the tax return preparer       planned changes to reduce paper-based transactions.
community. During fiscal year 2011, as part of an overall             Treasury ended the issuance of all paper payroll savings
strategy to improve offshore compliance, the IRS opened a             bonds in January 2011, and announced that the issuance of
second Offshore Voluntary Disclosure Program to encourage             paper savings bonds sold over-the-counter at financial
taxpayers with hidden offshore assets and income to                   institutions would end by December 31, 2011. In 2011, the
voluntarily disclose. The program resulted in approximately           IRS expanded its electronic filing program to allow
30,000 voluntary disclosures and resulted in approximately            businesses to pay taxes electronically. The Department also
$2.2 billion in additional tax, interest, and penalties.              made progress moving to electronic payments, by requiring
                                                                      all new recipients of benefit payments to receive their
                                                                      payments electronically starting May 1, 2011. Treasury will
                                                                      continue to make progress toward electronic transactions and
                                                                      find opportunities to reduce costs, improve efficiency, and
                                                                      operate sustainably.




Figure 2


GOAL #3: SIGNIFICANTLY INCREASE THE
NUMBER OF PAPERLESS TRANSACTIONS
WITH THE PUBLIC
KEY STRATEGIES:                                                       Figure 3

  •   Improve effectiveness and efficiency through greater
      use of electronic processing of documents including
      payments, collections, saving bonds transactions, and
      e-file tax returns

  • Contribute to the Department’s environmental
    sustainability



                                                                  9
                                                                            U.S. Department of the Treasury | Fiscal Year 2011

FISCAL YEAR 2011 PERFORMANCE BY STRATEGIC GOAL
EFFECTIVELY MANAGED U.S.                                                •    An Interactive Tax Law Assistant (ITA) application on

GOVERNMENT FINANCES                                                          IRS.gov. ITA is an interactive online probe and response
                                                                             tool that, through a series of interview questions,
The Treasury Department manages the nation’s finances by
                                                                             provides users with answers to frequently asked
collecting money due to the United States, making its
                                                                             questions
payments, managing its borrowing, investing when
appropriate, and performing central accounting functions.               •    Expanded transcript capability providing taxpayers with
Sound financial management practices allow the government                    three easy and convenient options for getting copies of
to meet its financial obligations while minimizing borrowing                 their tax return information, by phone, by mail, or online
costs. In pursuit of its strategic goal, Treasury led the                    through a new web application on IRS.gov. Over 1.96
Administration’s efforts to create a tax system that is simpler,             million taxpayers ordered transcripts in fiscal year 2011.
fairer, and more robust. Additionally, the Department                        In addition to this, the IRS Expanded e-signature pilots
continued initiatives to improve efficiency and lower the cost               that allow taxpayers to use electronic signature pads and
of operating the Federal Government.                                         tablets instead of ink signatures for e-file, reporting
                                                                             agent authorizations, and requests for tax return
DEVELOPED COMPREHENSIVE TAX PROPOSALS TO
                                                                             transcripts
SIMPLIFY THE TAX CODE
The Department accomplished its fiscal year 2011 tax reform             •    Expanded Paper Check Conversion to all 401 TACs,
and simplification objectives through the legislative,                       allowing paper checks to be converted to electronic
regulatory, and policy efforts of the Office of Tax Policy. In               transactions. The conversion improves the payment
2011, Treasury released guidance on over a dozen tax                         process expediting resolution to taxpayer account issues.
provisions of the Affordable Care Act (ACA), including tax                   In fiscal year 2011, 3.6 million remittances were
credits, revenue provisions, and (in collaboration with the                  processed for more than $7.8 billion
Departments of Health and Human Services (HHS) and
                                                                        •    Collaborated with US Bank (the Health Coverage Tax
Labor) insurance market reforms incorporated into the Tax
                                                                             Credit (HCTC) check payment processing vendor) to
Code. One of the more significant projects was a proposed
                                                                             launch the HCTC e-Payment Processing System to
regulation on the refundable premium tax credit created by
                                                                             provide taxpayers the ability to make their payments
Code Sec. 36B, which is a centerpiece of the ACA’s goal of
                                                                             electronically
expanding health insurance coverage. The ACA will continue
to be a heavy focus in fiscal years 2012 and 2013, including            The IRS electronic filing program is one of the most
the release of additional guidance to implement the ACA’s               successful modernization programs in government, offering
core coverage provisions.                                               an efficient and secure way for taxpayers to file more accurate
                                                                        returns and get their refunds more quickly. In fiscal year
SIMPLIFIED TAX ADMINISTRATION
                                                                        2011, the IRS received more than 100 million electronic
To enforce the law and ensure everyone meets his or her                 individual tax returns in a single filing season and passed the
obligation to pay taxes, the IRS strives to improve its                 one billion mark for individual tax returns processed since
products and services to make voluntary compliance easier.              the program began in 1986. The IRS also met its
In fiscal year 2011, the IRS expanded the number of                     performance targets for both individual and business returns
automated products and services to increase tax compliance,             processed electronically.
simplify tax administration, and reduce taxpayer burden to
                                                                        The IRS continued efforts to improve the clarity, accuracy,
include:
                                                                        and effectiveness of correspondence sent to taxpayers who
                                                                        have account issues. In fiscal year 2011, the IRS had 104

                                                                   10
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

redesigned/new notices in production along with                         annual transactions totaling $23 trillion. The Department’s
corresponding webpage information to reinforce the notice,              Office of Fiscal Projections (OFP) provides forecasts of
answer common questions, and provide tips to help                       federal receipts, outlays, and debt transactions to ensure that
taxpayers meet their tax obligations. The revised                       funds are available on a daily basis to cover federal payments.
correspondence includes collection notices in plain language            By increasing the accuracy of fiscal projections, the
to help taxpayers more clearly understand the collection                Department is able to minimize borrowing costs, which has a
process and available payment options. For high-volume                  direct and material impact on the government’s net operating
notices, the IRS included links for translation of the notice           cost.
into five languages (Spanish, Chinese, Korean, Vietnamese,
                                                                        To analyze the effectiveness of the cash management
and Russian). The redesigned notices represent 72 percent in
                                                                        techniques employed, the Department measures the variance
volume of more than 220 million notices sent each year. In
                                                                        between actual and projected receipts. Notwithstanding
recognition of this redesign work, the IRS received the 2011
                                                                        economic uncertainties and legislative changes, the forecasts
grand prize ClearMark award from the Center for Plain
                                                                        for fiscal year 2011 were better than those for fiscal year
Language, which honors the documents and websites that
                                                                        2010. The estimated variance for fiscal year 2011 was 4.5
best succeed in clear communication.
                                                                        percent, lower than the 5.0 percent target for fiscal year 2011
The IRS increased the use of communications with taxpayers              and the 5.8 percent actual variance in fiscal year 2010. Fiscal
who may not get their information from traditional sources,             year 2011 was a challenging year to forecast due to legislative
such as newspapers and broadcast and cable news. By                     changes and lingering uncertainty concerning the pace of the
employing social media such as YouTube, Twitter, and                    economic recovery.
iTunes, the IRS reaches these taxpayers with important
                                                                        The economic downturn and subsequent recovery in fiscal
service and compliance messages. In January 2011, the IRS
                                                                        years 2010 and 2011, along with the government's policy
unveiled IRS2Go, its first smartphone application that lets
                                                                        response to these events, had a significant impact on federal
taxpayers check the status of their tax refunds, subscribe to
                                                                        revenues and on the ability to forecast federal tax receipts.
tax season updates, and follow IRS news through a Twitter
                                                                        Key economic factors such as Gross Domestic Product (GDP)
feed. There were more than 360,000 downloads of IRS2Go
                                                                        and employment did not improve as much as expected.
since January 2011. Communicating using these new
                                                                        However, final individual tax payments in April came in well
technologies reflects the IRS commitment to modernizing the
                                                                        above forecast, as liability for tax year 2010 was much greater
agency and engaging taxpayers where and when they want
                                                                        than expected. Estimates of corporate profitability and the
and increasing their rate of self-assistance. Ultimately,
                                                                        impact of corporate tax legislation made corporate tax
providing more self-assistance methods to customers will
                                                                        receipts difficult to forecast.
also reduce demand on more expensive customer services,
such as staffing IRS phones and correspondence.                         IMPROVED GOVERNMENT-WIDE FINANCIAL
                                                                        MANAGEMENT
In concert with the greater use of self-assistance methods of
                                                                        Following the June 2010 Presidential Memorandum
information, the IRS answered almost 2.5 million fewer
                                                                        “Enhancing Payment Accuracy Through a "Do Not Pay List",
assistor calls in fiscal year 2011 compared to fiscal year 2010.
                                                                        BPD, the Office of Fiscal Policy, and the Office of
However, in the past couple of years, the IRS has faced
                                                                        Management and Budget are collaborating to implement this
unprecedented demand for toll-free services as a result of the
                                                                        initiative. Now branded the GOVerify Business Center, this
economic downturn, new legislation, and other events.
                                                                        project will include the GOVerify Portal, Business Center, and
PRACTICED EFFECTIVE CASH MANAGEMENT AND                                 Customer Call Center. In fiscal year 2011, BPD established
FORECASTING                                                             agreements with select Federal Reserve Banks to help
The Department of the Treasury manages the Government’s                 implement the program, conducted customer outreach,
central operating account and cash position to support gross
                                                                   11
                                                                             U.S. Department of the Treasury | Fiscal Year 2011

obtained five data sources, and proposed legislative changes
                                                                           U.S. AND WORLD ECONOMIES PERFORM
in support of the GOVerify Portal.
                                                                           AT FULL ECONOMIC POTENTIAL
The Office of Financial Innovation and Transformation                      The Treasury Department develops, coordinates, and
(OFIT) was created to develop and share government-wide                    enforces the economic and financial policies that enable
financial solutions to lower overall financial transaction                 sustained development at home and abroad. In fiscal year
processing costs, facilitate the resolution of audit issues, and           2011, Treasury programs to help strengthen and reform the
increase transparency of financial information. In OFIT’s                  financial system made substantial progress. TARP’s bank
first year of operation, the team identified key initiatives that          programs have provided a substantial positive return to the
could be implemented over the next five years to collectively              taxpayer. Treasury also continued to work in cooperation
deliver $1-2 billion in annual savings upon full adoption by               with the Federal Housing Finance Agency (FHFA) to support
the Federal Government. OFIT developed an approach that                    the housing market and protect the taxpayers’ investment in
will move these initiatives forward by pursuing a three                    the Government Sponsored Enterprises (GSEs).
pronged financial management strategy that deploys
                                                                           The Department also focused on spurring economic growth
common technology solutions, expands the use of shared
                                                                           for local communities and American small businesses
transactional service, and launches key enablers.
                                                                           through initiatives designed to provide funding for projects
OFIT developed, in cooperation with other federal entities                 that would encourage job creation and further investment.
and FMS, business cases and project plans to launch two of                 Achieving domestic goals is not possible without
the twelve key initiatives, including a portal for the electronic          coordination with our international partners. On the global
submission of vendor invoices and an automated way to                      stage, Treasury collaborated with key partners to ensure
settle intra-governmental transaction disputes. Additionally,              American economic competitiveness and prosperity through
OFIT developed data standards to support electronic                        stabilization of financial systems abroad and support of open
invoicing. The adoption of electronic invoicing capabilities               trade and investment policies.
across the Federal government will reduce the cost by as
                                                                           PROFITABLY MANAGED THE TROUBLED ASSET
much as 50 percent or $450 million annually.
                                                                           RELIEF PROGRAM
MOVING FORWARD                                                             In the fall of 2008, the nation was in the midst of the worst
The IRS will continue to take actions to increase the rate of              financial crisis since the Great Depression. The U.S. financial
electronic filing of tax returns by individuals and businesses.            system and economy were on the verge of catastrophic
While providing alternatives to telephone customer service                 collapse. The Emergency Economic Stabilization Act of
will continue to be a high priority, the IRS will continue to              2008 was enacted into law to create TARP, under which the
properly staff all toll-free sites in order to achieve future level        Department of the Treasury took a variety of actions to
of service targets and ensure effective taxpayer                           stabilize the financial system and prevent a possible second
communication.                                                             Great Depression. The authority to make new commitments
                                                                           to invest funds under TARP expired on October 3, 2010.
Treasury anticipates that forecasting government receipts
                                                                           Treasury is moving quickly to recover the Federal
and outlays in fiscal year 2012 will continue to be challenging
                                                                           Government’s investments in a manner consistent with the
given potential changes legislative changes by Congress and
                                                                           duty to promote financial stability and protect taxpayers’
the difficulty in forecasting the strength of the economy. As
                                                                           interests.
part of its effort to continually improve its forecasts, the
Department will work to update and modify existing models                  Several major developments occurred in fiscal year 2011. On
and monitor new initiatives.                                               March 30, Treasury announced that TARP’s bank programs
                                                                           officially turned a profit. Moving forward, Treasury is
                                                                           working to exit the remaining investments and continue

                                                                      12
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

recovering taxpayer dollars. Ultimately, Treasury expects             housing finance system. In February 2011, the Treasury
that TARP’s bank programs will produce a lifetime profit of           Department and the Department of Housing and Urban
more than $20 billion. In May 2011, Chrysler repaid the               Development released a report, “Reforming America’s
remainder of its TARP loans, a full six years ahead of                Housing Finance Market,” that offered a new framework for
schedule. Treasury has now exited from its investment with            housing finance. The report reflected Treasury’s view that
Chrysler at a smaller loss than initially expected.                   private capital should provide the dominant share of
Additionally, the American International Group (AIG)                  mortgage credit, and Fannie Mae and Freddie Mac should be
completed a major restructuring plan, marking a major                 wound down commensurate with the health of the housing
milestone in the company’s remarkable turnaround and                  market and the economy. The report concluded that
putting taxpayers in a better position to recover their               government should have three core responsibilities in the
investment in AIG.                                                    housing finance market: consumer protection and robust
                                                                      supervision, targeted assistance for low and medium income
As of September 30, 2011, TARP has a total estimated cost of
                                                                      homeowners and renters, and maintaining the ability to
$70.2 billion, a fraction of the original $700 billion amount
                                                                      provide market stability in the event of a crisis.
originally authorized by Congress. Most of the program’s
expected costs result from assistance provided to struggling          Treasury is also working with FHFA on new options for
homeowners and the automobile industry.                               selling single-family real estate owned properties held by
                                                                      Fannie Mae and Freddie Mac, and the Federal Housing
WORKED TO STABILIZE THE HOUSING MARKET
                                                                      Administration, as well as changes to the Home Affordable
In the face of the worst housing crisis in a generation,
                                                                      Refinance Program (HARP) that would help allow more
Treasury played an important role in the government’s
                                                                      Americans to refinance their mortgages at today’s historically
programs to prevent avoidable foreclosures and support the
                                                                      low rates.
continued repair of the housing market in fiscal year 2011.
                                                                      MANAGED SENIOR PREFERRED STOCK PURCHASE
Under Treasury’s Home Affordable Modification Program                 AGREEMENTS
(HAMP), one of several critical homeownership assistance
                                                                      The Housing and Economic Recovery Act of 2008 (HERA)
programs under the Making Home Affordable initiative, over
                                                                      authorized the Department to purchase obligations and other
800,000 families received permanent mortgage
                                                                      securities issued by Fannie Mae, Freddie Mac or one of the 12
modifications. By setting affordability standard procedures
                                                                      Federal Home Loan Banks. At the time the Federal Housing
and providing a framework for homeowner assistance that
                                                                      Finance Agency (FHFA) placed Fannie Mae and Freddie Mac
the private sector can follow, HAMP has also driven industry
                                                                      into conservatorship in September 2008, Treasury
improvements that resulted in two million additional
                                                                      established Senior Preferred Stock Purchase Agreements
modifications outside the program. Treasury continues to
                                                                      (SPSPAs) to ensure that each firm maintained a positive net
refine and strengthen the Department’s housing programs
                                                                      worth. The maximum amount available to each GSE under
and is taking additional steps to help ensure Americans are
                                                                      this agreement is currently based on a formulaic cap that
better served by their mortgage companies. These steps
                                                                      allows continued draws for three years ending December
include publishing a compliance scorecard for each of the 10
                                                                      2012 at amounts that will automatically adjust upwards
largest HAMP servicers and requiring all Making Home
                                                                      quarterly by the cumulative amount of any losses realized by
Affordable-participating servicers to assign a single point of
                                                                      either GSE and downward by the cumulative amount of any
contact to each homeowner requesting a HAMP modification.
                                                                      gains, but not below $200 billion, and will become fixed at
Another key housing priority for the Department in fiscal             the end of the three years. At the conclusion of the three-year
year 2011 was comprehensive housing finance reform. In                period, the remaining commitment will then be fully
February, the Administration laid out a plan to wind down             available to be drawn per the terms of the agreements. As of
Fannie Mae and Freddie Mac and reform the nation’s                    September 30, 2011 and 2010, the Department’s gross

                                                                 13
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

investment in Fannie Mae and Freddie Mac were $169.0                    Under the Dodd-Frank Act, the Secretary of the Treasury has
billion and $148.2 billion, respectively.                               responsibility for standing up the CFPB and performing
                                                                        certain functions until a CFPB Director is in place. The CFPB
The U.S. Government’s investment in and support of the
                                                                        was established on July 21, 2010, to make the market for
GSEs through the SPSPAs was structured in such a way that
                                                                        consumer financial products and services work for American
ensures virtually all profits in the company revert to the
                                                                        consumers, responsible providers, and the economy as a
Government in the form of dividends on the preferred shares
                                                                        whole. The CFPB has rulemaking, supervisory, enforcement,
in Fannie Mae and Freddie Mac. To get a true picture of the
                                                                        and other authorities relating to consumer financial products
Government’s exposure in the companies, it is critical to
                                                                        and services. Many of these authorities transferred from
factor in those dividends and net them against the draws that
                                                                        seven other federal agencies to the CFPB on July 21, 2011.
the GSEs make from Treasury. For instance, for fiscal year
2011, while the GSEs had $20.8 billion in gross draws, this             Dodd-Frank also established the OFR within the Treasury
was before accounting for $15.6 billion in dividends paid               Department to provide data and analysis to the FSOC and its
back to Treasury, resulting in a net draw of $5.2 billion. As of        member agencies. OFR is working to improve the quality
September 30, 2011 and 2010, the Department’s net cost for              and transparency of financial information, conduct and
financial support provided to the GSEs under the SPSPAs                 sponsor research related to financial stability, and promote
after accounting for those dividends were $136.9 billion and            best practices in risk management. In fiscal year 2011, the
$131.7 billion, respectively.                                           OFR focused on the initial implementation of its institutional
                                                                        infrastructure and on the initial delivery of data and
Freddie Mac is projected to have positive net operating
                                                                        research-related services to FSOC.
income starting in the fiscal year 2012 and Fannie Mae is
project to have positive net operating income starting in fiscal        In its first year of operation, the FSOC met nine times.
year 2013. However, over time their net income will be                  Throughout these meetings, the Council worked to establish
inadequate to cover the senior preferred dividend payments              its institutional framework, adopted rules of operation,
due to Treasury based on the balance of preferred stock                 released proposed regulations establishing procedures under
outstanding and the accretion of the balance due to                     the Freedom of Information Act, and adopted a transparency
incremental draws over time to fund further dividends. The              policy. Throughout the year, the Council drafted several
projections take into account that the GSEs will be gradually           studies and reports required by the Dodd-Frank Act. On
winding down their retained mortgage portfolios to the $250             January 18, 2011, the Council released studies on
billion cap specified in the SPSPAs and assume modest price             implementation of the Volcker Rule, concentration limits, the
increases on the single family guarantee business                       economic impact of Dodd-Frank, and risk retention
implemented gradually over time after 2013. As noted above,             requirements for asset-backed securities. On July 18, 2011,
liabilities for gross draws under the SPSPAs do not represent           the Council released a report which outlined how various
the true net cost to taxpayers – since they do not include              secured creditors are treated in existing resolution regimes
dividends paid to taxpayers on the preferred shares.                    and examined whether limiting the amount a secured
                                                                        creditor receives after a default would be an effective means
IMPLEMENTED REGULATORY REFORM
                                                                        of improving market discipline and protecting U.S. taxpayers.
Treasury helped to coordinate the rulemaking process to
implement the comprehensive reforms to the financial                    The Dodd-Frank bill established the FIO within the

system passed by Congress last year in the Dodd-Frank Act,              Department of the Treasury. The FIO is tasked with

including stronger protections for consumers and tougher                monitoring the insurance industry for gaps in regulations,

limits on risk-taking by banks. These reforms will help make            providing guidance and recommendations to FSOC regarding
the financial system more secure and better protect the                 insurers which may pose a systemic risk to the insurance or

American taxpayer.                                                      financial systems, monitoring the extent to which
                                                                        underserved communities have access to affordable

                                                                   14
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

insurance, consulting with state regulators on issues of              that it managed programs that have or will contribute
national importance, and managing the Terrorism Risk                  approximately $150 billion in direct relief to the American
Insurance Program (TRIP). The FIO also provided expert                people.
analysis on a number of studies relating to the
                                                                      Treasury continued to manage several Recovery Act
implementation of Dodd-Frank, including the Volcker Rule
                                                                      programs in fiscal year 2011, including several bond
and orderly liquidation authority rule writing. The FIO staff
                                                                      programs and grants in lieu of tax credit programs. Some of
also participated in the FSOC insurance working group.
                                                                      the programs expired on December 31, 2010, while others
In fiscal year 2011, Treasury created the FIO Advisory                operate under authority that has continued.
Committee which will be tasked to provide expertise and
                                                                      Build America Bonds were taxable municipal bonds that
guidance to the head of the FIO. Almost half of the
                                                                      provided special tax credits and federal subsidies for either
committee’s membership has been filled by state insurance
                                                                      the bond issuer or the bondholder. Through the life of the
regulators because of the importance of developing an
                                                                      program until its expiration on December 31, 2010, Build
understanding of how states regulate their insurance
                                                                      America Bonds were an important source of financing to help
industries. The remaining spots on the committee are filled
                                                                      state and local governments undertake much-needed
by industry experts in a wide range of specialties (casualty,
                                                                      infrastructure projects. State and local governments issued
life insurance, etc.), academics, and consumer advocates.
                                                                      more than $181 billion of Build America Bonds and saved
Title III of the Dodd-Frank Act was designed to streamline            billions of dollars in financing costs as a result of the
banking regulation and to decrease overlap between various            program. Market reception for Build America Bonds was
regulators. In furtherance of this goal, the Act abolished the        very positive; during the program, Build America Bonds
Office of Thrift Supervision (OTS) and dispersed its powers           constituted about 21 percent of the municipal bonds market.
among a number of other regulatory bodies, most notably the           There was a total of 2,275 separate issues of Build America
OCC, FDIC, and Federal Reserve. On July 21, 2011, the OCC             Bonds by local or state governments in all 50 states, the
assumed responsibility for the supervision of 642 federal             District of Columbia, and two territories.
savings associations, as well as rulemaking authority for all
                                                                      The Recovery Act also provided the option for state housing
savings associations. The OCC and OTS management teams
                                                                      credit agencies to receive cash payments instead of tax
worked closely together to ensure a smooth transition of
                                                                      credits. This program also expired on December 31, 2010.
these functions.
                                                                      Through the end of fiscal year 2011, 55 state housing agencies
Treasury continued to coordinate with various regulatory              applied for funds, and $5.6 billion in awards were made to
agencies to improve accountability and transparency to                those agencies. State agencies used these funds to finance
protect borrowers, taxpayers, the housing finance market,             1,496 affordable housing projects that will add 86,230 units
and the broader economy. Treasury’s priorities include                of affordable housing and create approximately 116,405 jobs.
instituting stronger mortgage underwriting standards,
                                                                      The Recovery Act provided a total of $22.4 billion in new
requiring risk retention throughout the securitization chain,
                                                                      issuing authority for Qualified School Construction Bonds
and mandating higher capital standards for banks and
                                                                      (QSCBs), which provide federal tax credits to investors in
financial institutions involved in housing finance.
                                                                      school construction projects that are designed to cover 100
SUCCESSFULLY MANAGED THE RECOVERY ACT                                 percent of the interest payments for the project. From 2009

The Department of the Treasury played a pivotal role in               through the end of fiscal year 2011, there were 943 issuances

implementing the Recovery Act in fiscal years 2009 and                of QSCBs, raising approximately $13.5 billion in financing.

2010. In fiscal year 2011, the Treasury managed the                   The Recovery Act provided a maximum of $3.2 billion for
transition of most Recovery Act programs to the compliance,           Qualified Energy Conservation Bonds, which provide a
oversight, and monitoring phase. The Department estimated             subsidy for energy conservation-oriented repair and

                                                                 15
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

rehabilitation to public power providers, government bodies,          The New Markets Tax Credit Program, which provides tax
and cooperative electric companies through a federal tax              credit allocation authority to Community Development
credit to investors which covers 70 percent of the interest on        Entities for targeted investments in LICs, competitively
the bonds. The Treasury Department allocated this bond                awarded $3.5 billion based on 2010 tax credit allocation
authority among the states pursuant to a population-based             authority. Allocatees estimate the funds will create 67,744
statutory formula for further local allocation and use for            jobs, including 37,669 construction-related jobs. The Capital
projects within the states.                                           Magnet Fund (CMF) provided $80 million in competitively
                                                                      awarded grants to 23 CDFIs and qualified nonprofit housing
In fiscal year 2011, $2.4 billion was allocated for Clean
                                                                      organizations serving 38 states. CMF awards can be used to
Renewable Energy Bonds in the Recovery Act. Clean
                                                                      finance affordable housing activities as well as related
Renewable Energy Bonds provide a federal tax credit to
                                                                      economic development activities and community service
investors of clean, renewable energy capital projects that
                                                                      facilities.
cover 70 percent of the interest on the bonds. The Treasury
Department allocated nearly $3 billion of this bond authority         Strengthening America’s Small Businesses
to applicants for 818 projects.                                       Since the enactment of the Small Business Jobs Act on
                                                                      September 27, 2010, the SBLF has initiated and executed a
Treasury provided awards to support investment in
                                                                      billion-dollar national program. Overall, Treasury approved
renewable energy projects under the Recovery Act Section
                                                                      funding for 332 institutions totaling more than $4.0 billion.
1603 program (extended for one year by Section 707 of the
Tax Relief, Unemployment Insurance Reauthorization, and               All closings were completed by September 27, 2011.

Job Creation Act of 2010). Through the end of fiscal year             The State Small Business Credit Initiative (SSBCI) was
2011, the Department awarded $9.1 billion under the                   established in September 2010 to provide $1.5 billion in
program to support nearly 20,500 projects. These projects             federal funds to support state programs that provide
are located in every state and the District of Columbia and           financing to small businesses and small manufacturers. In
have added over 13.6 gigawatts of renewable energy                    fiscal year 2011, SSBCI received applications from eligible
generation capacity in the United States.                             applicants from all 50 states, territories, and the District of
                                                                      Columbia. To date, 46 states and the District of Columbia
ENABLED DOMESTIC ECONOMIC GROWTH
                                                                      have been approved for nearly $1.3 billion in SSBCI funds
Supporting Distressed Communities
                                                                      that is expected to leverage almost $13 billion in new small
In fiscal year 2011, the CDFI Fund’s core program awarded             business lending.
$167.3 million in funding to 167 CDFIs to provide loans,
investments, financial services, and technical assistance to
                                                                      ENCOURAGED INTERNATIONAL ECONOMIC GROWTH
                                                                      AND STABILITY
underserved populations and low-income communities
(LICs). The CDFI Program awardees provided funds for                  Promoting Free Trade and Investment

projects that created or maintained 25,199 jobs and leveraged         The Department works with other agencies to implement
$1.5 billion in private investment. In addition, the Native           U.S. trade laws and policy, enforce international trade rules
American CDFI Assistance Program awarded $11.85 million               and agreements to reduce and eliminate foreign trade
in financial and technical assistance to 35 Native CDFIs and          barriers, and to create jobs and protect U.S. companies and
other Native entities seeking to become or create Native              workers consistent with our international agreements. In
CDFIs. The Bank Enterprise Award Program, which provides              fiscal year 2011, Treasury was involved in over 80 specific
monetary awards to CDFIs and banks for increasing their               trade actions, including initiation of trade disputes, review of
investments in LICs, received 82 eligible applications                country eligibility for preference programs, intellectual
requesting a total of approximately $78 million.                      property enforcement, and review of specific trade petitions
                                                                      and recommendations. Treasury is particularly engaged with
                                                                      other agencies in the implementation of trading rules as they
                                                                 16
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

affect financial services, including ensuring that (1)                 agreed on the statistical approaches, or indicative guidelines
regulations implementing the Dodd-Frank Act are consistent             by which the indicators of each G-20 member country would
with U.S. international commitments and (2) other                      be assessed. In the event, it was determined that seven
governments comply with trading rules where Treasury                   countries warranted further in-depth assessments of the
equities are involved.                                                 causes of their persistent imbalances and the appropriate
                                                                       policy responses. The assessments were completed in the fall
Treasury initiated and continued efforts to resist trade and
                                                                       of 2011 and the conclusions were a direct input to the
investment protectionism, in particular through continued
                                                                       development of an Action Plan for Leaders at the Cannes
monitoring of trade and investment measures through the
                                                                       Summit, addressing both near-term vulnerabilities to the
G-20 Standstill Declaration, where the heads of the 19 largest
                                                                       global economy and the rebalancing of global demand. Key
economies and the European Union (EU) agreed to avoid
                                                                       commitments in the Action Plan were faster exchange rate
trade protectionism. Treasury also plays a central role in
                                                                       liberalization and capital account convertibility by China,
pursuing a level playing field through engagement with China
                                                                       increased domestic demand relative to GDP by China,
on priority trade and investment issues, particularly through
                                                                       Germany, and Japan; and a more comprehensive plan from
its leadership in the Strategic and Economic Dialogue. The
                                                                       the EU on ways to address and contain sovereign debt and
Department has persistently urged China to move away from
                                                                       financial market stresses in Europe.
policies that distort international competition and
disadvantage U.S. workers, firms, and investors as part of a           To further address global economic challenges, Secretary
broader effort to integrate China as an equal partner in the           Geithner led the Economic Track of the annual Strategic and
world economy.                                                         Economic Dialogue with China in May 2011. The meetings
                                                                       focused on addressing China’s need to increase domestic
Treasury also supported the Administration in completing
                                                                       consumption, strengthening cooperation on financial
the negotiations of amendments to the Korea-U.S. Free Trade
                                                                       regulations and supervision, and reducing trade and
Agreement, and in readying the free trade agreements with
                                                                       investment barriers faced by U.S. firms and workers—all of
Columbia and Panama for Congressional approval.
                                                                       which promote increased U.S. exports and jobs.
Strengthening Global Economic Cooperation
                                                                       Leading International Efforts on Development and
At the G-20 Leaders’ summit in Seoul in November 2010, it              Food Security
was recognized that insufficient progress was being made to
                                                                       In fiscal year 2011, the Department played a key role in
rebalance global demand. Essentially, countries like the U.S.,
                                                                       negotiating landmark international financing agreements to
with large, persistent current account deficits needed to boost
                                                                       replenish capital and increase funding for the Multilateral
national saving and reorient their economies at the margin
                                                                       Development Banks (MDBs). These agreements included
away from domestic consumption to greater exports, while
                                                                       new commitments to better orient the MDBs’ internal
countries with large current account surpluses, like China,
                                                                       resources toward the poorest countries. As part of the
Germany, and Japan, needed to do the opposite by boosting
                                                                       general capital increase for the Inter-American Development
domestic demand to offset the loss of demand in deficit
                                                                       Bank (IDB), Treasury secured a commitment to dedicate over
countries. Leaders agreed in Seoul to a process to assess the
                                                                       $2 billion of IDB income to grants for Haiti over the next
root causes of large and persistent imbalances and the
                                                                       decade. Treasury also secured landmark commitments on
impediments to rebalancing global demand.
                                                                       transparency and accountability across the MDBs. The
In February 2011, the Finance Ministers of the G-20 agreed             World Bank’s new disclosure policy represents a dramatic
on the indicators by which the imbalances of all G-20                  shift in how the institution approaches transparency and sets
countries would be assessed (i.e., trade and current account           a standard for regional development banks and other
imbalances, public and private sector debt ratios, and public          multilateral institutions to follow.
and private sector saving ratios). By April, Finance Ministers

                                                                  17
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

The Department continued to work closely with the MDBs to               national and international financial crime, and fosters U.S.
ensure that they are engaged in regions and countries that              partnerships overseas to promote security and mutual
are vital to U.S. interests. In the past year, the Department           economic interests.
has been intensively engaged with MDBs to ensure a rapid
                                                                        IMPROVING CURRENCY AND COIN MANUFACTURING
and robust response to the historic changes associated with
                                                                        In fiscal year 2011, the Bureau of Engraving and Printing
the Arab Spring. The mobilization of World Bank and
                                                                        (BEP) continued progress in developing tactile features that
African Development Bank resources and programming for
                                                                        will enable the blind and visually impaired to denominate
Egypt, Tunisia, and elsewhere in the region demonstrated the
                                                                        currency. Testing and refinement of various tactile features
tremendous and timely leverage and expertise that these
                                                                        were conducted during the year to determine which processes
institutions are able to provide.
                                                                        and features work best at the production volumes needed for
Treasury also plays an important role in addressing global              U.S. currency. BEP continued testing and development of
food insecurity through its leadership in the Global                    counterfeit deterrent features for possible use in the Nation’s
Agriculture and Food Security Program (GAFSP)–a multi-                  currency. BEP also worked closely with its currency paper
donor trust fund called for by G-20 leaders with the goal of            supplier and the Federal Reserve Board to resolve a creasing
helping accelerate progress towards halving the proportion of           problem in the redesigned $100 note. BEP expects to resume
people living in extreme poverty and suffering from hunger              production of the new notes in early fiscal year 2012. BEP
by 2015. Treasury is currently the Chair of GAFSP’s Steering            also embarked on a multiyear effort to improve its currency
Committee.                                                              quality assurance system and reduce spoilage.

To date, seven donors have pledged $971 million to GAFSP.               In fiscal year 2011, the United States Mint took initial steps
Of the $971 million pledged, $581 million has been received,            toward transforming coin production. For example, the Mint
and GAFSP has awarded $481 million to 12 low-income                     hired an independent contractor to conduct research for a
countries in Africa, Asia, and Latin America. The $481                  Congressionally-mandated review of metallic materials, the
million is expected to raise the incomes of 1.5 million direct          largest portion of circulating production cost, for the nation’s
beneficiaries (and six million indirect beneficiaries) and              circulating coins. In addition, the U.S. Mint undertook
provide aggregate economic returns on the order of 20                   implementation of incremental manufacturing
percent. A results measurement framework has been                       improvements to make operations more efficient as well as
approved to ensure timely reporting and monitoring during               more environmentally sustainable. These sustainability
project implementation and following project completion.                efforts included the Denver Mint purchasing 100 percent of

Delivering Financial Technical Assistance to U.S.                       its electricity from renewable sources, the San Francisco Mint
Foreign Policy Priority Countries                                       installing a “cool roof,” and the Washington, D.C.
In fiscal year 2011, Treasury’s Office of Technical Assistance          headquarters building obtaining Energy Star certification in
worked across five continents and delivered 115 separate                fiscal year 2011.
technical assistance projects to 51 countries to help finance
                                                                        MOVING FORWARD
ministries and central banks of developing countries, such as
                                                                        Moving forward, Treasury continues to help implement
Guatemala, Kenya, Paraguay, and Zambia, and recovering
                                                                        comprehensive reforms to the financial system passed by
countries, such as Afghanistan, Haiti, and Iraq, strengthen
                                                                        Congress last year in the Dodd-Frank Act, including stronger
their capacity to manage public finances. Treasury project
                                                                        protections for consumers and tougher limits on risk-taking
assistance stimulates economic growth, builds institutional
                                                                        by banks. Treasury is also coordinating with the appropriate
capacity of governments to establish and maintain stable and
                                                                        regulators to implement additional protections passed in
effective financial institutions, develops better policies and
                                                                        Dodd-Frank, including writing new rules that will subject
public services to serve citizens, provides a stronger basis for
                                                                        non-bank financial firms to heightened standards if their
U.S. trade and commerce, enhances capacity to address
                                                                        material financial distress could threaten financial stability.
                                                                   18
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

Treasury’s other key priorities in this area include winding            In collaboration with U.S. and Mexican counterparts, TFI
down government programs that were established to address               disrupted and exposed Mexican drug cartels and their money
the financial crisis, while ensuring policies and programs still        laundering networks using designations authorized by the
necessary for financial and economic recovery are                       Foreign Narcotics Kingpin Designation Act (Kingpin Act).
maintained and well executed; developing longer-term                    TFI provided investigative training to Mexican law
reforms for our nation's system of housing finance; and                 enforcement counterparts and expanded critical information
implementing new programs that will help small businesses               sharing and collaborative investigative work between
access credit in order to grow and create jobs.                         Mexican and U.S. law enforcement agencies. TFI’s efforts
                                                                        enhanced the effectiveness of financial and asset forfeiture
The Department will continue to pursue policies that will
                                                                        investigations in Mexico. Mexican law enforcement exposed,
foster American prosperity at home and abroad. To achieve
                                                                        isolated, disrupted, and incapacitated drug traffickers’
conditions that will enable domestic economic stability and
                                                                        financial infrastructure and commercial operations.
growth, the Department plans to continue expanding access
to capital for distressed markets and communities through               In September 2010, the Mexican government limited the
the CDFI Fund, SBLF, and SSBCI. On the international                    deposit and exchange of U.S. cash in Mexican banks to
stage, the Department will continue to advocate free trade              mitigate risks of laundering proceeds from narcotics
and investment policies to stimulate new engines of growth              trafficking and organized crime. FinCEN worked to identify
for the global economy, particularly for U.S. exports, while            whether Mexican cartels and associated criminal
ensuring enforcement of existing trade laws and policy to               organizations employed other methods for laundering money
promote U.S. competitiveness and balanced, sustained                    in the financial system. As part of this effort, FinCEN
economic development.                                                   expanded analysis of Bank Secrecy Act (BSA) and money
                                                                        transfer data and increased outreach to law enforcement and
PREVENTED TERRORISM AND PROMOTED                                        financial industry partners. In March 2011, FinCEN issued
THE NATION’S SECURITY THROUGH                                           an advisory to law enforcement that outlined the potential
STRENGTHENED INTERNATIONAL                                              methods to circumvent the cash restrictions and documented
FINANCIAL SYSTEMS                                                       significant changes in U.S. dollar cash activity near the
Treasury continued to play a unique role in preserving                  Southwest Border and in Mexico.
national security by leveraging financial intelligence, law
                                                                        EMPLOYED SANCTIONS AND INTELLIGENCE ANALYSIS
enforcement, sanctions, regulatory, and diplomatic tools.               TO COMBAT ILLICIT FINANCE AND NATIONAL
Treasury’s Office of Terrorism and Financial Intelligence               SECURITY THREATS
(TFI) worked to keep U.S. and international financial systems           Throughout fiscal year 2011, TFI worked across a broad range
accessible to legitimate users while also disrupting the                of areas focusing on specific anti-money
financial networks of terrorists, drug traffickers, and                 laundering/countering the financing of terrorism (AML/CFT)
weapons of mass destruction (WMD) proliferators. TFI                    issues and illicit finance networks. TFI currently administers
includes the Office of Terrorist Financing and Financial                and enforces 33 major economic and trade sanctions
Crimes (TFFC), the Office of Foreign Assets Control (OFAC),             programs based on U.S. foreign policy and national security
the Office of Intelligence Analysis (OIA), the Treasury                 goals. OFAC, under Executive Order 13382, continued to
Executive Office for Asset Forfeiture (TEOAF), and the                  target individuals and entities facilitating Iranian
Financial Crimes Enforcement Network (FinCEN).                          proliferation activity. OFAC developed and increased the
                                                                        number and variety of sanction designations and property
                                                                        identifications in Iran related sanction programs. Treasury
DISRUPTED MONEY LAUNDERING EFFORTS AND                                  officials actively engaged foreign partners to encourage them
DRUG TRAFFICKING IN MEXICO                                              to implement similar restrictions on Iran. Additionally, a
                                                                        fiscal year 2010 Executive Order enabled Treasury to target
                                                                   19
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

sanctions on individuals and entities engaging with North              cases, which resulted in a takedown of $295 million of false
Korea or North Korean entities in arms trafficking,                    Medicare billings.
procurement of luxury goods, and illicit finance activities.
                                                                       SHARED INFORMATION ON HOUSING FRAUD
Within the intelligence community, TFI worked to                       ACTIVITIES
consolidate government-wide efforts to conduct                         FinCEN continued its regulatory efforts to combat mortgage
counterterrorist financing intelligence research, which                fraud, foreclosure rescue scams, and loan modification fraud.
resulted in all-source, fused, coordinated intelligence                FinCEN issued a Notice of Proposed Rulemaking in
products. In fiscal year 2011, OIA surged analytical resources         November 2010 to require non-bank residential mortgage
to track regime assets in the Middle East, focusing on those           lenders and originators to implement anti-money laundering
regimes which violently suppressed protestors, such as Libya           programs and report on suspicious activity. FinCEN also
and Syria.                                                             issued an advisory for financial institutions with examples of
                                                                       common commercial real estate fraud schemes. FinCEN
COLLECTED MAJOR ASSET FORFEITURES
                                                                       published reports on commercial real estate financing fraud,
The Treasury Forfeiture Fund, administered by TEOAF,
                                                                       mortgage loan fraud, and loan modification fraud based on
collected $868 million in forfeiture revenue during fiscal year
                                                                       analysis of suspicious activity reports (SARs). In addition,
2011. The Fund’s major forfeitures in fiscal year 2011 can be
                                                                       FinCEN studied suspicious activities which involve title and
attributed to cases pursued by the IRS’s Criminal
                                                                       escrow companies to assess potential vulnerabilities in this
Investigation (CI) division. Deutsche Bank forfeited $404
                                                                       industry. FinCEN also made publicly available online
million and paid an additional $149 million penalty for
                                                                       datasets on mortgage fraud hotspots on hundreds of
running fraudulent tax shelters that allowed clients to avoid
                                                                       previously unavailable geographies and historical filings,
paying billions of dollars in U.S. taxes. Barclays Bank PLC
                                                                       based on SAR data.
agreed to forfeit $149 million to the Department of Justice
(DOJ) Assets Forfeiture Fund and $149 million to the New               MOVING FORWARD
York County District Attorney’s Office for violations of the           TFI will continue to combat illicit financial activity through a
International Emergency Economic Powers Act (IEEPA) and                variety of means. TFFC will review mutual evaluations and
the Trading with the Enemy Act (TWEA). The DOJ equitably               offer training and other technical assistance to counterparts
shared $74.5 million with the Fund for the IRS’s contribution          abroad to create effective AML/CFT frameworks. OIA will
to the case.                                                           focus its analytical resources on transnational organized
                                                                       crime and its illicit finance networks. TEOAF will continue to
SUPPORTED HEALTH CARE FRAUD CASES WITH
BANK SECRECY ACT (BSA) DATA AND ANALYSIS                               target cases and investigations that result in high impact
                                                                       forfeitures. FinCEN will continue to coordinate and support
FinCEN worked closely with the DOJ and the HHS Health
                                                                       federal, state, and local efforts to combat fraud.
Care Fraud Prevention and Enforcement Action Team
(HEAT) to identify complex large-scale fraud schemes.
                                                                       MANAGEMENT AND ORGANIZATIONAL
Through analysis of BSA data, FinCEN provided investigators
                                                                       EXCELLENCE
and prosecutors with an overall health care fraud assessment
                                                                       The Department of the Treasury is committed achieving
of targeted geographic areas. FinCEN also identified
                                                                       management and organizational excellence. The Department
sophisticated and complex criminal organizations and
                                                                       demonstrates prudent management of taxpayer resources
individuals participating in health care fraud. FinCEN
                                                                       through its paperless initiatives, information technology (IT)
identified and analyzed over 175,000 BSA records to support
                                                                       cloud and consolidation initiatives, procurement savings and
67 cases from HHS-Office of the Inspector General field
                                                                       high risk contracts reductions, environmental achievements,
offices and to support several state level Medicaid Fraud
                                                                       and other savings initiatives. In addition, Treasury strives to
Control Units. FinCEN contributed to over a dozen DOJ


                                                                  20
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

achieve organizational excellence by improving Human                   Another important program that promotes the use of
Capital management and performance.                                    electronic transactions to collect revenues needed to operate
                                                                       the Federal Government is Pay.gov, an innovative system
REDUCED PAPER PROCESSES
                                                                       that allows individuals and businesses to make non-tax
Treasury’s major paperless initiatives include: paying
                                                                       payments to federal agencies over the internet. Pay.gov has
benefits and collecting government receipts electronically
                                                                       been implemented with 160 federal agencies representing
and discontinuing paper savings bonds. These initiatives
                                                                       770 cash flows, and collected over $87 billion and processed
improve organizational efficiency, enhance customer service,
                                                                       over 76 million transactions in fiscal year 2011.
and minimize the Federal Government's environmental
impact.                                                                Eliminate New Issues of Paper Savings Bonds

                                                                       In fiscal year 2011, the Bureau of the Public Debt (BPD)
Pay Benefits Electronically
                                                                       ended the sale of paper payroll savings bonds and announced
As of May 1, 2011, newly enrolled federal beneficiaries and
                                                                       it will stop issuing paper savings bonds sold over-the-counter
retirees were mandated to receive payments electronically.
                                                                       at financial institutions by December 31, 2011. The web-
By March 1, 2013, existing beneficiaries and retirees who
                                                                       based TreasuryDirect portal will become the primary retail
were receiving payment by check prior to May 1, 2011, will
                                                                       system for investors to buy savings bonds and marketable
also be required to receive payments electronically. The
                                                                       securities and conduct business electronically. The initiative
increased use of electronic funds transfer to deliver federal
                                                                       will produce savings on agent fees, postage, printing, and a
payments will continue to improve service to payment
                                                                       reduction in the number of customer service transactions.
recipients and reduce government program costs by
minimizing the costs associated with postage and the re-               CONSOLIDATED IT SERVICES
issuance of lost or stolen checks. Consistent with this effort,        Cloud Computing
the Financial Management Service (FMS) exceeded its target             In fiscal year 2011, Treasury worked to save on IT costs by
with 84 percent of payments being processed electronically in          switching from a traditional hosting environment to a cloud
fiscal year 2011.                                                      environment in which computing resources are accessed
Collect Government Receipts Electronically                             through shared resources. For example, the Department

FMS encourages businesses and individuals to pay their taxes           recently moved the Treasury.gov website and four other

through the Electronic Federal Tax Payment System                      Treasury websites (SIGTARP.gov, MyMoney.gov, TIGTA.gov,

(EFTPS). To date, FMS has collected more than $3.06                    and IRSOversightBoard.treasury.gov) to a cloud hosting

trillion, with 96 percent of those funds received                      environment, saving over 13 percent in monthly costs versus

electronically. Effective January 1, 2011, businesses with             the legacy hosting solution. Finally, by moving to a cloud

quarterly tax payments greater than $2,500 that previously             environment, BEP estimates it will save over 50 percent in

used paper Federal Tax Deposit (FTD) coupons must make                 operating and maintenance costs while also automating

deposits through EFTPS. This initiative eliminated the                 processes for manufacturing, financial management,

processing of approximately 20 million paper coupons                   acquisition, and supply chains.

annually. In fiscal year 2011, EFTPS processed nearly 130              Data Center Consolidation Initiative
million payments, an increase of over 19 percent in
                                                                       Treasury is working to increase the utilization and efficiency
transaction volume, and a 2.9 percent increase in the tax
                                                                       of combined IT assets while reducing technology costs
revenue collected in comparison to totals from 2010. The
                                                                       through its Data Center Consolidation Initiative. For
new change also benefits taxpayers; IRS research showed
                                                                       example, under the Fiscal IT initiative, FMS and BPD are
that businesses using EFTPS are 31 times less likely to make
                                                                       partnering to close three data centers by December 31, 2011,
an error that results in a fine or penalty than those who paid
                                                                       and are in the process of consolidating IT common services
via coupon.
                                                                       by September 30, 2012. The Fiscal IT consolidation will

                                                                  21
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

reduce spending on energy consumption, equipment,                   In fiscal year 2013, the Department will also require
hardware, software, personnel, and contractor support.              commercial vendors to submit their invoices using IPP.
                                                                    Adoption of IPP is projected to reduce the cost of entering
REALIZED PROCUREMENT SAVINGS AND REDUCED
                                                                    invoices and responding to invoice inquiries by as much as 50
HIGH RISK CONTRACTS
                                                                    percent, which is estimated to save the Treasury $7 million
Treasury has taken a multi-faceted approach to achieve
                                                                    annually. IPP will eliminate the need to manually input, file,
procurement savings. In March 2011, Treasury consolidated
                                                                    and store paper invoices; shift the responsibility for invoice
its headquarters procurement organization with IRS
                                                                    entry to the vendor; and reduce the time required to answer
procurement. The consolidation will provide greater
                                                                    payment status questions. Moreover, vendors who use IPP
economies of scale and deeper capabilities, including
                                                                    will collect quicker payments for their services, receive
enhanced access to strategic sourcing, which is a
                                                                    greater assurances that their invoices are received and
collaborative and structured process of critically analyzing
                                                                    processed accurately, and have immediate online access to
spending and using this information to make business
                                                                    their invoice status for all agencies using IPP. The IPP
decisions about acquiring commodities and services more
                                                                    initiative is estimated to produce approximately $450 million
effectively and efficiently. In addition to participating in
                                                                    in government-wide savings annually.
government-wide efforts to leverage basic commodity buying,
Treasury significantly advanced its Department-wide                 MANAGED THE TREASURY FLEET
strategic sourcing program through commodity management             In fiscal year 2010, Treasury converted expiring commercial
initiatives led by senior managers. The Department exceeded         leased vehicle requirements for several of its bureaus to
its fiscal year 2011 goals for acquisition-related savings          General Service Administration (GSA) leases, which include
mandated by the Office of Management and Budget (OMB),              the cost of vehicle maintenance and fuel. This conversion
and realized a 21 percent aggregate reduction in high risk          saves $1 million in rental cost per year. Similarly, in fiscal
contract obligations. Overall, in fiscal year 2011, Treasury        year 2011, Treasury saved approximately $1.6 million in
achieved $325.9 million in acquisition savings based on             additional annual rental costs by converting expiring
OMB’s definitions.                                                  commercial leased vehicle requirements for 111 pick-up
                                                                    trucks from the IRS Fuel Compliance Program to GSA leases.
ENVIRONMENTAL ACHIEVEMENTS
Treasury set a Department-wide priority to improve energy           REDUCED REAL ESTATE PROPERTY COSTS
efficiency and reduce greenhouse gas emissions. In addition         In response to the June 10, 2010, Presidential Memorandum
to the reduced energy and paper consumption from the                on “Disposing of Unneeded Federal Real Estate,” Treasury
paperless initiatives, Treasury saves energy by improving           identified a $20 million contribution towards the President’s
data center energy efficiency, completing energy efficiency         $3 billion cost saving goal For example, Treasury is
upgrades, and increasing space utilization. Other examples          consolidating warehouse requirements for leases expiring in
include improved emission control over the currency printing        fiscal year 2012 through fiscal year 2014 within the National
process at BEP; implementing water reuse strategies at the          Capital Region. Requirements for the Departmental Offices
Mint; and converting the water heating system from steam to         (DO), FMS, and IRS-CI will be moved to BEP’s warehouse
electric at the Main Treasury complex.                              space to achieve about $445,000 in annual rental cost
                                                                    savings.
IMPLEMENTED INTERNET PAYMENT PLATFORM
Treasury issued a mandate requiring all bureaus and offices         STRENGTHENED ORGANIZATIONAL EXCELLENCE
to adopt the use of the Internet Payment Platform (IPP), a          Treasury seeks to create an organization with exemplary
centralized web portal for vendors to submit invoices and           leadership; innovative and collaborative processes;
request payments, by September 30, 2012. Treasury was               sustainable operations; and a culture of excellence, integrity,
only the second agency in the Federal Government to do this.        and teamwork. Accordingly, Treasury continually strives to

                                                               22
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

improve Human Capital performance by focusing on hiring
the best talent; respecting and engaging the workforce;
expecting the best from employees; and striving to be the best
place to work in the Federal Government.

In addition, during fiscal year 2011, the Department of the
Treasury deployed resources to successfully stand up several
new organizations, as provided by the Dodd-Frank Wall
Street Reform and Consumer Protection Act. Treasury
Human Resources (HR) staff quickly benchmarked other
financial regulatory organizations, and worked in concert
with program staff and the Office of Personnel Management
to develop and establish interim hiring, classification,
compensation, and benefits policies and systems for the new
organizations. In addition, the HR staff began the
recruitment and hiring to staff these new organizations, in
order to meet the mandates of the new legislation.

MOVING FORWARD
In fiscal year 2012, Treasury will continue to work to achieve
management and organizational excellence. Treasury will
continue to reduce the amount of paper transactions with the
public by encouraging federal beneficiaries to receive
payments electronically, promote the purchase of bonds
electronically via TreasuryDirect, and expand the use of IPP
across the Department and throughout the Federal
Government. In addition, FMS will continue to expand the
use of electronic collection mechanisms that use the most
advanced and secure collection technologies that are flexible
enough to accommodate the varying needs and technical
sophistication of all taxpayers and federal program agencies.
Furthermore, Treasury will continue to pursue aggressive
targets to save on procurement and real estate and improve
energy efficiency and reduce greenhouse gas emissions.
Finally, Treasury will work to improve organizational
excellence by improving performance in Human Capital
programs.




                                                                 23
                                                                             U.S. Department of the Treasury | Fiscal Year 2011

DEPARTMENT’S KEY PERFORMANCE MEASURES FOR 2011
The following table contains key performance metrics providing a representative overview of the Department’s performance for
2011. Discussion of the factors contributing to each measure’s performance results, and plans to improve the measures’ results
in future years, follows the table.

     Performance
       Measure                         2007     2007     2008          2008       2009         2009      2010     2010     2011       2011
                           Bureau     Target    Actual   Target        Actual     Target       Actual   Target   Actual   Target     Actual
     Official Title
Percentage Collected
Electronically of Total
Dollar Amount of            FMS         80.0      79.0      79.0           80.0      80.0        84.0     80.0     85.0      82.0      96.0
Federal Government
Receipts (%)
Percentage of Treasury
Payments and                FMS         78.0      78.0      79.0           79.0      80.0        81.0     81.0     82.0      83.0      84.0
Associated Information
Made Electronically (%)
Customer Service
Representative Level of     IRS         82.0      82.1      82.0           52.8      70.0        70.0     71.0     74.0       71.0     70.1
Service (%)
Taxpayer Self-Assistance    IRS         48.6      49.5       51.5          66.8      64.7        69.3     61.3     64.4      68.7      70.1
Rate
Percent of Business
Returns Processed           IRS          19.5     19.1      20.8           19.4       21.6       22.8     24.3     25.5      27.0      31.8
Electronically (%)
Percent of Individual
Returns Processed           IRS         57.0      57.1      61.8           57.6      64.0        65.9     70.2     69.3      74.0      76.9
Electronically (%)
Affordable Housing         CDFI
Units Created by CDFI                       -        -            -           -            -        -        -        -   Baseline   19,083
                           Fund
Fund Programs
Clean Audit Opinion on
TARP Financial              DO              -        -            -           -   Baseline       Met      Met      Met        Met      Met
Statements
OTA Scope and Intensity
of Engagement               DO              -        -   Baseline           3.6        3.6        3.7      3.6      3.5        3.6      3.7
(Traction)
Impact of TFI Programs      DO              -        -            -           -   Baseline       7.81      7.4      7.4        7.6     8.4*
and Activities
Note: Performance measures were not audited.
*Estimated value.




                                                                      24
                                                                           U.S. Department of the Treasury | Fiscal Year 2011

On December 7, 2010, Treasury published a regulation that              acknowledgement of receipt; the ability to file amended,
required businesses with an annual tax liability of at least           superseded, and prior year returns; and year-round filing
$10,000 to pay their taxes electronically. The new                     capabilities.
requirement, combined with FMS’s efforts to transition
                                                                       In fiscal year 2011, the CDFI Fund collected baseline
taxpayers to electronic payments, resulted in FMS processing
                                                                       performance data on its revised measure, “Number of
nearly 130 million payments electronically during fiscal year
                                                                       Affordable Housing Units Developed or Produced by CDFI
2011. Accordingly, Treasury significantly exceeded its
                                                                       Fund Programs.” The CDFI Fund programs developed or
performance target on the measure: “Percentage collected
                                                                       produced 19,083 housing units across all programs,
electronically of total dollar amount of Federal government
                                                                       reflecting the impact of Recovery Act investments in 2011.
receipts.” With continued emphasis on the All Electronic
Treasury initiative, the percentage of funds collected via             The Government Accountability Office (GAO) rendered an
EFTPS will continue to grow.                                           unqualified, clean audit opinion on OFS’s financial
                                                                       statements for the third year in a row. OFS will continue to
In support of the All Electronic Treasury initiative, FMS also
                                                                       strive for accuracy and transparency in its financial
continued to expand and market the use of electronic funds
                                                                       statements so that TARP programs continue to receive clean
transfer to deliver federal payments, improve service to
                                                                       audit opinions in the future.
payment recipients, and reduce government program costs.
In fiscal year 2011, FMS made 84 percent of payments                   The Office of Technical Assistance (OTA) developed its
electronically, slightly exceeding its performance goal. FMS           Traction goal based on project evaluations to measure the
attributes the performance outcome to considerable success             degree to which financial technical assistance programs bring
in implementing its nationwide “GO Direct” campaign to                 about changes in behavior of counterpart countries. In fiscal
encourage current check recipients to switch to direct                 year 2011, OTA slightly exceeded its target. The nature of the
deposit.                                                               OTA program is such that country projects that reach
                                                                       performance goals and objectives are concluded and new
In fiscal year 2011, the IRS achieved 70.1 percent on its
                                                                       projects are begun where the challenges are significant. The
metric, “Customer Service Representative Level of Service.”
                                                                       effect of this dynamic keeps the target goal always
The IRS attributes the slight performance shortfall to
                                                                       challenging but reachable if performance remains high across
unexpectedly high telephone customer service demand.
                                                                       all teams and projects.
Moving forward, the IRS will staff telephone service as
effectively as possible to meet anticipated telephone demand.          TFI created a composite measure that consists of four overall
                                                                       focus areas related to its mission and strategic goals. TFI
The IRS met its performance target and achieved a 70.1
                                                                       estimated that it exceeded its performance target on its
percent “Taxpayer Self Assistance Rate,” as a result of the
                                                                       composite measure, “Impact of TFI Programs and Activities.”
increased popularity of IRS web-based applications. The
                                                                       Note that the fiscal year 2011 outcome is an estimate as of the
self-assistance rate is expected to increase in future years as
                                                                       publication of this report because a customer service survey
more taxpayers choose automated customer service methods
                                                                       that contributes to the composite score has not been fully
over more traditional methods such as telephone and paper
                                                                       completed.
correspondence.

The IRS achieved an electronic-filing rate of 31.8 percent for
business returns, exceeding its performance target by almost
four percentage points. The IRS also exceeded the target on
its electronic filing metric, “Percentage of Individual Returns
Processed Electronically.” Performance in this area
continues to be driven by increased demand for the overall             .
benefits of e-file, such as its accuracy; quick
                                                                  25
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

HIGHLIGHTS OF MANAGEMENT AND PERFORMANCE CHALLENGES
Annually, in accordance with the Reports Consolidation Act          continue to focus on resolving them during fiscal year 2012
of 2000, OIG and TIGTA identify the most significant                and beyond. Refer to Appendix C, of Part 3, Other
management and performance challenges facing the                    Accompanying Information, for a detailed discussion of these
Department. These challenges do not necessarily indicate            challenges, listed below.
deficiencies in performance; rather, some represent inherent
                                                                    Note: SIGTARP does not provide the Secretary with an
risks that must be monitored continuously. Treasury made
                                                                    annual report on management and performance challenges.
much progress on these issues in fiscal year 2011, and will



TREASURY-WIDE MANAGEMENT CHALLENGES – AS IDENTIFIED BY OIG

    •    Transformation of Financial Regulation

    •    Management of Treasury’s Authorities Intended to Support and Improve the Economy

    •    Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement

    •    Management of Capital Investments


IRS MANAGEMENT CHALLENGES – AS IDENTIFIED BY TIGTA

    •    Security for Taxpayer Data and Employees

    •    Tax Compliance Initiatives

    •    Modernization

    •    Implementing Major Tax Law Changes

    •    Fraudulent Claims and Improper Payments

    •    Providing Quality Taxpayer Service Operations

    •    Human Capital

    •    Globalization

    •    Taxpayer Protection and Rights

    •    Achieving Program Efficiencies and Cost Savings




                                                               26
                               U.S. Department of the Treasury | Fiscal Year 2011

FINANCIAL OVERVIEW




Figure 4                   Figure 5




Figure 6                   Figure 7




Figure 8                   Figure 9




              Figure 10

                          27
                                                                           U.S. Department of the Treasury | Fiscal Year 2011

Total Assets. Total assets increased from $15.6 trillion at              Net Cost of Treasury Operations. The Consolidated
September 30, 2010, to $16.6 trillion at September 30, 2011              Statements of Net Cost present the Department’s gross and
(Figure 4). The nearly $1 trillion increase in 2011 is due to            net costs by strategic programs which fall into four main
the rise in the federal debt, which causes a corresponding rise          categories: financial, economic, security, and
in the “Due from the General Fund of the U.S. Government”                management. The net cost associated with financial and
account ($14.9 trillion). This account represents future funds           economic programs together accounted for almost 75 percent
required from the General Fund of the U.S. Government to                 of the Department’s total consolidated net cost of $4.2 billion
pay borrowings from the public and other federal agencies.               for fiscal year 2011 (Figure 6). The net cost of financial
Included in “Intra-governmental” assets (Figure 11) are loans            programs of $13.0 billion for 2011 was partially offset by
and interest receivable ($728.7 billion in 2011), the majority           economic programs which generated net revenue of $9.9
of which are loans issued by the BPD to other federal                    billion (Figure 13). The $13.0 billion of financial program net
agencies for their own use or to private sector borrowers,               costs remained relatively unchanged from the prior year, and
whose loans are guaranteed by the federal agencies.                      primarily reflect Treasury’s role as the primary fiscal agent
                                                                         for managing the nation’s finances by collecting revenue and
                                                                         making federal payments.

                                                                         Economic programs generated net revenue of $9.9 billion in
                                                                         fiscal year 2011 compared to a net cost of $297.2 billion in
                                                                         2010, a change of $307.1 billion, primarily driven by the GSE
                                                                         SPSPA program. In fiscal year 2010, the Department
                                                                         increased its future funded contingent liability related to the
                                                                         GSE program by $320.6 billion. This liability represents the
Figure 11
                                                                         projected total cost payable to the GSEs over the life of the
Total Liabilities. Liabilities principally include federal               program. The significant increase in this liability in 2010 was
debt held by the public, including interest, of $10.1 trillion           due primarily to the increased availability of GSE projection
which were mainly issued as Treasury Notes. Liabilities also             data, coupled with the effect of a 2009 amendment to the
include intra-governmental liabilities totaling $6.0 trillion, of        liquidity cap for each GSE. The projection data enabled the
which $4.7 trillion represents principal and interest payable            Department, for the first time, to estimate and accrue its total
to various federal agencies, such as the Social Security                 future contingent liability to the program. In fiscal year 2011,
Administration Trust Fund (Figure 12). The $1.0 trillion                 the Department reduced its contingent liability by $22.9
increase in total liabilities in fiscal year 2011 over 2010              billion, recorded as a reduction in expense, due to updated
(Figure 5) is the result of increased federal debt held by the           projections that reflect lower expected future losses at the
public, including interest, needed to finance budget deficits.           GSEs.




Figure 12


                                                                         Figure 13

                                                                    28
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

Net Federal Costs and Net Federal Debt Interest                        Net Outlays. The majority of the $27.2 billion decrease in
Costs. The majority of these costs is the interest expense on          net outlays was due to fewer TARP equity and loan
the federal debt. The increase of $36.1 billion in net interest        disbursements coupled with continued collections from
paid on the federal debt is due to the increase in the debt            repayments for the TARP investments and loans. In
(Figure 7).                                                            addition, there were fewer GSE SPSPA draw disbursements
                                                                       in fiscal year 2011 than in fiscal year 2010 (Figure 9).
Total Budgetary Resources. The majority of the net
$104.1 billion decrease for fiscal year 2011 (Figure 8) was            Custodial Revenue. Net revenue received on behalf of the
related to the TARP and GSEs. TARP had a significant                   U.S. Government increased by $128.9 billion for fiscal year
decrease of $33 billion resulting from the Dodd-Frank Act              2011 (Figure 10). This increase can be attributed mainly to
that capped TARP at $475 billion. Additionally, the                    an overall improvement in individual tax collections.
budgetary resources required in fiscal year 2011 for the GSE           Total net revenue collected by Treasury on behalf of the U.S.
MBS and HFA program decreased by $54 billion and $27                   Government includes various taxes, primarily income taxes,
billion, respectively, due to the expiration of the program            user fees, fines and penalties, and other revenue.
authority under HERA in fiscal year 2010. With the                     Approximately 99 percent of the revenues are from income
expiration of that authority, new purchases ended and the              and social security taxes.
need for borrowing authority reduced significantly.


SUMMARY OF AUDITORS’ REPORT ON THE TREASURY DEPARTMENT’S
FINANCIAL STATEMENTS
The Department received an unqualified audit opinion on its fiscal year 2011 financial statements. As summarized in the table
below, the auditor reported one open material weakness as of September 30, 2011. During the fiscal year 2011 financial audit,
the auditor reported a significant deficiency related to financial reporting practices at the Departmental level. The auditor also
reported significant deficiencies related to financial reporting at OFS and information system controls at FMS. In addition, the
auditor reported an instance of noncompliance with laws and regulations related to Section 6325 of the Internal Revenue Code
(release of federal tax liens), and that the Department’s financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA).


SUMMARY OF FINANCIAL STATEMENT AUDIT
                       Audit Opinion                                                         Unqualified
                        Restatement                                                                 No
                                                                  Beginning                                                   Ending
Material Weakness                                                                 New        Resolved        Consolidated
                                                                   Balance                                                    Balance
Financial Systems and Reporting at the IRS                                 1             0               0              0               1



LIMITATIONS ON THE PRINCIPAL FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of operations of the
Department of the Treasury, pursuant to the requirements of 31 USC 3515 (b). While the statements have been prepared from
the books and records of the Department of the Treasury in accordance with generally accepted accounting principles (GAAP)
for federal entities and the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor
and control budgetary resources ,which are prepared from the same books and records. The statements should be read with the
realization that they are for a component of the U.S. Government, a sovereign entity.


                                                                  29
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

MANAGEMENT ASSURANCES


                            THE SECRETARY’S ASSURANCE STATEMENT
The Department of the Treasury’s management is responsible for establishing and maintaining effective internal control and
financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). Treasury
has evaluated its management controls, internal controls over financial reporting, and compliance with federal financial
systems standards. As part of the evaluation process, Treasury considered results of extensive testing and assessment across
the Department and independent audits.

Treasury provides assurance that the objectives of the FMFIA with respect to operations have been achieved, except for the
material weaknesses noted below. Also, in accordance with Office of Management and Budget Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A, Internal Control over Financial Reporting, Treasury
provides qualified assurance that internal control over financial reporting was operating effectively based on the results of the
assessment as of June 30, 2011. Treasury’s financial management systems are not in substantial compliance with the Federal
Financial Management Improvement Act due to the Internal Revenue Service’s (IRS’s) material weaknesses related to unpaid
tax assessments and information security.

During fiscal year 2011, Treasury closed the material weakness on the IRS’s Modernization Management Controls and
Processes. As of September 30, 2011, Treasury had three material weaknesses as follows (with origination/planned resolution
timeframes indicated):


   Operations:

        •   IRS – Computer Security (Fiscal Year 2001/2012)

        •   Financial Management Service – Systems, Controls, and Procedures to Prepare the Government-wide Financial
            Statements (Fiscal Year 2001/2014)

   Financial Reporting:

        •   IRS – Unpaid Tax Assessments (Fiscal Year 1995/2015)


Treasury management remains dedicated to the resolution of these weaknesses. Overall, Treasury continues to make progress
in reducing internal control weaknesses and in meeting federal financial management systems requirements.




Timothy F. Geithner
Secretary of the Treasury
November 15, 2011




                                                              30
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

SUMMARY OF MANAGEMENT ASSURANCES
Summary of Material Weaknesses
                                                     Beginning                                                          Ending
Material Weaknesses                                   Balance         New   Resolved     Consolidated    Reassessed     Balance
IRS – Unpaid Tax Assessments                                 1         0       0              0              0             1
IRS – Improve Modernization Management Controls
and Processes                                                1         0       1              0              0             0
IRS – Computer Security                                      1         0       0              0              0             1

FMS – Systems, Controls, and Procedures to Prepare
the Government-wide Financial Statements                     1         0       0              0              0             1
Total Material Weaknesses                                    4         0       1              0              0             3



Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance                                                             Qualified
                                                     Beginning                                                          Ending
Material Weakness                                     Balance         New   Resolved     Consolidated    Reassessed     Balance

IRS – Unpaid Tax Assessments                             1             0       0              0              0             1



Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                                                 Qualified
                                                     Beginning                                                          Ending
Material Weaknesses                                   Balance         New   Resolved     Consolidated    Reassessed     Balance
IRS – Improve Modernization Management Controls
and Processes                                                1         0       1              0              0             0
IRS – Computer Security                                      1         0       0              0              0             1
FMS – Systems, Controls, and Procedures to Prepare
the Government-wide Financial Statements                     1         0       0              0              0             1

Total Material Weaknesses                                    3         0       1              0              0             2



Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance                                Systems conform to financial management system requirements
                                                     Beginning                                                          Ending
Material Weaknesses                                   Balance         New   Resolved     Consolidated    Reassessed     Balance

Total Non-conformances                                       0         0       0              0              0             0



Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                                   Agency                        Auditor
Overall Substantial Compliance                                                         No                          No
1. System Requirements                                                                             No
2. Accounting Standards                                                                            No
3. USSGL at the Transaction Level                                                                  Yes




                                                                 31
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

FMFIA                                                                 over financial reporting at the transaction level integrated
                                                                      with Government Accountability Office’s Standards for
The management control objectives under FMFIA are to
                                                                      Internal Control. Treasury’s bureaus and offices completed
reasonably ensure that:
                                                                      their testing and assessment of internal controls for material
  •   Programs achieve their intended results
                                                                      transactions as of June 30, 2011. Treasury provides qualified
  •   Resources are used consistent with overall mission              assurance that internal control over financial reporting was

  •   Programs and resources are free from waste, fraud, and          effective as of June 30, 2011, due primarily to the IRS’s
      mismanagement                                                   unpaid tax assessments material weakness.

  •   Laws and regulations are followed
                                                                      FFMIA AND FINANCIAL
  •   Controls are sufficient to minimize any improper or
      erroneous payments                                              MANAGEMENT SYSTEMS
  •   Performance information is reliable
                                                                      FRAMEWORK
                                                                      FFMIA mandates that agencies “... implement and maintain
  •   System security is in substantial compliance with all
      relevant requirements                                           financial management systems that comply substantially with
                                                                      federal financial management systems requirements,
  •   Continuity of operations planning in critical areas is
      sufficient to reduce risk to reasonable levels                  applicable federal accounting standards, and the United
                                                                      States Government Standard General Ledger (USSGL) at the
  •   Financial management systems are in compliance with
                                                                      transaction level.” FFMIA also requires that remediation
      federal financial systems standards
                                                                      plans be developed for any entity that is unable to report
FMFIA requires agencies to evaluate and report on the
                                                                      substantial compliance with these requirements.
effectiveness of controls over operations and financial
                                                                      During fiscal year 2011, Treasury bureaus and offices used a
reporting (FMFIA Section 2), and conformance with financial
                                                                      risk-based approach to assess their financial management
management systems requirements (FMFIA Section 4 and
                                                                      systems’ compliance with FFMIA, as required by OMB. The
FFMIA) that protect the integrity of federal programs.
                                                                      bureaus and offices conducted self-assessments to determine
Deficiencies that seriously affect an agency’s ability to meet
                                                                      their risk levels. With the exception of the IRS, all Treasury
these objectives are deemed “material weaknesses.”
                                                                      bureaus’ and offices’ financial management systems are in
In fiscal year 2011, Treasury closed one of its material              compliance with FFMIA. As required, the IRS has a
weaknesses and continued to make progress on closing its              remediation plan in place to correct the identified
remaining three, as listed in the Secretary’s Assurance               deficiencies. IRS management updates this plan quarterly
Statement. Treasury includes resolution of material                   and Treasury management reviews it. In addition, TIGTA
weaknesses as a performance requirement for every                     audits the plan annually.
executive, manager, and supervisor. Additional information
                                                                      The IRS made significant progress in fiscal year 2011 toward
on Treasury’s material weaknesses and progress can be found
                                                                      attaining FFMIA compliance by implementing programming
in Appendix D of Part 3, Other Accompanying Information.
                                                                      changes in the IRS sub-ledger for unpaid tax assessments
OMB CIRCULAR NO. A-123, MANAGEMENT’S                                  (i.e., Custodial Detail Data Base) that enabled reporting one
RESPONSIBILITY FOR INTERNAL CONTROL, APPENDIX                         balance for unpaid payroll taxes or Trust Fund Recovery
A, INTERNAL CONTROL OVER FINANCIAL REPORTING
                                                                      Penalty assessments, where previously, they were not
The Department continues to strengthen and improve the
                                                                      separately distinguished.
execution of the Treasury mission through the application of
sound internal controls over financial reporting. In                  FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK
compliance with OMB Circular No. A-123, Appendix A,                   Treasury’s overall financial management systems framework
Treasury uses an extensive annual testing and assessment              consists of a Treasury-wide financial data warehouse,
methodology that identifies and documents internal controls           supported by a financial reporting tool, and separate bureau

                                                                 32
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

core financial systems. Bureaus submit their monthly                per the methodology in OMB Circular No. A-123, Appendix
financial data to the data warehouse within three business          C, Requirements for Effective Measurement and
days of the month-end. The Department then produces                 Remediation of Improper Payments. The risk assessments
monthly financial statements and reports for management             performed on Treasury’s programs and activities in fiscal
analysis. This framework satisfies both the bureaus’ diverse        year 2011 resulted in low and medium risk susceptibility for
financial operational and reporting needs, as well as the           improper payments, except for the IRS’s Earned Income Tax
Department’s internal and external reporting requirements.          Credit (EITC) program.
The financial data warehouse is part of the overarching
                                                                    Treasury also performed the payment recapture activities
Treasury-wide Financial Analysis and Reporting System
                                                                    required in A-123, Appendix C during fiscal year 2011.
(FARS), which also includes applications for the bureaus to
                                                                    Details on Treasury’s improper payments and payment
report the status of their planned audit corrective actions.
                                                                    recapture program activities and results can be found in
Fourteen Treasury bureaus and offices use centralized               Appendix B of Part 3, Other Accompanying Information.
financial operations services and systems support provided
                                                                    EITC PROGRAM
by the BPD’s Administrative Resource Center (ARC). This
                                                                    The EITC is a refundable tax credit that offsets income tax
cross-servicing enables the bureaus to have access to core
                                                                    owed by low-income taxpayers and, if the credit exceeds the
financial systems without having to maintain the necessary
                                                                    amount of taxes due, provides a lump-sum payment in the
technical and systems architectures. Using these services
                                                                    form of a refund to those who qualify. Treasury estimates
reduces the need for Treasury to maintain duplicative
                                                                    that for fiscal year 2011, a maximum of 25.8 percent ($16.7
financial management systems; enhances the quality,
                                                                    billion) and a minimum of 21.2 percent ($13.7 billion) of the
timeliness, and accuracy of financial management processes;
                                                                    total EITC program payments of $64.7 billion were
and achieves a more efficient and cost-effective business
                                                                    overclaims.
model. Additional information on Treasury’s financial
systems framework can be found in Appendix D of Part 3,             The IRS has a robust base enforcement program for the EITC

Other Accompanying Information.                                     which consists of examinations (audits), math error notices,
                                                                    and document matching. Details on the IRS’s EITC program
IMPROPER PAYMENTS                                                   can be found in Appendix B of Part 3, Other Accompanying
On July 22, 2010, President Obama signed into law the               Information.
Improper Payments Elimination and Recovery Act of 2010
(IPERA, Pub. L. 111-204). IPERA amends the Improper
                                                                    AUDIT FOLLOW-UP PROGRAM
Payments Information Act of 2002 (IPIA) and requires                During fiscal year 2011, Treasury continued its efforts to

agencies to review their programs and activities annually to        improve both the general administration of internal control

identify those susceptible to significant improper payments.        issues throughout the Department and the timeliness of the

IPERA significantly increases agency payment recapture              resolution of all findings and recommendations identified by

efforts by expanding the types of payments to be reviewed by        the Treasury OIG, TIGTA, SIGTARP, GAO, and external

agencies and lowering the threshold of annual payments that         auditors.

are subject to payment recapture audit programs from $10            Treasury has made considerable progress by focusing on
million to $1 million, if cost effective. IPERA requires            achieving a high rate of timely implementation of planned
agencies to report information on their improper payments           corrective actions (PCAs). In fiscal year 2011, Treasury’s
and recapture audit programs to the President and Congress          offices and bureaus completed 92 percent of PCAs on time or
annually.                                                           early, exceeding the goal of 90 percent.

In fiscal year 2011, Treasury completed a full program              Additional information on Treasury’s audit follow-up
inventory and performed risk assessments to identify                activities can be found in Appendix D of Part 3, Other
programs that have a significant risk of improper payments,         Accompanying Information.

                                                               33
THIS PAGE INTENTIONALLY LEFT BLANK
s
          THE U.S. DEPARTMENT OF THE TREASURY




    Annual Financial Report
       4th Quarter AFR
                   April Tishkevich
                    [Pick the date]
     U.S. Department of the Treasury | Fiscal Year 2011




35
                                                                                                                    U.S. Department of the Treasury | Fiscal Year 2011


PART II - TABLE OF CONTENTS
Message from the Assistant Secretary for Management and Chief Financial Officer ....................................................................... 37
Inspector General’s Transmittal Letter ............................................................................................................................................... 38
Independent Auditor’s Report on the Department’s Financial Statements ...................................................................................... 40
Management’s Response to Independent Auditor’s Report................................................................................................................ 51

Financial Statements
Consolidated Balance Sheets ............................................................................................................................................................... 52
Consolidated Statements of Net Cost .................................................................................................................................................. 54
Consolidated Statement of Changes in Net Position .......................................................................................................................... 55
Combined Statements of Budgetary Resources ...................................................................................................................................57
Statements of Custodial Activity ......................................................................................................................................................... 59

Notes to the Financial Statements
1. Summary of Significant Accounting Policies .................................................................................................................................. 60
2. Fund Balance ................................................................................................................................................................................... 73
3. Loans and Interest Receivable – Intra-Governmental ...................................................................................................................75
4. Due from the General Fund and Due to the General Fund ........................................................................................................... 76
5. Cash, Foreign Currency, and Other Monetary Assets ..................................................................................................................... 77
6. Gold and Silver Reserves, and Gold Certificates Issued to the Federal Reserve Banks ............................................................... 80
7. Troubled Asset Relief Program – Credit Program Receivables, Net ............................................................................................. 80
8. Investments in Government Sponsored Enterprises .................................................................................................................... 98
9. Investments in International Financial Institutions ................................................................................................................... 103
10. Other Investments and Related Interest .................................................................................................................................... 103
11. Credit Program Receivables, Net................................................................................................................................................. 104
12. Reserve Position in the International Monetary Fund ................................................................................................................111
13. Taxes, Interest and Other Receivables, Net ................................................................................................................................. 112
14. Property, Plant, and Equipment, Net .......................................................................................................................................... 113
15. Non-Entity vs. Entity Assets......................................................................................................................................................... 113
16. Federal Debt and Interest Payable ............................................................................................................................................... 115
17. Other Debt and Interest Payable .................................................................................................................................................. 117
18. D.C. Pensions and Judicial Retirement Actuarial Liability ........................................................................................................ 118
19. Liabilities...................................................................................................................................................................................... 120
20. Net Position .................................................................................................................................................................................. 121
21. Consolidated Statements of Net Cost and Net Costs of Treasury Sub-Organizations ...............................................................122
22. Additional Information Related to the Combined Statements of Budgetary Resources ......................................................... 128
23. Collection and Disposition of Custodial Revenue .......................................................................................................................132
24. Earmarked Funds .........................................................................................................................................................................134
25. Reconciliation of Net Cost of Operations to Budget ...................................................................................................................138
26. Non-TARP Investments in American International Group, Inc. ...............................................................................................139
27. Schedule of Fiduciary Activity .................................................................................................................................................... 140
28. Commitments and Contingencies ............................................................................................................................................... 141
Required Supplemental Information (Unaudited) ............................................................................................................................ 145




                                                                                                   36
                                                                    U.S. Department of the Treasury | Fiscal Year 2011


MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT
AND CHIEF FINANCIAL OFFICER
                                  In fiscal year 2011, the Department of the Treasury continued to build on the
                                  framework established during the preceding years to spur economic growth and job
                                  creation, strengthen the Nation’s financial system through the ongoing implementation
                                  of reforms, advance our national security and global economic interests, and improve
                                  management of the government’s finances. Treasury played an important role in
                                  implementing the sweeping financial reforms of the Dodd-Frank Wall Street Reform
                                  and Consumer Protection Act by providing support for the start-up of the Consumer
                                  Financial Protection Bureau; delivered $474 million to states and $4 billion to
                                  community banks and community development loan funds for loan programs to
                                  support small business growth under the Small Business Jobs Act; and implemented
additional health care reform provisions of the Patient Protection and Affordable Care Act.

As the Troubled Asset Relief Program (TARP) winds down, Treasury continues to make progress in exiting our
outstanding investments. The bank programs under the investment portion of the TARP provided a substantial positive
return to the taxpayer. In addition, Treasury’s administration of TARP programs helped over 800,000 families facing
foreclosure to receive permanent modifications lowering their mortgage payments. Treasury also began reducing its
mortgage-backed security portfolio acquired under the Housing and Economic Recovery Act.

In fiscal year 2011, Treasury demonstrated strong fiscal prudence and a commitment to management reforms by:
        Achieving $325.9 million in acquisition savings, exceeding the goal of $318 million
        Realizing a 21 percent overall reduction in high-risk contract obligations, substantially exceeding the reduction
         goal of 10 percent
        Implementing paperless initiatives such as eliminating the sale of issuance of paper U.S. Savings Bonds and
         paying more benefits electronically
        Beginning implementation of the GOVerify Business Center, which will provide additional information to
         federal agencies as they strive to reduce improper payments
        Moving the Treasury.gov website to a cloud hosting environment to save costs
        Laying the framework to close and consolidate data centers to reduce spending on energy consumption,
         equipment, hardware, software, personnel, and contractor support

The Department received an unqualified audit opinion on both the Treasury-wide and Office of Financial Stability/TARP
fiscal year 2011 financial statements. Treasury closed the material weakness on the IRS’s Modernization Management
Controls and Processes during fiscal year 2011, and made progress toward resolving the three material weaknesses
remaining open as of September 30, 2011 [IRS – Computer Security (due to close by 2012), Unpaid Tax Assessments (due
to close by 2015), and FMS – Preparation of the Government-wide Financial Statements (due to close by 2014)]. The
complexity of Treasury’s financial systems contributes greatly to these material weaknesses; however, we have made
great progress toward resolving the issues.




Dan Tangherlini
November 15, 2011

                                                            37
PAGES 38-51 INTENTIONALLY LEFT BLANK
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

                                          Consolidated Balance Sheets
                                       As of September 30, 2011 and 2010
                                                  (In Millions)

                                                                                            2011               2010
ASSETS
Intra-governmental Assets
Fund Balance (Note 2)                                                             $      381,784    $        437,026
Loans and Interest Receivable (Note 3)                                                   728,650             552,853
Advances to the Unemployment Trust Fund (Note 4)                                          42,773               34,111
Due From the General Fund (Note 4)                                                    14,902,717          13,655,637
Other Intra-governmental Assets                                                            1,148                1,179
Total Intra-governmental Assets                                                       16,057,072         14,680,806

Cash, Foreign Currency, and Other Monetary Assets (Note 5)                                117,121           372,434
Gold and Silver Reserves (Note 6)                                                          11,062             11,062
Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net (Note 7)           80,104            144,692
Investments in Government Sponsored Enterprises (Note 4 and 8)                           133,043            109,216
Investments in International Financial Institutions (Note 9)                                5,707              5,580
Non-TARP Investments in American International Group, Inc. (Note 26)                      10,862             20,805
Other Investments and Related Interest (Note 10)                                           15,798             15,487
Credit Program Receivables, Net (Note 11)                                                 92,820            186,396
Loans and Interest Receivables (Note 12)                                                    6,248                124
Reserve Position in the International Monetary Fund (Note 12)                             20,682             12,938
Taxes, Interest and Other Receivables, Net (Note 13)                                      36,690             36,976
Property, Plant, and Equipment, Net (Note 14)                                               2,266              2,031
Other Assets                                                                                  751                710
Total Assets                                                                      $   16,590,226    $    15,599,257

Heritage Assets (Note 14)

The accompanying notes are an integral part of these financial statements.




                                                         52
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

                                           Consolidated Balance Sheets
                                        As of September 30, 2011 and 2010
                                                   (In Millions)


                                                                                              2011               2010
LIABILITIES
Intra-governmental Liabilities
Federal Debt and Interest Payable (Notes 4 and 16)                               $      4,720,165    $      4,587,802
Other Debt and Interest Payable (Note 17)                                                   8,539               10,358
Due to the General Fund (Note 4)                                                        1,226,475            1,414,252
Other Intra-governmental Liabilities (Note 19)                                                453                  366
Total Intra-governmental Liabilities                                                    5,955,632           6,012,778

Federal Debt and Interest Payable (Notes 4 and 16)                                     10,148,963           9,035,929
Certificates Issued to the Federal Reserve (Note 5)                                          5,200               5,200
Allocation of Special Drawing Rights (Note 5)                                               55,150              54,958
Gold Certificates Issued to the Federal Reserve (Note 6)                                    11,037              11,037
Refunds Payable (Notes 4 and 23)                                                             3,983               4,146
D.C. Pensions and Judicial Retirement Actuarial Liability (Note 18)                          9,671               9,743
Liabilities to Government Sponsored Enterprises (Note 8)                                  316,230             359,900
Other Liabilities (Note 19)                                                                  4,222               4,470
Total Liabilities (Note 19)                                                            16,510,088           15,498,161
Commitments and Contingencies (Note 28)

NET POSITION
Unexpended Appropriations:
  Earmarked Funds (Note 24)                                                                   200                200
  Other Funds                                                                             342,778             400,357
    Subtotal                                                                              342,978             400,557
Cumulative Results of Operations:
  Earmarked Funds (Note 24)                                                                 43,611              41,426
  Other Funds                                                                           (306,451)            (340,887)
    Subtotal                                                                            (262,840)            (299,461)
Total Net Position (Note 20)                                                               80,138              101,096
Total Liabilities and Net Position                                               $     16,590,226    $      15,599,257


The accompanying notes are an integral part of these financial statements.




                                                           53
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2011 and 2010
                                                 (In Millions)

Cost of Treasury Operations: (Note 21)                                                       2011             2010

Financial Program
Gross Cost                                                                        $         15,671   $      15,854
Less Earned Revenue                                                                       (2,633)           (2,611)
Net Program Cost                                                                           13,038           13,243

Economic Program
Gross Cost (Note 8)                                                                         4,704           314,138
Less Earned Revenue                                                                      (14,641)          (16,904)
Net Program Cost (Revenue)                                                                (9,937)          297,234

Security Program
Gross Cost                                                                                    360              344
Less Earned Revenue                                                                            (5)              (4)
Net Program Cost                                                                              355              340

Management Program
Gross Cost                                                                                    573              582
Less Earned Revenue                                                                          (57)              (56)
Net Program Cost                                                                              516              526

Total Program Gross Costs                                                                  21,308          330,918
Total Program Gross Earned Revenues                                                      (17,336)          (19,575)
Total Program Cost before Changes in Actuarial Assumptions                                  3,972           311,343
(Gains)/Losses on Pension, ORB, or OPEB Assumption Changes                                    195               820
Total Net Cost of Treasury Operations (Note 21)                                             4,167           312,163

Non-Entity Costs
Federal Debt Interest                                                                     452,616          412,855
Restitution of Foregone Federal Debt Interest (Note 16)                                        875               -
Less Interest Revenue from Loans                                                         (26,815)         (22,258)
Net Federal Debt Interest Costs                                                          426,676           390,597
Other Federal Interest                                                                           3               6
Other Federal Costs (Note 21)                                                               13,743          12,753
Net GSEs Non-Entity Revenue (Note 8)                                                     (39,415)         (56,678)
Administrative Services Income                                                             (1,019)               -
Total Net Non-Entity Costs                                                               399,988           346,678

Total Net Cost of Treasury Operations and Non-Entity Costs                        $      404,155     $     658,841

The accompanying notes are an integral part of these financial statements.




                                                          54
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

                              Consolidated Statement of Changes in Net Position
                                For the Fiscal Year Ended September 30, 2011
                                                 (In Millions)


                                                            Combined             Combined
                                                           Earmarked              All Other        Elimi-    Consolidated
                                                               Funds                 Funds         nation           Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balance                                         $      41,426      $    (340,887)    $         -   $   (299,461)
Budgetary Financing Sources
Appropriations Used                                                 536             547,593             -          548,129
Non-Exchange Revenue                                                230                 154           (5)              379
Donations and Forfeitures of Cash/Equivalent                        586                   -             -              586
Transfers In/Out Without Reimbursement                              (51)                 51             -                -
Other (Note 11)                                                        -              4,550             -            4,550
Other Financing Sources (Non-Exchange)
Donation/Forfeiture of Property                                      163                   -             -              163
Accrued Interest and Discount on Debt                                  -              14,042             -           14,042
Transfers In/Out Without Reimbursement                              (97)                  37             -             (60)
Imputed Financing Sources                                             75               1,265         (415)              925
Transfers to the General Fund and Other (Note 20)                    249           (128,187)             -        (127,938)
Total Financing Sources                                            1,691            439,505         (420)           440,776
Net Cost of Operations                                               494          (405,069)           420         (404,155)
Net Change                                                         2,185             34,436              -           36,621
Cumulative Results of Operations                                  43,611          (306,451)              -       (262,840)

UNEXPENDED APPROPRIATIONS
Beginning Balance                                                   200             400,357              -        400,557
Budgetary Financing Sources
Appropriations Received (Note 20)                                    536            498,187              -         498,723
Appropriations Transferred In/Out                                      -                129              -             129
Other Adjustments                                                      -            (8,302)              -         (8,302)
Appropriations Used                                                (536)          (547,593)              -       (548,129)
Total Budgetary Financing Sources                                      -           (57,579)              -        (57,579)
Total Unexpended Appropriations                                     200             342,778              -         342,978
Net Position                                              $       43,811     $       36,327    $         -   $      80,138

The accompanying notes are an integral part of these financial statements.




                                                         55
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

                               Consolidated Statement of Changes in Net Position
                                 For the Fiscal Year Ended September 30, 2010
                                                  (In Millions)


                                                               Combined          Combined
                                                              Earmarked           All Other        Elimi-   Consolidated
                                                                  Funds              Funds         nation          Total
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balance                                          $       41,653    $      (68,741)   $        -   $    (27,088)
Budgetary Financing Sources
Appropriations Used                                                   527           501,912             -        502,439
Non-Exchange Revenue                                                   56               229           (4)            281
Donations and Forfeitures of Cash/Equivalent                         324                  -             -            324
Transfers In/Out Without Reimbursement                               (27)                13             -            (14)
Other                                                                   -                12             -              12
Other Financing Sources (Non-Exchange)
Donation/Forfeiture of Property                                       319                  -            -              319
Accrued Interest and Discount on Debt                                   -             11,086            -          11,086
Transfers In/Out Without Reimbursement                               (79)                 37            -             (42)
Imputed Financing Sources                                              74              1,486        (552)           1,008
Transfers to the General Fund and Other (Note 20)                    (65)         (128,880)             -       (128,945)
Total Financing Sources                                             1,129           385,895         (556)        386,468
Net Cost of Operations                                            (1,356)         (658,041)          556        (658,841)
Net Change                                                          (227)          (272,146)            -       (272,373)
Cumulative Results of Operations                                  41,426          (340,887)             -       (299,461)

UNEXPENDED APPROPRIATIONS
Beginning Balances                                                   200            454,944             -         455,144
Budgetary Financing Sources
Appropriations Received (Note 20)                                     527           456,443             -         456,970
Appropriations Transferred In/Out                                       -                 92            -                92
Other Adjustments                                                       -            (9,210)            -           (9,210)
Appropriations Used                                                 (527)          (501,912)            -       (502,439)
Total Budgetary Financing Sources                                       -           (54,587)            -         (54,587)
Total Unexpended Appropriations                                       200           400,357             -         400,557
Net Position                                               $       41,626    $        59,470   $        -   $      101,096


The accompanying notes are an integral part of these financial statements.




                                                         56
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

                                     Combined Statements of Budgetary Resources
                                     For the Fiscal Year Ended September 30, 2011
                                                      (In Millions)
                                                                                                          Non-
                                                                                                      Budgetary               2011
Budgetary Resources                                                                 Budgetary         Financing              Total
Unobligated balance, brought forward, Oct. 1
                                                                                $      348,424    $       23,819     $     372,243
Recoveries of prior year unpaid obligations                                             11,058             5,671            16,729
Budget authority:
  Appropriations (Note 20)                                                              552,971            4,613           557,584
  Borrowing authority (Note 22)                                                               1          201,862           201,863
  Spending authority from offsetting collections:
    Earned:
       Collected                                                                         11,059          219,002          230,061
       Change in receivables from Federal sources                                            27                -               27
  Change in unfilled customer orders:
    Advance received                                                                       (11)                -               (11)
    Without advance from Federal sources                                                   (18)         (22,847)          (22,865)
Subtotal                                                                               564,029           402,630           966,659
  Non-expenditure transfers, net                                                            125                 -              125
  Temporarily not available pursuant to Public Law                                       (426)                  -            (426)
  Permanently not available                                                            (44,417)         (221,912)        (266,329)
Total Budgetary Resources                                                       $      878,793    $      210,208     $   1,089,001

Status of Budgetary Resources
Obligations incurred (Note 22)
  Direct                                                                        $      531,283    $      181,638     $     712,921
  Reimbursable                                                                           7,126                 -             7,126
    Subtotal                                                                           538,409           181,638          720,047
Unobligated Balance:
  Apportioned                                                                          246,296                510         246,806
  Exempt from apportionment                                                             23,980                  -          23,980
    Subtotal                                                                           270,276               510          270,786
Unobligated balance not available                                                       70,108            28,060           98,168
Total Status of Budgetary Resources                                             $      878,793    $      210,208     $   1,089,001

Changes in Obligated Balance
Obligated balance, net:
 Unpaid obligations, brought forward, Oct. 1                                    $      182,707    $       49,491     $     232,198
 Uncollected customer payments from Federal sources,
  brought forward, Oct. 1
                                                                                          (192)          (23,817)         (24,009)
Total unpaid obligated balance, net                                                     182,515            25,674          208,189
Obligations incurred, net                                                              538,409            181,638          720,047
Gross outlays                                                                         (561,707)         (101,655)        (663,362)
Recoveries of prior year unpaid obligations, actual                                    (11,058)            (5,671)         (16,729)
Change in uncollected customer payments from Federal sources                                (9)            22,847           22,838
Obligated balance, net, end of period:
  Unpaid obligations                                                                    148,351          123,802           272,153
  Uncollected customer payments from Federal sources                                      (201)            (969)            (1,170)
Total unpaid obligated balance-net, end of period (Notes 1 & 22)                $      148,150    $      122,833     $    270,983
Net Outlays
 Gross outlays                                                                  $       561,707   $      101,655     $     663,362
 Offsetting collections                                                                (11,048)        (219,002)         (230,050)
 Distributed offsetting receipts                                                      (119,958)                -          (119,958)
Net Outlays                                                                     $      430,701    $     (117,347)    $     313,354
The accompanying notes are an integral part of these financial statements.



                                                                 57
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

                                     Combined Statements of Budgetary Resources
                                     For the Fiscal Year Ended September 30, 2010
                                                      (In Millions)
                                                                                                          Non-
                                                                                                     Budgetary              2010
Budgetary Resources                                                              Budgetary           Financing             Total
Unobligated balance, brought forward, Oct. 1                                   $   401,626       $       41,827     $    443,453
Adjustment for change in accounting policy (Note 22)                                 14,135                   -            14,135
  Unobligated balance, brought forward, Oct. 1, as adjusted                         415,761              41,827          457,588
Recoveries of prior year unpaid obligations                                           2,979              39,370           42,349
Budget authority:
  Appropriations (Note 20)                                                           569,010                   -         569,010
  Borrowing authority (Note 22)                                                            1             151,472          151,473
  Spending authority from offsetting collections:
    Earned:
       Collected                                                                       9,401            204,946           214,347
       Change in receivables from Federal sources                                         22                  -                22
  Change in unfilled customer orders:
    Advance received                                                                     (56)                   -             (56)
    Without advance from Federal sources                                                    2             (5,111)          (5,109)
Subtotal                                                                             578,380             351,307          929,687
  Non-expenditure transfers, net                                                          361                   -              361
  Temporarily not available pursuant to Public Law                                      (142)                   -            (142)
  Permanently not available                                                          (47,341)          (189,421)        (236,762)
Total Budgetary Resources                                                      $     949,998     $      243,083     $   1,193,081

Status of Budgetary Resources
Obligations incurred (Note 22)
  Direct                                                                       $     581,303     $      219,264     $    800,567
  Adjustment for change in accounting policy (Note 22)                                 14,135                 -            14,135
     Direct, Adjusted                                                                595,438            219,264          814,702
  Reimbursable                                                                          6,136                 -             6,136
     Subtotal                                                                        601,574            219,264          820,838
Unobligated Balance:
  Apportioned                                                                        267,581             20,961          288,542
  Exempt from apportionment                                                           13,269                  -            13,269
     Subtotal                                                                       280,850              20,961           301,811
Unobligated balance not available                                                     67,574              2,858            70,432
Total Status of Budgetary Resources                                            $    949,998      $      243,083     $   1,193,081

Changes in Obligated Balance
Obligated balance, net:
  Unpaid obligations, brought forward, Oct. 1                                  $     108,210     $       79,209     $     187,419
  Uncollected customer payments from Federal sources,
   brought forward, Oct. 1                                                              (168)           (28,928)         (29,096)
Total unpaid obligated balance, net                                                  108,042              50,281          158,323
Obligations incurred, net                                                            601,574             219,264         820,838
Gross outlays                                                                      (524,098)           (209,612)        (733,710)
Recoveries of prior year unpaid obligations, actual                                   (2,979)           (39,370)         (42,349)
Change in uncollected customer payments from Federal sources                             (24)               5,111           5,087
Obligated balance, net, end of period:
  Unpaid obligations                                                                 182,707              49,491         232,198
  Uncollected customer payments from Federal sources                                   (192)            (23,817)        (24,009)
Total unpaid obligated balance-net, end of period (Notes 1 & 22)               $     182,515     $        25,674    $    208,189

Net Outlays
 Gross outlays                                                                 $     524,098     $      209,612     $     733,710
 Offsetting collections                                                               (9,345)         (204,946)         (214,291)
 Distributed offsetting receipts                                                   (169,303)            (9,606)         (178,909)
Net Outlays                                                                    $     345,450     $      (4,940)     $     340,510
The accompanying notes are an integral part of these financial statements.




                                                                58
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

                                       Statements of Custodial Activity
                           For the Fiscal Years Ended September 30, 2011 and 2010
                                                 (In Millions)

                                                                                             2011               2010
Sources of Custodial Revenue (Note 23)
Individual Income and FICA Taxes                                                  $    2,102,030     $     1,988,760
Corporate Income Taxes                                                                   242,848             277,937
Estate and Gift Taxes                                                                       9,079              19,751
Excise Taxes                                                                               72,794             70,946
Railroad Retirement Taxes                                                                   4,692              4,648
Unemployment Taxes                                                                          6,893               6,543
Deposit of Earnings, Federal Reserve System                                               82,546              75,845
Fines, Penalties, Interest, and Other Revenue                                                 591              1,880
Total Revenue Received                                                                 2,521,473           2,446,310
Less Refunds                                                                            (416,221)          (469,937)
Net Revenue Received                                                                   2,105,252           1,976,373
Non-Cash Accrual Adjustment                                                                 (150)               6,539
Non-TARP Investments in American International Group, Inc. (Note 26):
  Cash Proceeds from Sale of Stock                                                         1,973                    -
  Non-Cash Market Adjustments                                                            (9,944)              (2,666)
Total Custodial Revenue                                                                2,097,131           1,980,246

Disposition of Custodial Revenue (Note 23)
Amounts Provided to Fund Non-Federal Entities                                                462                 387
Amounts Provided to Fund the Federal Government                                        2,104,790           1,975,986
Non-Cash Accrual Adjustment                                                                (150)               6,539
Non-TARP Investments in American International Group, Inc. (Note 26):
  Cash Proceeds from Sales of Stock                                                        1,973                    -
  Non-Cash Market Adjustment                                                             (9,944)              (2,666)
Total Disposition of Custodial Revenue                                                 2,097,131           1,980,246
Net Custodial Revenue                                                             $            -     $              -

The accompanying notes are an integral part of these financial statements.




                                                         59
                                                                     U.S. Department of the Treasury | Fiscal Year 2011


1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. REPORTING ENTITY
The accompanying financial statements include the operations of the United States (U.S.) Department of the Treasury
(Department), one of 24 CFO Act agencies of the Executive Branch of the United States Government, and certain
custodial activities managed on behalf of the entire U.S. Government. The following paragraphs describe the activities of
the reporting entity.

The Department was created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the development
of the Department, delegating new duties to its charge and establishing the numerous bureaus and divisions that now
comprise the Department. As a major policy advisor to the President, the Secretary of the Treasury (Secretary) has
primary responsibility for formulating and managing the domestic and international tax and financial policies of the U.S.
Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and international
economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets control;
managing the federal debt; collecting income and excise taxes; representing the United States on international monetary,
trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacture of coins,
currency, and other products for customer agencies and the public.

The Department’s reporting entities include the Departmental Offices (DO) and eight operating bureaus. For financial
reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector General (OIG),
Special Office of Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury Forfeiture Fund (TFF),
Exchange Stabilization Fund (ESF), Community Development Financial Institutions (CDFI) Fund, Office of D.C.
Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal Financing Bank (FFB), Office of
Financial Stability (OFS), Government Sponsored Enterprise (GSE) Program, Small Business Lending Fund (SBLF),
Office of Financial Research (OFR), and the DO policy offices.

The eight operating bureaus are: Bureau of Engraving and Printing (BEP); Bureau of the Public Debt (BPD); Financial
Crimes Enforcement Network (FinCEN); Financial Management Service (FMS); Internal Revenue Service (IRS); United
States Mint (Mint); Office of the Comptroller of the Currency (OCC); and the Alcohol and Tobacco Tax and Trade Bureau
(TTB). On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection
Act (the “Dodd-Frank Act”), which includes the Enhancing Financial Institution Safety and Soundness Act of 2010. In
accordance with the Dodd-Frank Act, on July 21, 2011 (the “transfer” date”), substantially all of the operations of the
Office of Thrift Supervision (OTS) were transferred to the OCC; and certain other duties were transferred to the Federal
Reserve Board and Federal Deposit Insurance Corporation (FDIC). During fiscal year 2011, OTS operated as a separate
entity through July 20, 2011, and thus its operating results through July 20, 2011, are presented separately in the
disaggregate disclosures contained in Note 21 and the Required Supplemental Information (unaudited). On July 21,
2011, all of OTS’s net assets, except for a reserve of $2 million for OTS wind-down activities, were transferred to OCC.

The Department’s financial statements reflect the reporting of its own entity activities comprising both the Department’s
operating bureaus and DO that are consolidated with the Department, which include appropriations it receives to
conduct its operations and revenue generated from those operations. They also reflect the reporting of certain non-entity
(custodial) functions it performs on behalf of the U.S. Government and others. Non-entity activities include collecting
federal revenue, servicing the federal debt, disbursing certain federal funds, and maintaining certain assets and liabilities
for the U.S. Government, as well as for other federal entities. The Department’s reporting entity does not include the



                                                             60
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

General Fund of the U.S. Government (General Fund), which maintains receipt, disbursement, and appropriation
accounts for all federal agencies.

Transactions and balances among the Department’s entities have been eliminated from the Consolidated Balance Sheets,
the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net Position.

Following Generally Accepted Accounting Principles (GAAP) for federal entities, the Department has not consolidated
into its financial statements the assets, liabilities, or results of operations of any financial organization or commercial
entity in which it holds either a direct, indirect, or beneficial majority equity investment. Even though some of the equity
investments are significant, these entities meet the criteria of “bailed out” entities under paragraph 50 of the Statement of
Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and Display (SFFAC No. 2) which directs that such
“bailout” investments should not be consolidated into the Financial Reports of the U.S. Government, either in part or as a
whole.

In addition, the Department has made loans and investments in certain Special Purpose Vehicles (SPV) under the
Consumer and Business Lending Initiative, Automotive Industry Financing Program, and the Public-Private Investment
Program. In fiscal year 2011, a portion of the Department’s investment in American International Group, Inc. was
exchanged for preferred interests in SPVs. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as
ownership and control over an SPV to carry out government powers and missions as criteria in the determination about
whether the SPV should be classified as a federal entity. The Department has concluded that the lack of control over the
SPVs is the primary basis for determining that none of the SPVs meet the criteria to be classified as a federal entity. As a
result, the assets, liabilities, and results of operations of the SPVs are not included in the Department’s financial
statements. The Department has recorded the loans and investments in private entities and investments in SPVs in
accordance with Credit Reform Accounting, as discussed below. Additional disclosures regarding these SPV investments
are included in Note 7.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).
FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting standards-
setting body of the U.S. Government.

These financial statements are provided to meet the requirements of the Government Management Reform Act of 1994.
They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, the Consolidated Statements
of Changes in Net Position, the Combined Statements of Budgetary Resources, and the Statements of Custodial Activity.
The statements and the related notes are prepared in a comparative form to present both fiscal year 2011 and fiscal year
2010 information.

While these financial statements have been prepared from the accounting records of the Department in accordance with
the formats prescribed by OMB, these financial statements are in addition to the financial reports used to monitor and
control budgetary resources which are prepared from the same accounting records.

Intra-governmental assets and liabilities are those due from or to other federal entities. Intra-governmental earned
revenues are collections or accruals of revenue from other federal entities, and intra-governmental costs are payments or
accruals of expenditures to other federal entities.



                                                              61
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

The financial statements should be read with the realization that they are for a component of a sovereign entity, that
liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and that
the payment of all liabilities other than for contracts can be abrogated by the sovereign entity. Liabilities represent the
probable and measurable future outflow or other sacrifice of resources as a result of past transactions or events. Since the
Department is a component of the U.S. Government, a sovereign entity, the Department’s liabilities cannot be liquidated
without legislation that provides resources or an appropriation. Liabilities represent the probable and measurable future
outflow or other sacrifice of resources as a result of past transactions or events. Liabilities covered by budgetary
resources are those liabilities for which Congress has appropriated funds or funding is otherwise available to pay amounts
due. Liabilities not covered by budgetary or other resources represent amounts owed in excess of available,
congressionally appropriated funds or other amounts, and there is no certainty that the appropriations will be enacted.
The U.S. Government, acting in its sovereign capacity, can abrogate liabilities of the Department arising from non-
contractual activities.

Certain fiscal year 2010 balances on the Consolidated Balance Sheets and notes to the financial statements have been
reclassified to conform to the presentation in the current fiscal year. In fiscal year 2011, certain Balance Sheet line items
were aggregated with other line items. Corresponding balances for the prior fiscal year were reclassified to conform to
the current year presentation.

There are numerous acronyms used throughout the notes herein as well as other sections of this Agency Financial Report
(AFR). Refer to the “Glossary of Acronyms” located in Appendix E of this report for a complete listing of these acronyms
and their related definitions.

C. FUND BALANCE
The Fund Balance is the aggregate amount of the Department’s accounts with the U.S. Government’s central accounts
from which the Department is authorized to make expenditures and pay liabilities. It is an asset because it represents the
Department’s claim to the U.S. Government’s resources. Fund balance with Treasury is not equivalent to unexpended
appropriations because it also includes non-appropriated revolving and enterprise funds, suspense accounts, and
custodial funds such as deposit funds, special funds, and trust funds.

D. INVESTMENTS
Investments in GSEs

The Department holds preferred stock of two stockholder-owned GSEs, the Federal National Mortgage Association
(Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac). The senior preferred stock liquidity
preference (preferred stock) and associated common stock warrant (warrant(s)) in the GSEs are presented at their fair
value as permitted by OMB Circular No. A-136. This Circular includes language that generally requires agencies to value
non-federal investments at acquisition cost, but permits the use of other measurement basis, such as fair value, in certain
situations. Changes in the valuation of these investments are recorded as non-entity exchange transactions on the
Consolidated Statements of Net Cost. Dividends are also recorded as non-entity exchange transactions and are accrued
when declared; therefore, no accrual is made for future dividends.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs) provide that the Department will increase its investment
in the GSEs’ senior preferred stock if, at the end of any quarter, the Federal Housing Finance Agency (FHFA), acting as
the conservator, determines that the liabilities of either GSE, individually, exceed its respective assets. As the funds used
to pay these excess liabilities are appropriated directly to the Department such payments are treated as entity expenses
and reflected as such on the Consolidated Statements of Net Cost and Cumulative Results of Operations. These payments



                                                              62
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

also result in an increase to the non-entity investment in the GSEs’ preferred stock, with a corresponding increase in Due
to the General Fund, as the Department holds the investment on behalf of the General Fund.

Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support poverty
reduction, private sector development, transitions to market economies and sustainable economic growth and
development, thereby advancing the United States’ economic, political, and commercial interests abroad. As a
participating member country, the Department, on behalf of the United States, provides a portion of the capital base of
the MDBs, through subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle
income developing countries. These paid-in capital investments are considered non-marketable equity investments
valued at cost on the Department’s Consolidated Balance Sheets.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and extend
credit to poor countries at below market-based interest rates. These U.S. contributions are reported as an expense on the
Department’s Consolidated Statements of Net Cost.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. “Other Foreign Currency Denominated Assets” and
“Investment Securities” are considered “available-for-sale” securities and recorded at fair value. These holdings are
normally invested in interest-bearing securities issued or held through foreign governments or monetary authorities.

Non-TARP Investment in American International Group, Inc.

The Department holds American International Group, Inc. (AIG) common stock on behalf of the General Fund which are
considered “available-for-sale” securities and recorded at fair value. Changes in the valuation of these investments held
are non-entity, non-exchange transactions reported on the Statements of Custodial Activity. The revenue or loss
associated with sales of these investments are non-entity, exchange transactions reported on the Statements of Custodial
Activity.

E. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
Federal taxes receivable, net, and the corresponding liability due to the Department, are not accrued until related tax
returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court. Additionally, the
prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on taxes receivable through
the balance sheet date.

Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient payment,
or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion of total taxes receivable deemed to
be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer owes
to the U.S. Government. Examples include assessments resulting from an IRS audit or examination in which the
taxpayer does not agree with the results. Write-offs consist of unpaid assessments for which the IRS does not expect
further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death. Compliance assessment and write-
offs are not reported on the balance sheet. Statutory provisions require the accounts to be maintained until the statute
for collection expires.




                                                             63
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

F. LOANS AND INTEREST RECEIVABLE, INTRA-GOVERNMENTAL - ENTITY AND NON-ENTITY
Intra-Governmental entity Loans and Interest Receivable from other federal agencies represent loans and interest
receivable held by the Department. No credit reform subsidy costs were recorded for loans purchased from federal
agencies or for guaranteed loans made to non-federal borrowers because of outstanding balances guaranteed (interest
and principal) by those agencies.

Intra-Governmental non-entity Loans and Interest Receivable from other federal agencies represent loans issued by the
Department to federal agencies on behalf of the U.S. Government. The Department acts as an intermediary issuing these
loans, because the agencies receiving these loans will lend these funds to others to carry out various programs of the U.S.
Government. Because of the Department’s intermediary role in issuing these loans, the Department does not record an
allowance related to these intra-governmental loans. Instead, loan loss allowances and subsidy costs are recognized by
the ultimate lender, the federal agency that issued the loans to the public.

G. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances have been issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund for
states to pay unemployment benefits. BPD accounts for the advances on behalf of the General Fund. As outlined in the
United States Code (USC) 42 USC §1323, these repayable advances bear an interest rate that is computed as the average
interest rate as of the end of the calendar month preceding the issuance date of the advance for all interest bearing
obligations of the United States that form the public debt, to the nearest lower one-eighth of one percent. Interest on the
repayable advances is due on September 30th of each year. Advances will be repaid by transfers from the Unemployment
Trust Fund to the General Fund when the Secretary, in consultation with the Secretary of Labor, has determined that the
balance in the Unemployment Trust Fund is adequate to allow repayment.

H. INTEREST RECEIVABLE ON DEPOSITS OF EARNINGS, FEDERAL RESERVE SYSTEM
Federal Reserve Banks (FRBs) are required by the Board of Governors of the Federal Reserve System to transfer to the
U.S. Treasury excess earnings, after providing for the cost of operations, payment of dividends, and reservation of an
amount necessary to equate surplus with capital paid in. In the event of losses, or a substantial increase in capital, an
FRB will suspend its payments to the U.S. Treasury until such losses or increases in capital are recovered through
subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The Interest Receivable on FRB
Deposits of Earnings, Federal Reserve System, is included within “Taxes, Interest and Other Receivables, Net” line item
of the Consolidated Balance Sheets (refer to Note 13), and represents the earnings due to the U.S. Treasury as of
September 30, but not collected by the U.S. Treasury until after the end of the month.

I. PROPERTY, PLANT, AND EQUIPMENT, NET
General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also includes
assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for the capital
lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and installation, less
accumulated depreciation. Major alterations and renovations, including leasehold and land improvements, are
capitalized, while maintenance and repair costs are charged to expenses as incurred.

Internal use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal use software are accumulated in work in development
until a project is placed into service, and testing and final acceptance are successfully completed. Once completed, the
costs are transferred to depreciable property.


                                                               64
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

Costs for construction projects are recorded as construction-in-progress until completed, and are valued at actual (direct)
cost, plus applied overhead and other indirect costs.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. GSA charges a standard level user fee which approximates commercial rental rates for similar properties.
Therefore, GSA-owned properties are not included in the Department’s PP&E.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which range from $25,000 to $50,000 for all property
categories except for internal use software thresholds which range from $125,000 to $250,000. The Department also
uses a capitalization threshold range for bulk purchases: $250,000 to $500,000 for non-manufacturing bureaus and
$25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual items that comprise bulk purchases
based on Departmental guidance. In addition, the Department’s bureaus may expense bulk purchases if they conclude
that total period costs would not be materially distorted and the cost of capitalization is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of leasehold
improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the useful life of
the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset or term of the
lease, depending on the conditions met for capitalization. Service life ranges (2 to 50 years) are high due to the
Department’s diversity of PP&E. Land, construction in progress, and internal use software in development are not
depreciated.

Heritage Assets

The Department owns the Treasury Complex (Main Treasury and Treasury Annex) – a multi-use heritage asset. The
buildings housing the Mint facilities in Denver, San Francisco, Fort Knox, and West Point, are also considered multi-use
heritage assets. Multi-use heritage assets are assets of historical significance for which the predominant use is general
government operations. All acquisition, reconstruction, and betterment costs for the Treasury buildings are capitalized
as general PP&E and depreciated over their service life.

J. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is non-entity government-wide cash held in depositary institutions
and FRB accounts. Agencies can deposit funds that are submitted to them directly into either a Federal Reserve Treasury
General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are transferred to the Federal
Reserve Bank of New York (FRBNY)’s TGA at the end of each day.

Operating cash of the U.S. Government represents balances from tax collections, customs duties, other revenue, federal
debt receipts, and other various receipts net of cash outflows for budget outlays and other payments held in the FRBs,
foreign and domestic financial institutions, and in Treasury Tax and Loan (TT&L) accounts. Outstanding checks are
netted against operating cash until they are cleared by the Federal Reserve System.

The TGA is maintained at the FRBNY and functions as the government’s checking account for deposits and
disbursements of public funds. The TT&L program includes about 9,000 depositories that accept tax payments and
remit them the day after receipt to FRBNY’s TGA. Certain TT&L depositories also hold non-entity government-wide cash
in interest bearing accounts. Cash in the TGA and the TT&L program is restricted for government-wide operations.

The Supplementary Financing Program (SFP) Account is maintained at FRBNY. The SFP provides emergency cash for
Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. This program consists of a series
of Treasury bills, apart from the Department’s current borrowing program.

                                                              65
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

The Department’s foreign currency investments having original maturities of three months or less are classified as cash
equivalents. Other foreign currency holdings having terms greater than three months but less than or equal to one year
are classified as “available-for-sale” investments. Special Drawing Rights (SDRs) holdings comprise most of the other
monetary assets (refer below to “Special Drawing Rights” accounting policy).

K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These discounts
and premiums are amortized over the term of the security using an interest method for all long-term securities and the
straight-line method for short-term securities. The Department also issues Treasury Inflation-Protected Securities
(TIPS). The principal for TIPS is adjusted daily over the life of the security based on the Consumer Price Index for all
Urban Consumers.

L. LOAN COMMITMENTS
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above entitled
“Loans and Interest Receivable, Intra-Governmental – Entity and Non-Entity.”) The Department establishes loan
commitments when the Department and other parties fully execute promissory notes in which the Department becomes
obligated to issue such loans immediately or at some future date. The Department reduces loan commitments when the
Department issues the loans or when the commitments expire. Most obligations of the Department give a borrower the
contractual right to a loan or loans immediately or at some point in the future within an agreed upon timeframe.

M. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS
The Department recognizes the full costs of its employees’ pension benefits. However, the liabilities associated with these
costs are recognized by the Office of Personnel Management (OPM) rather than the Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes 7 percent of pay. On January 1, 1987, the Federal Employees’ Retirement
System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees hired after December 31, 1983, are
automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which the
Department automatically contributes 1 percent of base pay and matches any employee contributions up to an additional
4 percent of base pay. For most employees hired after December 31, 1983, the Department also contributes the
employer’s matching share for Social Security. For the FERS basic benefit, the Department contributes 11.2 percent for
regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the liability for future payments to retired
employees who participate in the Federal Employees Health Benefits Program (FEHBP) and Federal Employees Group
Life Insurance (FEGLI) Program. The Department reports the full cost of providing other retirement benefits (ORB).
The Department also recognizes an expense and a liability for other post-employment benefits (OPEB), which includes all
types of benefits, provided to former or inactive (but not retired) employees, their beneficiaries, and covered dependents.
Additionally, one of the Department’s bureaus, OCC, separately sponsors a defined life insurance benefit plan for current
and retired employees. In connection with the July 21, 2011, merger of OTS into OCC’s operations (refer to Note 1A),
OCC became the administrator for OTS’s private defined benefit retirement plan (the Pentegra Defined Benefit Plan
(PDBP)), and assumed the liability associated with this plan. The PDBP covers certain former OTS employees, and
provides certain health and life insurance benefits for all retired OTS employees who meet eligibility requirements.



                                                             66
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

N. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the International Monetary Fund (IMF) to supplement its member
countries’ official reserves. Under its Articles of Agreement, the IMF may allocate SDRs to member countries in
proportion to their IMF quotas. Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF holds all
SDRs allocated to or otherwise acquired by the United States.

Allocations and Holdings

When the IMF allocates SDRs to its members, SDR holdings are recorded as assets of the members and SDR allocations
are recorded as liabilities. SDR holdings increase primarily as a result of IMF SDR allocations. Other transactions
reported in this account are recorded as incurred. They include acquisitions and sales of SDRs, interest received on SDR
holdings, interest charges on SDRs allocations, and valuation adjustments. The U.S. Government receives remuneration
in SDRs from the IMF and is based on claims on the IMF, represented by the U.S. Reserve Position. The SDR amount is
credited to the ESF, which transfers to the Treasury General Account an equivalent amount of dollars plus nominal
interest. The allocations and holdings are revalued monthly based on the SDR valuation rate as calculated by the IMF.
The liabilities represent the amount that is payable in the event of liquidation of, or U.S. withdrawal from, the SDR
Department of the IMF or cancellation of the SDRs.

Certificates Issued to the Federal Reserve

The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources financing other ESF
operations. Certificates issued are to be redeemed by the Department at such times and in such amounts as the Secretary
may determine, and do not bear interest. Certificates issued to FRB are reported at their face value. It is not practical to
estimate the fair value of certificates issued to FRB, since these certificates contain no specific terms of repayment.

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational disease.
The FECA program is administered by DOL which pays valid claims and subsequently seeks reimbursements from the
Department for these paid claims. Generally, the Department reimburses DOL within two to three years once funds are
appropriated. These future workers’ compensation estimates are generated by applying actuarial procedures developed
to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for which
funding is not available is recorded as an unfunded liability. Sick and other leave are expensed as taken.

Q. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
when earned; i.e., goods have been delivered or services have been rendered. Revenue from reimbursable agreements is

                                                              67
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

recognized when the services are provided. Non-exchange revenues are recognized when received by the respective
collecting bureau. Appropriations used are recognized as financing sources when related expenses are incurred or assets
are purchased. The Department also incurs certain costs that are paid in total or in part by other federal entities, such as
pension costs, the FEHBP, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the
Department. These subsidized costs are recognized on the Consolidated Statement of Net Cost, and the imputed
financing for these costs is recognized on the Consolidated Statement of Changes in Net Position. As a result, there is no
effect on net position. Other non-exchange financing sources such as donations and transfers of assets without
reimbursements are also recognized for the period in which they occurred on the Consolidated Statements of Changes in
Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Consolidated Statements of Changes in Net Position. The costs related to the Forfeiture Fund program are reported on
the Consolidated Statements of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing non-
tax forfeiture proceeds received pursuant to laws enforced or administered by law enforcement bureaus that participate
in the Treasury Forfeiture Fund. Forfeited property balances are reported in “Other Assets” on the Consolidated Balance
Sheets.

R. CUSTODIAL REVENUES AND COLLECTIONS
Non-entity revenue reported on the Department’s Statements of Custodial Activity includes cash collected by the
Department, primarily from taxes. It does not include revenue collected by other federal agencies, such as user fees and
other receipts, which are remitted for general operating purposes of the U.S. Government or are earmarked for certain
trust funds. The Statements of Custodial Activity are presented on the “modified accrual basis.” Revenues are recognized
as cash is collected, as well as for non-cash market valuation changes related to the U.S. Government’s holdings in
American International Group, Inc. The “accrual adjustment” is the net increase or decrease during the reporting period
in net revenue related–assets and liabilities, mainly taxes receivable. The Consolidated Balance Sheets include estimated
amounts for taxes receivable and payable to the General Fund at September 30, 2011 and 2010.

S. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes that they owe. Amounts that the Department has concluded to be valid refunds owed to taxpayers
are recorded as a liability entitled “Refunds Payable” on the Consolidated Balance Sheets, with a corresponding
receivable from the General Fund. This receivable is included on the Consolidated Balance Sheets within the line entitled
“Due from the General Fund.”

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable at year
end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an indefinite
period of time. Although funded through appropriations, refund activity, in most instances, is reported as a custodial
activity of the Department, since refunds are, in substance, a custodial revenue-related activity resulting from taxpayer
overpayments of their tax liabilities.

The Department also receives two permanent and indefinite appropriations related to debt activity. One is used to pay
interest on the public debt securities; the other is used to redeem securities that have matured, been called, or are eligible
for early redemption. These accounts are not annual appropriations and do not have refunds. Debt activity

                                                             68
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

appropriations are related to the Department’s liability and are reported on the Department’s Balance Sheet. Permanent
indefinite authority for debt activity is available for an indefinite period of time.

The Department receives permanent indefinite appropriations annually to fund increases in the projected subsidy costs
of credit programs as determined by the re-estimation process required by the FCRA. The Department’s renewable
energy and low income housing projects are also covered by permanent indefinite appropriations.

Additionally, the Department receives other permanent and indefinite appropriations to make certain payments on
behalf of the U.S. Government. These appropriations are provided to make payments to the FRB for fiscal services
provided and to the financial institutions for services provided as financial agents of the U.S. Government. They also
include appropriations provided to make other disbursements on behalf of the U.S. Government, including payments
made to various parties as the result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. Government, the Department is exempt from all income taxes imposed by any governing body,
whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results could differ from
these estimates. It is possible that the results of operations, cash flows or the financial position of the Department could
be materially affected in future periods by adverse changes in the outlook for the key assumptions underlying
management’s estimates. Significant transactions subject to estimates include loan and credit program receivables;
investments in GSEs and other non-federal securities and related impairment; tax receivables; loan guarantees;
depreciation; liability for liquidity commitment to GSEs; imputed costs; actuarial liabilities; cost and earned revenue
allocations; contingent legal liabilities; and credit reform subsidy costs.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit reform
accounting (refer to the accounting policy below entitled “Credit Program Receivables,” and Notes 7 and 11). These
receivables are derived using credit reform modeling which is subject to the use of estimates. The Department recognizes
the sensitivity of credit reform modeling to slight changes in some model assumptions and uses regular review of model
factors, statistical modeling, and annual reestimates to reflect the most accurate cost of the credit programs to the U.S.
Government. The purpose of reestimates is to update original program subsidy cost estimates to reflect actual cash flow
experience as well as changes in forecasts of future cash flows. Forecasts of future cash flows are updated based on actual
program performance to date, additional information about the portfolio, additional publicly available relevant historical
market data on securities performance, revised expectations for future economic conditions, and enhancements to cash
flow projection methods.

The forecasted cash flows used to determine these credit program amounts are sensitive to slight changes in model
assumptions, such as general economic conditions, specific stock price volatility of the entities in which the Department
has an equity interest, estimates of expected default, and prepayment rates. Forecasts of financial results have inherent
uncertainty. The TARP Credit Program Receivables, Net, line items is reflective of relatively illiquid, troubled assets
whose values are particularly sensitive to future economic conditions and other assumptions. Additional discussion
related to sensitivity analysis can be found in the Management’s Discussion and Analysis section of this Agency Financial
Report.




                                                               69
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

The liabilities to the GSEs related to the SPSPA is a contingent liquidity commitment, predicated on the future
occurrence of excess liabilities over the assets of either GSE at the end of any reporting quarter, and are potential
liabilities of the Department. The Department performs annual valuations, as of September 30th, on the preferred stock
and warrants in an attempt to provide a “sufficiently reliable” estimate of the outstanding commitments in order for the
Department to record the remaining liability in accordance with SFFAS No. 5, Accounting for Liabilities of the U.S.
Government.

The valuations incorporated various forecasts, projections and cash flow analyses to develop an estimate of potential
liability. Any changes in valuation, including impairment, are recorded and disclosed in accordance with SFFAS No. 7,
Accounting for Revenue and Other Financing Sources. Since the valuation is an annual process, the change in valuation
of the preferred stock and warrants are deemed usual and recurring. The GSEs contingent liability is assessed annually
and recorded at the gross estimated amount, without considering the increase in preferred stock liquidity preference,
future dividend payments, or future commitment fees, due to the uncertainties involved. Note 8 includes a detailed
discussion of the results of the valuation and the liability recorded as of September 30, 2011.

Estimation of such complex and long duration contingencies is subject to uncertainty, and it is possible that new
developments will adversely impact ultimate amounts required to be funded by the Department under agreements
between the Department and each GSE (Note 8). Specifically, the occurrence of future shareholder deficits, which
ultimately determines the Department’s liabilities to the GSEs, is most sensitive to future changes in the housing price
index.

W. CREDIT RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial transactions
with foreign countries (Note 10). Given the history of the Department with respect to such exposure and the financial
policies in place in the U.S. Government and other institutions in which the United States participates, the Department’s
expectation of credit losses is nominal.

The Department also takes on credit risk related to the following: committed but undisbursed direct loans; its liquidity
commitment to the GSEs; its MBS portfolio; its GSE obligations obtained under the HFA Initiative (the NIBP and TCLP);
investments, loans, and other credit programs of the TARP; its programs including the CDFI fund, SBLF, and certain
portions of the Department’s participation in the IMF; and its Terrorism Risk Insurance Program. Except for the
Terrorism Risk Insurance Program, these activities focus on the underlying problems in the credit markets, and the
ongoing instability in those markets exposes the Department to potential costs and losses. The extent of the risk assumed
by the Department is described in more detail in the notes to the financial statements, and, where applicable, is factored
into credit reform models and reflected in fair value measurements (Notes 7, 8, and 11).

In addition, for EESA programs, the statute requires that the budgetary costs of the troubled assets and guarantees of
troubled assets be calculated by adjusting the discount rate for market risks. Within the TARP programs, the Department
has invested in many assets that would traditionally be held by private investors and their valuation would inherently
include market risk. Accordingly, for all TARP direct loans, equity investments, and other credit programs, the
Department calculates a Market Risk Adjusted Discount Rate (MRADR). Therefore, the Department’s cost estimates for
the TARP programs are adjusted for unexpected loss and the estimated risk of expected cash flows. Under SFFAS No. 2,
including market risk in the cash flow estimates is consistent with the type of assets being valued. The inclusion of the
MRADR is the mechanism for deriving a fair value of the assets. As directed by Congress, a MRADR is also used in the
credit reform model for certain portions of the Department’s participation in the IMF.

                                                             70
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

X. EARMARKED FUNDS
The Department has accounted for revenues and other financing sources for earmarked funds separately from other
funds. Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. These specifically identified revenues and other financing sources are required by
statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting Earmarked Funds
(SFFAS No. 27), defines the following three criteria for determining an earmarked fund: (1) a statute committing the U.S.
Government to use specifically identified revenues and other financing sources not used in the current period for future
use to finance the designated activities, benefits, or purposes; (2) explicit authority for the earmarked fund to retain
revenues and other financing sources not used in the current period for future use to finance the designated activities,
benefits, or purposes; and (3) a requirement to account for and report on the receipt, use, and retention of the revenues
and other financing sources that distinguished the earmarked fund from the U.S. Government’s general revenues.

Y. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or
a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S.
Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent. Parent federal agencies report both the
proprietary and budgetary activity and the child agency does not report any financial activity related to budget authority
allocated from the parent federal agency to the child federal agency.

The Department allocates funds, as the parent, to the Department of Energy. OMB allows certain exceptions to allocation
reporting for certain funds. Accordingly, the Department has reported certain funds for which the Department is the
child in the allocation transfer, but in compliance with OMB guidance (Circular No. A-136, II.4.2, question 5, for three
exceptions), will report all activities relative to these allocation transfers in the Department’s financial statements. Also,
the Department receives allocation transfers, as the child, from the Agency for International Development, General
Services Administration, and Department of Transportation.

Z. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and preferred
stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities, under the
provisions of credit reform accounting (Note 7). In addition to its TARP programs, the Department accounts for all other
of its credit program receivables under the provisions of credit reform accounting, including the loans or equity securities
associated with the Department’s: GSE mortgage-backed securities (MBS) purchase program, state and local Housing
Finance Agency (HFA) Initiative program, SBLF program, CDFI program, and certain portions of the Department’s
participation in the IMF (Note 11).

To account for the Department’s TARP and other credit program receivables, the Department applies the accounting
provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18,
Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No. 2, as amended, requires
measurement of the asset or liability at the net present value of the estimated future cash flows. The cash flow estimates
for each credit program transaction reflect the actual structure of the instruments. For each of these instruments, the
Department estimates cash inflows and outflows related to the program over the estimated term of the instrument.


                                                              71
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Further, each cash-flow estimate reflects the specific terms and conditions of the program, technical assumptions
regarding the underlying assets, risk of default or other losses, and other factors as appropriate. The measurement of
assets within these programs is primarily derived from inputs which generally represent market data and, when such data
is not available, management’s best estimate of how a market participant would assess the risk inherent in the asset.

SFFAS No. 2, as amended, was promulgated as a result of the FCRA. The primary purpose of the FCRA is to more
accurately measure the cost of federal credit programs and to place the cost of such credit programs on a basis equivalent
with other federal spending. The FCRA requires that the ultimate costs of a credit program be calculated and the
budgetary resources obtained before the direct loan obligations are incurred. To accomplish this, the Department first
predicts or estimates the future performance of direct and guaranteed loans when preparing its annual budget. The data
used for these budgetary estimates are reestimated after the fiscal year-end to reflect changes in actual loan performance
and actual interest rates in effect when the loans were issued. The reestimated data reflect adjustments for market risks,
asset performance, and other key variables and economic factors. The reestimated data are then used to report the cost
of the loans disbursed under the direct or guaranteed loan program as a “Program Cost” in the Department’s
Consolidated Statements of Net Cost.

Cash flows associated with the Department’s credit programs generally include disbursements, repayments, repurchases,
fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury, negative subsidy, and
the subsidy cost received from the program accounts. Security-level data and assumptions used as the basis for cash flow
model forecasts and program performance are drawn from widely available market sources, as well as information
published by investees. Key inputs to the cash flow forecasts include:

   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
   Department actions as well as changes in legislation
   Forecast prepayment rates and default rates
   Forecast dividend payments
   Expected escrow conversion and return rates
   Default and recovery reports published by Moody’s and Standard and Poor’s
   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs is based on the calculated net
present value of expected future cash flows. The Department’s actions, as well as changes in legislation, may impact
estimated future cash flows and related subsidy costs. The cost or cost savings of a modification is recognized in subsidy
costs when the terms of a program are modified. Subsidy costs are also impacted by reestimates which may occur as a
result of updates to the original program subsidy cost estimates to reflect actual cash flows experience, as well as changes
in forecasts of estimated future cash flows associated with the credit program.

AA. FIDUCIARY ACTIVITIES
In accordance with SFFAS No. 31, Accounting for Fiduciary Activities, fiduciary type activities and related transactions
will no longer be reported by the Department in its proprietary financial statements. Fiduciary activities are the
collection or receipt, and the management, protection, accounting, investment, and disposition by the U.S. Government
of cash or other assets in which non-Federal individuals or entities have an ownership interest that the U.S. Government
must uphold. Fiduciary cash and other assets are not assets of the U.S. Government. While these activities are not



                                                             72
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

reported in the Department’s consolidated financial statements, they are required to be reported on schedules in the
notes to the financial statements (Note 27).

AB. RELATED PARTIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly through
the normal lending activities of the BPD and the FFB. These activities are disclosed in these financial statements. The
Department utilizes the services of the FRB to execute a variety of transactions on behalf of the BPD and the ESF. The
FRB is serving as the Department’s fiscal agent in executing these transactions and receives fees for its services. The
Department also consults with the FRB on matters affecting the economy, such as the structuring of bailout financing for
the GSEs, AIG, and other companies affected by the current economic situation. Transactions and balances arising from
these transactions are accounted for and disclosed in the consolidated financial statements (Notes 7, 8, 11, and 26).

Finally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA on matters involving
Fannie Mae and Freddie Mac. This provides the Department a voice in the FHFA’s actions as the conservator for Fannie
Mae and Freddie Mac. The Department has no transactions with FHFA.

AC. IMMATERIAL CORRECTION OF ERROR IN PREVIOUSLY ISSUED FINANCIAL STATEMENTS
The Department’s previously issued fiscal year 2010 consolidated financial statements have been revised to correct
immaterial errors reflected in the note to the consolidated financial statements entitled “Collection and Disposition of
Custodial Revenue” (Note 23 and Note 26 in the Department’s fiscal year 2011 and 2010 annual report, respectively).
Specifically, the amounts of custodial revenue collected by tax year associated with “Corporate Income Taxes” were
incorrectly reported in the prior year notes. Additionally, the amounts of federal tax refunds paid by tax year associated
with “Individual Income and FICA Taxes” were incorrectly reported in the prior year note. However, the total amount of
custodial revenue collected and the total of Federal tax refunds paid for fiscal year 2010 were properly reported in the
prior year note. Accordingly, these errors had no impact on the Department’s consolidated financial results or financial
position, nor did they impact the Statements of Custodial Activity. Management of the Department believes these errors
were immaterial to the fiscal year 2010 amounts disclosed in the notes and to the Department’s consolidated financial
statements taken as a whole.


2. FUND BALANCE
As of September 30, 2011 and 2010, fund balance consisted of the following (in millions):
                                                                                                  2011              2010
Appropriated Funds                                                                      $      344,913     $     402,036
Revolving Funds                                                                                 35,464            34,096
Clearing Funds                                                                                     392                21
Deposit Funds                                                                                      170               132
Trust Funds                                                                                         16                84
Special Funds                                                                                      721               656
Other Funds (Receipt Fund and Suspense Funds)                                                      108                 1
Total Fund Balance                                                                      $      381,784     $     437,026

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of the Department.

Clearing funds represent reconciling differences with the Department’s balances as reported in the U.S. Government’s
central accounts. These fund accounts temporarily hold unidentifiable general, special, or trust fund collections that
belong to the Federal Government until they are classified to the proper receipt or expenditure account by the federal
entity.


                                                             73
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Revolving funds are used for continuing cycles of business-like activity, in which the fund charges for the sale of products
or services and uses the proceeds to finance its spending, usually without requirement for annual appropriations. A
public enterprise revolving fund is an account that is authorized by law to be credited with offsetting collections from the
public and those monies are used to finance operations. The Working Capital Fund is a fee-for-service fund established
to support operations of Department components. Also included are the financing funds for credit reform.

Deposit funds represent amounts received as an advance that are not accompanied by an order and seized cash. Trust
funds include both receipt accounts and expenditure accounts that are designated by law as a trust fund. Trust fund
receipts are used for specific purposes. Special funds include funds designated for specific purposes including the
disbursement of non-entity monies received in connection with the Presidential Election Campaign.

STATUS OF FUND BALANCE
As of September 30, 2011 and 2010, the status of the fund balance consisted of the following (in millions):
                                                                                      2011                          2010
Unobligated Balance - Available                                             $     270,786               $        301,811
Unobligated Balance - Not Available                                                 98,168                        70,432
Unpaid Obligations                                                                270,983                       208,189
Subtotal                                                                          639,937                       580,432
Adjustment for Non-Budgetary Funds                                                     674                           161
Adjustment for ESF                                                              (105,026)                     (103,788)
Adjustment for Borrowing Authority                                              (123,844)                       (23,477)
Adjustment for IMF                                                               (27,065)                       (13,081)
Adjustment for Intra-Treasury Investments                                          (7,024)                       (7,026)
Authority Unavailable for Obligation                                                 3,721                         3,727
Adjustment for Imprest Funds                                                            (4)                           (4)
Adjustment for Temporary Reduction                                                     423                            90
Adjustment for Indian Trust Funds                                                       (8)                           (8)
Total Status of Fund Balance                                                $     381,784               $       437,026

Portions of the Unobligated Balance Not Available as shown on the Combined Statement of Budgetary Resources include
amounts appropriated in prior fiscal years that are not available to fund new obligations. However, such amounts may be
used for upward and downward adjustments for existing obligations in future years. The Unpaid Obligations represents
amounts designated for payment of goods and services ordered but not received or goods and services received but for
which payment has not yet been made.

Since the following line items do not post to budgetary status accounts, the following adjustments are required to
reconcile the budgetary status to non-budgetary Fund Balance as reported in the accompanying Consolidated Balance
Sheets:

   Adjustments for Non-Budgetary Funds are receipt, clearing, and deposit funds that represent amounts on deposit
    with Treasury that have no budgetary status.
   Adjustments for ESF – ESF investments and related balances that meet the criteria for reporting as part of budgetary
    resources are reported on the Statement of Budgetary Resources; however, they are not a component of the Fund
    Balance as they represent invested funds and thus have to be excluded from Total Status of Fund Balance reported in
    this note.
   Adjustments for Borrowing Authority – Borrowing authority is in budgetary status but not in the Fund Balance.
   Adjustments for IMF – Monies moved from Fund Balance to Other Monetary Assets related to IMF accounts that
    have no budgetary resources and are with the FRBNY.




                                                             74
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

   Adjustments for Intra-Treasury Investments – Budgetary resources have investments included; however, the money
    has been moved from the Fund Balance asset account to Investments.
   Adjustment for Unavailable for Obligations reduced the budgetary resources; however, it did not impact the Fund
    Balance.
   Adjustments for Imprest Funds – Imprest funds represent monies moved from the Fund Balance to Cash and Other
    Monetary Assets with no change in the budgetary status.

As of September 30, 2011 and 2010, the Department did not have any budgetary authority in the Fund Balance that was
specifically withheld from apportionment by OMB. The balances in non-entity funds, such as certain deposit funds (e.g.,
seized cash), are being held by the Department for the public or for another federal entity, such as the General Fund.
Such funds have an offsetting liability equal to fund balance. See Note 12 regarding restrictions related to the line of
credit held on the U.S. quota in the IMF.

Unused funds in expired appropriations returned to the General Fund were $127 million and $166 million for the fiscal
years ending September 30, 2011 and 2010, respectively.


3. LOANS AND INTEREST RECEIVABLE – INTRA-GOVERNMENTAL
ENTITY INTRA-GOVERNMENTAL
The Department, through FFB, issues loans to federal agencies for their own use or to private sector borrowers whose
loans are guaranteed by the federal agencies. When a federal agency has to honor its guarantee because a private sector
borrower defaults, the federal agency that guaranteed the loan must obtain an appropriation or use other resources to
repay the FFB. All principal and interest on loans to federal agencies and private sector borrowers are, or have a
commitment to be, backed by the full faith and credit of the U.S. Government. The Department has not recognized any
credit-related losses on its loans, nor has the Department recorded an allowance for uncollectible intra-governmental
loans.

As of September 30, 2011 and 2010, entity intra-governmental loans (issued by the FFB) and interest receivable consisted
of the following (in millions):
                                             Loans        Interest           2011            Loans       Interest          2010
                                         Receivable     Receivable           Total       Receivable    Receivable          Total
Department of Agriculture               $    34,178    $          48    $   34,226       $   31,264    $      53    $   31,317
National Credit Union Administration              -                -              -           10,101          15        10,116
United States Postal Service                 13,000               47        13,047           12,000           41        12,041
Department of Energy                          6,929               15         6,944             2,931           4         2,935
General Services Administration               1,898               33          1,931            1,973          35        2,008
Other Agencies                                1,083                8         1,091             1,039           8         1,047
Total Entity Intra-governmental         $    57,088    $          151   $   57,239       $   59,308    $     156    $   59,464


NON-ENTITY INTRA-GOVERNMENTAL
The Department, through BPD, accounts for and reports on the principal borrowings from and repayments to the General
Fund for approximately 91 funds managed by other federal agencies, as well as the related interest due to the General
Fund. These agencies are statutorily authorized to borrow from the General Fund, through BPD, to make loans for a
broad range of purposes, such as education, housing, farming, and small business support.




                                                             75
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

    As of September 30, 2011 and 2010, non-entity intra-governmental loans (issued by BPD) and interest receivable due to
    the General Fund consisted of the following (in millions):

                                                      Loans        Interest            2011            Loans       Interest            2010
                                                  Receivable     Receivable           Total        Receivable    Receivable            Total

Department of Education                       $     546,321      $         -    $   546,321    $      373,717    $         -   $   373,717
Department of Agriculture                            55,356                -         55,356           56,598               -       56,598
Department of Homeland Security                      17,754                -         17,754            18,504              -        18,504
Small Business Administration                        11,190                -         11,190             11,752             -         11,752
Export-Import Bank of the U.S.                        8,279                -          8,279              7,254             -          7,254
Department of Labor                                   6,163                -          6,163             6,290              -         6,290
Department of Housing and Urban Development           6,090                -          6,090              4,775             -          4,775
Department of Transportation                          4,342                1          4,343             3,076              -         3,076
National Credit Union Administration                  3,500                2          3,502                  -             -              -
Railroad Retirement Board                             3,484               52          3,536              3,481            54          3,535
Department of Energy                                  3,104               20          3,124              2,601            21         2,622
Overseas Private Investment Corporation               1,828                -          1,828              1,403             -          1,403
Department of Veterans Affairs                         1,675               -           1,675             1,650             -          1,650
Other Agencies                                        2,250                -          2,250             2,030            183          2,213
Total Non-Entity Intra-
  governmental                                $     671,336      $         75   $   671,411    $     493,131     $       258   $   493,389

Total Intra-governmental Loans and
  Interest Receivable (Entity and Non-
  Entity)                                     $     728,424      $        226   $   728,650    $     552,439     $       414   $   552,853



    4. DUE FROM THE GENERAL FUND AND DUE TO THE GENERAL
       FUND
    The Department is responsible for managing various assets and liabilities on behalf of the U.S. Government as a whole.
    Due from the General Fund represents amounts required to fund liabilities managed by the Department on behalf of the
    U.S. Government. Liabilities managed by the Department are comprised primarily of the federal debt. Due to the
    General Fund represents assets held for the General Fund.

    As of September 30, 2011 and 2010, Due from and Due to the General Fund included the following non-entity assets and
    liabilities (in millions):

    Liabilities Requiring Funding from the General Fund                                                2011                     2010
    Federal Debt and Interest Payable (Note 16)                                                $ 10,148,963          $     9,035,929
    Federal Debt and Interest Payable - Intra-governmental (Note 16)                              4,719,668                4,587,802
    Refunds Payable (Note 23)                                                                         3,983                    4,146
    Adjustment for Eliminated Liabilities                                                            30,103                   27,760
    Total Due from the General Fund                                                            $ 14,902,717          $    13,655,637




                                                                     76
                                                                          U.S. Department of the Treasury | Fiscal Year 2011

Assets to be Distributed to the General Fund                                                              2011                   2010
Fund Balance                                                                                   $           358      $             249
Advances to the Unemployment Trust Fund                                                                 42,773                  34,111
Cash Due to the General Fund (Held by the Department) (Note 5)                                          49,949                303,797
Foreign Currency                                                                                             73                      3
Custodial Gold without certificates and Silver held by the U.S. Mint                                         25                    25
Loans and Interest Receivable - Intra-governmental (Note 3)                                             671,411              493,389
Loans and Interest Receivable                                                                                99                   124
Investments in Government Sponsored Enterprises (Note 8)                                               133,043                109,216
Credit Reform Downward Subsidy Reestimate                                                               13,022                 25,579
Accounts Receivable - Intra-governmental                                                                   388                    350
Taxes and Other Non-Entity Receivables Due to General Fund                                              36,615                 36,927
Non-TARP Investments in American International Group, Inc. (Note 26)                                    10,862                 20,805
Miscellaneous Assets                                                                                          2                      5
Adjustment for Eliminated Assets                                                                       267,855                389,672
Total Due to the General Fund                                                                  $     1,226,475      $       1,414,252
The assets to be distributed to the General Fund do not represent all of the non-entity assets managed by the Department.
See Note 15 for all non-entity assets held by the Department.

The Fund Balance reported above represents the non-entity funds held by the Department on behalf of the General Fund.
It is used to administer programs such as the Presidential Election Campaign and payments for Legal Services
Corporation and thus not available for general use by the Department.

Advances have been issued to the DOL’s Unemployment Trust Fund from the General Fund to states for unemployment
benefits.

The non-entity Credit Reform Downward Subsidy Reestimate represents amounts for the downward subsidy reestimates
for the Department’s credit programs including TARP Equity Investments and Direct Loans (See Note 1V and 1Z).

The Adjustment for Eliminated Liabilities principally represents investments in U.S. Government securities held by the
Department’s reporting entities that were eliminated against Federal Debt and Interest Payable Intra-governmental. The
Adjustment for Eliminated Assets principally represents loans and interest payable owed by the Treasury reporting
entities, which were eliminated against Loans and Interest Receivable Intra-governmental held by the BPD.


5. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Cash, foreign currency, and other monetary assets held as of September 30, 2011 and 2010 were as follows (in millions):
                                                                                                             2011              2010
Entity:
Cash                                                                                                 $         74       $         16
Foreign Currency and Foreign Currency Denominated Assets                                                   10,767             10,591
Other Monetary Assets:
  Special Drawing Right Holdings                                                                           55,911            57,439
  Other                                                                                                       153               144
Total Entity                                                                                              66,905             68,190

Non-Entity:
Operating Cash of the U.S. Government                                                                     49,812            303,576
Foreign Currency                                                                                               73                 3
Miscellaneous Cash Held by All Treasury Reporting Entities                                                    331               665
Total Non-Entity                                                                                          50,216            304,244
Total Cash, Foreign Currency, and Other Monetary Assets                                              $    117,121       $   372,434




                                                                 77
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

Non-Entity Operating Cash and Other Cash of the U.S. Government held by the Department disclosed above consisted of
the following (in millions):
                                                                                                        2011          2010
Operating Cash - FRB Account                                                                    $    56,284     $ 307,850
Operating Cash - Other                                                                                 1,805         2,032
Subtotal                                                                                             58,089       309,882
Outstanding Checks                                                                                   (8,277)       (6,306)
Total Operating Cash of the U.S. Government                                                          49,812       303,576
Other Cash                                                                                               230           297
Subtotal                                                                                             50,042       303,873
Amounts Due to the Public                                                                               (93)           (76)
Total Cash Due to the General Fund (Note 4)                                                     $    49,949     $ 303,797

ENTITY
Cash, Foreign Currency, and Other Monetary Assets

Entity cash, foreign currency, and other monetary assets primarily include Foreign Currency Denominated Assets
(FCDA), SDRs, Securities Purchased Under Agreement to Resell, and forfeited cash. SDRs and FCDAs are valued as of
September 30, 2011 and 2010 using current exchange rates plus accrued interest. The “Other” amount reported within
the entity category above includes U.S. dollars restricted for use by the IMF, which are maintained in two accounts at the
FRBNY.

The foreign currency holdings are normally invested in interest-bearing securities issued by or held through foreign
governments or monetary authorities. FCDAs with original maturities of three months or less, in addition to securities
purchased under agreement to resell, were valued at $10.8 billion and $10.6 billion as of September 30, 2011 and 2010,
respectively.

Special Drawing Rights

The SDR is an international reserve asset created by the IMF to supplement existing reserve assets. The IMF has
allocated new SDRs on several occasions to members participating in the IMF’s SDR Department. The SDR derives its
value as a reserve asset essentially from the commitments of participants to hold and accept SDRs and to honor various
obligations connected with their proper functioning as a reserve asset. Pursuant to the Special Drawing Rights Act of
1968, as amended, the Department issued certificates to the Federal Reserve, valued at $5.2 billion as of September 30,
2011 and 2010, to finance its acquisition of SDRs from other countries or to provide U.S. dollar resources for financing
other ESF operations.

On a daily basis, the IMF calculates the value of the SDR using the market value in terms of the U.S. dollar from weighted
amounts of each of four freely usable currencies, as defined by the IMF. These currencies are the U.S. dollar, the
European euro, the Japanese yen, and the British pound sterling. The Department’s SDR holdings (assets resulting from
various SDR-related activities including remuneration received on interest earned on the U.S. reserve position – see Note
12) and allocations from the IMF (liabilities of the U.S. coming due only in the event of a liquidation of, or U.S.
withdrawal from, the SDR Department of the IMF, or cancellation of SDRs) are revalued monthly based on the SDR
valuation rate calculated by the IMF, resulting in the recognition of unrealized gains or losses on revaluation.

Pursuant to the IMF Articles of Agreement, SDRs allocated to or otherwise acquired by the United States are permanent
resources unless:

      cancelled by the Board of Governors pursuant to an 85.0 percent majority decision of the total voting power of
       IMF members;


                                                              78
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

      the SDR Department of the IMF is liquidated;

      the IMF is liquidated; or

      the United States chooses to withdraw from the IMF or terminate its participation in the SDR Department

Except for the payment of interest and charges on SDR allocations to the United States, the payment of the Department’s
commitment related to SDR allocations is conditional on events listed above, in which the United States has a substantial
or controlling voice. Allocations of SDRs were made in 1970, 1971, 1972, 1979, 1980, 1981, and 2009.

As of September 30, 2011 and 2010, the total amount of SDR holdings of the United States was the equivalent of $55.9
billion and $57.4 billion, respectively. As of September 30, 2011 and 2010, the total amount of cumulative SDR
allocations to the United States was the equivalent of $55.1 billion and $54.9 billion, respectively. The United States has
received no SDR allocations since 2009.

During fiscal years 2011 and 2010, the United States received remuneration on its reserve position in the IMF at the
prevailing rates in the amount of $63.1 million and $23.4 million equivalent of SDRs, respectively.

Securities Purchased Under Agreement to Resell

The FRBNY, on behalf of ESF, enters into transactions to purchase foreign-currency-denominated government-debt
securities under agreements to resell for which the accepted collateral is the debt instruments, denominated in Euros,
and issued or guaranteed in full by European governments. These agreements are subject to daily margining
requirements.

NON-ENTITY
Cash, Foreign Currency, and Other Monetary Assets

Non-entity cash, foreign currency, and other monetary assets include the Operating Cash of the U.S. Government,
managed by the Department. Also included is foreign currency maintained by various U.S. disbursing offices. It also
includes seized monetary instruments, undistributed cash, and offers in compromises which are maintained as the result
of the Department’s tax collecting responsibilities.

The Operating Cash of the U.S. Government represents balances from tax collections, other revenues, federal debt
receipts, and other various receipts net of checks outstanding, which are held in the FRBs, foreign and domestic financial
institutions, and in U.S. Treasury tax and loan accounts at commercial banks.

Operating Cash of the U.S. Government is either insured by the FDIC (for balances up to $250,000 as of September 30,
2011 and 2010), collateralized by securities pledged by the depository institutions and held by FRB, or through securities
held under reverse repurchase agreements.

Supplementary Financing Program

The SFP is a temporary program announced on September 17, 2008, by the Department and the Federal Reserve, to
provide emergency cash for Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. As of
September 30, 2011, there were no outstanding cash management bills earmarked for SFP, as compared to eight
outstanding cash management bills totaling $200.0 billion as of September 30, 2010.




                                                             79
                                                                      U.S. Department of the Treasury | Fiscal Year 2011


6. GOLD AND SILVER RESERVES, AND GOLD CERTIFICATES
   ISSUED TO THE FEDERAL RESERVE BANKS
The Department, through the Mint, is responsible for safeguarding most of the U.S. Government’s gold and silver
reserves in accordance with 31 USC §5117. Most of the gold and all of the silver reserves are in the custody of the Mint,
and a smaller portion of the gold is in the custody of the FRBs.

The gold reserves being held by the Department are partially offset by a liability for gold certificates issued by the
Secretary to the FRBNY at the statutory rate, as provided in 31 USC §5117. Since 1934, Gold Certificates have been issued
in non-definitive or book-entry form to the FRBNY. The Department’s liability incurred by issuing the Gold Certificates,
as reported on the Consolidated Balance Sheets, is limited to the gold being held by the Department at the statutory
value. Upon issuance of Gold Certificates to the FRBNY, the proceeds from the certificates are deposited into the
operating cash of the U.S. Government. All of the Department’s certificates issued are payable to the FRBNY. The Mint
also holds 100,000 fine troy ounces (FTO) ($4 million) of gold reserves without certificates.

The gold and silver bullion reserve (deep storage and working stock) are reported at the values stated in 31 USC § 5116 –
5117 (statutory rates) which are $42.2222 per FTO of gold and no less than $1.292929292 per FTO of silver. Accordingly,
the silver is valued at $1.292929292 per FTO. As of September 30, 2011 and 2010, the value of gold and silver reserves
consisted of the following (in millions):


                                                                                         2011           Market           2011
                                                               Statutory            Statutory         Rate Per         Market
                                                   FTOs             Rate                Value             FTO           Value
Gold                                        248,046,116       $ 42.2222         $      10,473     $   1,620.00      $ 401,835
Gold Held by Federal Reserve Banks            13,452,784      $ 42.2222                   568     $   1,620.00         21,794
Total Gold                                  261,498,900                                11,041                         423,629
Silver                                       16,000,000       $      1.2929                21     $       30.45           487
Total Gold and Silver Reserves                                                  $      11,062                       $ 424,116


                                                                                          2010            Market           2010
                                                                   Statutory         Statutory          Rate Per          Market
                                                     FTOs               Rate             Value              FTO            Value
Gold                                          248,046,116     $     42.2222     $       10,473    $     1,307.00    $    324,196
Gold Held by Federal Reserve Banks              13,452,784    $     42.2222                568    $     1,307.00          17,583
Total Gold                                    261,498,900                               11,041                           341,779
Silver                                         16,000,000     $       1.2929                21    $        22.07             353
Total Gold and Silver Reserves                                                  $       11,062                      $    342,132



7. TROUBLED ASSET RELIEF PROGRAM – CREDIT PROGRAM
   RECEIVABLES, NET
The Department administers a number of programs designed to stabilize the financial system and restore the flow of
credit to consumers and businesses. Through TARP, the Department made direct loans, equity investments, and entered
into other credit programs, which consist of an asset guarantee program and a loss-sharing program. On October 3, 2010,
TARP’s authority to make new commitments to purchase or guarantee troubled assets expired. The table below is a list of
TARP programs and types.




                                                              80
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Program                                                                 Program Type
Direct Loans and Equity Investments
  Capital Purchase Program                                              Equity Investment/Subordinated Debentures
  American International Group, Inc. Investment Program                 Equity Investment
  Targeted Investment Program                                           Equity Investment
  Automotive Industry Financing Program                                 Equity Investment and Direct Loan
  Consumer and Business Lending Initiative:
       Term Asset-Backed Securities Loan Facility                      Subordinated Debentures
       SBA 7 (a) Security Purchase Program                             Direct Loan
       Community Development Capital Initiative                        Equity Investment/Subordinated Debentures
  Public-Private Investment Program                                     Equity Investment and Direct Loan

Other Credit Programs
  Asset Guarantee Program                                               Asset Guarantee
  FHA - Refinance Program                                               Loss-Sharing Program with FHA

VALUATION METHODOLOGY

The Department applies the provisions of SFFAS No. 2 as amended, to account for direct loans, equity investments, and
other credit programs. This standard requires measurement of the asset or liability at the net present value of the
estimated future cash flows. The cash-flow estimates for each transaction reflect the actual structure of the instruments.
For each of these instruments, analytical cash-flow models generate estimated cash flows to and from the Department
over the estimated term of the instrument. Further, each cash-flow model reflects the specific terms and conditions of
the program, technical assumptions regarding the underlying assets, risk of default or other losses, and other factors as
appropriate. The models also incorporate an adjustment for market risk to reflect the additional return required by the
market to compensate for variability around the expected losses reflected in the cash flows (the “unexpected loss”).

The adjustment for market risk requires the Department to determine the return that would be required by market
participants to enter into similar transactions or to purchase the assets held by the Department. Accordingly, the
measurement of the assets attempts to represent the proceeds expected to be received if the assets were sold to a market
participant in an orderly transaction. The methodology employed for determining market risk for equity investments
generally involves a calibration to market prices of similar securities that results in measuring equity investments at fair
value. The adjustment for market risk for loans is intended to capture the risk of unexpected losses, but not intended to
represent fair value, i.e. the proceeds that would be expected to be received if the loans were sold to a market participant.
The Department uses market observable inputs, when available, in developing cash flows and incorporating the
adjustment required for market risk. For purposes of this disclosure, the Department has classified the various
investments as follows, based on the observability of inputs that are significant to the measurement of the asset:

Quoted Prices for Identical Assets: The measurement of assets in this classification is based on direct market
quotes for the specific asset, e.g. quoted prices of common stock.

Significant Observable Inputs: The measurement of assets in this classification is primarily derived from market
observable data, other than a direct market quote, for the asset. This data could be market quotes for similar assets for
the same entity.

Significant Unobservable Inputs: The measurement of assets in this classification is primarily derived from inputs
which generally represent management’s best estimate of how a market participant would assess the risk inherent in the
asset. These unobservable inputs are used because there is little to no direct market activity.

                                                             81
                                                                            U.S. Department of the Treasury | Fiscal Year 2011

The table below displays the assets held as of September 30, 2011 and 2010, by the observability of inputs significant to
the measurement of each value (in millions):

                                                                      Quoted
                                                                   Prices for            Significant         Significant
                                                                    Identical            Observable        Unobservable                 2011
Program                                                                Assets                Inputs              Inputs                Total
Capital Purchase Program                                         $        202          $           -      $      12,240           $   12,442
American International Group, Inc. Investment Program                  21,076                 9,294                    -              30,370
Automotive Industry Financing Program                                  10,091                      -               7,747              17,838
Consumer and Business Lending Initiative, which includes
TALF, SBA 7 (a) securities and CDCI                                               -                 126                 951            1,077
Public-Private Investment Program                                                 -                   -              18,377           18,377
Asset Guarantee Program                                                           -                 739                   -              739
Total TARP Programs                                              $     31,369          $      10,159      $          39,315       $   80,843
Note: Of the combined TARP Program totaling $80.8 billion at September 30, 2011, $739 million represented other intra-
governmental assets and $80.1 billion represented assets with the public as reported on the Consolidated Balance Sheets.



                                                                 Quoted
                                                               Prices for             Significant               Significant
                                                               Identical              Observable              Unobservable              2010
Program                                                           Assets                  Inputs                    Inputs             Total
Capital Purchase Program                                   $      14,899      $                 -    $              33,334    $       48,233
American International Group, Inc. Investment Program                   -                       -                   26,138            26,138
Targeted Investment Program                                             -                       -                         1                1
Automotive Industry Financing Program                                   -                       -                   52,709            52,709
Consumer and Business Lending Initiative, which
includes TALF, SBA 7 (a) securities and CDCI                          -                        -                       966               966
Public-Private Investment Program                                     -                        -                    14,405            14,405
Asset Guarantee Program                                           2,240                      815                         -             3,055
Total TARP Programs                                        $      17,139      $              815     $             127,553    $       145,507

Note: Of the combined TARP Program totaling $145.5 billion at September 30, 2010, $815 million represented other intra-
governmentalassets and $144.7 billion represented assets with the public as reported on the Consolidated Balance Sheets.

The following provides a description of the methodology used to develop the cash flows and incorporate the market risk
into the measurement of the Department’s assets.

Financial Institution Equity Investments

Financial Institution Equity Investments consist of investments made under the Capital Purchase Program, Targeted
Investment Program and the Community Development Capital Initiative. The estimated values of preferred equity
investments are the net present values of the expected dividend payments and repurchases. The model assumes that the
key decisions affecting whether or not institutions pay their preferred dividends are made by each institution based on
the strength of their balance sheet. The model assumes a probabilistic evolution of each institution’s asset-to-liability
ratio (the asset-to-liability ratio is based on the estimated fair value of the institution’s assets against its liabilities). Each
institution’s assets are subject to uncertain returns and institutions are assumed to manage their asset to liability ratio in
such a way that it reverts over time to a target level. Historical volatility is used to scale the likely evolution of each
institution’s asset-to-liability ratio.

In the model, when equity decreases, i.e. the asset-to-liability ratio falls, institutions are increasingly likely to default,
either because they enter bankruptcy or are closed by regulators. The probability of default is estimated based on the
performance of a large sample of U.S. banks over the period of 1990-2010. At the other end of the spectrum, institutions
call their preferred shares when the present value of expected future dividends exceeds the call price; this occurs when
equity is high and interest rates are low. Inputs to the model include institution specific accounting data obtained from
regulatory filings, an institution’s stock price volatility, historical bank failure information, as well as market prices of

                                                                82
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

comparable securities trading in the market. The market risk adjustment is obtained through a calibration process to the
market value of certain trading securities of financial institutions within the TARP programs. The Department estimates
the values and projects the cash flows of warrants using an option-pricing approach based on the current stock price and
its volatility. Investments in common stock which are exchange traded are valued at the quoted market price as of fiscal
year end.

American International Group, Inc. Investment Program

As of September 30, 2011, the Department held 960 million shares of AIG common stock. Investments in AIG common
stock were valued at the quoted market price as of September 30, 2011. The Department also held interests in certain
AIG SPVs. To estimate the value of the assets underlying the preferred interests in the SPVs, the Department sums the
value of the common equity shares held by the SPVs, any cash held in escrow from previous asset sales, and the weighted
average value of the remaining assets under different scenarios. Because the resulting value greatly exceeds the
liquidation preference of the investments in SPVs, the SPVs were valued at the liquidation preference.

In fiscal year 2010, the method used to measure AIG preferred shares was broadly analogous to the approach used to
measure financial institution preferred shares. However, the size of the Departments’ holding of preferred shares relative
to AIG’s total balance sheet made the valuation extremely sensitive to assumptions about the recovery ratio for preferred
shares should AIG default. Also, no market prices for comparable preferred shares existed. Therefore, the Department
based the AIG investment valuation on the observed market values of publicly traded junior subordinated debt, adjusted
for the Department’s position in the capital structure. Additionally, an external asset manager provided estimated fair
value amounts, premised on public information, which were considered by the Department in its measurements.

Auto Industry Financing Program Investments and Loans

As of September 30, 2011, the Department held 500 million shares of common stock in General Motors Company (New
GM) that were valued by multiplying the publicly traded share price by the number of shares held.

As of September 30, 2010, the Department held a 60.8 percent stake in the common stock of New GM. As New GM
common stock was not publicly traded as of September 30, 2010, and because the unsecured bond holders in General
Motors Corporation (Old GM) received 10.0 percent of the common equity ownership and warrants in New GM, the
expected recovery rate implied by the trading prices of the Old GM bonds provided the implied value of the New GM
equity. The Department used this implied equity value to account for its common stock ownership in New GM as of
September 30, 2010. As of September 30, 2010, investments in GM preferred shares were valued in a manner broadly
analogous to the methodology used for financial institution equity investments.

As of September 30, 2010, the Department held a 9.9 percent stake in the common stock of Chrysler. As Chrysler
common stock was not publicly traded as of September 30, 2010, the Department created a pro forma balance sheet for
post-bankruptcy Chrysler and used the estimated book value to account for its common stock ownership in Chrysler.

As of September 30, 2010, the Department valued direct loans to GM and Chrysler using an analytical model that
estimates the net present value of the expected principal, interest, and other scheduled payments taking into account
potential defaults. In the event of an institution’s default, these models include estimates of recoveries, incorporating the
effects of any collateral provided by the contract. The probability of default and losses given default are estimated by
using historical data when available, or publicly available proxy data, including credit rating agencies historical
performance data. The models also incorporate an adjustment for market risk to reflect the additional return on capital
that would be required by a market participant.




                                                             83
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

As of September 30, 2011 and 2010, for investments in Ally Financial’s (Ally, formerly known as GMAC, Inc.) common
equity and mandatorily convertible preferred stock, which is valued on an “if-converted” basis, the Department used
certain valuation multiples such as price-to-earnings, price-to-tangible book value, and asset manager valuations to
estimate the value of the shares. The multiples were based on those of comparable publicly-traded entities. As of
September 30, 2010, the Department estimated the value of Ally’s trust preferred equity instruments based on
comparable publicly traded securities adjusted for factors specific to Ally, such as credit rating. The adjustment for
market risk is incorporated in the data points the Department uses to determine the measurement for Ally as all points
rely on market data.

Investments in Special Purpose Vehicles

In addition to the preferred interests in AIG SPVs discussed previously, the Department made certain investments in
other financial instruments issued by SPVs. Generally, the Department estimates the cash flows of these SPVs and then
applies those cash flows to the waterfall governing the priority of payments out of the SPV.

For the loan associated with the Term Asset-Backed Securities Loan Facility (TALF), the Department model derives the
cash flows to the SPV, and ultimately the Department, by simulating the performance of underlying collateral. Loss
probabilities on the underlying collateral are calculated based on analysis of historical loan loss and charge-off experience
by credit sector and subsector. Historical mean loss rates and volatilities are significantly stressed to reflect recent and
projected performance. Simulated losses are run through cash flow models to project impairment to the TALF-eligible
securities. Impaired securities are projected to be purchased by the SPV, which would require additional the Department
funding. Simulation outcomes consisting of a range of loss scenarios are probability-weighted to generate the expected
net present value of future cash flows.

For the Public-Private Investment Program (PPIP) investments and loans made in the Public Private Investment Funds
(PPIF), the Department model derives estimated cash flows to the SPV by simulating the performance of the collateral
supporting the residential mortgage-backed securities (RMBS) and commercial mortgage-backed securities (CMBS) held
by the PPIF (i.e. performance of the residential and commercial mortgages). Inputs used to simulate the cash flows,
which consider market risks, include unemployment forecasts, home price appreciation/depreciation forecasts, the
current term structure of interest rates, historical pool performance, and estimates of the net income and value of
commercial real estate supporting the CMBS.

The simulated cash flows are then run through the waterfall of the RMBS/CMBS to determine the estimated cash flows to
the SPV. Once determined, these cash flows are run through the waterfall of the PPIF to determine the expected cash
flows to the Department through both the equity investments and loans.

SBA 7(a) Securities

The valuation of SBA 7(a) securities is based on the discounted estimated cash-flows of the securities.

Asset Guarantee Program

During fiscal year 2010, an agreement was entered into to terminate the guarantee of the Department to pay for any
defaults on certain loans and securities held by Citibank. After the termination, the Department still held some of the
trust preferred securities (initially received as the guarantee fee) and warrants issued by Citigroup and the potential to
receive $800 million (liquidation preference) of additional Citigroup trust preferred securities from the FDIC (see later
discussion of the Asset Guarantee Program (AGP)). As of September 30, 2011 and 2010, the instruments within the AGP
were valued in a manner broadly analogous to the methodology used for financial institution equity investments.



                                                              84
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

DIRECT LOAN AND EQUITY INVESTMENT PROGRAMS

Capital Purchase Program

In October 2008, the Department began implementation of the TARP with the Capital Purchase Program (CPP),
designed to help stabilize the financial system by assisting in building the capital base of certain viable U.S. financial
institutions to increase the capacity of those institutions to lend to businesses and consumers and support the economy.
Under this program, the Department purchased senior perpetual preferred stock from qualifying U.S. controlled banks,
savings associations, and certain bank and savings and loan holding companies (Qualified Financial Institution or QFI).
The senior preferred stock has a stated dividend rate of 5.0 percent through year five, increasing to 9.0 percent in
subsequent years. The dividends are cumulative for bank holding companies and subsidiaries of bank holding
companies, and non-cumulative for others, and payable when and if declared by the institution’s board of directors. QFIs
that are Sub-chapter S corporations issued subordinated debentures in order to maintain compliance with the Internal
Revenue Code. The maturity of the subordinated debentures is 30 years and interest rates are 7.7 percent for the first five
years, and 13.8 percent for the remaining years. QFIs, subject to regulatory approval, may repay the Department’s
investment at any time. For fiscal years 2011 and 2010, repayments and sales of CPP investments totaled $30.2 billion
and $81.5 billion, respectively.

In addition to the senior preferred stock, the Department received warrants, as required by section 113(d) of the
Emergency Economic Stabilization Act (EESA), from public QFIs to purchase a number of shares of common stock. The
warrants have an aggregate exercise price equal to 15.0 percent of the total senior preferred stock investment. Prior to
December 31, 2009, in the event a public QFI completed one or more qualified equity offerings with aggregate gross
proceeds of not less than 100.0 percent of the senior perpetual preferred stock investment, the number of shares subject
to the warrants was reduced by 50.0 percent. As of December 31, 2009, a total of 38 QFIs reduced the number of shares
available under the warrants as a result of this provision. The warrants have a ten-year term. Subsequent to December
31, 2009, the Department may exercise any warrants held in whole or in part at any time.

The Department received warrants from non-public QFIs for the purchase of additional senior preferred stock (or
subordinated debentures if appropriate) with a stated dividend rate of 9.0 percent (13.8 percent interest rate for
subordinate debentures) and a liquidation preference equal to 5.0 percent of the total senior preferred stock (additional
subordinate debenture) investment. These warrants were immediately exercised and resulted in the Department holding
additional senior preferred stock (subordinated debentures) (collectively referred to as “warrant preferred stock”) of non-
public QFIs. The Department did not receive warrants from financial institutions considered Community Development
Financial Institutions (CDFIs). A total of seven and 35 institutions considered CDFIs were in the CPP portfolio as of
September 30, 2011 and 2010, respectively.

The Secretary may liquidate the warrants associated with repurchased senior preferred stock at the market price. A QFI,
upon the repurchase of its senior preferred stock, also has the contractual right to repurchase the common stock warrants
at the market price.

The task of managing the investments in CPP banks may require that the Department enter into certain agreements to
exchange and/or convert existing investments in order to achieve the best possible return for taxpayers.

In fiscal year 2009, the Department entered into an exchange agreement with Citigroup under which the Department
exchanged $25.0 billion of its investment in senior preferred stock for 7.7 billion common shares of Citigroup stock, at
$3.25 per share. In April 2010, the Department began a process of selling the Citigroup common stock. As of September
30, 2010, the Department had sold approximately 4.0 billion for total proceeds of $16.1 billion, resulting in proceeds
from sales in excess of cost of $3.0 billion; the Department continued to hold approximately 3.7 billion shares of

                                                              85
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

Citigroup common stock with an estimated fair value of $14.3 billion, based on the September 30, 2010, closing price of
$3.91 per share.

During fiscal year 2011, the Department sold all of its remaining Citigroup common stock by December 2010, generating
cash proceeds of $15.8 billion, which were in excess of cost of $3.9 billion. Total gross proceeds from Citigroup stock
sales between April and December 2010, were $31.9 billion. Also, in January 2011, the Department sold its Citigroup
warrants held under CPP, for a total of $55 million.

The Department has entered into other transactions with various financial institutions including exchanging existing
preferred shares for a like amount of non-tax deductible Trust Preferred Securities, exchanging preferred shares for
shares of mandatorily convertible preferred securities and selling preferred shares to financial institutions that were
acquiring the QFIs that had issued the preferred shares. Generally, the transactions are entered into with financial
institutions in poor financial condition with a high likelihood of failure. As such, in accordance with SFFAS No. 2, these
transactions are considered workouts and not modifications. The changes in cost associated with these transactions are
captured in the year-end reestimates.

During fiscal year 2011, certain financial institutions participating in CPP became eligible to exchange their TARP-held
stock investments to preferred stock in the SBLF, a separate Department program not a part of the TARP. Because this
refinance was not considered in the formulation estimate for the CPP program, a modification was recorded in May 2011,
resulting in a subsidy cost reduction of $1.0 billion.

During fiscal year 2010, certain financial institutions participating in CPP which were in good standing became eligible to
refinance their Department-held stock investments to preferred stock under the Community Development Capital
Initiative (CDCI) of the Consumer and Business Lending Initiative Program (CBLI). This was not considered in the
formulation estimate for the CPP program. As a result, the Department recorded a modification subsidy cost reduction of
$32 million in the CPP program for this option during fiscal year 2010.

In fiscal year 2011, the Department made no write offs of CPP investments. In fiscal year 2010, as a result of the
culmination of Chapter 11 bankruptcy proceedings, the Department wrote off its $2.3 billion investment in CIT Group
Inc., and will not recover any amounts associated with it. In addition, during fiscal year 2011, eight institutions in which
the Department had invested $190 million were closed by their regulators. During fiscal year 2010, four financial
institutions in which the Department invested $396 million, either filed for bankruptcy or were closed by their regulators.
The Department does not anticipate recovery of these investments and therefore the value of these shares is reflected at
zero as of September 30, 2011 and 2010. The ultimate amount received, if any, from the investments in institutions that
filed for bankruptcy and institutions closed by regulators will depend primarily on the outcome of the bankruptcy
proceedings and of each institution’s receivership.

American International Group, Inc. Investment Program

The Department has provided assistance to systemically significant financial institutions on a case by case basis in order
to help provide stability to those institutions that are critical to a functioning financial system and are at substantial risk
of failure as well as to help prevent broader disruption to financial markets. In November 2008, the Department invested
$40.0 billion in AIG’s cumulative Series D perpetual cumulative preferred stock with a dividend rate of 10.0 percent,
compounded quarterly. The Department also received a warrant for the purchase of approximately 54 million shares
(adjusted to 3 million shares after a 20:1 reverse stock split) of AIG common stock. On April 17, 2009, AIG and the
Department restructured their November 2008 agreement. Under the restructuring, the Department exchanged $40.0
billion of cumulative Series D preferred stock for $41.6 billion of non-cumulative 10.0 percent Series E preferred stock.



                                                               86
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

Additionally, the Department agreed to make available an additional $29.8 billion capital facility to allow AIG to draw
additional funds if needed to assist in its restructuring.

The Department’s investment related to the capital facility consisted of Series F non-cumulative perpetual preferred stock
with no initial liquidation preference, and a warrant for the purchase of 3,000 shares (adjusted to 150 shares after a 20:1
reverse stock split of AIG common stock). This liquidation preference increased with any draw down by AIG on the
facility. The dividend rate applicable to these shares was 10.0 percent, payable quarterly, if declared, on the outstanding
liquidation preference. As of September 30, 2011 and 2010, AIG had drawn $20.3 billion and $7.5 billion from the
capital facility, respectively, for an aggregate total of $27.8 billion drawn. According to the terms of the preferred stock, if
AIG missed four dividend payments, the Department could appoint to the AIG board of directors, the greater of two
members or 20.0 percent of the total number of directors of the Company. On April 1, 2010, the Department appointed
two directors to the Company’s board as a result of non-payments of dividends. The additional two directors increased
the total number of AIG directors to twelve. The two additional Department-appointed directors remained on the board
as of September 30, 2011.

On September 30, 2010, the Department, FRBNY and AIG announced plans for a restructuring of the U.S. Government’s
investments in AIG. The restructuring, which occurred on January 14, 2011, converted the Department’s $27.8 billion
investment in Series F preferred stock into $20.3 billion of interest in AIG SPVs, and 168 million shares of AIG common
stock. The remaining $2.0 billion of undrawn Series F capital facility shares were exchanged for 20,000 shares of Series
G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG had the right to draw up to
$2.0 billion. On May 27, 2011, pursuant to the terms of the agreements governing the Series G Preferred Stock, the
available amount of the Series G Preferred Stock was reduced to zero as a result of AIG’s primary offering of its common
stock, and the Series G Preferred Stock was cancelled. The $40 billion investment in Series E preferred converted into
925 million shares of AIG common stock. Additionally, the credit facility between FRBNY and AIG was terminated, and
the Department separately (not TARP) received 563 million shares of AIG common stock from it as part of the
restructuring transaction on behalf of the General Fund (see Note 26 for further discussion of AIG Investments held by
the Department on behalf of the General Fund).

At the completion of the January 14, 2011 restructuring, the Department, including TARP, held a combined total of 1.7
billion shares of AIG common stock, or 92.1 percent. In May 2011, the Department, including TARP, sold 200 million
shares of its AIG common stock for $5.8 billion, of which the General Fund and TARP received $2.0 billion and $3.8
billion, respectively. In fiscal year 2011, the Department received $11.5 billion in distributions from the AIG SPVs,
reduced its outstanding balance relating to the AIG SPVs by $11.2 billion, and received dividends of $246 million. The
Department also capitalized dividend income of $204 million. Additionally, the Department received fees of $165 million
from AIG. The department received no payments from AIG in fiscal year 2010.

At September 30, 2011, the Department owned 1.5 billion shares of AIG common stock with a market value totaling
approximately $31.9 billion, or 76.9 percent of AIG’s outstanding common stock on a fully diluted basis, of which TARP
owned 50.8 percent. The Department also owned preferred units in an AIG SPV with an outstanding balance of $9.3
billion.

Targeted Investment Program

The Targeted Investment Program (TIP) was designed to prevent a loss of confidence in financial institutions that could
result in significant market disruptions, threatening the financial strength of similarly situated financial institutions,
impairing broader financial markets, and undermining the overall economy. The Department considered institutions as
candidates for the TIP on a case-by-case basis, based on a number of factors including the threats posed by


                                                              87
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

destabilization of the institution, the risks caused by a loss of confidence in the institution, and the institution’s
importance to the nation’s economy.

Under TIP, the Department invested $20 billion in Citigroup in December 2008 and $20 billion in Bank of America in
January 2009. In December 2009, both institutions repaid the amounts invested along with dividends through the date
of repayment. In fiscal year 2010, the Department received a total of $1.1 billion in dividends on the Bank of America and
Citigroup investments and proceeds of $1.2 billion from the sale of Bank of America warrants. In fiscal year 2011, the
Department sold its warrants from Citigroup under TIP for $190 million, and closed the program.

Automotive Industry Financing Program

The Automotive Industry Financing Program (AIFP) was designed to help prevent a significant disruption of the
American automotive industry, which could have had a negative effect on the economy of the United States.

General Motors Company and General Motors Corporation

In fiscal year 2009, the Department provided $49.5 billion to Old GM through various loan agreements including the
initial loan for general and working capital purposes and the final loan for debtor in possession (DIP) financing while Old
GM was in bankruptcy. The Department assigned its rights in these various loans (with the exception of $986 million
which remained in Old GM for wind-down purposes and $7.1 billion that would be assumed) and previously received
common stock warrants in a newly created entity, New GM. New GM used the assigned loans and warrants to credit bid
for substantially all of the assets of Old GM in a sale pursuant to Section 363 of the Bankruptcy Code. During fiscal year
2009, upon closing of the Section 363 sale, the credit bid loans and warrants were extinguished and the Department
received $2.1 billion in 9.0 percent cumulative perpetual preferred stock and 60.8 percent of the common equity interest
in New GM. In addition, New GM assumed $7.1 billion of the DIP loan, simultaneously paying $361 million (return of
warranty program funds), resulting in a balance of $6.7 billion. The assets received by the Department as a result of the
assignment and Section 363 sale are considered recoveries of the original loans for subsidy cost estimation purposes.

During fiscal year 2010, the Department received the remaining $6.7 billion as full repayment of the DIP loan assumed.
As of September 30, 2010, the Department also received $189 million in dividends and $343 million in interest on New
GM preferred stock and the loan prior to repayment, respectively. At September 30, 2010, the Department held 60.8
percent of the common stock of New GM and $2.1 billion in preferred stock.

During fiscal year 2011, pursuant to a letter agreement, New GM repurchased its preferred stock for 102.0 percent of its
liquidation amount, or $2.1 billion. As part of an initial public offering by New GM at fiscal year 2011, the Department
sold approximately 412 million shares of its common stock for $13.5 billion, at an average price of $32.75 per share (net
of fees). The sale resulted in net proceeds less than cost of $4.4 billion. At September 30, 2011, the Department held 500
million shares of the common stock of New GM, which represents approximately 32.0 percent of the common stock of the
New GM outstanding. The common stock price of New GM has declined $7.0 billion since its IPO. Market value of the
shares as of September 30, 2011, was $10.1 billion.

On March 31, 2011, the Plan of Liquidation for Old GM became effective and the Department’s $986 million loan was
converted to an administrative claim. The Department retains the right to recover additional proceeds but recoveries are
dependent on actual liquidation proceeds and pending litigation. The Department recovered $111 million in fiscal year
2011 on the administrative claim. The Department does not expect to recover any significant additional proceeds from
this claim.




                                                               88
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

GMAC LLC Rights Offering

In December 2008, the Department agreed, in principal, to lend up to $1.0 billion to Old GM for participation in a rights
offering by GMAC LLC (now known as Ally Financial, Inc.) in support of GMAC LLC’s reorganization as a bank holding
company. The loan was secured by the GMAC LLC common interest acquired in the rights offering. The loan was funded
for $884 million. In May 2009, the Department exercised its exchange option under the loan and received 190,921
membership interests, representing approximately 35.36 percent of the voting interest at that time, in GMAC LLC in full
satisfaction of the loan. As of September 30, 2011 and 2010, the Department continued to hold the ownership interests
obtained in this transaction (see further discussion of GMAC holdings under Ally Financial Inc. in this note).

Chrysler Group LLC and Chrysler Holding LLC

In fiscal year 2009, the Department invested $5.9 billion in Chrysler Holding LLC (Old Chrysler) consisting of $4.0
billion for general and working capital purposes (the general purpose loan) and $1.9 billion in DIP financing while Old
Chrysler was in bankruptcy. Upon entering bankruptcy, a portion of Old Chrysler was sold to a newly created entity,
Chrysler Group LLC (New Chrysler). Under the terms of the bankruptcy agreement, $500 million of the general purpose
loan was assumed by New Chrysler. In fiscal year 2010, the Department received $1.9 billion on the general purpose loan
and wrote off remaining $1.6 billion. Recovery of the $1.9 billion DIP loan was subject to the liquidation of collateral
remaining with Old Chrysler. In fiscal year 2010, as part of a liquidation plan, the Departments’ DIP loan to Old Chrysler
was extinguished, and the Department retained a right to receive proceeds from a liquidation trust. The Department
received $8 million and $40 million from liquidation trust during fiscal year 2011 and 2010, respectively.

Under the terms of the bankruptcy agreement, the Department committed to make a $7.1 billion loan to New Chrysler,
consisting of up to $6.6 billion of new funding and $500 million of assumed debt from the general purpose loan with Old
Chrysler. The loan was secured by a first priority lien on the assets of New Chrysler. Funding of the loan was available in
two installments or tranches (B and C), each with varying availability and terms. Tranche B provided an additional $2.0
billion loan funded at closing. Tranche C included the $500 million assumed from the general purpose loan and
provided $2.6 billion which was funded at closing. Interest on both Tranches was payable in-kind through December
2009 and added to the principal balance of the respective Tranche. Interest was paid quarterly beginning March 31,
2010. Additional in-kind interest was accrued at $17 million a quarter and added to the Tranche C loan balance subject
to interest at the appropriate rate. In fiscal year 2010, the Department recognized $344 million of paid in-kind interest
capitalized to these loans and received $382 million of interest.

The Department also obtained other consideration including a 9.9 percent equity interest in New Chrysler and additional
notes with principal balances of $284 million and $100 million. Fiat SpA (the Italian automaker), the Canadian
government and the United Auto Workers (UAW) retiree healthcare trust were the other shareholders in New Chrysler.

In May 2011, New Chrysler repaid both Tranche B and C principal balances of $5.1 billion, the additional notes totaling
$384 million and all interest due. New Chrysler’s ability to draw the remaining $2.1 billion loan commitment was
terminated. In July 2011, Fiat SpA paid the Department $560 million for its remaining interest in New Chrysler and the
Departments’ rights under an agreement the UAW retiree healthcare trust pertaining to the trust’s shares in new
Chrysler.

As a result of the fiscal year 2011 transactions, the Department has no remaining interest in New Chrysler as of
September 30, 2011. Total net proceeds received relating to these fiscal year 2011 transactions were $896 million less
than the Departments’ cost. The Department continues to hold a right to receive proceeds from a bankruptcy liquidation
trust but no significant cash flows are expected.



                                                             89
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

Ally Financial Inc. (formerly known as GMAC Inc.)

The Department invested a total of $16.3 billion in GMAC Inc. between December 2008 and December 2009 to help
support its ability to originate new loans to GM and Chrysler dealers and consumers, and to help address GMAC’s capital
needs. In May 2010, GMAC changed its corporate name to Ally Financial, Inc. (Ally). As a result of original investments,
exchanges, conversions and warrant exercises, at September 30, 2010, the Department held 450,121 shares of Ally
common stock (representing 56.3 percent of the company’s outstanding common stock including ownership interest from
the GMAC LLC Rights Offering previously discussed), 3 million shares of 8.0 percent cumulative Trust Preferred
Securities (TRuPS) with a $1,000 per share liquidation preference and 229 million shares of Ally Series F-2 Mandatorily
Convertible Preferred Securities. The Series F-2, with a $50 per share liquidation preference and a stated dividend rate
of 9.0 percent, is convertible into Ally common stock at Ally’s option subject to the approval of the FRB and consent by
the Department or pursuant to an order by the FRB compelling such conversion. The Series F-2 security is also
convertible at the option of the Department upon certain specified corporate events. Absent an optional conversion, any
Series F-2 remaining will automatically convert to common stock after seven years from the issuance date. The
applicable conversion rate is the greater of the (i) initial conversion rate (0.00432) or (ii) adjusted conversion rate (i.e.
the liquidation amount per share of the Series F-2 divided by the weighted average price at which the shares of common
equity securities were sold or the price implied by the conversion of securities into common equity securities, subject to
anti-dilution provisions).

In December 2010, 110 million shares of the Series F-2 preferred stock were converted into 531,850 shares of Ally
common stock, resulting in the Department holdings of Series F-2 preferred decreasing to 119 million shares, and the
Department holdings in common stock of Ally increasing to 981,971 shares, representing 73.8 percent of Ally’s
outstanding common stock.

During fiscal year 2011, the agreement between Ally and the Department regarding its TRuPS was amended to facilitate
the Department’s sale of its TRuPS on the open market. Because this amendment to agreement terms was not considered
in the formulation subsidy cost estimate for the AIFP program, the Department recorded a modification resulting in a
subsidy cost reduction of $174 million.

In March 2011, the Department sold its TRuPS for its cost of $2.7 billion, resulting in proceeds in excess of cost of $127
million. On March 31, 2011, the Department announced that it had agreed to be named as a selling shareholder of
common stock in Ally’s registration statement filed with the Securities and Exchange Commission (SEC) for a proposed
initial public offering. Since March 31, 2011, Ally has filed four amendments in response to SEC comments; there has
been no public offering.

At September 30, 2011, the Department held 981,971 shares of common stock (73.84 percent of Ally’s outstanding
common stock) and 119 million shares of the Series F-2 preferred securities. The Series F-2 are convertible into at least
513,000 shares of common stock, which if combined with the common stock currently owned, would represent 81.0
percent ownership of Ally common stock by the Department. In fiscal year 2011 and 2010, the Department received $839
million and $1.2 billion in dividends from Ally.

Consumer and Business Lending Initiative

The Consumer and Business Lending Initiative (CBLI) was intended to help unlock the flow of credit to consumers and
small businesses. Three programs were established to help accomplish this: the Term Asset-Backed Securities Loan
Facility (TALF); the Small Business Administration (SBA) 7(a) Securities Purchase Program and the Community
Development Capital Initiative (CDCI). Each program is discussed in more detail below.



                                                              90
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Term Asset-Backed Securities Loan Facility

The TALF was created to help jump start the market for securitized consumer and small business loans. The program
was established by the Federal Reserve Board to provide low-cost funding to investors in certain classes of Asset Backed
Securities (ABS). The Department agreed to participate in the program by providing liquidity and credit protection to the
FRB.

Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse basis to
purchasers of certain AAA rated ABS secured by consumer and commercial loans and commercial mortgage backed
securities (CMBS). Interest rates charged on the TALF loans depend on the weighted-average maturity of the pledged
collateral, the collateral type and whether the collateral pays fixed or variable interest. The program ceased issuing new
loans on June 30, 2010. As of September 30, 2011 and 2010 approximately $11.3 billion and $29.7 billion of loans due to
the FRBNY remained outstanding.

As part of the program, the FRBNY has created the TALF, LLC, a SPV that agreed to purchase from the FRBNY any
collateral it has seized due to borrower default. The TALF, LLC would fund purchases from the accumulation of monthly
fees paid by the FRBNY as compensation for the agreement. Only if the TALF, LLC had insufficient funds to purchase the
collateral, did the Department commit to invest up to $20.0 billion in non-recourse subordinated notes issued by the
TALF, LLC. In July 2010, the Department’s commitment was reduced to $4.3 billion. The Department disbursed $100
million upon creation of the TALF, LLC and the remainder can be drawn to purchase collateral in the event the spread is
not sufficient to cover purchases. The subordinated notes bear interest at 1-Month LIBOR plus 3.0 percent, and mature
ten years from the closing date, subject to extension. Any amounts needed in excess of the Department commitment and
the fees would be provided through a loan from the FRBNY. Upon wind-down of the TALF, LLC (collateral defaults,
reaches final maturity or is sold), the available cash will be disbursed according to a payment priority.

The TALF, LLC is owned, controlled and consolidated by the FRBNY. The credit agreement between the Department and
the TALF, LLC provides the Department with certain rights consistent with a creditor but does not constitute control. As
such, TALF, LLC is not a federal entity and the assets, liabilities, revenue and cost of TALF, LLC are not included in the
Department financial statements. As of September 30, 2011 and 2010, no TALF loans were in default and consequently
no collateral was purchased by the TALF, LLC.

SBA 7(a) Security Purchase Program

In March 2010, the Department began purchasing securities backed by SBA 7(a) loans (7(a) Securities as part of the
Unlocking Credit for Small Business Initiative. The program was created to provide additional liquidity to the market so
that banks are able to make more small business loans. As of September 30, 2010, the Department had entered into
trades to purchase $356 million of these securities (excluding purchased accrued interest), of which $241 million had
been disbursed. Investments totaled $367 million (excluding purchased accrued interest) by December 2010, when the
Department’s disbursements under the program were completed. In May 2011, the Department began selling its
securities to bond market investors. During fiscal year 2011, the Department received $11 million in interest and $236
million in principal payments on the securities including returns from sales to other investors. During fiscal year 2010,
the Department received $1 million in interest and $3 million in principal payments on these securities. As of September
30, 2011, the Department held $128 million of SBA 7(a) securities.

Community Development Capital Initiative

In February 2010, the CDCI was created to provide additional low cost capital in Community Development Financial
Institutions (CDFIs) to encourage more lending to small businesses. Under the terms of the program, the Department


                                                             91
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

purchased senior preferred stock (or subordinated debt) from eligible CDFIs with an initial dividend rate of 2.0 percent
that will increase to 9.0 percent after eight years.

CDFIs participating in the CPP, subject to certain criteria, were eligible to exchange, through September 30, 2010, their
CPP preferred shares (subordinated debt) then held by the Department for CDCI preferred shares (subordinated debt).
These exchanges were treated as disbursements from CDCI and repayments to CPP. As of September 30, 2010, the
Department had invested a cumulative $570 million ($363 million as a result of exchanges from CPP) in 84 institutions
under the CDCI. No additional disbursements were made in fiscal year 2011. No repayments were received in fiscal years
2011 or 2010. During fiscal year 2011, the Department received $11 million in dividends and interest from its CDCI
investments.

Public-Private Investment Program

PPIP is part of the Department’s efforts to help restart the financial securities market and provide liquidity for legacy
assets. Under this program, the Department (as a limited partner) made equity investments in and loans to nine
investment vehicles (referred to as Public Private Investment Funds or “PPIFs”) established by private investment
managers between September and December 2009. The equity investment was used to match private capital and
equaled approximately 50.0 percent of the total equity invested. Each loan equaled 100.0 percent of total partnership
equity. The loans bear interest at 1-Month LIBOR, plus 1.0 percent, payable monthly. The maturity date of each loan is
the earlier of ten years or the termination of the PPIF. The loan can be prepaid without penalty. Each PPIF terminates in
eight years from its commencement. The governing documents of the funds allow for two one-year extensions, subject to
approval of the Department. The loan agreements also require cash flows from purchased securities received by the
PPIFs to be distributed in accordance with a priority of payments schedule (waterfall) designed to help protect the
interests of secured parties.

The loans are subject to certain financial covenants. As a condition of investment, the Department also received a
warrant from the PPIFs entitling the Department to 2.5 percent of investment proceeds (excluding those from temporary
investments) otherwise allocable to the non-Department partners after the PPIFs return of 100.0 percent of the non-
Department partner’s capital contributions. Distributions relating to the warrants would occur generally upon the final
distribution of each partnership. Additionally, the PPIFs pay a management fee to the fund manager from the
Department’s share of investment proceeds.

The PPIFs invest primarily in commercial MBS and non-agency residential MBS (CMBS and RMBS, respectively) issued
prior to January 1, 2009. The PPIFs may invest in the aforementioned securities for a period of three years using
proceeds from capital contribution, loans and amounts generated by previously purchased investments (subject to the
requirements of the waterfall). The PPIFs are also permitted to invest in certain temporary securities, including bank
deposits, U.S. Treasury securities, and certain money market mutual funds. At least 90.0 percent of the assets underlying
any eligible asset must be situated in the United States.

During fiscal year 2011, the Department disbursed $1.1 billion as equity investment and $2.3 billion as loans to PPIFs, as
compared to $4.9 billion of equity investments and $9.2 billion as loans in fiscal year 2010. During fiscal years 2011 and
2010, the Department received $123 million and $56 million in interest on loans, respectively. In addition, the
Department received $868 million and $72 million in loan principal repayments in fiscal years 2011 and 2010,
respectively. Also, during fiscal year 2011, the Department received $735 million in equity distributions, comprised of
$306 million of dividend income, $91 million of proceeds in excess of cost, and a $338 million reduction of the gross
investment outstanding. At September 30, 2011, the Department had equity investment in PPIFs outstanding of $5.5




                                                             92
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

billion and loans outstanding of $10.4 billion for a total of $15.9 billion. At September 30, 2010, the Department had
equity investment in PPIFs outstanding of $4.8 billion and loans outstanding of $8.9 billion for a total of $13.7 billion.

On January 4, 2010, the Department entered into a Winding-up and Liquidation Agreement with one of the PPIFs. Prior
to the signing of the agreement, the Department had invested $356 million ($156 million equity investment and $200
million loan) in the fund. Upon final liquidation, the Department received $377 million representing return of the
original investment, interest on the loan and return on the equity investment and warrant. As of September 30, 2011, the
Department had legal commitments to disburse up to $4.3 billion for additional investments and loans to the eight
remaining PPIFs.

OTHER CREDIT PROGRAMS

Asset Guarantee Program

The AGP provided guarantees for assets held by systemically significant financial institutions that faced a risk of losing
market confidence due in large part to a portfolio of distressed or illiquid assets. Section 102 of the EESA required the
Secretary to establish the AGP to guarantee troubled assets originated or issued prior to March 14, 2008, including
mortgage-backed securities, and established the Troubled Assets Insurance Financing Fund (TAIFF). In accordance with
Section 102(c) and (d) of the EESA, premiums from financial institutions are collected and all fees are recorded by the
Department in the TAIFF. In addition, Section 102(c) (3) of the EESA requires that the original premiums assessed are
“set” at a minimum level necessary to create reserves sufficient to meet anticipated claims.

In January 2009, the Department finalized the terms of a guarantee agreement with Citigroup. Under the agreement, the
Department, the Federal Deposit Insurance Corporation (FDIC), and the FRBNY (collectively the USG Parties) provided
protection against the possibility of large losses on an asset pool of approximately $301.0 billion of loans and securities
backed by residential and commercial real estate and other such assets, which remained on Citigroup’s balance sheet.
The Department’s guarantee was limited to $5.0 billion.

As a premium for the guarantee, Citigroup issued $7.0 billion of cumulative perpetual preferred stock (subsequently
converted to Trust Preferred Securities with similar terms) with an 8.0 percent stated dividend rate and a warrant for the
purchase of common stock; $4.0 billion and the warrant were issued to the Department, and $3.0 billion was issued to
the FDIC. The Department received $15 million and $265 million during the fiscal years ended September 30, 2011 and
2010, respectively, in dividends on the preferred stock received as compensation for this arrangement. These dividends
have been deposited into the TAIFF. The Department had also invested in Citigroup through CPP and the TIP.

In December 2009, the USG Parties and Citigroup agreed to terminate the guarantee agreement. Under the terms of the
termination agreement, the Department cancelled $1.8 billion of the preferred stock previously issued to the Department.
In addition, the FDIC agreed to transfer to the Department $800 million of its trust preferred stock holding plus
dividends. The amount the Department will receive would be reduced by any losses FDIC incurs on its Citigroup
guaranteed debt. The additional preferred shares from the FDIC are included in the subsidy calculation for AGP, based
on the net present value of expected future cash inflows. Termination of the agreement was not considered in the
formulation estimates of the guarantee and therefore a modification that resulted in a subsidy cost reduction of $1.4
billion was recorded in fiscal year 2010. On September 29, 2010, the Department exchanged its existing Trust Preferred
Securities for securities containing market terms to facilitate a sale. On September 30, 2010, the Department agreed to
sell its Trust Preferred Securities for $2.2 billion. The Trust Preferred Securities are valued at the sales price as reflected
in the 2010 consolidated financial statements. The sale settled on October 5, 2010, and additional warrants were sold in
January 2011 for $67 million, leaving only the $800 million of trust preferred stock related receivable from the FDIC



                                                              93
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

valued at $739 million on the Department’s Balance Sheet at September 30, 2011. This receivable was valued at $815
million as of September 30, 2010.

FHA-Refinance Program

At the end of fiscal year 2010, the Department entered into a loss-sharing agreement with the FHA to support a program
in which FHA guarantees refinancing of borrowers whose homes are worth less than the remaining amounts owed under
their mortgage loans. No loans were re-financed in fiscal year 2010. In fiscal year 2011, the Department established a
$50 million account, held by a commercial bank as its agent, from which any required reimbursements for losses will be
paid. At September 30, 2011, 334 loans that had guaranteed, with a total value of $73 million, had been refinanced under
the program. The Department’s maximum exposure related to FHA’s guarantee totaled $6 million. After considering
FHA’s estimated default rates, this resulted in the Department incurring a $1 million liability. The liability has been
calculated, using credit reform accounting, as the present value of the future cash outflows for the Departments’ share of
losses incurred on any defaults of the disbursed loans. However, losses to the Department cannot exceed 1.26 percent of
the total loans guaranteed by FHA at September 30, 2011.

Subsidy Cost

During fiscal year 2011, modifications occurred in the AIFP (see Ally Financial Inc.) and CPP. During fiscal year 2010,
modifications occurred within AIFP, CPP, and the AGP. See detailed discussion related to each program and related
modifications above. Modification cost reductions for the fiscal years ended September 30, 2011 and 2010, totaled $1.2
billion and $48 million, respectively.

Changes in subsidy cost due to reestimates from year to year are mainly due to changes in market conditions and actual
portfolio data. Net downward reestimates for the fiscal years ended September 30, 2011 and 2010, totaled $11.6 billion
and $30.2 billion, respectively.

During fiscal year 2011 there were significant AIG disbursements which impacted the subsidy cost. The AIG Investment
Program had a net increase in subsidy cost from disbursements and reestimates of $1.6 billion from an $18.5 billion
downward reestimate primarily due to subsidy cost estimates recorded for $20.3 billion for new disbursements during
the fiscal year. Under budget rules, the subsidy cost estimate for these new disbursements was determined based upon
subsidy rates formulated in April 2009, the period in which the Department originally agreed to make the funding
available to AIG. At that time, the Department calculated a subsidy rate of 98.98 percent, which resulted in an estimated
subsidy cost of $20.1 billion associated with the $ 20.3 billion disbursed in fical year 2011. The Department calculated an
$18.5 billion downward reestimate relating to these fiscal year disbursements that reflects improvements in AIG’s
financial condition since the original subsidy rate was formulated and the restructuring of the AIG investment to
common stock offset by AIG’s financial condition at September 30, 2011.

SUMMARY TABLES

The following tables provide the net composition, subsidy cost, modifications and reestimates, a reconciliation of subsidy
cost allowances, budget subsidy rates, and subsidy by component for each TARP direct loan, equity investment or other
credit programs for the fiscal years ended September 30, 2011 and 2010. There were no budget subsidy rates for fiscal
year 2011, except for the FHA- Refinance Program, and all disbursements were from loans or investments obligated in
prior years.




                                                             94
                                                                                          U.S. Department of the Treasury | Fiscal Year 2011

Troubled Asset Relief Program Direct Loans and Equity Investments
                                                                                                                                                               2011
As of September 30, 2011 (in millions)                         CPP             AIG             TIP            AIFP           CBLI            PPIP             TOTAL
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding, Gross    $     17,299    $      51,087    $          -   $      37,278   $      798      $   15,943     $      122,405
Subsidy Cost Allowance                                        (4,857)         (20,717)               -        (19,440)          279           2,434           (42,301)
Direct Loans and Equity Investments
  Outstanding, Net                                       $     12,442    $      30,370    $          -   $     17,838    $     1,077     $   18,377     $      80,104
New Loans or Investments Disbursed                       $           -   $      20,292    $          -   $           -   $      126      $    3,421     $      23,839
Obligations for Loans and Investments Not Yet
  Disbursed                                              $           -   $            -   $          -   $           -   $    4,200      $    4,279     $       8,479

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                             $       1,546   $     21,405     $        (1)   $     14,529    $      (58)     $    (676)     $      36,745
  Subsidy Cost for Disbursements and Modifications             (1,010)         20,085                -           (174)             1            (15)           18,887
  Interest and Dividend Revenue                                  1,283            450                -          1,280             20            428             3,461
  Fee Income                                                         -            165                -               -             -               -              165
   Net Proceeds from Sales and Repurchases of Assets
      in Excess of (Less than) Cost                             4,540           (1,918)           190          (5,165)               -            91           (2,262)
  Net Interest Income (Expense) on Borrowings from
      BPD and Financing Account Balance                         (686)            (938)               3          (945)           (32)           (418)           (3,016)
Balance, End of Period, Before Reestimates                      5,673           39,249            192           9,525          (69)            (590)           53,980
Subsidy Reestimates                                             (816)         (18,532)          (192)           9,915         (210)          (1,844)          (11,679)
Balance, End of Period                                   $      4,857    $      20,717    $         -    $     19,440    $    (279)      $   (2,434)    $      42,301

Reconciliation of Subsidy Cost:
  Subsidy Cost for Disbursements                         $           -   $     20,085     $         -    $          -    $        1      $       (15)   $      20,071
 Subsidy Cost for Modifications                                (1,010)               -              -           (174)             -                 -          (1,184)
 Subsidy Reestimates                                             (816)        (18,532)          (192)           9,915         (210)          (1,844)          (11,679)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                         $     (1,826)   $        1,553   $     (192)    $      9,741    $    (209)      $   (1,859)    $       7,208

Note: There are no budget execution rates for fiscal year 2011; since the TARP authority expired October 3, 2010, with no additional commitments made after
       September 30, 2010.


Troubled Asset Relief Program Direct Loans and Equity Investments
                                                                                                                                                               2010
As of September 30, 2010 (in millions)                         CPP              AIG            TIP            AIFP            CBLI           PPIP             TOTAL
Direct Loans and Equity Investment Programs:
Direct Loans and Equity Investment Outstanding,
   Gross                                                 $     49,779    $      47,543    $          -   $     67,238    $      908      $   13,729     $       179,197
Subsidy Cost Allowance                                         (1,546)        (21,405)               1       (14,529)            58             676            (36,745)
Direct Loans and Equity Investments
  Outstanding, Net                                       $     48,233    $      26,138    $          1   $     52,709    $      966      $   14,405     $      142,452
New Loans or Investments Disbursed                       $        277    $       4,338    $          -   $      3,790    $      811      $    14,157    $       23,373
Obligations for Loans and Investments Not Yet
  Disbursed                                              $           -   $     22,292     $          -   $      2,066    $    4,339      $    8,250     $       36,947

Reconciliation of Subsidy Cost Allowance:
Balance, Beginning of Period                             $     (7,770)   $     30,054     $     (341)    $     31,478    $    (344)      $        -     $       53,077
  Subsidy Cost for Disbursements and Modifications                (16)          4,293               -           2,644           275             337              7,533
  Interest and Dividend Revenue                                  3,131              -           1,143           2,475             -             228              6,977
  Net Proceeds from Sales and Repurchases of Assets in
      Excess of cost                                            6,676                 -         1,237              99                -              1            8,013
  Net Interest Income (Expense) on Borrowings from
     BPD                                                      (2,018)             (981)          (161)        (1,309)          (20)            (201)            (4,690)
  Write-offs                                                  (2,334)                 -              -        (1,600)             -                -            (3,934)
Balance, End of Period, Before Reestimates               -    (2,331)    -      33,366    -     1,878    -     33,787    -     (89)      -       365             66,976
Subsidy Reestimates                                             3,877          (11,961)       (1,879)        (19,258)            31          (1,041)           (30,231)
Balance, End of Period                                   $      1,546    $      21,405    $        (1)   $     14,529    $     (58)      $     (676)    $        36,745


Reconciliation of Subsidy Cost:
 Subsidy Cost for Disbursements                          $         16    $       4,293    $         -    $      1,146    $      275      $       337    $        6,067
 Subsidy Cost for Modifications                                  (32)                 -             -           1,498             -                -              1,466
 Subsidy Reestimates                                            3,877          (11,961)       (1,879)        (19,258)            31          (1,041)           (30,231)
Total Direct Loans and Equity Investment
  Programs Subsidy Cost (Income)                         $      3,861    $     (7,668)    $   (1,879)    $    (16,614)   $      306      $    (704)     $     (22,698)




                                                                                95
                                                                                    U.S. Department of the Treasury | Fiscal Year 2011

Troubled Asset Relief Program Loans, Equity Investments, and Asset Guarantee Program
Budget Subsidy Rates
As of September 30, 2010                           AGP              CPP              AIG            TIP            AIFP             CBLI                 PPIP
Budget Subsidy Rates, Excluding
Modifications and Reestimates (a):
  Interest Differential                                            (25.62%)                                        37.70%           30.39%                11.72%
  Defaults                                                           16.36%                                        13.78%             3.93%                   -%
  Fees and Other Collections                                        (3.00%)                                       (0.38%)                  -             (0.41%)
   Other                                                             18.03%                                      (20.85%)           (0.41%)             (10.34%)
Total Budget Subsidy Rate                            N/A              5.77%            N/A           N/A           30.25%            33.91%                0.97%

Subsidy Cost (Income) by
Component (in millions):
 Interest Differential                                      $           (71)   $      1,415                          1,429    $          246        $      1,880
 Defaults                                                                 45         2,907                             522                 32                   -
 Fees and Other Collections                                              (8)              -                            (15)                 -                (55)
 Other                                                                    50           (29)                          (790)                (3)            (1,488)
Total Subsidy Cost, Excluding
Modifications and Reestimates                        N/A    $             16   $     4,293           N/A             1,146    $           275       $        337
(a)   The rates reflected in the table above are fiscal year 2010 budget execution rates by program. The subsidy rates disclosed pertain only to the
       cohorts for fiscal year 2010. These rates cannot be applied to the direct loans disbursed during fiscal year 2010 to yield the subsidy cost (income).
       The subsidy cost (income) for new loans reported during fiscal year 2010 could result from disbursements of loans from both 2010 cohorts and
       prior year cohorts. The subsidy cost (income) reported in fiscal year 2010 also includes modifications and reestimates. Therefore, the Total
       Subsidy Cost, Excluding Modifications and Reestimates will not equal the New Loans or Investments Disbursed multiplied by the Budget Subsidy
       Rate.




                                   Troubled Asset Relief Program Asset Guarantee Program
                                             As of September 30, 2011 and 2010
                                                         (In Millions)
                                                                                                                                  2011                  2010
Asset Guarantee Program:
 Intra-governmental Portion (a)                                                                                         $            739        $           815
 Portion held by the Department, net                                                                                                   -                  2,240
Total Asset Guarantee Program                                                                                           $            739        $         3,055

Reconciliation of Asset Guarantee Program:
Balance, Beginning of Period                                                                                            $         (3,055)       $         (1,765)
  Subsidy Income for Disbursements and Modifications                                                                                    -                 (1,418)
  Dividend Revenue                                                                                                                     15                     265
  Net Proceeds from Sale of Assets in Excess of cost                                                                                2,301                       -
  Net Interest Income on Borrowings                                                                                                  (30)                    (50)
Balance, End of Period, Before Reestimate                                                                                           (769)                (2,968)
  Subsidy Reestimate                                                                                                                   30                    (87)
Balance, End of Period                                                                                                  $           (739)       $        (3,055)
Reconciliation of Subsidy Cost (Income):
 Subsidy Income for Modifications                                                                                       $                 -     $        (1,418)
 Subsidy Reestimates                                                                                                                     30                 (87)
Total Asset Guarantee Program Subsidy Cost (Income)                                                                     $                30     $        (1,505)

(a)   At September 30, 2010, the net present value of the future cash flows for the Asset Guarantee Program consisted of (i) $800 million of Citigroup
      trust preferred securities, plus dividends thereon, that the FDIC agreed to transfer to OFS contingent on Citigroup repaying previously issued FDIC
      guaranteed debt and (ii) additional Citigroup trust preferred securities valued at $2,240, for a total of $3,055. At September 30, 2011, only the
      contingent payment from the FDIC remained outstanding. The other securities were sold during fiscal year 2011.




                                                                          96
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

Housing Programs Under TARP

The following housing programs under TARP provide stability for both housing markets and homeowners. These
programs assist homeowners who are experiencing financial hardships to remain in their homes until their financial
position improves or relocated to a more sustainable living situation. These programs fall within three initiatives:

    1.   Making Home Affordable Program (MHA);
    2.   HFA Hardest-Hit Fund, and
    3.   Federal Housing Administration (FHA)-Refinance Program.

The MHA includes various programs, one of which is the Home Affordable Modification Program (HAMP) first lien
modification program that provides for one-time, monthly and annual incentives to servicers, borrowers, and investors
who participate in the program, whereby the investor and Department share the costs of modifying qualified first liens.
Another program, the FHA-HAMP, provides the same incentives as HAMP for FHA guaranteed loans. The Second Lien
Program (2MP) provides additional incentives to servicers to extinguish second liens on first lien loans modified under
HAMP. The Department/FHA Second Lien Program (FHA 2LP) provides for incentives to servicers for extinguishment
of second liens for borrowers who refinance their first lien mortgages under the FHA-Refinance Program. The Rural
Development (RD-HAMP) Program provides HAMP incentives for USDA guaranteed mortgages. The Home Price
Decline Protection Program (HPDP) provides incentives to investors to partially offset losses from home price declines.
In fiscal year 2010, additional programs were introduced under HAMP to complement the first lien modification
program and HPDP. The Principal Reduction Alternative Waterfall Program (PRA) offers mortgage relief to eligible
homeowners whose homes are worth significantly less than the remaining amounts outstanding under their first-lien
mortgage. The Unemployment Program (UP) offers assistance to unemployed homeowners through temporary
forbearance of a portion of their mortgage payments. The UP will not have a financial impact on the Department because
no incentives are paid by the Department. Finally, the Home Affordable Foreclosure Alternatives Program (HAFA) is
designed to assist eligible borrowers unable to retain their homes through a HAMP modification by simplifying and
streamlining the short sale and deeds in lieu of foreclosure processes and providing incentives to borrowers, servicers and
investors to pursue short sales and deeds in lieu.

All MHA disbursements are made to servicers either for themselves or for the benefit of borrowers and investors.
Furthermore, all payments are contingent on borrowers remaining current on their mortgage payments. Servicers have
until December 31, 2012 to enter into mortgage modifications with borrowers. Included in administrative costs are fees
paid to Fannie Mae and Freddie Mac. Fannie Mae provides direct programmatic support as a third party agent on behalf
of the Department. Freddie Mac provides compliance oversight of services as a third party agent on behalf of the
Department, and the servicers work directly with the borrowers to modify and service the borrowers’ loans.

Implemented in fiscal year 2010, the HFA Hardest-Hit Fund provides targeted aid to families in the states hit hardest by
the housing market downturn and unemployment. Approved states meeting the criteria for this program develop and
roll out their own programs with timing and types of programs offered targeted to address the specific needs and
economic conditions of their state. States have until December 31, 2017 to enter into agreements with borrowers.

The FHA-Refinance Program is a joint initiative with the HUD which is intended to encourage refinancing of existing
underwater (i.e. the borrower owes more than the home is worth) mortgage loans not currently insured by FHA into
FHA-insured mortgages. HUD will pay a portion of the amount refinanced to the investor and the Department will pay
incentives to encourage the extinguishment of second liens associated with the refinanced mortgages The Department
established a letter of credit that obligated the Department portion of any claims associated with the FHA-guaranteed
mortgages. The OMB determined that for budgetary purposes, the FHA-Refinance Program cost is calculated under the


                                                            97
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

FCRA; therefore the liability is calculated at the net present value of estimated future cash flows. Homeowners can
refinance into FHA-guaranteed mortgages through December 31, 2012 and the Department will honor its share of claims
against the letter of credit through 2020. The Department was required to deposit $50 million with a commercial bank
as its agent to administer payment of claims under the program. As of September 30, 2011, 334 loans had been
refinanced and no claim payments have been made to date under this program. As of September 30, 2010, no loans had
been refinanced under this program as the joint initiative was entered into late in the fiscal year. The FHA-Refinance
Program is accounted for under the FCRA as discussed above.

As of September 30, 2011, and 2010, the Department had committed up to $45.6 billion, respectively, for these programs.
For fiscal year 2011 and 2010, payments made from the Housing Programs Under TARP totaled $1.9 billion and $543
million, respectively.


8. INVESTMENTS IN GOVERNMENT SPONSORED ENTERPRISES
Fannie Mae and Freddie Mac are stockholder-owned GSEs. Congress established these GSEs to support the supply of
mortgage loans. A key function is to package purchased mortgages into securities, which are subsequently sold to
investors.

In the lead up to the financial crisis, increasingly difficult conditions in the housing market challenged the soundness and
profitability of the GSEs, thereby undermining the entire housing market. This led Congress to pass the Housing and
Economic Recovery Act (HERA) (P.L. 110-289). This Act created the new FHFA, with enhanced regulatory authority over
the GSEs, and provided the Secretary with certain authorities intended to ensure the financial stability of the GSEs, if
necessary. On September 7, 2008, FHFA placed the GSEs under conservatorship and the Department entered into a
Senior Preferred Stock Purchase Agreement (SPSPA) with each GSE. These actions were taken to preserve the GSEs’
assets, ensure a sound and solvent financial condition, and mitigate systemic risks that contributed to current market
instability.

The actions taken by the Department thus far are temporary, as defined by section 1117 of HERA, and are intended to
provide financial stability. The purpose of the Department’s actions is to maintain the solvency of the GSEs so they can
continue to fulfill their vital roles in the home mortgage market while the Administration and Congress determine what
structural changes should be made. The FHFA director may terminate the conservatorship if safe and solvent conditions
can be established. Draws under the SPSPAs are designed to ensure that the GSEs maintain positive net worth as a result
of any net losses from operations, and also meet taxpayer dividend requirements under the SPSPAs. While this
arrangement is somewhat circular in the event that dividends exceed net income and draws are made to fund dividends,
the SPSPAs were structured to ensure any draws result in an increased nominal investment as further discussed below.

Under the SPSPAs, the Department initially received from each GSE: (i) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share, and (ii) a non-
transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis. The
warrants expire on September 7, 2028. The senior preferred stock accrues dividends at 10.0 percent per year, payable
quarterly. This rate will increase to 12.0 percent if, in any quarter, the dividends are not paid in cash, until all accrued
dividends have been paid. Dividends of $15.6 billion and $12.1 billion were received during fiscal years ended September
30, 2011 and 2010, respectively. In addition, beginning March 31, 2011, the GSEs were scheduled to begin paying the
Department a “Periodic Commitment Fee” (PCF) on a quarterly basis, payable in cash or via an increase to the liquidation
preference. The PCF was to be initially established by the Department on December 31, 2010, based on mutual
agreement between the Department and each GSE, in consultation with the Chairman of the Federal Reserve Board, and
then subsequently re-established every five years thereafter. This fee may be waived by the Department for up to one


                                                              98
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

year at a time, if warranted by adverse mortgage market conditions. The Department waived the PCF payments for the
calendar year 2011 given that the imposition of the PCF at that time would not fulfill its intended purpose of generating
increased compensation to the American taxpayer.

The SPSPAs, which have no expiration date, provide for the Department to disburse funds to the GSEs if, at the end of
any quarter, the FHFA determines that the liabilities of either GSE exceed its assets. The maximum amount available to
each GSE under this agreement was originally $100.0 billion and, in May 2009, the maximum amount was raised to
$200.0 billion. In December 2009, the Department amended the SPSPAs to replace the $200.0 billion per GSE funding
commitment cap with a formulaic cap that will allow continued draws for three years at amounts that will automatically
adjust upwards quarterly by the cumulative amount of any losses realized by either GSE and downward by the cumulative
amount of any gains, but not below $200.0 billion, and will become fixed at the end of the three years. At the conclusion
of the three-year period ending December 2012, the remaining commitment will then be fully available to be drawn per
the terms of the agreements (referred to hereafter as the “Adjusted Caps”). Draws against the funding commitment of the
SPSPAs do not result in the issuance of additional shares of senior preferred stock; instead, the liquidation preference of
the initial 1,000,000 shares is increased by the amount of the draw.

Actual payments to the GSEs for fiscal years ended September 30, 2011 and 2010 were $20.8 billion and $52.6 billion,
respectively. Additionally, $316.2 billion and $359.9 billion were accrued as a contingent liability as of September 30,
2011 and 2010, respectively. This accrued contingent liability is based on the projected draws under the SPSPAs. It is
undiscounted and does not take into account any of the offsetting dividends which may be received as a result of those
draws.

ACCOUNTING TREATMENT

Entity Transactions ― The estimated contingent liability to the GSEs accrued pursuant to the SPSPAs is funded
through the Department’s direct appropriations. Therefore, they are reflected at their gross amount as “entity” costs on
the Department’s Consolidated Statements of Net Cost and in the line item, “Cumulative Results of Operations” on the
Department’s Consolidated Balance Sheets, without considering the increase in senior preferred stock liquidation
preference/fair value adjustments, future dividend receipts from the GSEs, or any future PCFs.

Non-Entity Transactions ― As actual payments are made to the GSEs, they result in increases to the U.S.
Government’s liquidation preference in the GSEs’ preferred stock, and thus represent General Fund exchange revenue
reported on the Department’s Consolidated Statements of Net Cost as “Net GSEs Non-Entity Revenue.” The associated
valuation losses and dividends are General Fund-related costs and revenues that are likewise reported as “Net GSEs Non-
Entity Revenue.”

From a government-wide perspective, the Department’s entity expense for the accrued contingent liability under the
SPSPAs may, over time, be somewhat mitigated by the General Fund’s exchange revenues recognized when actual draw
payments are made to the GSEs.




                                                             99
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

INVESTMENTS IN GSES

As of September 30, 2011 and 2010, the Department’s investments in the GSEs consisted of the following (in millions):

                                                                            Gross          Cumulative
                                                                     Investments            Valuation               9/30/11
GSEs Investments                                                    As of 9/30/11                Loss            Fair Value
Fannie Mae Senior Preferred Stock                                  $      104,627        $   (26,718)          $     77,909
Freddie Mac Senior Preferred Stock                                         66,004            (12,380)                53,624
Fannie Mae Warrants Common Stock                                            3,104              (2,137)                  967
Freddie Mac Warrants Common Stock                                           2,264              (1,721)                  543
Total GSEs Investments                                             $       175,999       $     (42,956)        $    133,043


                                                                             Gross           Cumulative
                                                                      Investments             Valuation              9/30/10
GSEs Investments                                                     As of 9/30/10                  Loss           Fair Value
Fannie Mae Senior Preferred Stock                                  $        85,941       $     (29,450)        $       56,491
Freddie Mac Senior Preferred Stock                                          63,924              (12,759)               51,165
Fannie Mae Warrants Common Stock                                             3,104               (2,097)                1,007
Freddie Mac Warrants Common Stock                                            2,264                (1,711)                 553
Total GSEs Investments                                             $        155,233      $       (46,017)      $     109,216

SENIOR PREFERRED STOCK AND WARRANTS FOR COMMON STOCK

In performing the calculations for the valuations of the senior preferred stock and warrants for common stock, the
Department relied on the GSEs’ public filings and press releases concerning its financial statements, projection forecasts,
monthly summaries, quarterly credit supplements, independent research regarding high-yield bond and preferred stock
trading, independent research regarding the GSEs’ common stock trading, interviews with the GSE’s management, and
other information pertinent to the valuations. Because of the nature of the instruments, which are not publicly traded
and for which there is no comparable trading information available, the valuation relies on significant unobservable
inputs that reflect assumptions about the expectations that market participants would use in pricing.

A complicating issue for the valuation of the senior preferred stock is the interaction between liquidity payments and the
ongoing liquidation preference of the stock, and the amount of dividends associated with that liquidation preference. The
projections assume that a hypothetical buyer would acquire the dividend stream related to the existing balance of the
liquidation preference on the transaction date, as well as no PCF payments by the GSEs. This stream of dividend
payments was then discounted to address certain issues unique to the senior preferred stock.

The valuation of the warrants are impacted by the nominal exercise price and the large number of potential exercise
shares, the market trading of the common stock that underlies the warrants, the principal market, and the market
participants. Other discounting factors are the holding period risk related directly to the amount of time that it will take
to sell the exercised shares without depressing the market and the other activity under the SPSPA.

CONTINGENT LIABILITY

As part of the valuation exercise, the Department prepared a series of long-range projections through 2039 to determine
what the implied amount of the total contingent liability to the GSEs under the SPSPAs would be as of that year. Since
future payments under the SPSPAs are deemed to be probable, the Department had estimated the contingent liability to
be $316.2 billion as of September 30, 2011. This estimate reflects the projected equity deficits of the GSEs stemming
from credit losses and contractual dividend requirements. The valuation analysis as of September 30, 2011 included
several case scenarios which resulted in total SPSPA estimates ranging from $309.6 billion (based on an “optimistic”


                                                             100
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

case scenario) to $376.1 billion (based on an “extreme” case scenario). The $316.2 billion contingent liability reported as
of September 30, 2011 reflects the Department’s most likely liability estimate. This compares to the $359.9 billion
contingent liability reported as of September 30, 2010 which was based on a range of $359.9 billion to $461.8 billion.
The recorded contingent liability is the total estimated payments for the life of the agreements under the Adjusted Caps,
minus actual payments made through the end of the fiscal year. Such accruals are adjusted as new information develops
or circumstances change.

In performing the calculations for the valuation and contingent liability estimates, the Department relied on the GSEs’
public filings and press releases concerning its audited and unaudited financial statements, monthly summaries,
quarterly credit supplements, September 2011 forecast for the years 2011 through 2014 (as provided by FHFA), and
interviews with the GSEs’ management and FHFA. The GSE managers were not able to provide the Department with a
forecast of needed draws under the SPSPAs after December 31, 2015; however, they did provide the Department with
general guidance as to the key assumptions that were used for subsequent periods. The forecasts after 2015 generally
assume similar operating assumptions on the guarantee business and assume a gradual wind-down of the retained
portfolios (and corresponding net interest income) through 2026, as directed under the provisions of the SPSPAs for the
GSEs to reduce their investment portfolios by 10.0 percent per annum. The Department also relied upon economic and
demographic data from the 2011 Annual Report of the Board of Trustees of the Federal Old-Age and Survivors Insurance
and Federal Disability Insurance Trust Funds and the FHFA’s House Price Index.

Based on the annual valuation of the Department’s estimated future contingent liability, the Department increased its
liability by accruing an expense of $320.6 billion at the end of fiscal year 2010. The Department reduced its estimated
liability by $22.9 billion at the end of the fiscal year 2011 via a reduction in expense. Both the increase in expense in fiscal
year 2010 and reduction in expense in fiscal year 2011 were recorded as entity costs within the Economic Program section
of the Department’s Consolidated Statements of Net Cost.

As of September 30, 2011 and 2010, the summarized aggregated financial condition of the GSEs was as follows (in
millions):
                                                                                                            2011                   2010
Combined Assets
   Investment Securities                                                                         $      422,741      $      474,437
   Mortgage Loans                                                                                     4,715,057           4,782,405
   Other                                                                                                248,415             261,510
Total Combined Assets                                                                                 5,386,213           5,518,352
Combined Liabilities
   Long Term Debt                                                                                     4,974,759            5,033,151
   Other                                                                                                425,236              487,706
Total Combined Liabilities                                                                            5,399,995            5,520,857
Combined net deficit                                                                             $      (13,782)     $        (2,505)

For the nine months ended September 30,
Combined net interest income                                                                     $        28,832     $        24,312
Combined provisions for loan losses                                                                     (28,672)            (35,082)
Net interest income (loss) after provision for loan losses                                       $            160    $      (10,770)

Regulatory Capital - minimum capital deficit as of September 30,                                 $     (231,531)     $     (198,999)
Excludes financial guarantees not consolidated on GSE balance sheets.

The above information was taken directly from the quarterly reports filed with the SEC, which are publicly available on
the SEC’s website (www.SEC.gov) and also the GSE investor relations websites.




                                                              101
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Both GSEs reported very low early delinquencies on additions to their credit books in 2009 through 2011. This favorable
early delinquency experience is an improvement compared with the loans originated in 2005 through 2008. However,
both GSEs expect to make additional draws under the SPSPA in future periods despite improving levels of net income as
the required dividend payment amounts under the SPSPAs are estimated to exceed the net income of the GSEs. Thus,
incremental draws under the SPSPAs are projected to be needed to meet dividend payment requirements. The GSEs
expect their net worth will also be impacted negatively by dividend payments on the SPSPAs, coupled with continued
expected credit losses associated with the exposures that originated in the period 2005 through 2008.

Under the existing SPSPAs, as amended, the Department’s projections show that each GSE will fully utilize the amount of
funding available under the Adjusted Cap. This is in addition to any draws during calendar years 2010 through 2012, as
this period is not subject to the Adjusted Cap. The Department’s projections of future liquidity payments may differ from
actual experience. Future actual liquidity payment levels will depend on numerous factors that are difficult to predict,
including, but not limited to, changes in government policy with respect to the GSEs, the business cycle, inflation, home
prices, unemployment rates, interest rates, changes in housing preferences, home financing alternatives, availability of
debt financing, market rates of guarantee fees, outcomes of loan refinancings and modifications, new housing programs,
and other applicable factors.

GSES NON-ENTITY REVENUE

For the fiscal years ended, September 30, 2011 and 2010, GSEs Non-Entity Revenue consisted of the following (in
millions):

Summary of GSEs Non-Entity Revenue                                                                   2011              2010
General Fund Revenue from Increase in Liquidity Preference of GSEs
  Preferred Stock                                                                          $    (20,766)     $     (52,600)
Current Valuation (Gain)/Loss on GSEs Warrants/Preferred Stock                                   (3,061)              8,064
GSEs Preferred Stock Dividends                                                                  (15,588)            (12,142)
Total GSEs Non-Entity Revenue                                                              $    (39,415)     $     (56,678)

CHANGING REGULATORY ENVIRONMENT

On July 9, 2010, FHFA published in the Federal Register a proposed rule to clarify certain terms of the conservatorship
and receivership operations for the GSEs. The key issues addressed in the proposed rule are the status and priority of
claims and the relationships among various classes of creditors and equity-holders under conservatorships or
receiverships.

On July 21, 2010, the President signed the Dodd-Frank Act into law which significantly changed the regulation of the
financial services industry, including the creation of new standards related to regulatory oversight of financial institutions
deemed systemically important; an orderly liquidation mechanism for these institutions; and oversight of derivatives,
capital requirements, asset-backed securitization, mortgage underwriting, and consumer financial protection. Also, it
contains a provision requiring the Secretary to conduct a study and develop recommendations regarding the options for
ending the conservatorship. On February 11, 2011, the President delivered to Congress a report from the Secretary that
provided recommendations regarding the options for ending the conservatorship and plans to wind down the GSEs. To
date, Congress has not approved a plan to address what will be done with the GSEs.




                                                             102
                                                                              U.S. Department of the Treasury | Fiscal Year 2011


9. INVESTMENTS IN INTERNATIONAL FINANCIAL INSTITUTIONS
Investments in the Multilateral Development Banks (MDB) consist of investments in the World Bank Group
(International Bank for Reconstruction and Development, International Finance Corporation, and Multilateral
Investment Guarantee Agency), and five regional development banks (the African, Asian, European, Inter-American, and
North American institutions), as enumerated in the table below.

As of September 30, 2011 and 2010, investments in international financial institutions consisted of the following (in
millions):
                                                                                                                     2011                  2010
African Development Bank                                                                                      $       174            $       175
Asian Development Bank                                                                                                565                   458
European Bank for Reconstruction and Development                                                                      636                   636
Inter-American Development Bank (1)                                                                                 1,508                 1,487
International Bank for Reconstruction and Development                                                               1,985                 1,985
International Finance Corporation                                                                                     569                   569
Multilateral Investment Guarantee Agency                                                                               45                     45
North American Development Bank                                                                                       225                   225
Total                                                                                                         $     5,707            $    5,580
Refer to Note 28 for a description of the additional commitments related to these institutions.
(1) Includes International Investment Corporation.



10. OTHER INVESTMENTS AND RELATED INTEREST
Investments in U.S. Government securities held by the Department’s entities have been eliminated against the federal
debt liability for financial reporting purposes (See Note 4). Foreign investment holdings are normally invested in interest
bearing securities issued or held through foreign governments or monetary authorities (See Note 5).

As of September 30, 2011 and 2010, entity investments in foreign investment holdings and other investments consisted of
the following (in millions):

                                             Cost/     Unamortized                                 9/30/11
                                        Acquisition     (Premium)/              Interest               Net         Unrealized      9/30/11
Type of Investment                           Value         Discount           Receivable        Investment        Gain/(Loss)    Fair Value
Foreign Investments:
  Euro Bonds & Notes                $        4,498     $            85    $           98    $        4,681    $           149    $       4,830
  Japanese Government Bonds                  8,037                 28                  7             8,072                 20            8,092
  Other FCDAs                                2,851                   -                 -             2,851                   4           2,855
Other Investments                               30                 (2)                 -                28                 (7)              21
Total Non-Federal                   $       15,416     $           111    $         105     $       15,632    $           166    $       15,798



                                              Cost/        Unamortized                              9/30/10
                                         Acquisition        (Premium)/           Interest               Net         Unrealized        9/30/10
Type of Investment                            Value            Discount        Receivable        Investment        Gain/(Loss)       Fair Value
Foreign Investments:
  Euro Bonds & Notes                $        4,478     $             76   $          102    $        4,656    $           178    $       4,834
  Japanese Government Bonds                  7,729                   10                9             7,748                 35            7,783
  Other FCDAs                                2,680                 168                 -             2,848                  -            2,848
Other Investments                               32                  (2)                -                30                (8)               22
Total Non-Federal                   $        14,919    $           252    $           111   $       15,282    $           205    $       15,487




                                                                   103
                                                                     U.S. Department of the Treasury | Fiscal Year 2011


11. CREDIT PROGRAM RECEIVABLES, NET
The Department administers a number of programs designed to stabilize the financial system and restore the flow of
credit to consumers, businesses, and homeowners. For fiscal years ended September 30, 2011 and 2010, credit program
receivables, net consisted of the following (in millions):
                                                                                             2011                 2010
Government Sponsored Enterprise Programs:
  GSEs Mortgage-Backed Securities Purchase Program                                   $     72,417        $     172,234
  State and Local Housing Finance Agency Program                                          14,328                 14,121
Small Business Lending Fund Program                                                         4,108                     -
International Monetary Fund Direct Loans Program (FCRA portion)                             1,931                     -
Community Development Financial Institutions Direct Loans Program                              36                    41
Total                                                                                $    92,820         $     186,396

The Department applies the provisions of SFFAS No. 2 and FCRA to account for its credit programs. These standards
require measurement of assets or liabilities at the net present value of their estimated future cash flows. For each asset,
the Department estimates cash inflows and outflows that project asset performance and reflect the actual structure of the
asset over its estimated term. Asset performance is affected by such factors as prepayments and defaults. Cash flow
forecasts are discounted at interest rates of Treasury securities with comparable maturities using the OMB’s Credit
Subsidy Calculator. Each of the programs are discussed in detail below.

GSES MORTGAGE-BACKED SECURITIES PURCHASE PROGRAM

HERA authorized the Department to purchase GSE MBS consisting of mortgage pass-through securities issued by Fannie
Mae and Freddie Mac. The Department, using private sector asset managers, purchased MBS on the open market. By
purchasing these credit-guaranteed securities, the Department sought to broaden access to mortgage funding for current
and prospective homeowners and to promote stability in the mortgage market. The authority granted by Congress to
purchase MBS expired on December 31, 2009, at which point the purchase of new securities ended.

Prior to March 2011, the Department intended to hold MBS securities to maturity. On March 21, 2011, the Department
announced that it would begin an orderly sale of its MBS portfolio. The Department plans to sell up to $10.0 billion in
GSE MBS securities per month, subject to market conditions. This decision is more consistent with the Department’s
divestment strategy for financial assets acquired during 2008 and 2009 as part of its other economic stabilization
programs.

As of September 30, 2011, the estimated net present value of the future cash flows of the MBS portfolio was $72.4 billion.
This is comprised of gross cost in the amount of $70.6 billion and a subsidy allowance of $1.8 billion. The MBS subsidy is
negative in that the Department expects to generate earnings on its portfolio. The subsidy allowance is the difference
between the Department's cost of purchasing the MBS securities and the expected future value of the repayments to the
Department. As of September 30, 2010, the net present value of future cash flows of the MBS portfolio was $172.2
billion. This is comprised of gross cost in the amount of $164.3 billion and a subsidy allowance of $7.9 billion. The
reduction in the gross cost from September 30, 2010 to September 30, 2011 is due to sales of MBS during fiscal year 2011,
as well as the reduction in principal arising from monthly payments. The change in the subsidy allowance from
September 30, 2010 to September 30, 2011 stems from: (i) a subsidy modification, which occurred as a result of the
Department’s decision to sell its MBS holdings, (ii) a financial statement reestimate, which occurred at year end, and (iii)
subsidy allowance amortization. As described below, the different assumptions underlying the calculation of the subsidy
modification and the subsidy reestimate drove the difference in the program’s cost as reflected in the table below.




                                                             104
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

With the decision to sell the MBS portfolio, the Department performed a subsidy modification which resulted in an
increased cost in the program. The modification is comprised of two components: the cost related to the changes in the
anticipated future cash flows, or the modification cost, and the modification adjustment transfer (MAT). The MAT is an
adjustment that is recognized to account for differences between the single effective discount rate (determined at the time
the purchases were made) and the fiscal year 2011 President’s Budget discount rates. The modification cost was $5.1
billion and the MAT resulted in an additional cost of $4.6 billion. The modification cost and the MAT were determined
using forward pricing of MBS securities based on fiscal year 2011 economic assumptions within the President’s Budget.
These assumptions differed from market rates at a time which would have produced a lower modification cost and MAT.
Together, the modification and MAT resulted in a cost to the program of $9.7 billion and this is reflected on the line
“Subsidy Cost for Modifications” in the table below.

The Department performed a financial statement reestimate of the program’s cost as of September 30, 2011.
Assumptions about MBS and program performance are drawn from widely available market sources, as well as
information published by the GSEs. For the fiscal year 2011 financial statement reestimate, the Department also
incorporated assumptions related to future sales, using current market data. Key inputs to the cash flow forecast include,
among other factors, forecast sales volume and forward pricing by month estimated using third-party current market
prices and interest rate yields. (Refer to the credit program accounting policy described in Note 1 for additional inputs
used in this cash flow model). The financial statement reestimate, which considers the effect of the modification,
resulted in a total downward adjustment, or a decrease in cost to the program, of $7.9 billion in fiscal year 2011. This
downward reestimate is primarily driven by the modification, which was developed using non-market based data, as
discussed above. This was offset, to a lesser degree, by an increase in prepayment speeds. Unlike the modification
process, projected sales for the financial statement reestimate as of September 30, 2011 utilize forward prices based on
yields on current market interest rates as opposed to the fiscal year 2011 President’s Budget rates. The increase in
prepayment speeds is primarily due to a decrease in market mortgage rates and a related increase in refinancing activity.


The subsidy allowance amortization is comprised of the net difference between interest received on uninvested funds,
interest expense on borrowings and interest received from security holdings. The amortization for fiscal years 2011 and
2010 resulted in increases to the subsidy cost of $2.9 billion and $3.8 billion, respectively.

STATE AND LOCAL HOUSING FINANCE AGENCY

Under HERA, the Department, together with the Federal Housing Finance Agency (FHFA), Fannie Mae, Freddie Mac,
and the Department of Housing and Urban Development (HUD), created an initiative in October 2009 to provide
support to HFAs. This initiative was designed to support low mortgage rates and expand resources for low and middle
income borrowers to purchase or rent homes, making them more affordable over the long term. In December 2009,
several transactions were finalized as part of the HFA initiative’s two separate programs: (i) the Temporary Credit and
Liquidity Program (TCLP) and (ii) the New Issue Bond Program (NIBP).

Under the terms of the TCLP, the Department entered into participation interests with Fannie Mae and Freddie Mac,
supporting credit and liquidity facilities that the GSEs are providing to ten states as part of the program. Fannie Mae and
Freddie Mac provided replacement credit and liquidity facilities to HFAs that helped reduce the costs of maintaining
existing financing and relieve financial strains experienced by HFAs. The Department agreed to support the GSE
replacement credit and liquidity facilities by purchasing HFA bonds tendered to the GSEs. As of September 30, 2011 and
2010, the liquidity facilities covered $ 6.6 billion and $7.6 billion, respectively, of single-family and multi-family variable-
rate demand obligations. As of September 30, 2011 and 2010, none of these bonds had been tendered to the GSEs and,
accordingly, the Department had not disbursed any funds. As such, the Department did not perform a September 30,
2011 subsidy reestimate for TCLP.

                                                              105
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

Under the terms of the NIBP, the Department purchased securities of Fannie Mae and Freddie Mac collateralized by new
state and local HFA bonds. The Department also escrowed funds for the purchase of HFA bonds not yet issued. This
investment by the Department provides financing to the HFAs and permits them to issue additional new housing bonds
despite challenges in the housing and financial markets. The Department’s NIBP GSE obligations are backed by a
combination of mortgage revenue bonds and escrowed funds from over 92 HFAs in 49 states plus the District of
Columbia.

As of September 30, 2011, the estimated net present value of the future cash flows of the NIBP portfolio was $14.3 billion.
The net present value of future cash flows is comprised of gross cost in the amount of $15.1 billion and a subsidy
allowance of $815 million. The NIBP subsidy is positive in that the Department expects a cost associated with the
program. The subsidy allowance is the difference between the Department's cost of purchasing the GSE collateralized
securities and the expected value of the repayments to the Department. As of September 30, 2010, the net present value
of future cash flows of the NIBP portfolio was $14.1 billion. This is comprised of gross cost in the amount of $15.3 billion
and a subsidy allowance of $1.2 billion. The change in the subsidy allowance from the September 30, 2010 to September
30, 2011 is due to the financial statement reestimate and subsidy allowance amortization, as described below.

The Department performed a financial statement reestimate of the program’s cost as of September 30, 2011.
Assumptions about security and program performance are drawn from widely available market sources as well as
management’s assumption of future program usage. The financial statement reestimate resulted in a total upward
reestimate of $9 million for fiscal year 2011. This upward reestimate is the net result of projected lower coupon rates on
the expected release of escrowed NIBP funds between September 30, 2011, and the termination of the escrowed NIBP
funds on December 31, 2011. Most of this increase in cost is offset by an increase in prepayment speeds. The projected
lower coupon rates on the expected release of escrowed NIBP funds are due to lower market interest rates used as index
to calculate the coupon rates. The increase in prepayment speeds is primarily due to a decrease in market mortgage rates
and a related increase in refinancing activity.


The subsidy allowance amortization is comprised of the net difference between interest received on uninvested funds,
interest expense on borrowings, fees, and interest received from the HFAs. The amortization for fiscal year 2011 and
2010 was $410 million and $537 million, respectively.

SMALL BUSINESS LENDING FUND

On September 27, 2010, the Small Business Jobs Act of 2010 (P.L. 111-240) was enacted and, in part, created the SBLF
program. Pursuant to the Act, the Department provided capital to qualified community banks with assets of less than
$10.0 billion in order to encourage lending to small businesses. Through the SBLF, “Main Street” banks and small
businesses work together to help create jobs and promote economic growth in local communities across the nation. As an
incentive to participating banks to increase lending to small businesses, the dividend rate a bank pays to the Department
for SBLF funding will be reduced as the bank’s small business lending increases. The dividend rate is variable and is
based on the amount of small business lending but it is, at most, 5.0 percent initially. If a bank’s small business lending
increases by 10.0 percent or more, then the rate will fall to as low as 1.0 percent. Banks that increase their lending by
amounts less than 10.0 percent can benefit from rates set on a stepped scale between 2.0 and 4.0 percent. If lending does
not increase by the end of the first two years, the rate will increase to 7.0 percent. After 4 ½ years, the rate will increase
to 9.0 percent if the bank has not already repaid the SBLF funding. All funds under this program were disbursed by
September 27, 2011, and were still outstanding at September 30, 2011. The Department treats these purchases of capital
as direct loans in accordance with the requirements of FCRA.




                                                             106
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

As of September 30, 2011, the estimated net present value of the future cash flows of the SBLF portfolio was $4.1 billion.
The net present value of future cash flows is comprised of a gross cost in the amount of $4.0 billion and a subsidy
allowance of $80 million. Specifically, the original subsidy cost of $292 million decreased by $372 million as a result of
the financial statement reestimate. The SBLF subsidy is negative in that the Department expects to generate earnings on
its portfolio. The subsidy allowance is the difference between the Department's cost of purchasing the SBLF securities
and the expected value of the repayments to the Department. It is comprised of subsidy cost for disbursements, the
financial statement reestimate, and subsidy allowance amortization.

The Department provided a total of $4.0 billion in capital to SBLF participants during fiscal year 2011. Based on the
initial budget subsidy rate of 7.24%, the total subsidy cost for these disbursements was $292 million.

The Department performed a year-end reestimate of the program’s cost as of September 30, 2011. Assumptions about
program performance are drawn from widely available market sources. This reestimate resulted in a total downward
reestimate (reduction in cost) of $372 million, which is the net result of performance to date, updated performance
assumptions, and actual program funding cost. The September 30, 2011 performance assumptions anticipate an
improved level of performance relative to the assumptions in the original cost estimate. The performance assumptions in
the original cost estimate assumed a portfolio with a larger percentage of higher risk banks relative to the actual portfolio
as of September 30, 2011.

INTERNATIONAL MONETARY FUND

In 2009, Congress passed the Supplemental Appropriations Act of 2009 (P.L. 111-32), which authorized an increase in
the U.S. quota (refer to Note 12 within these financial statements for more information) in the IMF, as well as an increase
in U.S. participation in the New Arrangements to Borrow (NAB), one of the IMF’s supplemental borrowing
arrangements. For the first time, Congress subjected both program increases to FCRA. Under FCRA, both program
increases are treated as direct loans to the IMF. However, the application of FCRA does not apply to appropriations for
the quota and NAB prior to 2009. For U.S. budget and accounting purposes, there are effectively two portions of the IMF
quota and NAB. The IMF quota program comprises a FCRA portion of $7.8 billion and a non-FCRA portion of $58.0
billion. The IMF NAB program comprises a FCRA portion of $97.5 billion and a non-FCRA portion of $10.4 billion.
These are approximate dollar amounts as U.S. commitments to the IMF are denominated in SDRs and, thus, the dollar
amounts fluctuate with the SDR/dollar exchange rate. These new designations only affect the manner in which the
Department accounts for the use and repayment of these funds as the new and old portions will be fungible to the IMF.

On March 25, 2011, the United States paid the reserve asset portion of the U.S. quota increase that Congress approved in
2009. As of September 30, 2011, the reserve asset payment of $2 billion in connection with the U.S. quota increase was
the only amount transferred to the IMF that is subject to FCRA. The estimated net present value of the future cash flows
on the reserve asset portion of the quota increase was $1.9 billion. As of September 30, 2011, the U.S. NAB funds that are
subject to FCRA have not been drawn.


The difference between IMF draws on the quota and the expected value of the repayments to the Department is the
subsidy allowance. The subsidy allowance as of September 30, 2011 is $64 million. The subsidy allowance is comprised
of subsidy cost for disbursements, the financial statement reestimate, and the subsidy allowance amortization. Based on
the budget subsidy rate of 2.34 percent, the total subsidy cost of the reserve asset portion of the quota increase was $47
million.

The Department performed a reestimate of the program’s cost as of September 30, 2011. Assumptions about program
performance are drawn from historical data. This reestimate resulted in a total upward reestimate of $15 million, which



                                                             107
                                                                   U.S. Department of the Treasury | Fiscal Year 2011

includes actual disbursements to date, and excludes estimated future disbursements. The upward reestimate is the result
of the exclusion of estimate future program disbursements.

The subsidy allowance amortization is comprised of the net difference between interest received on uninvested funds,
interest expense on borrowings, and remuneration received from the IMF. The amortization for fiscal year 2011 was $2
million.

COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS

The CDFI Fund was created as a bipartisan initiative in the Riegle Community Development and Regulatory
Improvement Act of 1994 (P.L. 103-325). The CDFI Fund was placed in the Department and began operations in July
1995. The fund operates various programs aimed at expanding the availability of credit, investment capital, and financial
and other services in distressed urban, rural, and Native American communities. The CDFI Fund is intended to help
create a national network of financial institutions dedicated to community development that leverages private resources
(financial and human) to address community development needs. The CDFI Fund provides financial and technical
assistance awards to certified CDFIs, which in turn provide services to create community development impact in
underserved markets. Certain of the financial assistance awards take the form of direct loans accounted for under FCRA.
As of September 30, 2011, the CDFI Fund had $53 million in loans outstanding.




                                                          108
                                                                                  U.S. Department of the Treasury | Fiscal Year 2011

 SUMMARY TABLES
 The following tables provide the net composition of the Department’s portfolio, subsidy cost, modifications and
 reestimates, a reconciliation of subsidy cost allowances, budget subsidy rates, and the components of the subsidy for each
 credit program for the fiscal years ended September 30, 2011 and 2010.
                                                                       2011
(in millions)                                      GSE MBS             HFA              SBLF              IMF            CDFI           TOTAL
Credit Program Receivables, Net:
 Credit Program Receivables, Gross            $        70,586    $      15,143    $        4,028    $      1,995    $        53    $      91,805
 Subsidy Cost Allowance                                 1,831            (815)                80            (64)            (17)           1,015
Net Credit Program Receivables                $        72,417    $     14,328     $        4,108    $       1,931   $        36    $      92,820
New Credit Program Loans
 Disbursed                                    $              -   $            -   $        4,028    $      1,995    $          -   $       6,023
Obligations for Loans Not Yet
 Disbursed (1)                                $              -   $            -   $             -   $      6,026    $          -   $       6,026
(1)   Excludes $97.5 billion of obligated but undisbursed NAB loans which are accounted for pursuant to FCRA. The obligation is based on the SDR
      exchange rate as of September 30, 2011 and has a 0.34 percent subsidy rate.

Budget Subsidy Rate, Excluding
  Modifications and Reestimates:
  Interest Differential                                      -                -         (26.54%)          1.69%                -
  Defaults                                                   -                -           19.88%          0.02%                -
  Other                                                      -                -           13.90%          0.63%                -
Total Budget Subsidy Rate                                    -                -            7.24%           2.34%               -
Subsidy Cost by Component:
 Interest Differential                        $              -   $            -   $       (1,069)   $         34    $          -   $      (1,035)
 Defaults                                                    -                -               801              -               -              801
 Other                                                       -                -               560             13               -              573

Total Subsidy Cost, Excluding
  Modifications and Reestimates               $              -   $            -   $          292    $         47    $          -   $         339

Reconciliation of Subsidy Cost
  Allowance:
  Balance, Beginning                          $       (7,894)    $       1,186    $            -    $          -    $        15    $      (6,693)
  Subsidy Cost for Disbursements                            -                -               292              47              -               339
  Subsidy Cost for Modifications                        9,738                -                 -               -              -             9,738
  Fees Received                                             -               30                 -               -              -                30
  Subsidy Allowance Amortized                           2,885            (410)                 -               2              -             2,477
  Other                                                 1,364                -                 -               -              -             1,364
Balance, Ending, Before Reestimates                      6,093            806                 292             49             15            7,255
Subsidy Reestimates                                    (7,924)              9               (372)             15              2          (8,270)
Balance, Ending                               $        (1,831)   $        815     $          (80)   $         64    $        17    $      (1,015)


Reestimates
  Interest Rate Reestimate                    $              -   $            -   $          (58)   $          -    $         -    $         (58)
  Technical/Default Reestimate                         (7,924)                9             (314)             15              2           (8,212)
Total Reestimates – Increase
(Decrease) in Subsidy Cost                    $        (7,924)   $            9   $         (372)   $         15    $         2    $     (8,270)


Reconciliation of Subsidy Costs:
 Subsidy Cost for Disbursements               $              -   $            -   $           292   $         47    $         -    $         339
 Subsidy Cost for Modifications                          9,738                -                 -              -              -            9,738
 Subsidy Reestimates                                   (7,924)                9             (372)             15              2          (8,270)

Total Credit Program Receivables
  Subsidy Costs                               $          1,814   $            9   $          (80)   $         62    $         2    $       1,807
Administrative Expense                        $            21    $            -   $             -   $           -   $          -   $          21




                                                                        109
                                                                         U.S. Department of the Treasury | Fiscal Year 2011




                                                       2010
(in millions)                             GSE MBS                HFA           SBLF        IMF       CDFI         TOTAL
Credit Program Receivables, Net:
 Credit Program Receivables, Gross    $    164,340     $       15,307      $       -   $     -   $      56   $   179,703
 Subsidy Cost Allowance                      7,894            (1,186)              -         -        (15)         6,693
Credit Program Receivables, Net       $    172,234     $      14,121       $       -   $     -   $     41    $   186,396
New Credit Program Loans
  Disbursed                           $     29,878     $      15,308       $       -   $     -   $       -   $    45,186
Obligations for Loans Not Yet
  Disbursed                           $            -   $             -     $       -   $     -   $       -   $          -


Budget Subsidy Rate, Excluding
  Modifications and Reestimates:
 Interest Differential                     (3.73%)         (0.52%)                 -         -           -
 Defaults                                        -               -                 -         -           -
  Other                                          -               -                 -         -           -
Total Budget Subsidy Rate                  (3.73%)         (0.52%)                 -         -           -


Subsidy Cost by Component:
 Interest Differential                $     (1,115)    $          (79)     $       -   $     -   $       -   $    (1,194)
  Defaults                                        -                  -             -         -           -              -
  Other                                           -                  -             -         -           -              -
Total Subsidy Cost, Excluding
  Modifications and Reestimates       $     (1,115)    $          (79)     $       -   $     -   $       -   $    (1,194)

Reconciliation of Subsidy Cost
  Allowance:
Balance, Beginning                    $    (11,093)    $             -     $       -   $     -   $     20    $   (11,073)
  Subsidy Cost for Disbursements             (1,115)              (79)             -         -           -        (1,194)
  Subsidy Cost for Modifications                   -              (20)             -         -           -           (20)
  Fees Received                                    -                 -             -         -           -              -
  Subsidy Allowance Amortized                 3,831              (537)             -         -         (1)          3,293
  Other                                            -                 -             -         -           -              -
Balance, Ending, Before Reestimates         (8,377)            (636)               -         -         19        (8,994)
Subsidy Reestimates                            483             1,822               -         -        (4)          2,301
Balance, Ending                       $    (7,894)     $         1,186     $       -   $     -   $     15    $    (6,693)


Reestimates:
 Interest Rate Reestimate             $       (157)    $          847      $       -   $     -   $      -    $       690
 Technical/Default Reestimate                  640                975              -         -        (4)           1,611
Total Reestimates - Increase
(Decrease) in Subsidy Cost            $        483     $       1,822       $       -   $     -   $    (4)    $     2,301


Reconciliation of Subsidy Costs:
 Subsidy Cost for Disbursements       $     (1,115)    $         (79)      $       -   $     -   $      -    $    (1,194)
 Subsidy Cost for Modifications                   -             (20)               -         -          -            (20)
 Subsidy Reestimates                           483             1,822               -         -        (4)          2,301
Total Credit Program Receivables
  Subsidy Costs                       $      (632)     $         1,723     $       -   $     -   $    (4)    $     1,087
Administrative Expense                $           6    $             -     $       -   $     -   $       -   $         6




                                                           110
                                                                        U.S. Department of the Treasury | Fiscal Year 2011


12. RESERVE POSITION IN THE INTERNATIONAL MONETARY
    FUND
The United States participates in the IMF through a quota subscription. Quota subscriptions are paid partly through the
transfer of reserve assets, such as foreign currencies or Special Drawing Rights, which are international reserve assets
created by the IMF, and partly by making domestic currency available as needed through a non-interest-bearing letter of
credit. This letter of credit, issued by the Department and maintained by the FRBNY, represents the bulk of the IMF’s
holdings of dollars. In keeping with IMF rules, approximately 0.25 percent of the U.S. quota is held in cash in an IMF
account at FRBNY.

The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided for an approximately $8.0 billion increase in the
United States quota in the IMF which came into effect in March 2011. P.L. 111-32 also provided for an increase in the
United States’ participation in the NAB up to the dollar equivalent of SDR 75 billion, which was activated in April 2011.
In May 2010, in connection with this Act, the United States agreed to increase its participation in the NAB from SDR 6.6
billion to SDR 69.1 billion, which was equivalent to $107.9 billion on September 30, 2011. Unlike all prior U.S. funding
for the IMF, this Act subjects both the increases in the U.S. quota and the NAB to the requirements of FCRA. The
existing portions of the U.S. quota and NAB, referred to as “the non-FCRA funds,” will be accounted for in the same
manner as they previously have been. The new portions of the quota and NAB, referred to as “the FCRA funds,” will be
accounted for in accordance with credit reform accounting guidelines.

While resources for transactions between the IMF and the United States are appropriated, with the exception of the
FCRA funds, they do not result in net budgetary outlays. This is because U.S./IMF quota transactions constitute an
exchange of monetary assets in which the United States receives an equal offsetting claim on the IMF in the form of an
increase in the U.S. reserve position in the IMF, which is interest-bearing and available at any time to meet balance of
payment needs. When the IMF draws dollars from the letter of credit to finance its operations and expenses, the drawing
does not represent a net budget outlay on the part of the United States because there is a commensurate increase in the
U.S. reserve position. When the IMF repays dollars to the United States, no net budget receipt results because the U.S.
reserve position declines concurrently in an equal amount.

As of September 30, 2011 and 2010, the U.S. quota in the IMF was 42.1 billion SDRs and 37.1 billion SDRs, respectively.
The value of the U.S. quota consisted of the following (in millions):

                                                       Non-                        Total           Non-                    Total
                                                      FCRA          FCRA(3)         2011          FCRA      FCRA            2010
Letter of Credit(1)                                $ 37,178       $   5,772     $ 42,950       $ 45,245     $  -     $    45,245
U.S. Dollars Held in Cash by the IMF                    153              20          173            144        -             144
Reserve Position(2)                                  20,682           1,974       22,656         12,938        -          12,938
Total U.S. Quota in the IMF                        $   58,013     $     7,766   $   65,779     $ 58,327     $    -   $    58,327
(1) This amount is included as part of the Fund Balance as reported on the Consolidated Balance Sheets and ”Appropriated Funds”
    disclosed in Note 2.
(2) The amounts shown in the non-FCRA columns are included in the Reserve Position in the IMF on the Consolidated Balance Sheets.
(3) Represents the FCRA portion of the U.S. quota in the IMF.


The U.S. reserve position is denominated in SDR, as is the U.S. quota. Consequently, fluctuations in the value of the
dollar with respect to the SDR results in valuation changes in dollar terms for the U.S. reserve position in the IMF as well
as the IMF letter of credit. The Department periodically adjusts these balances to maintain the SDR value of the U.S.
quota and records the change as a deferred gain or loss in its cumulative results of operations. These adjustments, known
as maintenance of value adjustments, are settled annually after the close of the IMF financial year on April 30. At April
30, 2011, the annual settlement with the IMF resulting from the depreciation of the dollar against the SDR since April 30,


                                                                111
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

2010, called for a downward adjustment of the U.S. quota by $1.7 billion and a corresponding increase to Unexpended
Appropriations on the Statement of Changes in Net Position. At April 30, 2010, the appreciation of the dollar against the
SDR since April 30, 2009, called for an upward adjustment of the U.S. quota by $349 million and a corresponding
decrease to Unexpended Appropriations. The dollar amounts shown above for the U.S. quota include accrued valuations
adjustments. On September 30, 2011, the Department recorded a net deferred valuation loss in the amount of $78
million for deferred maintenance of value adjustments needed at year end, compared to a net deferred valuation loss of
$168 million recorded at September 30, 2010.

The United States earns “remuneration” (interest) on its reserve position in the IMF except for a portion of the U.S. quota
originally paid in gold. Remuneration is paid quarterly and is calculated on the basis of the SDR interest rate. The SDR
interest rate is a market-based interest rate determined on the basis of a weighted average of interest rates on short-term
instruments in the markets of the currencies included in the SDR valuation basket. For fiscal years 2011 and 2010, the
Department received $59 million and $23 million as remuneration, respectively.

In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources in order to
forestall or cope with an impairment of the international monetary system when IMF liquidity is low. The United States
currently participates in two such arrangements – the General Arrangements to Borrow (GAB) and the NAB. There was
$6.1 billion in U.S. loans outstanding under these arrangements in fiscal year 2011 and none in fiscal year 2010 (reported
on the Consolidated Balance Sheets within the “Loans and Interest Receivable” line). Total U.S. participation in the GAB
and NAB was SDR 69.1 billion ($107.9 billion) and SDR 6.6 billion ($10.4 billion), as of September 30, 2011 and 2010,
respectively. Budgetary treatment of U.S. participation in the GAB and NAB, to the extent not subject to FCRA, does not
result in net budgetary outlays.


13. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
As of September 30, 2011 and 2010, Taxes, Interest and Other Receivables, Net consisted of the following (in millions):

                                                                                                  2011              2010
Non-Entity
Federal Taxes Receivable, Gross                                                          $    147,025      $     138,097
Less: Allowance on Taxes Receivable                                                          (112,017)         (103,091)
Interest Receivable on FRB Deposits of Earnings                                                  1,599             1,910
Other Receivables                                                                                   23                39
Less: Allowance on Other Receivables                                                              (10)              (24)
Total Non-Entity (Note 15)                                                                     36,620             36,931

Entity
Miscellaneous Entity Receivables and Related Interest                                              70                  45
Total Taxes, Interest and Other Receivables, Net                                         $     36,690      $       36,976

Federal taxes receivable constitutes the largest portion of these receivables, with IRS-related taxes receivable
representing the majority of the balance. IRS federal taxes receivable consists of tax assessments, penalties, and interest
which were not paid or abated, and which were agreed to by either the taxpayer and IRS, or the courts. Federal taxes
receivable is reduced by an allowance for doubtful accounts which is established to represent an estimate for uncollectible
amounts. The portion of tax receivables estimated to be collectible and the allowance for doubtful accounts are based on
projections of collectability from a statistical sample of taxes receivable.

In addition to amounts attributed to taxes, these receivables also include accrued interest income due on funds deposited
in FRBs. The Department does not establish an allowance for the receivable on deposits of FRB earnings.



                                                              112
                                                                    U.S. Department of the Treasury | Fiscal Year 2011


14. PROPERTY, PLANT, AND EQUIPMENT, NET
As of September 30, 2011 and 2010, property, plant and equipment consisted of the following (in millions):
                                                                                                                      2011
                                                                                                                      Book
                                        Depreciation       Service                            Accumulated              Net
                                          Method             Life              Cost           Depreciation            Value
Buildings, structures, and facilities       S/L           3-50 years     $        703     $          (360)        $     343
Furniture, fixtures, and equipment          S/L           2-20 years            3,097              (2,259)              838
Construction in progress                   N/A               N/A                  153                      -             153
Land and land improvements                 N/A               N/A                    15                     -              15
Internal use software in use                S/L           2-15 years            1,529               (1,151)             378
Internal use software in
  development                               N/A              N/A                   320                        -          320
Assets under capital lease                  S/L           2-25 years                 7                      (1)            6
Leasehold improvements                      S/L           2-25 years               510                   (297)           213
Total                                                                    $       6,334    $            (4,068)    $    2,266

                                                                                                                       2010
                                                                                                                       Book
                                         Depreciation       Service                             Accumulated             Net
                                           Method             Life             Cost             Depreciation           Value
Buildings, structures, and facilities        S/L          3-50 years     $        701    $               (336)    $       365
Furniture, fixtures, and equipment           S/L          2-20 years            3,100                  (2,295)            805
Construction in progress                    N/A              N/A                    15                       -              15
Land and land improvements                  N/A              N/A                    13                       -              13
Internal use software in use                 S/L          2-10 years            1,510                  (1,003)            507
Internal use software in
  development                               N/A               N/A                  102                        -              102
Assets under capital lease                  S/L            2-25 years                4                      (2)                2
Leasehold improvements                      S/L            2-25 years              541                    (319)              222
Total                                                                    $       5,986   $              (3,955)   $      2,031

The service life ranges vary significantly due to the diverse nature of PP&E held by the Department.

HERITAGE ASSETS

The Treasury Complex (Main Treasury Building and Annex) was declared a national historical landmark in 1972. The
Treasury Complex is treated as a multi-use heritage asset and is expected to be preserved indefinitely. The buildings that
house the Mint in Denver, San Francisco, Fort Knox, and West Point are also considered multi-use heritage assets for
fiscal years 2011 and 2010 and included on the National Register of Historic Places. Multi-use heritage assets are
recognized and presented with general property, plant and equipment on the Consolidated Balance Sheets.


15. NON-ENTITY VS. ENTITY ASSETS
Non-entity assets are those that are held by the Department but are not available for use by the Department. For
example, the non-entity Fund Balance represents unused balances of appropriations received by various Treasury entities
to conduct custodial operations such as the payment of interest on the federal debt and refunds of taxes and fees (Note 2).
Non-entity intra-governmental loans and interest receivable represents loans managed by the Department on behalf of
the General Fund. These loans are provided to federal agencies, and the Department is responsible for collecting these
loans and transferring the proceeds to the General Fund (Note 3). Non-entity advances to the DOL’s Unemployment
Trust Fund are issued from the General Fund to states for unemployment benefits. Repayment of these advances will be
transferred to the General Fund (Note 4).




                                                           113
                                                                           U.S. Department of the Treasury | Fiscal Year 2011

Non-entity cash, foreign currency, and other monetary assets include the operating cash of the U.S. Government,
managed by the Department. It also includes foreign currency maintained by various U.S. and military disbursing
offices, as well as seized monetary instruments (Note 5). Non-entity investments in GSEs include the GSEs’ senior
preferred stock and warrants held by the Department on behalf of the General Fund. As the stock and warrants are
liquidated, all proceeds are returned to the General Fund (Note 8). Non-entity investments in AIG include AIG common
stock held by the Department on behalf of the General Fund as of September 30, 2011, compared to a beneficial interest
held in a trust comprised of AIG preferred stock as of September 30, 2010. Proceeds from the sale of the AIG common
stock are being returned to the General Fund (Note 26).

As of September 30, 2011 and 2010, the Department’s total assets, segregated between non-entity and entity, are shown
below (in millions):
                                                                                                                    2011
                                                                                           Non-Entity              Entity                 Total
Intra-governmental Assets:
Fund balance (a)                                                                     $            1,465     $    380,319      $       381,784
Loans and Interest Receivable (Note 3)                                                          671,411           57,239             728,650
Advances to the Unemployment Trust Fund (Note 4)                                                42,773                 -               42,773
Due from the General Fund (Note 4)                                                          14,902,717                 -           14,902,717
Other Intra-governmental Assets                                                                     388              760                 1,148
Total Intra-governmental Assets                                                             15,618,754           438,318          16,057,072
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(b)                                   50,216            66,905               117,121
Gold and Silver Reserves (Note 6)(c)                                                             11,062                -                11,062
Investments in GSEs (Note 8)                                                                   133,043                 -              133,043
Taxes, Interest and Other Receivables, Net (Note 13)                                            36,620                70               36,690
Non-TARP Investments in American International Group, Inc. (Note 26)                            10,862                 -               10,862
Other Assets (d)                                                                                    102          224,274              224,376
Total Assets                                                                         $     15,860,659       $    729,567      $   16,590,226
(a) $358 million of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(b) $50  billion of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(c) $25 million of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(d) Other Assets (Entity) include TARP and non-TARP credit program receivables, net totaling $80.1 billion and $92.8 billion, respectively, a

    reserve position in the IMF of $20.7 billion, and other various assets on the Consolidated Balance Sheets not separately presented in this
    table.
                                                                                                                    2010
                                                                                           Non-Entity              Entity                  Total
Intra-governmental Assets:
Fund Balance (e)                                                                     $              542    $    436,484      $          437,026
Loans and Interest Receivable (Note 3)                                                         493,389           59,464                 552,853
Advances to the Unemployment Trust Fund (Note 4)                                                 34,111               -                   34,111
Due from the General Fund (Note 4)                                                          13,655,637                -              13,655,637
Other Intra-governmental Assets                                                                     350             829                     1,179
Total Intra-governmental Assets                                                             14,184,029          496,777             14,680,806
Cash, Foreign Currency, and Other Monetary Assets (Note 5)(f)                                  304,244           68,190                 372,434
Gold and Silver Reserves (Note 6)(g)                                                             11,062               -                   11,062
Investments in GSEs (Note 8)                                                                   109,216                -                 109,216
Taxes, Interest and Other Receivables, Net (Note 13)                                            36,931               45                  36,976
Non-TARP Investments in American International Group, Inc. (Note 26)                            20,805                -                  20,805
Other Assets (h)                                                                                    129         367,829                 367,958
Total Assets                                                                         $      14,666,416     $    932,841      $       15,599,257
(e) $249 million of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(f) $303.8 billion of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(g) $25 million of the Non-entity balance represents assets held on behalf of the General Fund (Note 4).
(h) Other Assets (Entity) include TARP and non-TARP credit program receivables, net totaling $144.7 billion and $186.4 billion, respectively, a

    reserve position in the IMF of $12.9 billion, and other various assets on the Consolidated Balance Sheets not separately presented in this
    table.




                                                                  114
                                                                     U.S. Department of the Treasury | Fiscal Year 2011


16. FEDERAL DEBT AND INTEREST PAYABLE
The Department is responsible for administering the federal debt on behalf of the U.S. Government. The federal debt
includes borrowings from the public as well as borrowings from federal agencies. The federal debt does not include debt
issued by other governmental agencies, such as the Tennessee Valley Authority or the HUD.

The federal debt as of September 30, 2011 and 2010 was as follows (in millions):

Intra-governmental                                                                               2011                   2010
Beginning Balance                                                                    $      4,501,028         $    4,319,892
New Borrowings/Repayments                                                                     124,010                 181,136
Subtotal at Par Value                                                                       4,625,038              4,501,028
Premium/(Discount)                                                                             47,386                 38,228
Debt Principal Not Covered by Budgetary Resources (Note 19)                                 4,672,424              4,539,256
Interest Payable Covered by Budgetary Resources                                                 47,741                48,546
Total                                                                                $      4,720,165         $    4,587,802

Held by the Public                                                                                2011                   2010
Beginning Balance                                                                    $      9,022,808         $     7,551,862
New Borrowings/Repayments                                                                    1,104,223              1,470,946
Subtotal at Par Value                                                                       10,127,031             9,022,808
Premium/(Discount)                                                                            (29,538)               (33,870)
Debt Principal Not Covered by Budgetary Resources (Note 19)                                10,097,493              8,988,938
Interest Payable Covered by Budgetary Resources                                                 51,470                 46,991
Total                                                                                $     10,148,963         $    9,035,929

Debt held by the public approximates the U.S. Government’s competition with other sectors in the credit markets. In
contrast, debt held by federal agencies, primarily trust funds, represents the cumulative annual surpluses of these funds
(i.e., excess of receipts over disbursements plus accrued interest) that have been used to finance general government
operations.

FEDERAL DEBT HELD BY OTHER FEDERAL AGENCIES

Certain federal agencies are allowed to invest excess funds in debt securities issued by the Department on behalf of the
U.S. Government. The terms and the conditions of debt securities issued are designed to meet the cash needs of the U.S.
Government. The vast majority of debt securities are non-marketable securities issued at par value, but others are issued
at market prices and interest rates that reflect market terms. The average intra-governmental interest rate for debt held
by the federal entities, excluding TIPS, for fiscal years 2011 and 2010 was 4.1 percent and 4.3 percent, respectively. The
average intra-governmental interest rate on TIPS for fiscal years 2011 and 2010 was 1.8 percent and 1.9 percent,
respectively. The average interest rate represents the original issue weighted effective yield on securities outstanding at
the end of the fiscal year.




                                                             115
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

The federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted to buy
and sell on the open market. The debt held by federal agencies at par value (not including premium/discount or interest
payable) as of September 30, 2011 and 2010 was as follows (in millions):
                                                                                          2011                        2010
Social Security Administration                                                 $     2,654,497           $       2,586,333
Office of Personnel Management                                                         897,951                    866,090
Department of Defense Agencies                                                         497,391                     433,203
Department of Health and Human Services                                                 321,615                    355,554
All Other Federal Agencies - Consolidated                                              253,584                     259,848
Total Federal Debt Held by Other Federal Agencies                              $     4,625,038           $       4,501,028

FEDERAL DEBT HELD BY THE PUBLIC

Federal Debt held by the Public at par value (not including premium/discount or interest payable) as of September 30,
2011 and 2010 consisted of the following (in millions):

                                                                                            Average
                                                                                            Interest
 (at par value)                                                     Term                     Rates                       2011
 Marketable:
 Treasury Bills                                              1 Year or Less                   0.1%           $       1,475,557
 Treasury Notes                                           Over 1 Year - 10 Years              2.3%                  6,406,983
 Treasury Bonds                                              Over 10 Years                    5.8%                   1,016,407
 Treasury Inflation-Protected Security (TIPS)               5 Years or More                   1.9%                     705,352
 Total Marketable                                                                                                   9,604,299
 Non-Marketable                                      On Demand to Over 10 Years               2.8%                     522,732
 Total Federal Debt Held by the Public                                                                       $     10,127,031
                                                                                             Average
                                                                                             Interest
 (at par value)                                                     Term                      Rates                          2010
 Marketable:
 Treasury Bills                                               1 Year or Less                  0.2%           $       1,783,674
 Treasury Notes                                            Over 1 Year - 10 Years             2.6%                   5,252,585
 Treasury Bonds                                               Over 10 Years                   6.1%                     846,054
 Treasury Inflation-Protected Security (TIPS)                5 Years or More                  2.2%                     593,615
 Total Marketable                                                                                                    8,475,928
 Non-Marketable                                         On Demand to Over 10 Years            2.8%                    546,880
 Total Federal Debt Held by the Public                                                                       $       9,022,808

The Department issues marketable bills at a discount or at par, and pays the par amount of the security upon maturity.
The average interest rate on Treasury bills represents the original issue effective yield on securities outstanding at year
end. Treasury bills are issued with a term of one year or less.

The Department issues marketable notes and bonds as long-term securities that pay semi-annual interest based on the
securities’ stated interest rates. These securities are issued at either par value or at an amount that reflects a discount or a
premium. The average interest rate on marketable notes and bonds represents the stated interest rate adjusted by any
discount or premium on securities outstanding at year-end. Treasury notes are issued with a term of two to ten years,
and Treasury bonds are issued with a term of more than ten years. The Department also issues TIPS that have interest
and redemption payments tied to the Consumer Price Index for all Urban Consumers, a widely used measurement of
inflation. TIPS are issued with a term of five years or more. At maturity, TIPS are redeemed at the inflation-adjusted
principal amount, or the original par value, whichever is greater. TIPS pay a semi-annual fixed rate of interest applied to
the inflation-adjusted principal. The average interest rate on TIPS represents the stated interest rate on principal plus


                                                              116
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

inflation, adjusted by any discount or premium on securities outstanding as of the end of the fiscal year. The TIPS
Federal Debt Held by the Public inflation-adjusted principal balance included inflation of $76.1 billion and $57.5 billion
as of September 30, 2011 and 2010, respectively.

Debt held by the public primarily represents the amount the U.S. Government has borrowed to finance cumulative cash
deficits. During fiscal year 2011, the Department issued bills, notes, bonds, and TIPS to meet the borrowing needs of the
U.S. Government. Treasury bills outstanding decreased by $308.1 billion; whereas, Treasury notes, bonds, and TIPS
outstanding increased by $1.2 trillion, $170 billion, and $112 billion, respectively, in fiscal year 2011.

Federal Debt Held by the Public includes federal debt held outside of the U.S. Government by individuals, corporations,
FRBs, state and local governments, foreign governments, and central banks. As of September 30, 2011 and 2010, the
FRBs had total holdings of $1.7 trillion and $813.6 billion, respectively, which included a net of $759 million and $1.9
billion in Treasury securities held by the FRBs as collateral for securities lending activities, respectively. These securities
are held in the FRB System Open Market Account (SOMA) for the purpose of conducting monetary policy.

From May 16, 2011 to August 2, 2011, the Department was forced to depart from its normal debt management procedures
and invoke legal authorities to avoid exceeding the statutory debt limit. During this period, actions taken by Treasury
included: (i) suspending investment of receipts and reinvestments of maturities (including interest earnings) of the
Government Securities Investment Fund (G-Fund) of the Federal Employees’ Retirement System, the ESF, the Civil
Service Retirement and Disability Fund (Civil Service Fund), and the Postal Service Retiree Health Benefit Fund (Postal
Benefits Fund); (ii) redeeming a Civil Service fund security early to make benefit payments; and (iii) suspending the sales
of state and local government series securities.

On August 2, 2011, the Budget Control Act of 2011 was signed into law, becoming Public Law No. 112-25. Pursuant to
Public Law 112-25, the statutory debt limit was raised by $400 billion to $14.7 trillion on August 2, 2011, and by $500
billion to $15.2 trillion on September 22, 2011. The Budget Control Act of 2011 also enacted caps on discretionary
spending for fiscal years 2012 through 2021, and created the Joint Select Committee on Deficit Reduction which is tasked
with proposing legislation for additional deficit reduction over the same period.

Subsequent to the August 2, 2011 increase to the statutory debt limit, the Department took steps to restore foregone
principal and interest to the four funds . Principal for the four funds of nearly $240 billion was restored on August 2,
2011, and interest for the G-Fund of $378 million was restored on August 3, 2011. An additional $497 million of interest
for the Civil Service Fund and the Postal Benefits Fund, which had been previously accrued as interest payable, will be
restored on the next semi-annual interest payment due date of December 31, 2011. During fiscal year 2011, a total of $875
million of foregone interest was paid and/or accrued on the Department’s Consolidated Statements of Net Cost.


17. OTHER DEBT AND INTEREST PAYABLE
The Department, through FFB, has outstanding borrowings and related accrued interest with the Civil Service
Retirement and Disability Fund which is administered by the OPM. At September 30, 2011 and 2010, FFB had
borrowings and related accrued interest of $8.5 billion and $10.4 billion, respectively. The outstanding borrowings at
September 30, 2011 had a stated interest rate of 4.63 percent, an effective interest rate of 4.63 percent, and maturity
dates ranging from June 30, 2012 to June 30, 2019. The outstanding borrowings at September 30, 2010 had a stated
interest rate ranging from 4.63 percent to 5.25 percent, an effective interest rate of 4.13 percent, and maturity dates
ranging from June 30, 2011 to June 30, 2019.




                                                              117
                                                                     U.S. Department of the Treasury | Fiscal Year 2011


18. D.C. PENSIONS AND JUDICIAL RETIREMENT ACTUARIAL
    LIABILITY
Pursuant to Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997, the Department
became responsible for certain District of Columbia (D.C.) retirement plans. The Act was intended to relieve the D.C.
government of the burden of unfunded pension liabilities transferred to the District by the U.S. Government in 1979. To
fulfill its responsibility, the Department manages two funds ― the D.C. Teachers’, Police Officers’, and Firefighters’
Federal Pension Fund (the D.C. Federal Pension Fund) and the District of Columbia Judicial Retirement and Survivors’
Annuity Fund (the Judicial Retirement Fund). The Department is required to make annual amortized payments from the
General Fund to the D.C. Federal Pension Fund and the Judicial Retirement Fund. The D.C. Federal Pension Fund
benefit payments and administrative expenses are related to benefits earned based upon service on or before June 30,
1997. The actuarial cost method used to determine costs for the retirement plans is the Aggregate Entry Age Normal
Actuarial Cost Method. The actuarial liability is based upon long term assumptions selected by the Department. The
pension benefit costs incurred by the plans are included on the Consolidated Statements of Net Cost.

A reconciliation of the pension actuarial liability as of September 30, 2011 and 2010 is as follows (in millions):
                                                                                                       2011               2010
Beginning Liability Balance                                                                     $     9,743          $   9,049
Pension Expense:
Normal cost                                                                                               5                 4
Interest on Pension Liability During the Year                                                           266               399

Actuarial (Gains) Losses During the Year:
From Experience                                                                                       (123)                (62)
From Discount Rate Assumption Change                                                                    472              1,879
From Other Assumption Changes                                                                         (154)              (999)
Total Pension Expense                                                                                   466               1,221
Less Amounts Paid                                                                                     (538)              (527)
Ending Liability Balance                                                                        $     9,671          $   9,743




                                                             118
                                                        U.S. Department of the Treasury | Fiscal Year 2011

ADDITIONAL INFORMATION
                                                      D.C. Federal            Judicial            2011
                                                     Pension Fund     Retirement Fund            Total
Pension and Other Actuarial Liability          $             9,481    $           190      $     9,671
Unobligated Budgetary Resources                            (3,591)                 (131)       (3,722)
Unfunded Liability                             $            5,890     $               59   $     5,949

Amount Received from the General Fund          $              492     $                9   $       501

Annual Rate of Investment Return Assumption          2.28% - 4.97%        2.28% - 4.97%

Future Annual Rate of Inflation and Cost-of-
  Living Adjustment                                         2.39%                 2.43%

Future Annual Rate of Salary Increases:
  Police Officers & Firefighters                            4.26%                   N/A
  Teachers                                                  4.26%                   N/A
  Judicial                                                    N/A                 1.84%



                                                       D.C. Federal             Judicial          2010
                                                      Pension Fund      Retirement Fund           Total
Pensions and Other Actuarial Liability         $              9,558   $              185   $      9,743
Unobligated Budgetary Resources                             (3,600)                (127)        (3,727)
Unfunded Liability                             $             5,958    $               58   $      6,016

Amount Received from the General Fund          $               519    $                8   $        527

Annual Rate of Investment Return Assumption           2.79% - 5.13%        2.79% - 5.13%

Future Annual Rate of Inflation and Cost-of-
  Living Adjustment                                          2.56%                 2.78%

Future Annual Rate of Salary Increases:
  Police Officers & Firefighters                             4.20%                  N/A
  Teachers                                                   4.20%                  N/A
  Judicial                                                     N/A                 2.11%




                                               119
                                                                      U.S. Department of the Treasury | Fiscal Year 2011


19. LIABILITIES
LIABILITIES NOT COVERED BY BUDGETARY AND OTHER RESOURCES

As of September 30, 2011 and 2010, liabilities not covered by budgetary and other resources consisted of the following (in
millions):
                                                                                                           2011                   2010
Intra-governmental Liabilities Not Covered by Budgetary
  and Other Resources
Federal Debt Principal, Premium/Discount (Note 16)                                       $        4,672,424          $       4,539,256
Other Intra-governmental Liabilities                                                                    124                        123
Total Intra-governmental Liabilities Not Covered by Budgetary
  and Other Resources                                                                             4,672,548                   4,539,379
Federal Debt Principal, Premium/Discount (Note 16)                                               10,097,493                  8,988,938
Gold and Silver Reserves Held by the Mint                                                             10,494                     10,494
Pensions and Other Actuarial Liability (Note 18)                                                       5,949                      6,016
Liabilities to GSEs (Note 8)                                                                         316,230                   359,900
Other Liabilities                                                                                      2,017                      1,990
Total Liabilities Not Covered by Budgetary and Other Resources                                    15,104,731                 13,906,717
Total Liabilities Covered by Budgetary and Other Resources                                         1,405,357                  1,591,444
Total Liabilities                                                                        $       16,510,088          $       15,498,161

OTHER LIABILITIES

Total “Other Liabilities” displayed on the Consolidated Balance Sheets consists of both liabilities that are covered and not
covered by budgetary resources. Other liabilities at September 30, 2011 and 2010 consisted of the following (in millions):

                                                                     Non-         2011                             Non-           2010
                                                   Current         Current       Total           Current         Current          Total
Intra-governmental
Unfunded Federal Workers Compensation
  Program Liability (FECA)                     $       45      $       58    $     103       $       46      $       57      $     103
Accounts Payable                                      124               -          124               59               -             59
Accrued Interest Payable                                1               -            1                -               -              -
Other Accrued Liabilities                             225               -          225              203               1            204
Total Intra-governmental                       $      395      $       58    $     453       $      308      $       58      $     366

With the Public
Actuarial Federal Workers Compensation
Program Liability (FECA)                       $          -    $      553    $     553       $         -     $      553      $     553
Liability for Deposit Funds (Held by the
  U.S. Government for Others)
  and Suspense Accounts                               861                -         861              724                  -         724
Accrued Funded Payroll and Benefits                   557                -         557              533                  -         533
Capital Lease Liabilities                               -                1           1                -                  -           -
Accounts Payable and Other Accrued
Liabilities                                         2,186              64        2,250            2,607              53          2,660
Total with the Public                          $    3,604      $      618    $   4,222       $    3,864      $      606      $   4,470




                                                              120
                                                                    U.S. Department of the Treasury | Fiscal Year 2011


20. NET POSITION
Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated or
unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for obligation
until expended. Annual appropriations remain available for upward or downward adjustment of obligations until
expired.

Cumulative Results of Operations represents the net results of operations since inception, and includes cumulative
amounts related to investments in capitalized assets and donations and transfers of assets in and out without
reimbursement. Also included as a reduction in Cumulative Results of Operations are accruals for which the related
expenses require funding from future appropriations and assessments. These future funding requirements include,
among others: (a) accumulated annual leave earned but not taken, (b) accrued FECA, (c) credit reform cost reestimates,
and (d) expenses for contingent liabilities.

The amount reported as “appropriations received” is appropriated by Congress from the General Fund receipts, such as
income taxes, that are not earmarked by law for a specific purpose. This amount will not necessarily agree with the
“appropriation received” amount reported on the Combined Statements of Budgetary Resources because of differences
between proprietary and budgetary accounting concepts and reporting requirements. For example, certain dedicated and
earmarked receipts are recorded as “appropriations received” on the Combined Statements of Budgetary Resources, but
are recognized as exchange or non-exchange revenue (i.e., typically in special and non-revolving trust funds) and
reported on the Statement of Changes in Net Position in accordance with SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

TRANSFERS TO THE GENERAL FUND AND OTHER

The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statement of Changes in Net
Position under “Other Financing Sources” includes the following as of September 30, 2011 and 2010 (in millions):
                                                                                                     2011             2010
Categories of Transfers to the General Fund and Other
Downward Reestimates of Credit Reform Subsidies                                             $     49,744     $      35,906
Increase in Liquidity Preference of GSEs Preferred Stock, GSEs Preferred
  Stock Dividends and Valuation Changes (Note 8)                                                  39,415           56,678
Interest Revenue/Distribution of Income                                                           37,761           35,993
Other                                                                                              1,018              368
TOTAL                                                                                       $    127,938     $    128,945

The credit reform downward reestimate subsidies that are transferred to the General Fund result from a change in
forecasts of future cash flows (See Notes 7 and 11). Also included in “Transfers to the General Fund and Other” are the
GSE Senior Preferred Stock investments and related dividends as well as the annual valuation adjustment to those
investments (See Note 8). In addition, these transfers also include distribution of interest revenue to the General Fund.
The interest revenue is accrued on inter-agency loans held by the Department on behalf of the U.S. Government. A
corresponding balance is reported on the Consolidated Statements of Net Cost under “Federal Costs: Less Interest
Revenue from Loans.” The amount reported on the Consolidated Statements of Net Cost is reduced by eliminations with
Treasury bureaus.

The “Other” line mainly represents collections from other federal agencies as reimbursement of costs incurred by the
Department for its administration of trust funds established within the Social Security Act. The Department is directed
by statute to execute these administrative services. Seigniorage and numismatic profits also are included in the “Other”
line. Seigniorage is the face value of newly minted circulating coins less the cost of production. Numismatic profit is any

                                                            121
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

profit on the sale of proof coins, uncirculated coins, commemorative coins, and related products and accessories. The
United States Mint is required to distribute seigniorage and numismatic profits in excess of operating expenses to the
General Fund. In any given year, the amount recognized as seigniorage may differ from the amount distributed to the
General Fund by an insignificant amount due to timing differences.


21. CONSOLIDATED STATEMENTS OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS
The Department’s Consolidated Statements of Net Cost display information on a consolidated basis. The complexity of
the Department’s organizational structure and operations requires that supporting schedules for Net Cost be included in
the notes to the financial statements. These supporting schedules provide consolidating information, which fully displays
the costs of each sub-organization (DO and each operating bureau).

REPORTING ENTITY

The classification of sub-organizations has been determined in accordance with SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government which states that the predominant factor is the
reporting entity’s organization structure and existing responsibility components, such as bureaus, administrations,
offices, and divisions within a department.

Each sub-organization is responsible for accumulating costs. The assignment of the costs to Department-wide programs
is the result of using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3) cost allocation.

INTRA-DEPARTMENTAL COSTS/REVENUES

Intra-departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis among
Departmental sub-organizations are reported as costs by providing sub-organizations and as revenues by receiving sub-
organizations. Accordingly, such costs/revenues are eliminated in the consolidation process.

INTRA-GOVERNMENTAL COSTS

Intra-governmental cost relates to the source of goods and services purchased by the Department and not to the
classification of the related intra-governmental revenue.

In certain cases, other Federal agencies incur costs that are directly identifiable to the Department’s operations. In
accordance with SFFAS No. 30, Inter-Entity Cost Implementation Amending; SFFAS No. 4, Managerial Cost
Accounting Standards and Concepts, the Department recognizes identified costs paid for the Department by other
agencies as an expense of the Department. The material imputed inter-departmental financing sources currently
recognized by the Department include the actual cost of future benefits for the federal pension plans that are paid by
other federal entities, the Federal Employees Health Benefits Program (FEHB), and any un-reimbursed payments made
from the Treasury Judgment Fund on behalf of the Department. The funding for these costs is reflected as imputed
financing sources on the Statement of Changes in Net Position. Costs paid by other agencies on behalf of the Department
were $925 million and $1.0 billion for the years ended September 30, 2011 and 2010, respectively.

CONSOLIDATED STATEMENT OF NET COSTS PRESENTATION
OMB Circular No. A-136, Financial Reporting Requirements, as revised, requires that the presentation of the
Consolidated Statements of Net Cost align directly with the goals and outcomes identified in the Strategic Plan.
Accordingly, the Department has presented the gross costs and earned revenues by the applicable strategic goals in its
fiscal years 2007 – 2012 Strategic Plan. The majority of Treasury bureaus’ and reporting entities’ net cost information


                                                             122
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

falls within a single strategic goal in the Consolidated Statements of Net Cost. TTB and DO allocate costs to multiple
programs using a net cost percentage calculation.

To the extent practical or reasonable to do so, earned revenue is deducted from the gross costs of the programs to
determine their net cost. There are no precise guidelines to determine the degree to which certain earned revenue
amounts can reasonably be attributed to programs. The attribution of such earned revenues requires the exercise of
managerial judgment.

The Department’s Consolidated Statements of Net Cost also present interest expense on the Federal Debt and other
federal costs incurred as a result of assets and liabilities managed on behalf of the U.S. Government. These costs are not
reflected as program costs related to the Department’s strategic plan missions. Such costs are eliminated in the
consolidation process to the extent that they involve transactions with Treasury sub-organizations.

Other federal costs shown on the Statements of Net Cost for the years ended September 30, 2011 and 2010 consisted of
the following (in millions):
                                                                                                        2011          2010
Credit Reform Interest on Uninvested Fund (Intra-governmental)                                  $      8,015   $      8,192
Resolution Funding Corporation                                                                         2,239          2,276
Judgment Claims and Contract Disputes                                                                  2,290           1,119
Corporation for Public Broadcasting                                                                      435            506
Legal Services Corporation                                                                               408            418
All Other Payments                                                                                       356            242
Total                                                                                           $     13,743   $     12,753




                                                            123
                                                                                              U.S. Department of the Treasury | Fiscal Year 2011


    21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
        OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS)
                                                          For Fiscal Year Ended September 30, 2011

                                                                    Bureau
                                                   Bureau of         of the           Depart-          Fin. Crimes     Financial              Internal
                                                   Engraving        Public            mental          Enforcement     Management              Revenue
Program Costs                                      & Printing        Debt             Office(a)         Network         Service                Service       U.S. Mint
FINANCIAL PROGRAM
Intra-governmental Gross Costs                    $            -   $       111    $        1,957      $          -    $            197    $       4,405      $         -
Less: Earned Revenue                                           -          (22)           (2,225)                 -               (170)             (70)                -
Intra-governmental Net Costs                                   -           89              (268)                 -                  27            4,335                -
Gross Costs with the Public                                    -          218                577                 -               1,222            9,059                -
Less: Earned Revenue                                           -           (4)                (1)                -                   -            (408)                -
Net Costs with the Public                                      -          214                576                 -               1,222            8,651                -
  Net Cost: Financial Program                                  -          303               308                  -               1,249           12,986                -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                               89              -             9,618                 -                   -                   -           76
Less: Earned Revenue                                         (3)             -           (2,496)                 -                   -                   -          (10)
Intra-governmental Net Costs                                 86              -             7,122                 -                   -                   -           66
Gross Costs with the Public                                 459              -            (1,467)                -                   -                   -        4,408
Less: Earned Revenue                                      (539)              -           (8,479)                 -                                       -       (4,601)
Net Costs with the Public                                  (80)              -           (9,946)                 -                   -                   -         (193)
  Net Cost: Economic Program                                   6             -           (2,824)                 -                   -                   -         (127)
SECURITY PROGRAM
Intra-governmental Gross Costs                                 -             -               160                67                   -                   -             -
Less: Earned Revenue                                           -             -              (23)               (3)                   -                   -             -
Intra-governmental Net Costs                                   -             -               137                64                   -                   -             -
Gross Costs with the Public                                    -             -               155                55                   -                   -             -
Less: Earned Revenue                                           -             -                    -              -                   -                   -             -
Net Costs with the Public                                      -             -               155                55                   -                   -             -
  Net Cost: Security Program                                   -             -               292               119                   -                   -             -
MANAGEMENT PROGRAM
Intra-governmental Gross Costs                                 -           66                188                 -                   -                   -             -
Less: Earned Revenue                                           -         (192)             (168)                 -                   -                   -             -
Intra-governmental Net Costs                                   -         (126)                20                 -                   -                   -             -
Gross Costs with the Public                                    -           121               283                 -                   -                   -             -
Less: Earned Revenue                                           -             -                    -              -                   -                   -             -
Net Costs with the Public                                      -           121               283                 -                   -                   -             -
  Net Cost: Management Program                                 -           (5)               303                 -                   -                   -             -
Total Program Cost Before Assumption
Changes                                                        6          298             (1,921)              119               1,249           12,986            (127)
(Gains)/Losses on Pension, ORB, or OPEB
  Assumption Changes                                           -            -                195                 -                   -                -                -
Net Cost of Operations                            $            6   $      298     $      (1,726)      $        119    $          1,249    $      12,986      $     (127)
(a) Of the total $2.8 billion of net income (negative cost) reported on the Net Economic Program Cost line by Departmental Office, GSE and ESF contributed $21.1
and $1 billion of net income, respectively; partially offset by OFS, DO policy offices, and OAS net cost of $9.5 billion, $7.1 billion, and $2.5 billion, respectively.
Other immaterial net costs were spread throughout other DO programs or offices.




                                                                                 124
                                                                                               U.S. Department of the Treasury | Fiscal Year 2011


      21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
          OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                                          For Fiscal Year Ended September 30, 2011

                                                                                                   Alcohol,
                                                      Office of the                                Tobacco
                                                      Comptroller        Office of   (b)           Tax and
                                                         of the            Thrift                   Trade         Combined                          2011
      Program Costs                                    Currency          Supervision               Bureau           Total        Eliminations    Consolidated
      FINANCIAL PROGRAM
      Intra-governmental Gross Costs                  $             -   $                  -   $          15      $     6,685    $       2,130   $       4,555
      Less: Earned Revenue                                          -                      -                  -        (2,487)           (270)         (2,217)
      Intra-governmental Net Costs                                  -                      -              15            4,198            1,860           2,338
      Gross Costs with the Public                                   -                      -              40            11,116               -           11,116
      Less: Earned Revenue                                          -                      -             (3)             (416)               -           (416)
      Net Costs with the Public                                     -                      -              37           10,700                -         10,700
        Net Cost: Financial Program                                 -                      -              52           14,898            1,860          13,038
      ECONOMIC PROGRAM
      Intra-governmental Gross Costs                              122                 31                  15            9,951            9,561            390
      Less: Earned Revenue                                       (26)                (15)                     -       (2,550)          (2,514)            (36)
      Intra-governmental Net Costs                                96                  16                  15            7,401            7,047             354
      Gross Costs with the Public                                 715                161                  38            4,314                -           4,314
      Less: Earned Revenue                                      (817)             (169)                       -       (14,605)               -        (14,605)
      Net Costs with the Public                                 (102)                (8)                  38          (10,291)               -        (10,291)
        Net Cost: Economic Program                                (6)                      8              53          (2,890)            7,047         (9,937)
      SECURITY PROGRAM
      Intra-governmental Gross Costs                                -                      -                  -           227              77              150
      Less: Earned Revenue                                          -                      -                  -          (26)             (21)             (5)
      Intra-governmental Net Costs                                  -                      -                  -           201              56              145
      Gross Costs with the Public                                   -                      -                  -           210                -             210
      Less: Earned Revenue                                          -                      -                  -              -               -                  -
      Net Costs with the Public                                     -                      -                  -           210                -             210
        Net Cost: Security Program                                  -                      -                  -           411              56              355
      MANAGEMENT PROGRAM
      Intra-governmental Gross Costs                                -                      -                  -           254              85              169
      Less: Earned Revenue                                          -                      -                  -         (360)            (303)            (57)
      Intra-governmental Net Costs                                  -                      -                  -         (106)            (218)             112
      Gross Costs with the Public                                   -                      -                  -           404                -            404
      Less: Earned Revenue                                          -                      -                  -              -               -                  -
      Net Costs with the Public                                     -                      -                  -           404                -            404
        Net Cost: Management Program                                -                      -                  -           298            (218)             516
      Total Program Cost Before Assumption
        Changes                                                   (6)                      8             105            12,717           8,745           3,972
      (Gains)/Losses on Pension, ORB, or OPEB
        Assumption Changes                                          -                      -               -              195                -             195
      Net Cost of Operations                          $           (6)   $                  8   $         105      $    12,912    $       8,745   $       4,167
(a)   (b) On July 21, 2011, OTS merged into OCC. Accordingly, OTS’s operating results through July 20, 2011 are reported separately herein, and its operating
      results subsequent to July 20, 2011 were combined with OCC’s operating results..




                                                                               125
                                                                                         U.S. Department of the Treasury | Fiscal Year 2011


21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):

                                                         For Fiscal Year Ended September 30, 2010

                                                  Bureau of        Bureau of          Depart-           Fin. Crimes    Financial        Internal
                                                  Engraving        the Public         mental            Enforcement   Management        Revenue
Program Costs                                     & Printing         Debt             Office(c)           Network       Service         Service        U.S. Mint
FINANCIAL PROGRAM
Intra-governmental Gross Costs                   $             -   $      120     $         1,712       $         -   $      189    $       4,577      $           -
Less: Earned Revenue                                           -         (21)            (2,234)                  -         (168)            (68)                  -
Intra-governmental Net Costs                                   -           99               (522)                 -           21            4,509                  -
Gross Costs with the Public                                    -          221                 459                 -         1,185           9,323                  -
Less: Earned Revenue                                           -          (6)                     (1)             -             -           (386)                  -
Net Costs with the Public                                      -          215                 458                 -         1,185           8,937                  -
  Net Cost: Financial Program                                  -          314                (64)                 -         1,206          13,446                  -
ECONOMIC PROGRAM
Intra-governmental Gross Costs                            90                -              12,727                 -             -                  -           75
Less: Earned Revenue                                      (4)               -            (2,260)                  -             -                  -          (11)
Intra-governmental Net Costs                              86                -             10,467                  -             -                  -           64
Gross Costs with the Public                               515               -           308,859                   -             -                  -        3,451
Less: Earned Revenue                                    (627)               -            (11,698)                 -                                -       (3,566)
Net Costs with the Public                               (112)               -            297,161                  -             -                  -         (115)
  Net Cost: Economic Program                             (26)               -           307,628                   -             -                  -          (51)
SECURITY PROGRAM
Intra-governmental Gross Costs                                 -            -                 141                71             -                  -               -
Less: Earned Revenue                                           -            -                (19)               (3)             -                  -               -
Intra-governmental Net Costs                                   -            -                 122                68             -                  -               -
Gross Costs with the Public                                    -            -                 156                57             -                  -               -
Less: Earned Revenue                                           -            -                       -             -             -                  -               -
Net Costs with the Public                                      -            -                 156                57             -                  -               -
  Net Cost: Security Program                                   -            -                 278               125             -                  -               -
MANAGEMENT PROGRAM:
Intra-governmental Gross Costs                                 -           65                 160                 -             -                  -               -
Less: Earned Revenue                                           -        (180)              (206)                  -             -                  -               -
Intra-governmental Net Costs                                   -        (115)                (46)                 -             -                  -               -
Gross Costs with the Public                                    -          102                 337                 -             -                  -               -
Less: Earned Revenue                                           -            -                       -             -             -                  -               -
Net Costs with the Public                                      -          102                 337                 -             -                  -               -
  Net Cost: Management Program                                 -         (13)                 291                 -             -                  -               -
Total Program Cost Before Assumption
Changes                                                  (26)             301            308,133                125         1,206          13,446             (51)
(Gains)/Losses on Pension, ORB, or OPEB
  Assumption Changes                                           -            -                 818                 -             -                  -               -
Net Cost of Operations                           $       (26)      $      301     $      308,951        $       125   $     1,206   $      13,446      $      (51)
(c) Of the total $307.6 billion of Net Economic Program Costs incurred by Departmental Offices, GSE contributed $321.7 billion, partially offset by OFS
which contributed net income of $23.1 billion.




                                                                            126
                                                                              U.S. Department of the Treasury | Fiscal Year 2011


21. CONSOLIDATED STATEMENT OF NET COST AND NET COSTS
    OF TREASURY SUB-ORGANIZATIONS (IN MILLIONS) (CON’T):
                                               For Fiscal Year Ended September 30, 2010

                                                                                 Alcohol,
                                           Office of the     Office of         Tobacco Tax
                                          Comptroller of      Thrift            and Trade         Combined                                 2010
Program Costs                              the Currency     Supervision          Bureau             Total            Eliminations       Consolidated
FINANCIAL PROGRAM
Intra-governmental Gross Costs            $            -   $              -    $        15    $        6,613     $           1,985      $      4,628
Less: Earned Revenue                                   -                  -               -           (2,491)                (276)            (2,215)
Intra-governmental Net Costs                           -                  -             15             4,122                 1,709              2,413
Gross Costs with the Public                            -                  -            38             11,226                        -          11,226
Less: Earned Revenue                                   -                  -            (3)             (396)                        -           (396)
Net Costs with the Public                              -                  -            35             10,830                        -         10,830
  Net Cost: Financial Program                          -                  -            50             14,952                 1,709             13,243
ECONOMIC PROGRAM
Intra-governmental Gross Costs                       111               39               15            13,057                12,661               396
Less: Earned Revenue                                (21)              (10)                -          (2,306)               (2,279)               (27)
Intra-governmental Net Costs                         90                29               15            10,751                10,382               369
Gross Costs with the Public                         676               202              39            313,742                        -         313,742
Less: Earned Revenue                               (766)           (220)                  -          (16,877)                       -        (16,877)
Net Costs with the Public                           (90)              (18)             39            296,865                        -        296,865
  Net Cost: Economic Program                           -                11             54            307,616                10,382           297,234
SECURITY PROGRAM
Intra-governmental Gross Costs                         -                  -               -              212                    81                131
Less: Earned Revenue                                   -                  -               -             (22)                  (18)                (4)
Intra-governmental Net Costs                           -                  -               -              190                    63                127
Gross Costs with the Public                            -                  -               -              213                        -            213
Less: Earned Revenue                                   -                  -               -                  -                      -                  -
Net Costs with the Public                              -                  -               -              213                        -            213
  Net Cost: Security Program                           -                  -               -              403                    63               340
MANAGEMENT PROGRAM:
Intra-governmental Gross Costs                         -                  -               -              225                    82               143
Less: Earned Revenue                                   -                  -               -            (386)                 (330)               (56)
Intra-governmental Net Costs                           -                  -               -             (161)                (248)                87
Gross Costs with the Public                            -                  -               -              439                        -            439
Less: Earned Revenue                                   -                  -               -                  -                      -                  -
Net Costs with the Public                              -                  -               -              439                        -            439
  Net Cost: Management Program                         -                  -               -              278                 (248)               526
Total Program Cost Before Assumption
  Changes                                              -                11            104            323,249                11,906            311,343
(Gains)/Losses on Pension, ORB, or OPEB
  Assumption Changes                                   2                  -               -              820                        -            820
Net Cost of Operations                    $            2   $            11     $      104     $      324,069     $          11,906      $     312,163




                                                                127
                                                                        U.S. Department of the Treasury | Fiscal Year 2011


22. ADDITIONAL INFORMATION RELATED TO THE COMBINED
    STATEMENTS OF BUDGETARY RESOURCES
Federal agencies are required to disclose additional information related to the Combined Statements of Budgetary
Resources (per OMB Circular No. A-136). In accordance with SFFAS No. 7, Accounting for Revenue and Other
Financing Sources, the Department must report the value of goods and services ordered and obligated which have not
been received. This amount includes any orders for which advance payment has been made but for which delivery or
performance has not yet occurred. The information for the fiscal years ended September 30, 2011 and 2010 was as
follows (in millions):

UNDELIVERED ORDERS
                                                                                                     2011              2010
Undelivered Orders
Paid                                                                                        $        114      $          126
Unpaid                                                                                          208,868              169,305
Undelivered orders at the end of the year                                                   $   208,982       $      169,431

CONTRIBUTED CAPITAL
Contributed capital represents the current year authority and prior year balances of amounts actually transferred through
non-expenditure transfers to miscellaneous receipt accounts of the General Fund of the Treasury to repay a portion of a
capital investment.

                                                                                                     2011               2010
Contributed Capital                                                                         $          58        $        20

APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Apportionment categories are determined in accordance with the guidance provided in OMB Circular No. A-11,
Preparation, Submission and Execution of the Budget. Apportionment Category A represents resources apportioned for
calendar quarters. Apportionment Category B represents resources apportioned for other time periods for activities,
projects or objectives, or for any combination thereof (in millions).

DIRECT VS. REIMBURSABLE OBLIGATIONS INCURRED
                                                                                                     2011               2010
Direct - Category A                                                                        $        3,203    $         2,849
Direct - Category B                                                                               247,733            330,068
Direct - Exempt from Apportionment                                                                461,985            481,785
Total Direct                                                                                      712,921            814,702

Reimbursable - Category A                                                                              -                   11
Reimbursable - Category B                                                                          5,872               4,883
Reimbursable - Exempt from Apportionment                                                           1,254               1,242
Total Reimbursable                                                                                 7,126               6,136
Total Direct and Reimbursable                                                              $     720,047     $       820,838

TERMS OF BORROWING AUTHORITY USED

Several Departmental programs have authority to borrow under the FCRA, as amended. The FCRA provides indefinite
borrowing authority to financing accounts to fund the unsubsidized portion of direct loans and to satisfy obligations in
the event the financing account’s resources are insufficient. Repayment requirements are defined by OMB Circular No.
A-11. Interest expense due is calculated based on the beginning balance of borrowings outstanding and the


                                                             128
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

borrowings/repayments activity that occurred during the fiscal year. Undisbursed Departmental borrowings earn
interest at the same rate as the financing account pays on its debt owed to BPD. In the event that principal and interest
collections exceed the interest expense due, the excess will be repaid to the Department. If principal and interest do not
exceed interest expense due, the Department will borrow the difference. The Department makes periodic principal
repayments based on the analysis of cash balances and future disbursement needs. All interest on borrowings were due
on September 30, 2011. Interest rates on FCRA borrowings range from 1.00 percent to 8.96 percent.

AVAILABLE BORROWING
(in millions)                                                                                      2011                2010
Beginning Balance                                                                        $       23,477     $         51,510
Current Authority                                                                              201,863               151,473
Decreases                                                                                     (44,803)              (19,274)
Borrowing Authority Withdrawn                                                                   (2,307)            (37,982)
Borrowing Authority Converted to Cash                                                         (54,386)            (122,250)
Ending Balance                                                                           $     123,844      $         23,477

RECONCILIATION OF THE PRESIDENT’S BUDGET

The Budget of the United States (also known as the President’s Budget), with actual numbers for fiscal year 2011, was not
published at the time that these financial statements were issued. The President’s Budget is expected to be published in
February 2012, and can be located at the OMB website http://www.whitehouse.gov/omb and will be available from the
U.S. Government Printing Office. The following chart displays the differences between the Combined Statement of
Budgetary Resources (SBR) in the fiscal year 2010 Agency Financial Report and the actual fiscal year 2010 balances
included in the fiscal year 2012 President’s Budget.




                                                            129
                                                                                    U.S. Department of the Treasury | Fiscal Year 2011

                Reconciliation of Fiscal Year 2010 Combined Statement of Budgetary Resources
                                   to the Fiscal Year 2012 President's Budget
                                                                                        Outlays (net
                                                                          Budgetary     of offsetting          Offsetting            Net      Obligations
(in millions)                                                             Resources     collections)            Receipts         Outlays        Incurred


Statement of Budgetary Resources (SBR) Amounts                        $    1,193,081    $     519,419    $      (178,909)    $    340,510    $     820,838

Included in the Treasury Department Chapter of the PB
  but not in the SBR
IRS non-entity tax credit payments (1)                                       112,465           112,457                   -         112,457             112,457
Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                378               378                   -             378                 378
Non-Treasury offsetting receipts                                                   -                 -                (47)            (47)                   -
Treasury offsetting receipts considered to be General Fund
  transactions for reporting purposes (2)                                          -                -                  (6)             (6)                  -
Continued dumping subsidy - U.S. Customs and Border Patrol                       109              259                    -            259                 259
Other                                                                              -                2                   67             69                   -
Subtotal                                                                     112,952          113,096                   14         113,110         113,094

Included in the SBR but not in the Treasury Department
  chapter of the PB
Treasury resources shown in non-Treasury chapters of the PB (3)             (40,638)          (4,806)                    -         (4,806)             (5,729)
Offsetting collections net of collections shown in PB                        (11,084)               -                (289)           (289)                   -
Treasury offsetting receipts shown in other chapters of PB, part of
  which is in SBR                                                                   -                -                574              574                   -
Unobligated balance carried forward, recoveries of prior year funds
  and expired accounts                                                     (335,498)                 -                   -               -                2
ESF resources not shown in PB (4)                                           (104,770)                2                   -               2         (61,168)
Treasury Financing Accounts (CDFI, OFS and GSEs)                           (243,083)           (4,667)                   -         (4,667)        (219,264)
Enacted reduction, 50% Transfer Accounts, and Capital Transfers
  to General Fund not included in PB                                            (25)                 -                   -               -                   -
Other                                                                              -               (1)                 (1)             (2)                 (2)
Subtotal                                                                   (735,098)           (9,472)                284          (9,188)        (286,161)
Trust Fund - OCC (5)                                                            (155)               55                (94)            (39)                -
President's Budget Amounts(6)                                         $     570,780     $   623,098      $     (178,705)     $ 444,393       $     647,771
   (1)    These are primarily Earned Income Tax Credit and Child Tax Credit payments that are reported with refunds as custodial activities in the
          Department’s financial statements and thus are not reported as budgetary resources.
   (2)    These are receipt accounts that the Department manages on behalf of other agencies and considers to be General Fund receipts rather
          than receipts of the Department reporting entity.
   (3)    The largest of these resources relate to the Department’s International Assistance Programs.
   (4)    The ESF is a self-sustaining component that finances its operations with the buying and selling of foreign currencies to regulate the
          fluctuations of the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is
          excluded from the PB.
   (5)   The OCC negative outlay also appears in the offsetting receipts section of the Analytical Perspectives, and hence shown as a reconciling
          item.
   (6)   Per the President’s Budget for fiscal year 2012 – Budgetary Resources and Outlays are from the Analytical Perspective. Offsetting
          Receipts and Obligations Incurred are from the Appendix.

   LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES

   The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities. Funds are
   presumed to be available for only one fiscal year unless otherwise noted in the annual appropriation language.
   Unobligated balances in unexpired fund symbols are available in the next fiscal year for new obligations unless some
   restrictions had been placed on those funds by law. In those situations, the restricted funding will be temporarily
   unavailable until such time as the reasons for the restriction have been satisfied or legislation has been enacted to remove
   the restriction.

   Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and make
   disbursements that were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
   fiscal year for which the appropriation was made.



                                                                          130
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

CHANGE IN ACCOUNTING POLICY EFFECT ON UNOBLIGATED AND UNPAID OBLIGATIONS

Effective in fiscal year 2010, the Department changed its budgetary accounting policy for the accounting and reporting of
ESF investment balance changes. The change in accounting policy allowed the Department to present the revaluations of
ESF investments, as well as other ESF assets not readily convertible to cash, as a budgetary resource that is permanently
not available without affecting outlays.

In order to facilitate this change in accounting, an adjustment for $14.1 billion was made to the line item, Unobligated
balances, brought forward, October 1, 2009, of the Combined Statement of Budgetary Resources for the fiscal year ended
September 30, 2010. This adjustment primarily included additions of accumulated FCDA investment balances now
permitted by OMB to be reported on the Combined Statement of Budgetary Resources through the use of a new USSGL.
These budgetary adjustments had no impact on ESF proprietary account balances in fiscal year 2010 or previous years.

In order to maintain appropriate budgetary relationships on the Combined Statement of Budgetary Resources between
Budgetary Resources, Status of Budgetary Resources, and Relationship of Obligations to Outlays, an adjustment
corresponding to the FCDA investment balance of $14.1 billion was made to the fiscal year 2010 line item, Obligations
Incurred, Unpaid Obligations Brought Forward, and Obligations Incurred.




                                                            131
                                                                                 U.S. Department of the Treasury | Fiscal Year 2011


23. COLLECTION AND DISPOSITION OF CUSTODIAL REVENUE
The Department collects the majority of federal revenue from income and excise taxes. Collection activity, by revenue
type and tax year, was as follows for the years ended September 30, 2011 and 2010 (in millions):

                                                                                                 Tax Year
                                                                                                                         Pre-               2011
                                                                    2011              2010              2009            2009         Collections
Individual Income and FICA Taxes                          $   1,357,129      $    703,856       $     18,980       $   22,065    $    2,102,030
Corporate Income Taxes                                          165,768            62,650              1,855            12,575          242,848
Estate and Gift Taxes                                                23             6,367                691             1,998            9,079
Excise Taxes                                                     53,429            19,023                 87               255           72,794
Railroad Retirement Taxes                                         3,523             1,164                  1                 4            4,692
Unemployment Taxes                                                4,806             1,961                 39                87            6,893
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                            284                   9                   -             -                   293
Tax Related Revenue Received                                  1,584,962           795,030             21,653           36,984         2,438,629
Federal Reserve Earnings                                         63,792            18,754                  -                -            82,546
Fines, Penalties, Interest & Other Revenue - Non-
  Tax Related                                                        273                 25                    -             -                   298
Non-Tax Related Revenue Received                                 64,065             18,779                     -             -            82,844
Total Revenue Received                                    $ 1,649,027        $    813,809       $     21,653       $   36,984    $     2,521,473
Less Amounts Collected for Non-Federal Entities                                                                                              462
Total                                                                                                                            $      2,521,011



                                                                                                    Tax Year
                                                                                                                          Pre-               2010
                                                                    2010               2009             2008             2008          Collections
Individual Income and FICA Taxes                          $     1,315,876    $     635,920      $      20,182      $    16,782   $      1,988,760
Corporate Income Taxes*                                           188,527           75,459              1,612           12,339            277,937
Estate and Gift Taxes                                                   4            7,841                881           11,025              19,751
Excise Taxes                                                       52,112           18,583                 98              153             70,946
Railroad Retirement Taxes                                           3,547            1,099                  1                1              4,648
Unemployment Taxes                                                  4,697            1,726                 37               83               6,543
Fines, Penalties, Interest, & Other Revenue - Tax
  Related                                                             244                  1                   -             -                   245
Tax Related Revenue Received                                   1,565,007           740,629             22,811          40,383           2,368,830
Federal Reserve Earnings                                          56,582            19,263                  -               -              75,845
Fines, Penalties, Interest, & Other Revenue - Non-
  Tax Related                                                       1,613                 22                   -             -               1,635
Non-Tax Related Revenue Received                                   58,195            19,285                    -             -             77,480
Total Revenue Received                                    $    1,623,202     $      759,914     $      22,811      $   40,383    $      2,446,310
  Less Amounts Collected for Non-Federal Entities                                                                                             387
Total                                                                                                                            $      2,445,923
* Tax amounts collected as reported by tax year for this line item have been restated to correct for amounts that were incorrectly reported in
the Department’s prior year annual financial report. The corrections made were deemed immaterial by the Department’s management.
Corporate Income taxes by Tax Year for 2010 have been corrected to agree with the Financial Report of IRS and the amounts reported in the
Financial Report of the U.S. Government (See Note 1 AC).

Amounts reported for Corporate Income Taxes collected in fiscal year 2011 and 2010 include corporate taxes of $9 billion
and $13.2 billion for tax years 2012 and 2011, respectively.




                                                                      132
                                                                               U.S. Department of the Treasury | Fiscal Year 2011

AMOUNTS PROVIDED TO FUND THE U.S. GOVERNMENT

For the years ended September 30, 2011 and 2010, collections of custodial revenue transferred to other entities were as
follows (in millions):
                                                                                                                 2011                  2010
Department of the Interior                                                                          $             344         $         361
General Fund (1)                                                                                            2,106,419             1,975,625
Total                                                                                               $       2,106,763         $   1,975,986
(1) The General Fund amount for fiscal year 2011 includes cash proceeds from sale of AIG common stock of $1.973 billion as reported on the
   Statement of Custodial Activity.


FEDERAL TAX REFUNDS PAID

Refund activity, by revenue type and tax year, was as follows for the years ended September 30, 2011 and 2010 (in
millions):
                                                                                               Tax Year
                                                                                                                          Pre-            2011
                                                                  2011               2010               2009             2009          Refunds

Individual Income and FICA Taxes                       $        1,140      $    302,832        $    26,455        $     13,957    $    344,384
Corporate Income Taxes                                          6,342            16,623              6,451              38,361           67,777
Estate and Gift Taxes                                               -                11                401               1,366            1,778
Excise Taxes                                                      799             1,047                159                 184            2,189
Railroad Retirement Taxes                                           -                 2                  -                   1                3
Unemployment Taxes                                                  3                54                 15                  18               90
Total                                                  $        8,284      $    320,569        $    33,481        $     53,887    $     416,221


                                                                                               Tax Year
                                                                                                                           Pre-           2010
                                                                  2010               2009                2008             2008         Refunds

Individual Income and FICA Taxes*                     $          1,343     $      316,596      $        36,144    $      17,223    $    371,306
Corporate Income Taxes                                           2,630              15,913              16,414           61,229          96,186
Estate and Gift Taxes                                                -                209                  439              277             925
Excise Taxes                                                       429                 611                  171             215           1,426
Railroad Retirement Taxes                                            -                   1                    -               -               1
Unemployment Taxes                                                   1                  56                   13              23              93
Total                                                 $          4,403     $      333,386      $        53,181    $      78,967    $    469,937
*Tax refund amounts as reported by tax year for this line item have been restated to correct for amounts that were incorrectly reported in the
Department's prior year annual financial report. The corrections made were deemed immaterial by the Department's management (Note 1AC).

FEDERAL TAX REFUNDS PAYABLE

As of September 30, 2011 and September 30, 2010, refunds payable to taxpayers consisted of the following (in millions):
                                                                                                                       2011             2010
Internal Revenue Service                                                                                     $        3,981   $         4,133
Alcohol, Tobacco Tax and Trade Bureau                                                                                     2                13
Total                                                                                                        $        3,983   $         4,146




                                                                     133
                                                                     U.S. Department of the Treasury | Fiscal Year 2011


24. EARMARKED FUNDS
The majority of the Department’s earmarked fund activities are attributed to the ESF and the pension and retirement
funds managed by the Office of D.C. Pensions. In addition, several Department bureaus operate with either a public
enterprise (or revolving fund) and receive no appropriations from the Congress. These bureaus are BEP, Mint, IRS, OCC,
and OTS. Other miscellaneous earmarked funds are managed by BPD, DO, FMS, FMD (a division of FMS), IRS, OFR,
and TFF.

The following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of these funds.

Bureau                      Fund Code                             Fund Title/Description
Exchange Stabilization Fund (ESF)
ESF                         20X4444                               Exchange Stabilization Fund

D.C. Pensions
DCP                               20X1713                         Federal payment - D.C. Judicial Retirement
DCP                               20X1714                         Federal payment - D.C. Federal Pension Fund
DCP                               20X5511                         D.C. Federal Pension Fund
DCP                               20X8212                         D.C. Judicial Retirement and Survivor's Annuity Fund

Public Enterprise/Revolving Funds
BEP                         20X4502                               Bureau of Engraving and Printing Fund
MNT                         20X4159                               Public Enterprise Fund
OCC                         20X8413                               Assessment Funds
OCC                         20X4264                               Assessment Funds
OTS                         20X4108                               Public Enterprise Revolving Fund
IRS                         20X4413                               Federal Tax Lien Revolving Fund

Other Earmarked Funds
BPD                               20X5080                         Gifts to Reduce Pubic Debt
DO                                20X5816                         Confiscated and Vested Iraqi Property and Assets
DO                                20X8790                         Gifts and Bequests Trust Fund
FMD                               20X5081                         Presidential Election Campaign
FMD                               20X8902                         Esther Cattell Schmitt Gift Fund
FMD                               9515585                         Travel Promotion Fund, Corp for Travel Promotion
FMD                               95X5585                         Travel Promotion Fund, Corp for Travel Promotion
FMS                               205/65445                       Debt Collection Special Fund
FMS                               206/75445                       Debt Collection Special Fund
FMS                               207/85445                       Debt Collection Special Fund
FMS                               208/95445                       Debt Collection Special Fund
FMS                               209/05445                       Debt Collection Special Fund
FMS                               200/15445                       Debt Collection Special Fund
FMS                               201/25445                       Debt Collection Special Fund
IRS                               20X5510                         Private Collection Agency Program
IRS                               20X5433                         Informant Reimbursement
OFR                               20X5590                         Financial Research Fund
TFF                               20X5697                         Treasury Forfeiture Fund

Pursuant to the legal authority found in section 10 of the Gold Reserve Act of 1934, as amended, the ESF may purchase or
sell foreign currencies, holds U.S. foreign exchange and SDR assets, and may provide financing to foreign governments
and foreign entities. The ESF accounts for and reports its holdings to FMS on the Standard Form 224, “Statement of
Transactions,” and provides other reports to Congress. Interest on SDRs in the IMF, Investments in U.S. Securities
(BPD), and Investments in Foreign Currency Assets are its primary sources of revenue. The ESF’s earnings and realized



                                                            134
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

gains on foreign currency assets represent inflows of resources to the government, and the interest revenues earned from
U.S. Securities are the result of intra-Departmental flows.

D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers, judges, and firefighters. The
sources of revenues are through annual appropriations, employees’ contributions, and interest earnings from
investments. All proceeds are earmarked. Note 18 provides detailed information on various funds managed by DCP.

The Department’s three non-appropriated bureaus as of September 30, 2011 ― BEP, Mint, and OCC ― operate “public
enterprise/revolving funds” to account for their respective revenues and expenses. 31 USC § 5142 established the
revolving fund for BEP to account for revenue and expenses related to the currency printing activities. P.L. 104-52 (31
USC § 5136) established the Public Enterprise Fund for the Mint to account for all revenue and expenses related to the
production and sale of numismatic products and circulating coinage. Revenues and other financing sources at the Mint
are mainly from the sale of numismatic and bullion products, and the sale of circulating coins to the FRB system. 12 USC
§ 481 established the Assessment Funds for OCC and 12 USC § 1467 governs the collection and use of assessments and
other funds by OTS (merged with OCC on July 21, 2011). Revenue and financing sources are from the bank examinations
and assessments for the oversight of the national banks, savings associations, and savings and loan holding companies.
These non-appropriated funds do not directly contribute to the inflows of resources to the government. There are
minimal transactions with other government agencies.

There are other earmarked funds at several Treasury bureaus, such as donations to the Presidential Election Campaign
Fund, funds related to the debt collection program, gifts to reduce the public debt, and other enforcement related
activities. Public laws, the U.S. Code, and the Debt Collection Improvement Act established and authorized the use of
these funds. Sources of revenues and other financing sources include contributions, cash and property forfeited in
enforcement activities, public donations, and debt collection.

INTRA-GOVERNMENTAL INVESTMENTS IN TREASURY SECURITIES

The U.S. Government does not set aside assets to pay future benefits or other expenditures associated with earmarked
funds. The Department’s bureaus and other federal agencies invest some of the earmarked funds that they collect from
the public, if they have the statutory authority to do so. The funds are invested in securities issued by BPD. The cash
collected by BPD is deposited in the General Fund, which uses the cash for general government purposes.

The investments provide Department bureaus and other federal agencies with authority to draw upon the General Fund
to make future benefit payments or other expenditures. When the Department bureaus or other federal agencies require
redemption of these securities to make expenditures, the government finances those redemptions out of accumulated
cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the government finances all other expenditures.

The securities are an asset to the Department bureaus and other federal agencies and a liability of the BPD. The General
Fund is liable to BPD. Because the Department bureaus and other federal agencies are parts of the U.S. Government,
these assets and liabilities offset each other from the standpoint of the government as a whole. For this reason, they do
not represent an asset or a liability in the U.S. Government-wide financial statements.

The balances related to the investments made by the Department bureaus are not displayed on the Department’s
financial statements because the bureaus are subcomponents of the Department. However, the General Fund remains
liable to BPD for the invested balances and BPD remains liable to the investing Department bureaus (See Note 4).




                                                              135
                                                                                          U.S. Department of the Treasury | Fiscal Year 2011


                                            Summary Information for Earmarked Funds
                                       as of and for the Fiscal Year Ended September 30, 2011
                                                                                 Public
                                            Exchange                        Enterprise/               Other      Combined
                                         Stabilization             D.C.      Revolving            Earmarked     Earmarked             Elimi-             2011
(in millions)                                    Fund          Pensions          Funds                Funds         Funds            nations            Total

ASSETS
Fund Balance                            $              -   $          7    $         1,123    $         493    $        1,623    $          -    $      1,623
Investments and Related Interest -
  Intragovernmental                              22,721           4,048              1,188             1,587          29,544          29,544                   -
Cash, Foreign Currency and Other
  Monetary Assets                                66,678               -                  -                20          66,698               -           66,698
Investments and Related Interest                  15,777              -                  -                 -           15,777              -            15,777
Other Assets                                           -              2              1,422               110            1,534              6             1,528
Total Assets                            $       105,176    $      4,057    $         3,733    $        2,210   $      115,176    $    29,550     $     85,626


LIABILITIES
Intra-governmental Liabilities          $              -   $           -   $            48    $         369    $          417    $        58     $           359
Certificates Issued to Federal
   Reserve Banks                                  5,200                -                 -                 -           5,200                -           5,200
Allocation of Special Drawing Rights             55,150                -                 -                 -          55,150                -          55,150
DC Pension Liability                                  -            9,671                 -                 -           9,671                -           9,671
Other Liabilities                                    35               55               661               176             927                -             927
Total Liabilities                               60,385            9,726               709               545            71,365             58           71,307

Net Position
Unexpended Appropriations –
  Earmarked Funds                                  200                 -                  -                -             200                -                200
Cumulative Results of Operations–
  Earmarked Funds                                44,591          (5,669)             3,024             1,665           43,611               -          43,611
Total Liabilities and Net
  Position                              $       105,176    $      4,057    $         3,733    $        2,210   $      115,176    $        58     $     115,118

Statement of Net Cost
Gross Cost                              $           438    $        287    $        6,062     $         306    $        7,093    $         81    $       7,012
Less: Earned Revenue                            (1,484)            (117)           (6,181)                -           (7,782)           (165)          (7,617)
Gains/Losses on Pension, ORB, or
  OPEB Assumption Changes                              -            195                   -                -             195                -                195
Total Net Cost of Operations            $       (1,046)    $        365    $         (119)    $         306    $       (494)     $       (84)    $      (410)


Statement of Changes in Net
  Position
Cumulative Results of
Operations:
Beginning Balance, as adjusted          $        43,545    $     (5,805)   $         2,528    $        1,158   $      41,426     $          -    $     41,426
Budgetary Financing Sources                           -              501               (51)              851           1,301             (50)           1,351
Other Financing Sources                               -                -               428              (38)             390             (36)             426
Total Financing Sources                               -             501                377               813            1,691            (86)            1,777
Net Cost of Operations                            1,046           (365)                119             (306)              494              84              410
Change in Net Position                            1,046             136               496               507             2,185             (2)           2,187
Ending Balance                          $        44,591    $     (5,669)   $         3,024    $        1,665   $       43,611    $        (2)    $     43,613
* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
   eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                                                               136
                                                                                         U.S. Department of the Treasury | Fiscal Year 2011


                                            Summary Information for Earmarked Funds
                                       as of and for the Fiscal Year ended September 30, 2010
                                                                                    Public
                                            Exchange                           Enterprise/             Other     Combined
                                         Stabilization             D.C.         Revolving          Earmarked    Earmarked             Elimi-
(in millions)                                    Fund          Pensions             Funds              Funds        Funds            nations     2010 Total
ASSETS
Fund Balance                             $             -   $          7    $            490    $         362    $         859    $          -   $        859
Investments and Related Interest-
Intragovernmental                                20,436           3,980               1,398             1,385          27,199         27,199                 -
   Cash, Foreign Currency and Other
   Monetary Assets                               70,878               -                   -                12          70,890              -          70,890
Investments and Related Interest                  12,616              -                   -                 -           12,616             -           12,616
Other Assets                                           -              5               1,306               114            1,425             7            1,418
Total Assets                             $      103,930    $      3,992    $          3,194    $        1,873   $     112,989    $    27,206    $     85,783

LIABILITIES
Intra-governmental Liabilities           $             -   $           -   $             38    $         260    $        298     $        55    $        243
Certificates Issued to Federal
 Reserve Banks                                    5,200                -                   -                -          5,200                -          5,200
   Allocation of Special Drawing
   Rights                                        54,958               -                   -                -          54,958               -          54,958
DC Pension Liabilities                                -           9,743                   -                -           9,743               -           9,743
Other Liabilities                                    27              54                 628              455           1,164               -           1,164
Total Liabilities                                60,185           9,797                 666              715          71,363              55          71,308
Net Position
Unexpended Appropriations-
Earmarked Funds                                     200                -                   -                -            200                -            200
Cumulative Results of Operations -
Earmarked Funds                                  43,545          (5,805)              2,528             1,158          41,426               -          41,426
Total Liabilities and Net Position       $      103,930    $      3,992    $          3,194    $        1,873   $     112,989    $        55    $     112,934

Statement of Net Cost
Gross Cost                               $         1,476   $         417   $           5,159   $         229    $       7,281    $        80    $       7,201
Less: Earned Revenue                             (1,392)           (128)             (5,225)               -          (6,745)           (177)         (6,568)
Gains/Losses on Pension, ORB, or
OPEB Assumption Changes                                -            818                   2                 -            820                -            820
Total Net Cost of Operations             $           84    $       1,107   $           (64)    $         229    $       1,356    $      (97)    $       1,453


Cumulative Results of
Operations
Beginning Balance, as adjusted           $       43,647    $     (5,225)   $          2,465    $         766    $      41,653    $         -    $      41,653
Budgetary Financing Sources                        (18)              527                (13)             384             880            (12)              892
Other Financing Sources                               -                -                  12             237              249           (38)              287
Total Financing Sources                            (18)              527                 (1)              621           1,129           (50)             1,179
Net Cost of Operations                             (84)          (1,107)                 64             (229)         (1,356)             97          (1,453)
Net Changes                                       (102)           (580)                  63               392           (227)             47            (274)
Total Cumulative Results of
Operations                               $       43,545    $     (5,805)   $          2,528    $        1,158   $      41,426    $        47    $      41,379
* The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the
   eliminations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




                                                                               137
                                                                      U.S. Department of the Treasury | Fiscal Year 2011


25. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net obligations and
the proprietary net cost of operations. As of September 30, 2011 and 2010, the Reconciliation of Net Cost of Operations
to Budget consisted of the following (in millions):
                                                                                                      2011             2010
RESOURCES USED TO FINANCE ACTIVITIES
Budgetary Resources Obligated:
Obligations Incurred                                                                         $     720,047    $    820,838
Less: Spending Authority from Offsetting Collections and Recoveries                              (223,941)        (251,553)
Obligations Net of Offsetting Collections and Recoveries                                           496,106          569,285
Less: Offsetting Receipts                                                                        (119,958)        (178,909)
Net Obligations                                                                                    376,148          390,376
Other Resources:
Donations and Forfeiture of Property                                                                   163                319
Financing Sources for Accrued Interest and Discount on the Debt                                     14,042            11,086
Transfers In/Out Without Reimbursement                                                                (60)               (42)
Imputed Financing from Cost Absorbed by Others                                                         925             1,008
Transfers to the General Fund and Other (Note 20)                                                (127,938)        (128,945)
Net Other Resources Used to Finance Activities                                                   (112,868)         (116,574)
Total Resources Used to Finance Activities                                                        263,280           273,802

RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF
  OPERATIONS
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but not
  yet Provided                                                                                      67,967           20,955
Credit Program Collections that Increase Liabilities for Loan Guarantees or Allowances for
  Subsidy                                                                                          (23,549)        (40,146)
Adjustment to Accrued Interest and Discount on the Debt                                              15,277          12,011
Other (primarily Offset to Offsetting Receipts)                                                  (164,856)         (98,559)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                      (105,161)       (105,739)
Total Resources Used to Finance the Net Cost of Operations                                          368,441         379,541

Total Components of Net Cost of Operations That Will Require or Generate Resources in
  Future Periods                                                                                    23,213         307,422
Total Components of Net Cost of Operations That Will Not Require or Generate Resources              12,501         (28,122)
Total Components of Net Cost of Operations That Will Not Require or Generate
  Resources in the Current Period                                                                   35,714         279,300
Net Cost of Operations                                                                       $    404,155     $    658,841




                                                             138
                                                                      U.S. Department of the Treasury | Fiscal Year 2011


26. NON-TARP INVESTMENTS IN AMERICAN INTERNATIONAL
    GROUP, INC.
Under the initial terms of a capital facility agreement between the FRBNY and AIG, a 77.9 percent equity interest in AIG
(in the form of Series C Convertible Participating Serial Preferred Stock convertible into approximately 77.9 percent of
the issued and outstanding shares of AIG common stock) was issued to a trust (Trust) established by the FRBNY.
Subsequent to the initial agreement, a reverse stock split of AIG’s common stock increased this equity interest to 79.8
percent. The General Fund of the U.S. Government was the sole beneficiary of the Trust. In connection with the
establishment of the Trust, the Department, as custodian of the General Fund, recorded a non-entity asset of $23.5
billion as of September 30, 2009, along with a corresponding entry to custodial revenue for the same amount, to reflect
the value of the General Fund’s beneficiary interest holding in the Trust. As of September 30, 2010, the value of the Trust
had declined by $2.7 billion, reducing the carrying value of this non-entity asset to $20.8 billion. Both the initial
recording of the non-entity Trust asset of $23.5 billion in fiscal year 2009, along with the subsequent $2.7 billion decline
in value in fiscal year 2010, were reported on the Consolidated Statements of Custodial Activity.

On September 30, 2010, the Department, the FRBNY, and AIG entered into an AIG Recapitalization Agreement for the
purpose of restructuring the U.S. Government’s holdings in AIG. This restructuring was executed on January 14, 2011,
converted the Trust’s AIG preferred stock was converted into 562.9 million shares of AIG common stock, and the Trust
was dissolved (refer to Note 7 for a discussion of the TARP-related transactions that occurred in connection with the
January 14, 2011 restructuring). The Department intends to sell both its General Fund and TARP holdings in AIG
common stock together, on a pro rata basis, in the open market over time. The General Fund will be the ultimate
recipient of any future dividends earned and proceeds realized from the liquidation of the AIG common stock.
Accordingly, such dividends and proceeds will be deposited into the accounts of the General Fund. The conversion of the
Trust’s preferred stock into AIG common stock reduced the non-entity portion of the outstanding common stock
ownership in AIG from 79.8 percent to approximately 31 percent. In connection with the January 14, 2011 restructuring,
the Department recorded a non-entity asset of $25.5 billion to reflect the value of the General Fund’s 31 percent
ownership in AIG’s common stock. This transaction also included removing the previous asset which represented the
General Fund’s sole beneficiary interest in the Trust, which was dissolved as part of the recapitalization.

On May 27, 2011, the Department sold in the open market 200 million shares of AIG common shares held by the General
Fund and TARP (68 million and 132 million shares, respectively). The sale of the AIG common stock resulted in total
gross cash proceeds of $5.8 billion, of which the General Fund and the TARP received $2.0 billion and $3.8 billion,
respectively, for the fiscal year ended September 30, 2011.

After taking into consideration the May 2011 sale of AIG common stock, the carrying value of the non-entity investment
in AIG was $10.9 billion as of September 30, 2011, which represented the fair value as of that date of the remaining AIG
common stock held by the General Fund. As of September 30, 2010, the carrying value of the non-entity investment in
AIG was $20.8 billion, which represented the fair value, as of that date, of the General Fund’s sole beneficiary interest in
the Trust. The fair value of the non-entity assets recorded as of September 30, 2011 and 2010 were based on the market
value of AIG’s common stock which is actively traded on the NYSE. This basis of valuation was used for the Trust since
the underlying AIG common stock, to which the preferred shares were converted, represented the best independent
valuation available for the General Fund’s beneficial interest. During fiscal years 2011 and 2010, the Department’s AIG
investments held on behalf of the General Fund experienced a net fair value decline of $9.9 billion and $2.7 billion,
respectively. Accordingly, the carrying value of the AIG common stock investment was decreased by this amount, and a
corresponding amount was reported as custodial expense on the Statement of Custodial Activity.



                                                              139
                                                                    U.S. Department of the Treasury | Fiscal Year 2011

The Department will re-value its non-entity AIG common stock holdings at least annually until all of these common
shares are liquidated. Like any asset, future events may increase or decrease the value of the General Fund’s interest in
the AIG common stock.


27. SCHEDULE OF FIDUCIARY ACTIVITY
The following funds have been identified by the Department as meeting the criteria for fiduciary activity. Details of the
funds are provided below.

Bureau      Fund Code           Authority               Fund Title/Description
BEP         20X6513.013         31 USC 5119             Mutilated Currency Claims Funds
BPD         20X6008             31 USC 3513             Payment Principal & Interest Govt. Agencies
FMD         20X6045             31 USC 3328             Proceeds, Payments of Unpaid Checks
FMD         20X6048             31 USC 3329, 3330       Proceeds of Withheld Foreign Checks
FMD         2015X6078           50 APP. USC 2012        War Claims Fund, Foreign Claims Settlement Commission
FMD         20X6092             31 USC 1321             Debt Management Operations
FMD         20X6104             22 USC 1627             Albanian Claims Fund, Treasury
FMD         20X6133             31 USC 1322             Payment of Unclaimed Moneys
FMD         20X6309             22 USC 1627(a)          Libyan Claims Settlement Fund
FMD         20X6310             22 USC 1627(a)          Libyan Claims Settlement Fund
FMD         20X6311             98 Stat. 1876           Kennedy Center Revenue Bond
FMD         20X6312             22 USC 1627             Iranian Claims Settlement Fund
FMD         20X6314             22 USC 1644g            German Democrat Settlement Fund
FMD         20X6315             22 USC 1645h            Vietnam Claims Settlement Fund
FMD         20X6501.018         31 USC 3513             Small Escrow Amounts
FMD         20X6720             31 USC 3513             SM DIF Account for Dep. & Check Adj.
FMD         20X6830             104 Stat. 1061          Net Interest Payments to/from State
FMD         20X6999             31 USC 3513             Accounts Payable, Check Issue UNDDR
IRS         20X6737             90 Stat. 269-270        Internal Revenue Collections for Northern Mariana Island
IRS         20X6738             31 USC 3513             Coverover Withholdings-U.S. Virgin Islands
IRS         20X6740             31 USC 3515             Coverover Withholdings-Guam
IRS         20X6741             31 USC 3513             Coverover Withholdings-American Samoa
OAS         20X6317.001         22 USC 2431             Belize Escrow, Debt Reduction
OAS         20X6501.018         31 USC 3513             Small Escrow Amounts

Unclaimed monies were authorized by 31 USC 5119, which authorized FMS to collect unclaimed monies on behalf of the
public. Other fiduciary activities by the Department as listed above are included in All Other Fiduciary Funds.




                                                            140
                                                                               U.S. Department of the Treasury | Fiscal Year 2011

                                                     Schedule of Fiduciary Activity

(in millions)                                                           2011                                        2010

                                                       Unclaimed     All Other           Total      Unclaimed       All Other            Total
                                                         Monies -    Fiduciary       Fiduciary       Monies -       Fiduciary        Fiduciary
                                                            FMD         Funds           Funds            FMD           Funds            Funds
Fiduciary Net Assets, Beginning of the Year           $      420    $          156   $     576     $     390    $        208     $        598
Increases:
  Contributions to Fiduciary Net Assets                        31          479             510            103          1,004             1,107
  Investment Earnings                                           -            1               1              -              1                 1
Total Increases                                                31          480             511            103          1,005            1,108
Decreases:
  Disbursements to and on behalf of beneficiaries               -         (223)          (223)           (73)         (1,057)          (1,130)
Total Decreases                                                 -         (223)          (223)           (73)         (1,057)          (1,130)
Net Increase (Decrease) in Fiduciary Assets                    31           257            288            30             (52)             (22)
Fiduciary Net Assets, End of Year                     $       451   $          413   $    864      $     420    $          156   $        576




                                                    Schedule of Fiduciary Net Assets

(in millions)                                                           2011                                        2010

                                                       Unclaimed     All Other           Total      Unclaimed       All Other            Total
                                                         Monies -    Fiduciary       Fiduciary       Monies -       Fiduciary        Fiduciary
                                                            FMD         Funds           Funds            FMD           Funds            Funds
Fiduciary Assets
Cash and Cash Equivalents                             $       451   $      336       $     787     $      420   $          57    $        477
Investments                                                     -           77              77              -              99              99
Total Fiduciary Assets                                $       451   $          413   $    864      $      420   $          156   $        576




   28. COMMITMENTS AND CONTINGENCIES
   LEGAL CONTINGENCIES

   The Department is a party in various administrative proceedings, legal actions, and claims, including equal opportunity
   matters which may ultimately result in settlements or decisions adverse to the U.S. Government. These contingent
   liabilities arise in the normal course of operations and their ultimate disposition is unknown. The Department has
   disclosed contingent liabilities where the conditions for liability recognition have not been met and the likelihood of
   unfavorable outcome is more than remote. The Department does not accrue for possible losses related to cases where the
   potential loss cannot be estimated or the likelihood of an unfavorable outcome is less than probable.

   In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment Fund, which is separate
   from the operating resources of the Department. For cases related to the Contract Disputes Act of 1978 and awards
   under federal anti-discrimination and whistle-blower protection acts, the Department must reimburse the Judgment
   Fund from future appropriations.

   The Department had two contingent liabilities in fiscal year 2011 related to legal action taken in the cases of American
   Council of the Blind v. Geithner and Cobell v. Salazar where losses are determined to be probable. An amount of loss
   cannot be estimated for the American Council of the Blind case. In Cobell v. Salazar, the parties agreed to a total
   settlement of $3.4 billion. Specific details of these two litigation cases are provided below.




                                                                    141
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

In the opinion of the Department’s management and legal counsel, based on information currently available, the
expected outcome of other legal actions, individually or in the aggregate, will not have a materially adverse effect on the
Department’s consolidated financial statements, except for the pending legal actions described below which may have a
materially adverse impact on the consolidated financial statements depending on the outcomes of the cases.

PENDING LEGAL ACTIONS

 American Council of the Blind, et. al. v. Geithner: Plaintiffs have filed suit against the Department under Section 504
  of the Rehabilitation Act seeking the redesign of U.S. currency. In 2007, a U.S. District Court judge ruled that the
  current U.S. currency design violates this Act; this ruling was subsequently appealed. In 2008, the U.S. Court of
  Appeals for the District of Columbia Circuit affirmed the District Court’s ruling. No monetary damages were awarded
  by the court, but the Department was ordered to provide meaningful access to U.S. currency for blind and other
  visually impaired persons. This may require changes to U.S. currency (excluding the one-dollar note). The court
  ordered such changes to be completed in connection with each denomination of currency, not later than the date when
  a redesign is next approved by the Secretary of the Treasury. Because the cost of implementing these changes will be
  incorporated into future currency redesign costs, and cannot be estimated at this time, no redesign costs have been
  accrued in the accompanying financial statements as of September 30, 2011 and 2010.

  On May 20, 2010, the BEP published in the Federal Register its proposed recommendations on the appropriate
  method(s) to comply with the court’s order to make currency accessible to the blind to be implemented with the next
  currency design. The comment period for the Federal Register notice closed on August 18, 2010. On May 31, 2011,
  Secretary Geithner approved the proposed recommendations, and BEP is working to implement the approved
  methodologies.

 Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans allege that the Department of
  Interior and the Department of the Treasury have breached trust obligations with respect to the management of the
  plaintiffs’ individual Indian monies. On August 7, 2008, the Federal District Court issued an opinion awarding $455
  million to the plaintiffs. This decision was overturned in July 2009. The Appellate Court found that the U.S.
  Government owes a cost-effective accounting, in scale with available funds.

  In December 2009, the parties agreed to settle the plaintiff’s claims, as well as claims for mismanagement of assets and
  land that were not asserted in the case, for $1.5 billion. The U.S. Government also agreed to pay an additional amount
  of up to $1.9 billion to purchase certain land interests owned by Native Americans. Final approval of the settlement
  will not occur until the court issues a formal written order, and any appeals from individuals challenging the settlement
  have run their course. The Department of the Interior, jointly named in the case, accrued the entire $3.4 billion as a
  contingent liability in fiscal year 2011 upon President Obama’s signing of legislation authorizing the settlement in
  December 2010. Accordingly, the Department of the Treasury will not accrue any portion of this liability.

  Tribal Trust Fund Cases: Numerous cases have been filed in the U.S. District Courts in which Native American Tribes
  seek a declaration that the United States has not provided the tribes with a full and complete accounting of their trust
  funds, and seek an order requiring the U.S. Government to provide such an accounting. In addition, there are a
  number of other related cases seeking damages in the U.S. Court of Federal Claims, which do not name the Department
  as a defendant. The U.S. Government is currently in discussion with counsel representing approximately 80 tribes
  with tribal trust cases pending against the United States (the Settlement Proposal to the Obama Administration or
  “SPOA” group) about the feasibility of an omnibus settlement of the tribal trust cases. The Department is unable to
  determine the likelihood of an unfavorable outcome or an estimate of potential loss at this time.



                                                            142
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

  In April 2011, the U.S. Supreme Court decided the United States v. Tohono O’Odham Nation tribal trust fund case.
  This case involved the interpretation of a federal statute which limits the jurisdiction of the U.S. Court of Federal
  Claims when a plaintiff has cases pending simultaneously in the U.S. Court of Federal Claims and any other court. The
  U.S. Supreme Court held that the U.S. Court of Federal Claims action brought by the Tohono O’Odham Nation must be
  dismissed pursuant to 28 USC § 1500.

 Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department’s Terrorist Finance Tracking Program has
  involved unlawful disclosure of information by the Society for Worldwide Interbank Financial Telecommunications
  (S.W.I.F.T.). Defendants include the Department of the Treasury as well as several Treasury officials. The case was
  dismissed by the District Court on February 13, 2009, and the plaintiff has subsequently appealed that ruling to the
  Court of Appeals for the Second Circuit. The parties have completed the appellate briefing, and the oral argument
  occurred on July 14, 2010. The parties are awaiting the Second Circuit’s decision. The Department is unable to
  determine the likelihood of an unfavorable outcome or an estimate of potential loss at this time.


 James X. Bormes v. United States of America: The complaint alleges that the government willfully violated certain
  provisions of the Fair and Accurate Credit Transaction Act (FACTA) P.L. 108-159 in that the transaction confirmation
  received by the complainant from Pay.gov improperly included the expiration date of the credit card used for that
  transaction. The complaint does not state the amount of damages sought on behalf of the class beyond asserting that
  each class member would be entitled to $100 to $1,000 in statutory damages. In a letter sent to the Department of
  Justice, the plaintiff proposed a fund of $30 million for just the Illinois class members.

  On July 24, 2009, the U.S. District Court for the Northern District of Illinois granted the U.S. Government’s motion to
  dismiss this case for lack of an unequivocal waiver of sovereign immunity. On November 16, 2010, the U.S. Court of
  Appeals for the Federal Circuit reversed the District Court’s decision and directed that the case be remanded back to
  the District Court for further proceedings. The U.S. Government’s petition for a rehearing of that decision was denied
  by the Federal Circuit on March 15, 2011. On August 12, 2011, the U.S. Government filed a petition for a writ of
  certiorari concerning this decision with the U.S. Supreme Court; a decision by the Supreme Court is pending.

  Other Legal Actions: The Department is also involved in employment related legal actions (e.g., matters alleging
  discrimination and other claims before the Equal Employment Opportunity Commission, Merit System Protection
  Board, etc.) for which an unfavorable outcome is reasonably possible, but for which an estimate of potential loss cannot
  be determined at this time. It is not expected that these cases will have a material effect on the Department’s financial
  position or results.

OTHER COMMITMENTS AND CONTINGENCIES

Treaties and International Agreements.

The Department does not have any treaties or international agreements to report for fiscal year 2011 which would have a
material impact on the Department’s consolidated financial statements.

Loan Commitments

The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose loans
are guaranteed by federal agencies, to extend them credit for their own use (refer to Notes 1L and 3). As of September 30,
2011 and 2010, the Department had loan commitments totaling $95.5 billion and $113.9 billion, respectively.




                                                             143
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

Multilateral Development Banks

The Department on behalf of the United States has subscribed to capital for certain multilateral development banks
(MDBs), portions of which are callable under certain limited circumstances to meet the obligations of the respective
MDB. There has never been, nor is there anticipated, a call on the U.S. commitment for these subscriptions. As of
September 30, 2011 and 2010, U.S. callable capital in MDB was as follows (in millions):
                                                                                                       2011                2010
African Development Bank                                                                      $      1,545        $       1,634
Asian Development Bank                                                                               8,469                 5,911
European Bank for Reconstruction and Development                                                     1,803                1,805
Inter-American Development Bank                                                                     28,687               28,687
International Bank for Reconstruction and Development                                               29,966               24,251
Multilateral Investment Guarantee Agency                                                                293                 301
North American Development Bank                                                                       1,275               1,275
Total                                                                                         $     72,038        $      63,864

Amounts included in the above table do not include amounts for which the Department may be liable to pay if future
congressional action is taken to fund executed agreements between the Department and certain multilateral development

banks.
In accordance with the disclosure requirements of SFFAS No. 5 “Accounting for Liabilities of the Federal Government”,
an increase of $5.7 billion in callable capital of the International Bank for Reconstruction and Development (IBRD) was
made to reflect the Department’s authorization to use a public debt transaction in the United States’ original subscription
to capital stock of the IBRD. In prior years, this amount had not been presented as a commitment.


Additionally, the Department recorded callable capital in fiscal year 2007 for the African Development Bank (AfDB),
European Bank for Reconstruction and Development (EBRD) and the Multilateral Investment Guarantee Agency (MIGA)
as a result of a full year Continuing Appropriation Resolution (PL 110-5) which was based on fiscal year 2006
appropriation language authorizing callable capital. However, all outstanding commitments to the EBRD and the AfDB
have been satisfied and to the extent that any outstanding authority exists, it is no longer necessary. In addition,
Congress explicitly provided no appropriated funds for MIGA in fiscal year 2007 and no further callable commitments
were made to MIGA in accordance with the intent of Congress. As a result, the callable capital for these financial
institutions has been reduced to reflect the actual limitations imposed by Congress.

Terrorism Risk Insurance Program

The Terrorism Risk Insurance Act (TRIA) was signed into law on November 26, 2002. This law was enacted to address
market disruptions resulting from terrorist attacks on September 11, 2001. TRIA helps to ensure available and affordable
commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to stabilize.
The Terrorism Risk Insurance Program (TRIA Program) is activated upon the certification of an “act of terrorism” by the
Secretary in concurrence with the Secretary of State and the Attorney General. If a certified act of terrorism occurs,
insurers may be eligible to receive reimbursement from the U.S. Government for insured losses above a designated
deductible amount. Insured losses above this amount will be shared between insurance companies and the U.S.
Government. TRIA also gives the Department authority to recoup federal payments made under the TRIA Program
through policyholder surcharges under certain circumstances, and contains provisions designed to manage litigation
arising from or relating to a certified act of terrorism. There were no claims under TRIA as of September 30, 2011 or
2010.




                                                            144
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

On August 3, 2010, the Department issued a notice of proposed rulemaking with requests for comment. The intent of
this rule is to provide a process by which the Department would close out its claims operation for insured losses from a
TRIA Program year. The Department expects to issue a final rule incorporating public comments in fiscal year 2012.

Exchange Stabilization Agreement

In April 1994, the Department signed the North American Framework Agreement (NAFA), which includes the Exchange
Stabilization Agreement (ESA) with Mexico. The Department has a standing swap line for $3.0 billion with Mexico under
the NAFA and its implementing ESA. The amounts and terms (including the assured source of repayment) of any
borrowing under NAFA and ESA will have to be negotiated and agreed to before any actual drawing can occur. The ESA
does provide sample clauses that state that transactions shall be exchange rate neutral for the ESF and shall bear interest
based on a then current rate tied to U.S. Treasury bills. There were no drawings outstanding on the ESF swap line as of
September 30, 2011 and 2010. On December 13, 2010, the Department renewed the agreement until December 15, 2011.

New Arrangements to Borrow

P.L. 111-32 provided the authorization and appropriations for an increase in the United States’ participation in the New
Arrangements to Borrow (NAB). Because the U.S. financial participation in the IMF is denominated in SDRs, the P.L.
111-32 authorized and appropriated up to the dollar equivalent of SDR 75 billion to implement this commitment. The
United States agreed on May 10, 2010 that its participation in the NAB would increase from its existing SDR 6.6 billion (a
portion of this SDR 6.6 billion is in connection to a similar borrowing arrangement, the GAB) to SDR 69.1 billion,
pursuant to IMF Executive Board Decision No. 14577-(10/35) adopted April 12, 2010. Total U.S. participation in the NAB
of SDR 69.1 billion was equivalent to $107.9 billion on September 30, 2011. Only the new portion of U.S. participation in
the NAB is subject to the FCRA and is accounted for as a direct loan. This accounting treatment will not affect the
treatment of the reserve position in the IMF, only the budget presentation. Refer to Notes 11 and 12 for a more detailed
discussion of this accounting treatment.

Contingent Liability to GSEs

The Department has recorded a contingent liability at September 30, 2011 and 2010 of $316.2 billion and $359.9 billion,
respectively, to the GSEs – Fannie Mae and Freddie Mac – based on probable future liability under the SPSPA between
the Department and the GSEs. Refer to Note 8 for a full description of the agreements and related contingent liability.


REQUIRED SUPPLEMENTAL INFORMATION (UNAUDITED)
INTRODUCTION

This section provides the Required Supplemental Information as prescribed by Office of Management and Budget (OMB)
Circular A-136, Financial Reporting Requirements, as amended.

OTHER CLAIMS FOR REFUNDS

The Department has estimated that $15.6 billion may be payable as other claims for tax refunds. This estimate
represents amounts (principal and interest) that may be paid for claims pending judicial review by the federal courts or
internally, by Appeals. The total estimated payout (including principal and interest) for claims pending judicial review by
the federal courts is $8.1 billion and by appeals is $7.5 billion.

The Department made an administrative determination to accept the position that certain medical residents who
received stipends be exempted from FICA taxes for periods before April 1, 2005. At September 30, 2011, the IRS
estimated unpaid refund claims of approximately $3.7 billion. In accordance with federal accounting standards, the


                                                               145
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

amounts of these claims have not been recorded as a liability in the consolidated financial statements because certain
administrative processes have not been completed as of September 30, 2011.

IRS FEDERAL TAXES RECEIVABLE, NET

In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, some unpaid tax assessments do not meet the criteria for financial statement
recognition. Under Internal Revenue Code Section 6201, the Department is authorized and required to make inquiries,
determinations, and assessments of all taxes which have not been duly paid (including interest, additions to the tax, and
assessable penalties) under the law. Unpaid assessments result from taxpayers filing returns without sufficient payment,
as well as from tax compliance programs such as examination, under-reporter, substitute for return, and combined
annual wage reporting. The Department also has authority to abate the paid or unpaid portion of an assessed tax,
interest, and penalty. Abatements occur for a number of reasons and are a normal part of the tax administration process.
Abatements may result in claims for refunds or a reduction of the unpaid assessed amount.

Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered federal
taxes receivable. Assessments not agreed to by taxpayers or the courts are considered compliance assessments and are
not considered federal taxes receivable. Due to the lack of agreement, these compliance assessments are less likely to
have future collection potential than those unpaid assessments that are considered federal taxes receivable.

Assessments with little or no future collection potential are called write-offs. Write-offs principally consist of amounts
owed by deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidated by the FDIC
and the former Resolution Trust Corporation (RTC). Write-offs have little or no future collection potential, but statutory
provisions require that these assessments be maintained until the statute for collection expires.

Although compliance assessments and write-offs are not considered receivables under federal accounting standards, they
represent legally enforceable claims of the U.S. Government.

The components of the total unpaid assessments at September 30, 2011 and 2010, were as follows (in millions):
                                                                                                    2011                2010
Total Unpaid Assessments                                                                 $       356,314      $     330,000
Less: Compliance Assessments                                                                  (102,693)             (93,000)
Write Offs                                                                                    (106,519)             (99,000)
Gross Federal Taxes Receivable                                                                   147,102             138,000
Less: Allowance for Doubtful Accounts                                                          (112,363)           (103,091)
Federal Taxes Receivables, Net                                                           $        34,739      $       34,909

To eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties, totaling
$2.0 billion, assessed against officers and directors of businesses who were involved in the non-remittance of federal
taxes withheld from their employees. The related unpaid assessments of those businesses are reported as taxes
receivable or write-offs, but the Department may also recover portions of those businesses’ unpaid assessments from any
and all individual officers and directors against whom a trust fund recovery penalty is assessed.

ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

As an agent of the U.S. Government and as authorized by 26 USC, the TTB collects excise taxes from alcohol, tobacco,
firearms, and ammunition industries. In addition, special occupational taxes are collected from certain tobacco
businesses. During fiscal years 2011 and 2010, TTB collected approximately $23.5 billion and $23.8 billion in taxes,
interest, and other revenues, respectively. Federal excise taxes are also collected on certain articles produced in Puerto
Rico and the Virgin Islands, and imported into the United States. In accordance with 26 USC 7652, such taxes collected


                                                            146
                                                                     U.S. Department of the Treasury | Fiscal Year 2011

on rum imported into the United States are “covered over” or paid into the treasuries of Puerto Rico and the Virgin
Islands.

Substantially all of the taxes collected by TTB net of related refund disbursements are remitted to the General Fund. The
Department further distributes this revenue to Federal agencies in accordance with various laws and regulations. The
firearms and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and Wildlife Restoration
Fund under provisions of the Pittman-Robertson Act of 1937.

DEFERRED MAINTENANCE

In fiscal years 2011 and 2010, the Department had no material amounts of deferred maintenance costs to report on
vehicles, buildings, and structures owned by the Department.

Deferred maintenance applies to owned PP&E. Deferred maintenance is maintenance that was not performed when it
should have been, or was scheduled to be, and is put off or delayed for a future period. Maintenance is defined as the act
of keeping capitalized assets in an “acceptable condition” to serve their required mission. It includes preventive
maintenance, normal repairs, replacement of parts and structural components, and other activities needed to preserve
the asset so that it continues to provide acceptable services and achieves its expected useful life. Maintenance excludes
activities aimed at expanding the capacity or significantly upgrading the assets to a different form than it was originally
intended (i.e., activities related to capitalized improvements, modernization, and/or restoration).

Logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred
maintenance and acceptable operating condition of an asset. Periodic condition assessments, physical inspections, and
review of manufacturing and engineering specifications, work orders, and building and other structure logistics reports
can be used under these methodologies.




                                                             147
                                                                                           U.S. Department of the Treasury | Fiscal Year 2011

STATEMENT OF BUDGETARY RESOURCES DISAGGREGATED BY TREASURY REPORTING ENTITY

The following table provides the Statement of Budgetary Resources disaggregated by Treasury reporting entity for fiscal
year 2011.
                           Fiscal Year 2011 Statement of Budgetary Resources Disaggregated
                                             by Sub-organization Accounts

                                                          Bureau of       Bureau of                             Fin. Crimes        Financial            Internal
                                                          Engraving       the Public         Departmental      Enforcement        Management            Revenue
(in millions):                                            & Printing        Debt               Offices3          Network            Service              Service
Budgetary Resources
Unobligated balance, brought forward, Oct. 1             $         59    $           95      $     369,701     $            28    $          287    $          806
Recoveries of prior year unpaid obligations                         -                 6             16,533                   1                14               122
Budget authority
   Appropriations (Note 20)                                          -         490,185              31,301                 110            22,413            13,474
   Borrowing authority:                                              -               -             201,863                   -                 -                 -
   Spending authority from offsetting collections:
   Earned:
      Collected                                                   531               199            222,823                  15               247                198
      Change in receivables from Federal sources                   11                 5                  6                   2                 4                 (5)
   Change in unfilled customer orders:
      Advance received                                              -                  -                 26                   -                 -                 -
      Without advance from Federal sources                          -                  -           (22,852)                 (4)               (9)                 -
     Subtotal                                                     542          490,389              433,167                123            22,655            13,667
Non-expenditure transfer, net                                       -                (6)                153                   -             (22)                  -
Temporarily not available pursuant to Public Law                    -                  -              (426)                   -                 -                 -
Permanently not available                                           -          (35,862)           (226,167)                   -          (4,073)              (175)
Total Budgetary Resources                                $        601    $      454,622      $      592,961    $           152    $       18,861    $       14,420
Status of Budgetary Resources
Obligations incurred (Note 22):
  Direct                                                 $          -    $     454,318       $     226,686     $          105     $       18,313    $       13,396
  Reimbursable                                                    575             209                  253                 13                236               139
  Subtotal                                                        575          454,527             226,939                118             18,549            13,535
Unobligated balance
  Apportionment                                                    22               88             245,705                  32               257               287
  Exempt from apportionment                                         -                -              22,810                   -                 7                 -
  Subtotal                                                         22               88             268,515                  32               264               287
Unobligated balance not available                                   4                7              97,507                   2                48               598
Total Status of Budgetary Resources                      $        601    $     454,622       $     592,961     $           152    $       18,861    $       14,420
Change in Obligated Balance
Obligated balance, net
  Unpaid obligations brought forward, Oct. 1             $         117   $           76      $     229,275     $            30    $          413    $         1,807
  Uncollected customer payments from Federal
     sources brought forward                                      (29)             (14)            (23,857)               (10)               (29)               (57)
    Total unpaid obligated balance, net                             88               62             205,418                 20               384              1,750
Obligations incurred, net                                          575         454,527              226,939                118            18,549             13,535
Gross outlays                                                    (552)       (454,509)             (171,011)             (120)           (18,115)          (13,445)
Recoveries of prior year unpaid obligations, actual                  -              (6)             (16,533)                (1)              (14)             (122)
Change in uncollected customer payments from
  Federal source                                                  (11)              (5)             22,846                   2                  5                  5
Obligated balance, net, end of period:
  Unpaid obligations                                              140                87            268,670                  27               833              1,776
  Uncollected customer payments from Federal
       sources                                                   (40)              (18)              (1,011)               (8)               (24)              (53)
  Total, unpaid obligated balance, net, end
     of Period                                           $        100    $           69      $     267,659     $            19    $          809    $         1,723
Net Outlays
  Gross outlays                                          $         552   $      454,509      $       171,011   $          120     $       18,115    $       13,445
  Offsetting collections                                         (531)            (199)          (222,849)                (15)             (247)             (198)
  Distributed offsetting receipts                                    -         (38,509)            (80,625)                  -             (434)             (390)
  Net outlays                                            $          21   $      415,801      $    (132,463)    $          105     $       17,434    $       12,857
3   Of the $593.0 billion of Total Budgetary Resources for Departmental Offices, OFS, GSE and OAS had $103.0 billion, $273.5 billion and $154.7 billion,
    respectively. The remainder is spread throughout other offices.




                                                                             148
                                                                                         U.S. Department of the Treasury | Fiscal Year 2011




                           Fiscal Year 2011 Statement of Budgetary Resources Disaggregated
                                             by Sub-organization Accounts
                                                                                                                Alcohol,
                                                                          Office of the                         Tobacco
                                                                          Comptroller         Officeof(a)       Tax and
                                                                             of the             Thrift           Trade                               Non-
(in millions):                                            U.S. Mint        Currency          Supervision        Bureau        Budgetary            Budgetary
Budgetary Resources
Unobligated balance, brought forward, Oct. 1             $         111    $          847     $        304       $       5    $     348,424    $         23,819
Recoveries of prior year unpaid obligations                        44                  -                8               1           11,058               5,671
Budget authority
   Appropriations (Note 20)                                           -                  -                  -         101          552,971               4,613
   Borrowing authority:                                               -                  -                  -           -                1             201,862
   Spending authority from offsetting collections:
   Earned:
      Collected                                                 4,970                892              182               4           11,059             219,002
      Change in receivables from Federal sources                    -                  4                -               -               27                   -
   Change in unfilled customer orders:
      Advance received                                              15                  -            (52)               -              (11)                   -
      Without advance from Federal sources                         (1)                  -               -               1              (18)            (22,847)
      Subtotal                                                  4,984                 896             130            106           564,029             402,630
Non-expenditure transfer, net                                        -                245           (245)               -               125                   -
Temporarily not available pursuant to Public Law                     -                  -               -               -            (426)                    -
Permanently not available                                         (51)                  -               -             (1)          (44,417)           (221,912)
Total Budgetary Resources                                $      5,088     $         1,988    $        197       $     111    $     878,793    $        210,208
Status of Budgetary Resources
Obligations incurred (Note 22):
   Direct                                                $          -     $            -     $          -       $    103     $     531,283    $        181,638
   Reimbursable                                                 4,675                825              197              4             7,126                   -
   Subtotal                                                     4,675                825              197            107           538,409             181,638
Unobligated balance
   Apportionment                                                  413                   -               -               2          246,296                 510
   Exempt from apportionment                                        -               1,163               -               -           23,980                   -
   Subtotal                                                       413               1,163               -               2          270,276                 510
Unobligated balance not available                                   -                   -               -               2           70,108              28,060
Total Status of Budgetary Resources                      $      5,088     $         1,988    $        197       $     111    $     878,793    $        210,208
Change in Obligated Balance
Obligated balance, net
  Unpaid obligations brought forward, Oct. 1             $        229     $           185    $         44       $      22    $     182,707    $         49,491
  Uncollected customer payments from Federal
     sources brought forward                                      (8)                  (4)               -             (1)            (192)            (23,817)
    Total unpaid obligated balance, net                           221                 181               44              21          182,515              25,674
Obligations incurred, net                                       4,675                 825              197            107          538,409              181,638
Gross outlays                                                 (4,513)               (798)            (194)          (105)         (561,707)           (101,655)
Recoveries of prior year unpaid obligations, actual              (44)                    -             (8)             (1)         (11,058)              (5,671)
Change in uncollected customer payments from
  Federal source                                                     1                (4)                   -          (1)              (9)             22,847
Obligated balance, net, end of period:
  Unpaid obligations                                              346                 251                   -          23          148,351             123,802
  Uncollected customer payments from Federal
     sources                                                      (6)                 (8)                   -         (2)             (201)               (969)
Total, unpaid obligated balance, net, end of
  Period                                                 $        340     $          243     $              -   $      21    $     148,150    $        122,833
Net Outlays
  Gross outlays                                          $      4,513     $           798    $        194       $     105    $      561,707   $         101,655
  Offsetting collections                                      (4,985)               (892)           (130)              (4)         (11,048)          (219,002)
  Distributed offsetting receipts                                   -                   -               -                -        (119,958)                   -
    Net outlays                                          $      (472)     $          (94)    $         64       $     101    $     430,701    $       (117,347)
(a)   On July 21, 2011, OTS merged into OCC. Accordingly, OTS’s budgetary resources through July 20, 2011 are reported separately herein, and its operating
      results subsequent to July 20, 2011 were combined with OCC’s operating results.




                                                                              149
THIS PAGE INTENTIONALLY LEFT BLANK
      U.S. Department of the Treasury | Fiscal Year 2011




139
      U.S. Department of the Treasury | Fiscal Year 2011




140
                                                                 U.S. Department of the Treasury | Fiscal Year 2011

APPENDIX A: OTHER
ACCOMPANYING INFORMATION
(UNAUDITED)
This section provides Other Accompanying Information as prescribed by Office of Management and Budget (OMB)
Circular No. A-136, Financial Reporting Requirements.


PROMPT PAYMENT
The Prompt Payment Act requires federal agencies to make
timely payments to vendors for supplies and services, to
pay interest penalties when payments are made after the
due date, and to take cash discounts only when they are
economically justified. Treasury bureaus report Prompt
Payment data monthly to the Department, and the bureaus
conduct periodic quality control reviews to identify
potential problems.




                                                           152
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

TAX GAP
                                                                        balance sheet concept for a particular point in time, while
Reducing the tax gap is at the heart of IRS’ enforcement
                                                                        the tax gap is like an income statement item for a single
programs. The tax gap is the difference between what
                                                                        year. Moreover, the tax gap estimates include all
taxpayers should pay and what they actually pay due to not
                                                                        noncompliance, while the collection gap includes only
filing tax returns, not paying their reported tax liability on
                                                                        amounts that have been assessed (a small portion of all
time, or failing to report their correct tax liability. The tax
                                                                        noncompliance).
gap, about $345 billion based on updated tax year 2001
estimates, represents the amount of noncompliance with
                                                                        TAX BURDEN
the tax laws. Underreporting tax liability accounts for 82
                                                                        The Internal Revenue Code (IRC) provides for progressive
percent of the gap, with the remainder almost evenly
                                                                        rates of tax, whereby higher incomes are generally subject
divided between non-filing (8 percent) and underpaying
                                                                        to higher rates of tax. The following graphs and charts
(10 percent). The IRS remains committed to finding ways
                                                                        present the latest available information on income tax and
to increase compliance and reduce the tax gap, while
                                                                        adjusted gross income (AGI) for individuals by AGI level
minimizing the burden on the vast majority of taxpayers
                                                                        and for corporations by size of assets. For individuals, the
who pay their taxes accurately and on time.
                                                                        information illustrates, in percentage terms, the tax burden
The IRS will update the tax gap estimate in December 2011.              borne by varying AGI levels. For corporations, the
The tax gap is the aggregate amount of tax (i.e., excluding             information illustrates, in percentage terms, the tax burden
interest and penalties) that is imposed by the tax laws for             borne by these entities by various sizes of their total assets.
any given tax year but is not paid voluntarily and timely.              The graphs are only representative of more detailed data
The tax gap arises from the three types of noncompliance:               and analysis available from the Statistics of Income (SOI)
not filing required tax returns on time or at all (the non-             Division.
filing gap), underreporting the correct amount of tax on
timely filed returns (the underreporting gap), and not
paying on time the full amount reported on timely filed
returns (the underpayment gap). Of these three
components, only the underpayment gap is observed; the
non-filing gap and the underreporting gap must be
estimated. Each instance of noncompliance by a taxpayer
contributes to the tax gap, whether or not the IRS detects it,
and whether or not the taxpayer is even aware of the
noncompliance. Obviously, some of the tax gap arises from
intentional (willful) noncompliance, and some of it arises
from unintentional mistakes.

The collection gap is the cumulative amount of tax,
penalties, and interest that has been assessed over many
years, but has not been paid by a certain point in time, and
which the IRS expects to remain uncollectible. In essence,
it represents the difference between the total balance of
unpaid assessments and the net taxes receivable reported
on the IRS’ balance sheet. The tax gap and the collection
gap are related and overlapping concepts, but they have
significant differences. The collection gap is a cumulative


                                                                  153
                                                                                                                            U.S. Department of the Treasury | Fiscal Year 2011

                                  Average Adjusted Gross Income (AGI) and                                                        Individual Income Tax Liability as a Percentage of AGI
                                   Average Individual Income Tax Liability                                                                          Tax Year 2009
                                                Tax Year 2009

              1,600,000
                                                                                                                             25.0%
              1,400,000   Average AGI
              1,200,000                                                                                                      20.0%
                          Average Income Tax
              1,000,000
                                                                                                                             15.0%
    Dollars




                                                                                                                  Percent
               800,000




                                                                                                1,452,604
                                                                                                 353,852
                                                                                      283,364
                                                                                                                             10.0%
               600,000



                                                                       133,223




                                                                                                                                                 2.1%




                                                                                                                                                                                                     24.4%
                                                                                                                                                                                 11.8%


                                                                                                                                                                                             19.5%
                                                                                                                                       1.8%
                                                           70,938
               400,000




                                                                                 55,187




                                                                                                                                                                       7.4%
                                                39,056



                                                                                                                             5.0%
                                    22,002




                                                                    15,700




                                                                                                                                                            4.6%
                                                         5,254
                          2,024




                                               1,810
                                    466




               200,000
                          36




                                                                                                                             0.0%
                     0




INDIVIDUAL INCOME TAX LIABILITY

Tax Year 2009

                                                                                                                                                                           Average
                                                                                                                                       Average AGI                     income tax
                                                  Number of                                                                              per return                     per return            Income tax as a
Adjusted gross income                        taxable returns                          AGI (in                  Total income               (in whole                      (in whole              percentage of
(AGI)                                         (in thousands)                         millions)              tax (in millions)               dollars)                       dollars)                      AGI
Under $15,000                                            37,624          $                 76,133           $                 1,354   $           2,024            $                36                        1.8%
$15,000 under $30,000                                    30,097                        662,180                               14,013             22,002                           466                          2.1%
$30,000 under $50,000                                    25,168                       982,969                                45,556             39,056                          1,810                        4.6%
$50,000 under $100,000                                   30,159                    2,139,407                                158,455             70,938                          5,254                         7.4%
$100,000 under $200,000                                  13,522                    1,801,447                                212,291            133,223                         15,700                        11.8%
$200,000 under $500,000                                   3,195                        905,347                              176,322            283,364                         55,187                        19.5%
$500,000 or more                                             729                  1,058,948                                 257,958           1,452,604                       353,852                        24.4%
Total                                                140,494             $       7,626,431                  $      865,949                              -                                -                       -




                                                                                                                154
                                                                                                    U.S. Department of the Treasury | Fiscal Year 2011

                                               Corporation Tax Liability as a Percentage of Taxable Income
                                                                  Tax Year 2008 Data
                                      35.0%
                                      30.0%
                                      25.0%




                            Percent
                                      20.0%




                                                                                    32.7%


                                                                                            32.7%


                                                                                                     32.5%




                                                                                                                     32.3%
                                                                                                             32.1%




                                                                                                                             29.9%


                                                                                                                                       29.6%
                                                                            29.6%
                                                  28.9%
                                      15.0%




                                                                  23.5%




                                                                                                                                               21.2%
                                                          19.0%
                                      10.0%
                                      5.0%
                                      0.0%




CORPORATION TAX LIABILIT Y
Tax Year 2008

Total Assets                                  Income subject to tax                                 Total income tax after                             Percentage of income tax after
(in thousands)                                        (in millions)                                   credits (in millions)                                 credits to taxable income
Zero Assets                              $                                 13,373           $                                        3,870                                     28.9%
$1 under $500                                                                 7,414                                                  1,406                                     19.0%
$500 under $1,000                                                            3,778                                                     889                                     23.5%
$1,000 under $5,000                                                        12,785                                                    3,783                                     29.6%
$5,000 under $10,000                                                        7,846                                                    2,569                                     32.7%
$10,000 under $25,000                                                      11,898                                                    3,893                                     32.7%
$25,000 under $50,000                                                      10,343                                                    3,366                                     32.5%
$50,000 under $100,000                                                     12,766                                                    4,100                                     32.1%
$100,000 under $250,000                                                    23,043                                                    7,445                                     32.3%
$250,000 under $500,000                                                    30,685                                                    9,180                                     29.9%
$500,000 under $2,500,000                                                  107,715                                                   31,935                                    29.6%
$2,500,000 or more                                                        736,507                                               156,087                                        21.2%
Total                                    $                                978,153           $                                228,523                                           23.4%




                                                                                       155
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

APPENDIX B: IMPROPER PAYMENTS
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and Recovery Act (IPERA, Pub. L. 111-
204). IPERA amends the Improper Payments Information Act (IPIA), generally repeals the Recovery Auditing Act, and
significantly increases agency payment recapture efforts by expanding the types of payments to be reviewed and lowering the
dollar threshold of annual payments that requires agencies to conduct payment recapture audit programs. Agencies continue to
be required to review their programs and activities annually to identify those susceptible to significant improper payments.
OMB Circular No. A-123, Management’s Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments (A-123, Appendix C), amended April 14, 2011, defines ―significant
improper payments‖ as gross annual improper payments in a program exceeding both the threshold of 2.5 percent and $10
million of total program funding or $100 million regardless of the improper payment percentage. A-123, Appendix C also
requires the agency to implement a corrective action plan that includes improper payment root cause identification, reduction
targets, and accountability.

Section 2(B) of IPERA allows the development of an alternative for meeting the requirements for obtaining a statistically valid
estimate of the annual amount of improper payments for federal programs that are so complex that developing an annual error
rate is not feasible. Agencies may establish an annual estimate for a high-risk component of a complex program (e.g., a specific
program population) with OMB approval. Agencies must also perform trend analyses to update the program’s baseline error
rate in the interim years between detailed program studies. When development of a statistically valid error rate is possible, the
reduction targets are revised and become the basis for future trend analyses.

I. RISK ASSESSMENTS
Each year, the Department develops a comprehensive inventory of the funding sources for all programs and activities and
distributes it to the Treasury bureaus and offices. The bureaus and offices must perform risk assessments at the payment type
level (e.g., payroll, contracts, vendors, travel, etc.). During fiscal year 2011, Treasury lowered the assessment threshold for
program or activity funding from $10 million to $1 million. The Department’s risk assessment follows the Committee of
Sponsoring Organizations of the Treadway Commission (COSO) Internal Control Integrated Framework. The framework
includes:

    1.      Internal Control Environment
    2.      Risk Assessment
    3.      Internal Control Activities
    4.      Information and Communications
    5.      Monitoring

Within the COSO Integrated Framework the factors addressed to determine risk levels include:

Operating Environment – Existence of factors which necessitate or allow for loosening of financial controls; any known
instances of fraud

Payment Processing Controls – Management’s implementation of internal controls over payment processes including
existence of current documentation, the assessment of design and operating effectiveness of internal controls over payments, the
identification of deficiencies related to payment processes, and whether or not effective compensating controls are present

Quality of Internal Monitoring Controls – Periodic internal program reviews to determine if payments are made properly;
strength of documentation requirements and standards to support testing of design and operating effectiveness for key payment
controls


                                                                156
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

Human Capital – Experience, training, and size of payment staff; ability of staff to handle peak payment requirements; level of
management oversight, and monitoring against fraudulent activity

Prior to the enactment of the IPERA changes to IPIA, Treasury maintained and performed a robust improper payment risk
assessment process in which the new IPERA payment types were included. During fiscal year 2011, Treasury enhanced its risk
assessment tool by expanding the scope of risk assessment factors which were included in the revised A-123, Appendix C.

For those payment types resulting in high-risk assessments that comprise at least 2.5 percent and $10 million or $100 million of
a total funding source, (1) statistical sampling must be performed to determine the actual improper payment rate, and (2) a
corrective action plan must be developed and submitted to the Department and OMB for approval. Responses to the risk
assessments produce a score that falls into pre-determined categories of risk. The following table describes the actions required
at each risk level:

                         Risk Level                                                  Required Action(s)
High Risk > 2.5% Error Rate & > $10 Million or $100,000,000       Corrective Action Plan
Medium Risk                                                       Review Payment Controls for Improvement
Low Risk                                                          No Further Action Required

The results of the risk assessments performed across the Department in fiscal year 2011 resulted in all programs and activities
being of low and medium risk susceptibility for improper payments, except for the IRS’s Earned Income Tax Credit (EITC)
program. The EITC’s high-risk status is well-documented, having been identified previously in the former Section 57 of OMB
Circular No. A-11, Preparation, Submission, and Execution of the Budget, and has been deemed a complex program for the
purposes of the IPIA. OMB’s guidance requires additional reporting on programs deemed high-risk; that information, for the
EITC program only, follows.

II. STATISTICAL SAMPLING

EITC Program
The EITC is a refundable federal tax credit that offsets income taxes owed by low-income workers and, if the credit exceeds the
amount of taxes owed, provides a lump-sum refund to those who qualify.

This section describes how the IRS currently develops its erroneous payment projections for the EITC. The most recent
projection is based on a tax year 2007 reporting compliance study that estimated the level of improper overclaims for fiscal year
2011 to range between $13.7 to $16.7 billion and 21.2 percent (lower bound) to 25.8 percent (upper bound) of approximately
$64.7 billion in total program payments.

The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies preclude statistical
sampling on an annual basis to develop error rates for comparison to reduction targets. The estimates are based primarily on
information from the IRS’s National Research Program (NRP) reporting compliance study of individual income tax returns for
tax year 2007—the most recent year for which compliance information from a statistically valid, random sample of individual tax
returns is available.


Under the tax year 2007 NRP reporting compliance study, which reviewed individual income tax returns filed during calendar
year 2008 for tax year 2007, 2,200 of the returns in the regular NRP sample were EITC claimants randomly selected for
examination.

This selection method allows the measures for the individual income tax return filing population to be estimated from the results
of the NRP sample returns. Because one of the objectives of the NRP is to provide data for compliance measurement, NRP
procedures and data collection differ from those followed in standard examination programs. NRP classification and

                                                               157
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

examination procedures are more comprehensive in scope and depth than those for standard examination programs. These
expanded procedures were designed to provide a more thorough determination of what taxpayers should have reported on their
returns. The tax year 2007 NRP individual income tax return study covered filers of all types of individual income tax returns.
The NRP study results for this EITC claimant subset of NRP returns were the primary source of data for the improper payments
estimates. Other data and information sources used for the estimates included the IRS Enforcement Revenue Information
System, which tracks assessments and collections from IRS enforcement-related activities, and Treasury Department fiscal year
2011 EITC budget estimates.

III. CORRECTIVE ACTIONS

This section describes the ongoing and planned corrective actions to reduce the improper payment rate for Treasury’s only high-
risk susceptible program, the EITC.

Root Causes

The root causes of EITC improper payments are from the following sources:

Authentication – An estimated 75 percent or $11.4 billion in improper payments result from authentication errors. These
errors include errors associated with the inability to authenticate qualifying child eligibility requirements, mainly relationship
and residency requirements, filing status, when married couples file as single or head of household, and eligibility in
nontraditional and complex living situations. Authentication is completed on a portion of this error category during pre-refund
examinations.

Verification – An estimated 25 percent or $3.8 billion in improper payments result from verification errors. These errors
relate to improper income reporting which allows claimants to fall within the EITC income limitations and qualify for the EITC.
The errors include both underreporting and overreporting of income by both wage earners and taxpayers who report being self-
employed. Income reported through information returns such as Forms W-2, Forms 1099, etc., which can be used for
verification of some income, becomes available only after tax returns are processed. Under law IRS must process income tax
returns within 45 days of receipt or pay interest to taxpayers.

Base Program
In 2011, the IRS prevented more than $3.7 billion from being paid in error. The prevention activity primarily focused on three
areas:

    •    Examinations – IRS identifies tax returns for examination and holds the EITC portion of the refund until an audit can
         be conducted. This is the only ongoing IRS audit program where exams are conducted before a refund is released. The
         examination closures and enforcement revenue protected in the charts below do not include test initiatives

    •    Math Error – Refers to an automated process in which the IRS identifies math or other statistical irregularities and
         automatically prepares an adjusted return for a taxpayer. Legislation is required for math error use

    •    Document Matching – Involves comparing income information provided by the taxpayer with matching information
         (e.g., W-2s, 1099s) from employers to identify discrepancies

The chart below shows significant results from fiscal year 2006 through an estimate of fiscal year 2012. In fiscal year 2011 alone,
the IRS conducted an estimated 484,000 examinations, issued approximately 300,000 math error notices, and closed nearly 1.2
million document matching reviews.




                                                                  158
                                                                                U.S. Department of the Treasury | Fiscal Year 2011

                                                          Compliance Activities

                                 FY06           FY07          FY08          FY09           FY10*      FY11**       FY12***       FY06-FY12 Total
Examination Closures              517,617       503,267       503,755       508,180        473,999    483,785       484,000             3,474,603
Math Error Notices               460,316        393,263       432,797       355,416        341,824    300,000       250,000              2,533,616
Document Matching ****           364,020        734,603       727,916       688,087        904,920    1,178,129    1,178,000             5,775,675
Amended Returns1                                               32,473        25,395         19,347        14,319        14,000            105,534
* Restated actual.
** Preliminary estimates.
*** Estimate based on fiscal year 2011 preliminary data.
**** Document Matching includes enterprise data. Enterprise data not available for fiscal year 2006.
1 Amended returns are a subset of Examination Closures.


These activities had a significant effect. Treasury projects that continued enforcement efforts will protect a total of nearly $25
billion in revenue through fiscal year 2012.


                                     Enforcement Revenue Protected (Dollars in Billions)

                                 FY06           FY07          FY08          FY09           FY10*      FY11**       FY12***       FY06-FY12 Total
Examination Closures         $       1.50   $     1.49    $     2.00    $      2.15    $       1.97   $     2.04   $     2.04    $          13.19
Math Error Notices           $      0.46    $     0.41    $     0.44    $      0.40    $      0.41    $     0.36   $      0.31   $           2.79

 Document Matching ****      $      0.60    $     1.29    $     1.23    $       1.17   $      1.43    $     1.32   $      1.32   $           8.36

Amended Returns                                           $     0.07    $      0.07    $      0.06    $      .04    $      .04   $           0.28
TOTAL                         $      2.56 $      3.19 $    3.74    $      3.79     $       3.87 $           3.76   $      3.71   $          24.62
* Restated actual.
** Preliminary estimates.
*** Estimate based on fiscal year 2011 preliminary data.
**** Document Matching includes enterprise data. Enterprise data not available for fiscal year 2006.



Maximizing Current Business Processes
     •   In fiscal year 2011, IRS completed activities associated with a suite of EITC paid preparer treatments, based on risk-
         based selections, to influence the accuracy of EITC returns filed. IRS increased the number of due diligence audits by
         over 100 percent, visits by revenue and criminal investigation agents by 50 percent, and educational and compliance
         notices to first-time and experienced preparers by 25 percent over the prior year. The percentage of paid preparers
         penalized as a result of due diligence audits remained high at 90 percent. Proposed due diligence penalties increased by
         almost 250 percent to over $10.4 million. IRS also proposed other penalties of over $250,000. Additionally, IRS
         obtained four injunctions against EITC preparers with a revenue impact of over $60 million.

     •   IRS completed strategic studies to update the estimates of the two key EITC performance measures, participation rate
         and error rate, which comply with the Government Performance and Results Act of 1993. IRS also delivered estimates
         of EITC participation for tax year 2008, using a Census-IRS match. In addition, IRS used research data from the fiscal
         year 2011 enterprise research strategy to develop a fiscal year 2012 strategy in partnership with internal organizations to
         better focus EITC compliance and outreach activities.

     •   IRS continued its partnership with members from two key tax software associations to collaborate on efforts to help
         reduce EITC errors and assist preparers in meeting their EITC due diligence requirements. In fiscal year 2011, the
         partnership delivered an EITC Schedule C and Records Reconstruction Training to help preparers meet their due
         diligence requirements with self-employed clients.




                                                                        159
                                                                                                 U.S. Department of the Treasury | Fiscal Year 2011

   IV. IMPROPER PAYMENT REPORTING

   The following table provides the improper payment reduction outlook for Treasury’s only high-risk susceptible program, the
   EITC:


                                                      Improper Payment (IP) Reduction Outlook
                                                                (Dollars in Billions)




                                                                                                                                                                     2014 IP%
                                                                                             2012 IP%




                                                                                                                                 2013 IP%




                                                                                                                                                        2014 Est.
                                                                               2012 Est.




                                                                                                                    2013 Est.
                                                        2011 IP%




                                                                                                                                                                                 2014 IP$
                                                                                                         2012 IP$




                                                                                                                                             2013 IP$
                                                                    2011 IP$
              Outlays




                                            Outlays




                                                                               Outlays




                                                                                                                    Outlays




                                                                                                                                                        Outlays
                         2010 %



                                   2010 $
Program
              2010




                                            2011
EITC
Upper
              $64.2     28.7%     $18.4     $64.7      25.8%       $16.7       $57.0        25.8%       $14.7       $57.0       25.8%       $14.7       $51.2       25.8%       $13.2
Bound
Estimate
EITC
Lower
              $64.2     23.9%     $15.3     $64.7      21.2%       $13.7       $57.0        21.2%       $12.1       $57.0       21.2%       $12.1       $51.2       21.2%       $10.9
Bound
Estimate
The term ―Outlays‖ equals ―Estimated Claims‖.
Estimated Claims: Estimated total claims for the EITC are based on projections of EITC tax expenditures plus outlays as estimated by the Office of Tax Analysis
within the Department of the Treasury, adjusted to account for the difference between taxpayer claims and accounts received by taxpayers due to return
processing and enforcement.
IP % and IP $: These estimates follow the prior approach which provided a range for the error rate (%) and improper payments amounts ($).
2010 and 2011 estimates include Recovery Act EITC provisions which expanded the EITC for families with three children and increased the beginning of the
phase-out range for couples filing a joint return.

   Underpayments are not included in the estimate of improper payments. Underpayments do not appear with sufficient frequency
   in the statistically valid test data to have a measurable effect on the estimate.

   V. RECAPTURE OF IMPROPER PAYMENTS REPORTING
   In accordance with IPERA and OMB Circular No. A-123, Appendix C, Treasury performs and reports annually on its payment
   recapture program. In fiscal year 2011, Treasury incorporated the IPERA amendments into the existing Treasury payment
   recapture (recovery audit) program. Prior to the enactment of the IPERA changes to IPIA, Treasury maintained and performed
   a robust improper payment risk assessment process which already included the new IPERA payment types.

   During fiscal year 2011, Treasury issued contracts and other reviewed payments totaling approximately $37 billion. The dollar
   amount of reviewed payments increased during fiscal year 2011 due to the amended A-123, Appendix C for payment recapture
   audits. The amended act expanded the payment types reviewed from contracts to include grants, benefits, loans, and
   miscellaneous payments.

   Treasury’s annual risk assessment process includes a review of pre-payment controls that minimize the likelihood and
   occurrence of improper payments. Treasury requires each bureau and office to conduct post-award audits and report on
   payment recapture activities, contracts issued, improper payments made, and recoveries achieved. Bureaus and offices may use
   payment recapture audit contingency firms to perform many of the steps in their payment recapture auditing program and
   identify candidates for payment recapture action. However, no Treasury bureaus used contractors to perform recapture
   activities. Treasury employees performed this work.

   Treasury considers both pre- and post-reviews to identify payment errors a sound management practice that should be included
   among basic payment controls. All of Treasury’s bureaus have a process to identify improper payments during post-reviews. At
   times, bureaus may use the results of IG and GAO reviews to help them identify payment anomalies and target areas for
   improvement. However, Treasury applies extensive payment controls at the time each payment is processed, making recapture
   activity minimal.




                                                                                      160
                                                                                          U.S. Department of the Treasury | Fiscal Year 2011

Payment Recapture Audit Reporting

                                                                                                                                                           % of Amount
                                                                                                                                                           Outstanding
                                                                                                                   % of Amount                                out of
                         Amount Subject           Actual Amount            Amount                Amount           Recovered out of        Amount             Amount
     Type of              to Review for            Reviewed and          Identified for         Recovered        Amount Identified       Outstanding        Identified
    Payment              2011 Reporting           Reported (2011)       Recovery (2011)           (2011)              (2011)               (2011)             (2011)
 Contracts           $      7,739,282,783     $         7,255,403,811   $      302,429 $            276,813           92.0%          $            26,936      8.0%
 Grants              $      4,290,756,639     $        4,290,756,639    $      428,274 $            428,274          100.0%                   -               0.0%
 Benefits            $        610,224,028     $             1,566,192   $        1,438 $              1,438          100.0%                   -               0.0%
 Loans               $      2,494,584,214     $        2,494,584,214          -                     -                    -                    -                 -
 Other               $     23,295,631,387     $       23,295,631,387    $         46,380    $           46,256       100.0%          $              124       0.0%

                                         % of Amount
                                         Determined                                                                                                     Cumulative
                     Amount                Not to be                                          Cumulative                                                 Amounts
                    Determined            Collectable          Amounts                         Amounts            Cumulative      Cumulative           Determined
                     Not to be          out of Amount        Identified for   Amounts        Identified for        Amounts         Amounts               Not to be
    Type of         Collectable           Identified        Recovery (2004- Recovered          Recovery           Recovered      Outstanding            Collectable
   Payment            (2011)                (2011)               2010)      (2004-2010)      (2004-2011)         (2004-2011)     (2004-2011)           (2004-2011)
 Contracts      $       11,709      4.0%         $ 7,200,597 $6,018,579* $ 7,503,026 $6,295,392* $ 26,936              $         75,130
 Grants               -               -               -              -             -             -            -                -
 Benefits             -               -               -              -             -             -            -                -
 Loans                -               -               -              -             -             -            -                -
 Other                -               -               -              -             -             -            -                -
* Does not include an amount of approximately $750,000 reported for fiscal year 2005, which was subsequently recovered after the
  reporting period.

The payment recapture audit targets listed below are preliminary estimates developed by Treasury bureaus and offices based on
historical performance and current payment recapture audit programs.
                                                                                       2011
                                        2011                  2011            Recovery Rate (Amount                   2012              2013                  2014
                                       Amount                Amount            Recovered / Amount                   Recovery          Recovery              Recovery
 Type ofPayment                       Identified            Recovered               Identified)                    Rate Target       Rate Target           Rate Target
 Contracts                        $       302,429       $        276,813               92.0%                          95.0%             95.0%                 95.0%
 Grants                           $       428,274       $        428,274              100.0%                        100.0%            100.0%                100.0%
 Benefits                         $           1,438     $          1,438              100.0%                        100.0%            100.0%                100.0%
 Loans                            $               -     $              -              100.0%                        100.0%            100.0%                100.0%
 Other                            $         46,380      $         46,256              100.0%                        100.0%            100.0%                100.0%

Due to the delayed release of IPERA implementation guidance, Treasury’s bureaus were not able to fully implement or develop
the mechanisms to acquire the additional information specified in the amended Payment Recapture Audit guidance to complete
the following tables: (1) Aging of Outstanding Overpayments, (2) Disposition of Recaptured Funds, and (3) Overpayments
Recaptured Outside of Payment Recapture Audits (refer to additional comments under section IX below).


VI. ACCOUNTABILITY
The Secretary of the Treasury has delegated responsibility for addressing improper payments to the Assistant Secretary for
Management and Chief Financial Officer (ASM/CFO). Improper payments fall under the Department’s management and
internal control program. A major component of the internal control program is risk assessments, which are an extension of
each bureau’s annual improper payment elimination and recovery review process, as required under A-123, Appendix C. Under
Treasury Directive 40-04, Treasury Internal (Management) Control Program, executives and other managers are required to
have management control responsibilities as part of their annual performance plans. With oversight mechanisms such as the
Treasury CFO Council and the IRS’s Financial and Management Controls Executive Steering Committee (FMC ESC), managerial
responsibility and accountability in all management and internal control areas are visible and well-documented. Improper
payments also have been monitored for improvement as a significant deficiency under the Federal Managers’ Financial
Integrity Act. Treasury has identified executives who are responsible and accountable for reducing the level of EITC overclaims,
while other senior and mid-level officials have responsibility for monitoring progress in this area as bureau and program internal
control officers.
                                                                              161
                                                                      U.S. Department of the Treasury | Fiscal Year 2011

VII. INFORMATION SYSTEMS AND OTHER INFRASTRUCTURE
Overall, Treasury has the internal controls, human capital, and information systems and other infrastructure it needs to reduce
improper payments to the targeted levels.

VIII. LIMITING STATUTORY AND REGULATORY BARRIERS
Treasury’s overall management assessment of IPERA did not uncover any limiting statutory or regulatory barriers with the
exception of the high-risk EITC program.

A number of factors continue to serve as barriers to reducing overclaims in the EITC program. These include:

          Complexity of the tax law

          Structure of the EITC

          Confusion among eligible claimants

          High turnover of eligible claimants

          Unscrupulous return preparers

          Fraud

No one of these factors can be considered the primary driver of program error. Furthermore, the interaction among the factors
makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the credit makes its way to taxpayers
who are eligible, extremely difficult.

IX. ADDITIONAL COMMENTS
Treasury made a concerted effort to fully implement the Payment Recapture Audit portion of IPERA during fiscal year 2011.
Due to the timing of the OMB guidance, critical competing priorities, and resource constraints, the program was not fully
implemented. However, the Department is in the process of developing an updated plan to ensure implementation no later than
the end of fiscal year 2013, which is the year that the improper payment rate criterion for identifying a significant improper
payment is lowered from 2.5 percent to 1.5 percent and the targeted payment recapture recovery rate should reach 85 percent
overall.


APPENDIX C:
MANAGEMENT AND PERFORMANCE CHALLENGES AND
RESPONSES
In accordance with the Reports Consolidation Act of 2000, the Inspectors General issue Semiannual Reports to Congress that
identify specific management and performance challenges facing the Department. At the end of each fiscal year, the Treasury
OIG and TIGTA send an update of these management challenges to the Secretary and cite any new challenges for the upcoming
fiscal year. SIGTARP does not provide the Secretary with a semiannual report or annual update on management and
performance challenges. This Appendix contains the incoming management and performance challenges letters from OIG and
TIGTA and the Secretary’s responses describing actions taken and planned to address the challenges.




                                                               162
                                        October 24, 2011



INFORMATION MEMORANDUM FOR SECRETARY GEITHNER

FROM:                         Eric M. Thorson
                              Inspector General

SUBJECT:                      Management and Performance Challenges Facing
                              the Department of the Treasury (OIG-CA-12-001)


In accordance with the Reports Consolidation Act of 2000, we are providing you with our
perspective on the most serious management and performance challenges facing the Department
of the Treasury.

In assessing the Department’s most serious challenges, we are mindful of the budget
environment being faced by Treasury and the entire federal government as the Administration
and the Congress looks for ways to address the country’s budget deficit. Cuts to programs and
operations are likely although the extent of any cuts and the specific nature of the cuts are
unknown as of this writing. With that as a backdrop, the Treasury Department has in recent years
been given a number of new responsibilities that are critical to this country’s sustained economic
strength. More often than not, the Department has been faced with needing to start up and
administer these new responsibilities with very thin staffing and resources. I know that the
Department’s senior leadership is fully cognizant of these pressures and the need for strong
management. That said, if the Department is faced with reduced funding, my office will monitor
and examine how Treasury’s programs and operations are impacted and we look forward to
working with the Department leadership in this regard. We also cannot emphasize enough to the
Department’s stakeholders the critical importance that Treasury is resourced sufficiently to
maintain an appropriate control infrastructure.

We continue to report the four challenges from last year.

   Transformation of Financial Regulation
   Management of Treasury’s Authorities Intended to Support and Improve the Economy
   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement
   Management of Capital Investments

We are not reporting any new challenges this year. However, in addition to the above challenges,
we are reporting an elevated concern about one matter, information security, and the need for
constant and effective surveillance over Treasury’s security posture.




                                               163
Page 2

Challenge 1: Transformation of Financial Regulation
In response to the need for financial reform, Congress passed the Dodd-Frank Wall Street
Reform and Consumer Protection Act (Dodd-Frank) in July 2010. Dodd-Frank established new
responsibilities for Treasury and created new offices tasked to fulfill those responsibilities.
Dodd-Frank established the Financial Stability Oversight Council (FSOC), which you chair as
the Treasury Secretary. FSOC’s mission is to identify risks to financial stability that could arise
from the activities of large, interconnected financial companies; respond to any emerging threats
to the financial system; and promote market discipline. As required, FSOC issued its first annual
report in July 2011. The report contained recommendations to (1) heighten risk management and
supervisory attention in specific areas, (2) further reforms to address structural vulnerabilities in
key markets, (3) take steps to address reform of the housing finance market, and (4) ensure
interagency coordination on financial regulatory reform. This is an important early step, but
FSOC still has work ahead to meet all of its responsibilities. For example, Dodd-Frank calls for
the consolidated supervision and heightened prudential standards for large, interconnected
nonbank financial companies. FSOC also has the authority to designate nonbank financial
companies for consolidated supervision and to recommend heightened standards for these firms
and large bank holding companies. In this regard, the Board of Governors of the Federal Reserve
System would be responsible for supervising these firms and adopting specific prudential rules.
As of this writing, FSOC is still in the process of establishing the framework for identifying
systemically significant nonbank financial institutions. To that end, on October 11, 2011, FSOC
issued a notice of proposed rulemaking that among other things, set forth a three-stage process in
non-emergency situations to determine whether to subject a nonbank financial company to Board
of Governors supervision and prudential standards. Each stage of the process would involve an
analysis based on an increasing amount of information. FSOC did finalize the rules for
implementing its authority under Dodd-Frank for designating financial market utilities1 as
systemically important in July of this year. Financial market utilities so designated are subject to
(1) risk management standards governing the operations related to the payment, clearing, and
settlement activities, and (2) additional examinations and reporting requirements, as well as
potential enforcement actions.
The Council of Inspectors General on Financial Oversight (CIGFO), which I chair, was also
established by Dodd-Frank. It facilitates the sharing of information among member inspectors
general with a focus on reporting our concerns that may apply to the broader financial sector and
ways to improve financial oversight. Accordingly, CIGFO will be an important source of
independent, unbiased analysis to FSOC. As required, CIGFO met on a quarterly basis and
issued its first annual report in July 2011. That report discussed current and pending joint
projects of CIGFO members and CIGFO’s conclusion that FSOC had either met or is on target to


1
  The term “financial market utility” means any person that manages or operates a multilateral system for the
purpose of transferring, clearing, or settling payments, securities, or other financial transactions among financial
institutions or between financial institutions and the person. However, the term does not include entities such as
national securities exchanges, national securities associations, and many others.




                                                          164
Page 3

meet all requirements to date. CIGFO has approved guidelines for the establishment and
procedures of working groups. In the future, CIGFO anticipates establishing a working group to
oversee the process of designating systemically important nonbank financial institutions for
heightened prudential supervision by the Board of Governors.

Additionally, Dodd-Frank established two new offices within Treasury: the Office of Financial
Research (OFR) and the Federal Insurance Office (FIO). The OFR is to be a data collection,
research and analysis arm of FSOC. The OFR will operate under a Presidentially-appointed,
Senate-confirmed Director. As of this writing, a nominee to serve as the OFR Director has not
been announced. Among other things, the OFR Director is to report to Congress annually on the
office’s activities and its assessments of systemic risk, with the first report due July 21, 2012.
The FIO is charged with monitoring the insurance industry, including identifying gaps or issues
in the regulation of insurance that could contribute to a systemic crisis in the insurance industry
or financial system. The FIO Director, whom you appointed in March of this year, is to advise
FSOC on insurance matters. We are currently reviewing the Department’s progress in standing
up OFR and our future work plans include a review of FIO.

Intended to streamline the supervision of depository institutions and holding companies, Dodd-
Frank transferred the powers and duties of the Office of Thrift Supervision (OTS) to the Office
of the Comptroller of the Currency (OCC), the Board of Governors, and the Federal Deposit
Insurance Corporation (FDIC) effective July 21, 2011. As required by Dodd-Frank, we and the
Offices of Inspector General of FDIC and the Board of Governors completed two reviews on the
transfer during 2011. The first review reported on the planning for the transfer and the second
review reported on the status of the transfer 6 months later. The reviews found that the planning
was generally adequate and that transfer activities occurred as planned. However, we also
reported on items that were still “works-in-progress.” We will continue to monitor those items as
part of our future reviews.

The other regulatory challenges that we discussed last year still remain. Specifically, since
September 2007, 113 Treasury-regulated financial institutions have failed, with estimated losses
to the Deposit Insurance Fund of approximately $36.3 billion. This is an increase of 23 financial
institutions and $1.8 billion in losses since my last challenges letter. With more than 800 banks
on FDIC’s troubled bank list, we anticipate bank failures to continue into the foreseeable future.

Although many factors contributed to the turmoil in the financial markets, our work found that
OCC and OTS did not identify early or force timely correction of unsafe and unsound practices
by numerous failed institutions under their respective supervision. The irresponsible lending
practices of many institutions are now well-recognized. At the same time, they also engaged in
other high-risk activities, including high asset concentrations in commercial real estate and
overreliance on unpredictable wholesale funding to fund growth. Last year, the unprecedented
speed at which servicers were foreclosing on defaulted mortgages revealed flaws in the
processing of those foreclosures. In response, the federal banking regulators completed a
horizontal review of foreclosure practices at major mortgage servicers. The review found
deficiencies in the servicers’ foreclosure processes including weak management oversight,
foreclosure document deficiencies, poor oversight of third parties involved in the foreclosure



                                                165
Page 4

process, and inadequate risk control systems. As a result, the federal banking regulators issued
formal enforcement actions against 14 mortgage servicers and 2 third party providers subject to
the review. While it is too soon to tell whether these servicing deficiencies have been addressed,
the foreclosure crisis has certainly impacted an already stressed housing market, with no
significant turnaround yet in sight.

Our office is mandated to review the failures of Treasury-regulated financial institutions that
result in material losses to the Deposit Insurance Fund. Since 2007, we have completed 42 such
reviews and are engaged in 13 others. These reviews identify the causes of the failures and assess
the supervision exercised. OCC has been responsive to our recommendations for improving
supervision. Dodd-Frank now mandates that our office also review failures that result in non-
material losses to the Deposit Insurance Fund. To that end, we have completed 44 such reviews.
However, neither the material nor non-material reviews address the broader supervisory
effectiveness of the federal banking regulators as a whole or the effectiveness of the supervisory
structure. It is therefore essential that OCC continue to take a critical look at its supervisory
processes to identify areas for improvement in those processes to better protect the financial
health of the banking industry and consumers going forward.

In my last memorandum, I discussed the challenges Treasury faced in standing up the Bureau of
Consumer Financial Protection (CFPB). I am pleased to note that since then, Treasury was
successful in this effort. CFPB opened for business on July 21, 2011, as planned. Established by
Dodd-Frank, the purpose of CFPB is to implement and, where applicable, enforce federal
consumer financial law consistently to ensure that all consumers have access to markets for
consumer financial products and services and that those markets are fair, transparent, and
competitive. CFPB is an independent bureau of the Board of Governors but Treasury has a
unique role in its operations. Specifically, until a Director is appointed, you are charged with
exercising some, but not all, of the Director’s authorities. On July 18, 2011, the President
nominated Richard Cordray to be the first Director of CFPB. That nomination is currently
pending before the Senate. It should be noted that, while no specific legislation has been
proposed, there is much discussion in the Congress on whether the form of governance over
CFPB should be changed. The Board of Governors Inspector General is designated by Dodd-
Frank to provide oversight of CFPB. However, with Treasury’s current statutory role under
Dodd-Frank, our office will continue to coordinate with the Board of Governors OIG on CFPB
oversight matters.

Clearly, as we have said in the past, the intention of Dodd-Frank is most notably to prevent, or at
least minimize, the impact of a future financial sector crisis on our economy. In order to
accomplish this, Dodd-Frank has placed a great deal of responsibility within Treasury and you,
as the Treasury Secretary. The management challenge from our perspective is to maintain an
effective FSOC process supported by the newly created offices within Treasury and the
streamlined banking regulatory structure that timely identifies and strongly responds to emerging
risks. This is especially important in times of economic growth and financial institution
profitability when such government action is generally unpopular.




                                               166
Page 5

Challenge 2: Management of Treasury’s Authorities Intended to Support and Improve the
Economy

Congress provided Treasury with broad authorities to address the financial crisis under the
Housing and Economic Recovery Act (HERA) and the Emergency Economic Stabilization Act
(EESA) enacted in 2008, the American Recovery and Reinvestment Act of 2009 (Recovery Act),
and the Small Business Jobs Act of 2010. Certain authorities in HERA and EESA have now
expired but challenges remain in managing Treasury’s outstanding investments. To a large
extent, Treasury’s program administration under these Acts has matured. However, investment
decisions involving the Small Business Jobs Act programs have only recently been completed.
Our discussion of this challenge will begin with the most recent act to improve and support the
economy and then discuss the others for which Treasury is responsible.

Management of the Small Business Lending Fund and State Small Business Credit Initiative

Enacted in September 2010, the Small Business Jobs Act of 2010 created a $30 billion Small
Business Lending Fund (SBLF) within Treasury and provided $1.5 billion to be allocated by
Treasury to eligible state programs through the State Small Business Credit Initiative (SSBCI).
The Act represents a key initiative of the Administration to increase lending to small businesses,
and thereby, support job creation. Both programs were slow to disburse funds to intended
recipients, with Treasury approving the majority of SBLF and SSBCI applications during the last
quarter of fiscal year 2011. This occurred because the majority of applicants waited to apply
within weeks of the application deadlines and significant delays were encountered in
implementing the SBLF program. As a result, Treasury was rushed in making a significant
number of SBLF investment decisions to meet funding deadlines, and disbursed the initial
installment of SSBCI funds without establishing clear oversight obligations of participating
states. Now that Treasury has completed the approval process for these two programs, the
challenge for Treasury will be to exercise sufficient oversight to ensure that funds are used
appropriately by participants, SBLF dividends owed Treasury are paid, and that the programs
achieve intended results.

   SBLF As of September 27, 2011, Treasury had disbursed more than $4 billion to 332
   financial institutions across the country. Of the institutions funded, 42 percent were
   institutions that used their SBLF investment to refinance securities issued under the Troubled
   Asset Relief Program (TARP) Capital Purchase Program. Institutions receiving investments
   under the SBLF program are expected to pay dividends to Treasury at rates that will decrease
   as the amount of qualified small business lending the institution does increases. During the
   first 4½ years of Treasury’s investment, participating institutions initially pay dividends to
   Treasury of up to 5 percent but that rate may be reduced to as low as 1 percent based on their
   demonstrated increase in small business lending, which is self-reported by the participating
   institutions. The dividends are non-cumulative, meaning that institutions are under no
   obligation to make dividend payments as scheduled or to pay off previously missed payments
   before exiting the program. That said, there are provisions for increased restrictions as
   dividends are missed, including a prohibition against paying dividends on common stock and
   a provision for Treasury to appoint up to two members to the bank’s board of directors. The




                                               167
Page 6

   effectiveness of these measures, however, may be impacted if the institution’s regulator has
   restricted it from making dividend payments.

   Treasury will face many challenges in ensuring that the SBLF program meets its intended
   objective of increasing lending to small businesses and in measuring program performance.
   Under the terms of the authorizing legislation, SBLF funds are intended to stimulate lending
   to small businesses, but participating institutions are under no obligation to increase their
   small business lending activity. Once SBLF funds are disbursed and become commingled
   with other funds of the participating institutions, it will be difficult to track how the funds are
   spent. Participants are also not required to report how they use Treasury’s investments.
   Additionally, Treasury is reliant on unverified information reported by participating
   institutions on their small business lending activity to measure performance and to make
   dividend rate adjustments.

   SSBCI As of September 27, 2011, 53 states, territories, and eligible municipalities
   (participating states) had applied for $1.5 billion in SSBCI funding. Of the 53 participating
   states, 31 had received their first funding allocations of approximately $0.3 billion. Under
   SSBCI, participating states may obtain funding for programs that partner with private lenders
   to extend credit to small businesses. Such programs may include those that finance loan loss
   reserves; and provide loan insurance, loan guaranties, venture capital funds, and collateral
   support. If a state does not have an existing small business lending program, it can establish
   one in order to access SSBCI funding. States must provide Treasury with plans for using
   their funding allocations for review and approval, and report quarterly and annually on
   results. Another key feature is that participating states receive their allocations in one-third
   increments. Treasury may withhold a successive increment to a state pending the results of
   an audit by our office.

   Primary oversight of the use of SSBCI funds is the responsibility of each participating state.
   The states are required to provide Treasury with quarterly assurances that their programs
   approved for SSBCI funding are in compliance with program requirements. However,
   Treasury will face challenges in holding states accountable for the proper use of funds as it
   has not clearly defined the oversight obligations of states or specified minimum standards for
   determining whether participating states have fulfilled their oversight responsibilities.
   Treasury has also not required participating states to collect and review compliance
   assurances made by lenders and borrowers or defined what constitutes a material adverse
   change in a state’s financial or operational condition that must be reported to Treasury. As a
   result, Treasury will have difficulty finding states to be in default of program requirements
   and holding states accountable should our office find that a state has intentionally or
   recklessly misused funds.

Management of Recovery Act Programs

Treasury is responsible for overseeing an estimated $150 billion of Recovery Act funding and
tax relief. Treasury’s oversight responsibilities include programs that provide payments for
specified energy property in lieu of tax credits, payments to states for low-income housing




                                                168
Page 7

projects in lieu of tax credits, grants and tax credits through the Community Development
Financial Institutions Fund, economic recovery payments to social security beneficiaries and
others, and payments to U.S. territories for distribution to their citizens.

Several of these programs involve very large dollar amounts. It is estimated that Treasury’s
Recovery Act payments in lieu of tax credit programs, for specified energy property and to states
for low-income housing projects, will cost more than $20 billion over their lives. To date,
Treasury has already awarded approximately $13 billion under these programs. Payments made
to recipients under the specified energy property program alone comprise more than $9 billion of
the funds awarded to date and the number of applicants is expected to grow with the program’s
application deadline now extended through fiscal year 2012. We previously reported that
Treasury dedicated only a small number of staff to award and monitor these funds. It did,
however, implement a process for the specified energy property program whereby the
Department of Energy’s National Renewable Energy Laboratory performs a technical review of
payment applications and advises Treasury on award decisions. For larger dollar payments,
Treasury also requires the applicant to obtain a review of project costs by an independent public
accounting firm. We conducted a number of audits of recipients of payments under the specified
energy property program to ensure funds were properly awarded to eligible applicants for
eligible properties and have found some questionable claims involving several million dollars in
total. We plan to continue our audits of recipients in fiscal year 2012 and will report any major
instances of program abuse as necessary.

Management of the Housing and Economic Recovery Act and the Emergency Economic
Stabilization Act

Through several HERA and EESA programs, Treasury injected much needed capital into
financial institutions and businesses.

Under HERA, Treasury continues to address the distressed financial condition of Fannie Mae
and Freddie Mac which are under the conservatorship of the Federal Housing Finance Agency.
In order to cover the continuing losses of the two entities and their ability to maintain a positive
net worth, Treasury agreed to purchase senior preferred stock as necessary, and as of June 30,
2011, invested $164 billion in the two entities. Treasury also purchased $225 billion of
mortgage-backed securities (MBS) issued by the two entities under a temporary purchase
program that expired in December 2009. In March 2011, Treasury began to wind down its MBS
portfolio and has steadily reduced the portfolio by about $10 billion a month. As of September
2011, Treasury received proceeds of $64 billion through sales of its MBS and $118 billion in
principal repayments. So far, over the life of its investment, Treasury has earned $20 billion in
interest. The remaining principal outstanding is approximately $60 billion. Through the Housing
Finance Agency Initiative supporting state and local finance agencies, Treasury purchased
securities in Fannie Mae and Freddie Mac backed by state and local Housing Finance Agency
bonds (New Issue Bond Program) and a participation interest in the obligations of Fannie Mae
and Freddie Mac (Temporary Credit and Liquidity Program). Prior to expiring in December
2009, Treasury purchased $15.3 billion of securities under the New Issue Bond Program and
provided $8.3 billion under the Temporary Credit and Liquidity Program. Even with this




                                                169
Page 8

assistance, the future of both entities is still in question and prolonged assistance may be
required. On a positive note, Freddie Mac did report positive net worth in the second quarter of
2011, the first positive quarter since 2009. Accordingly, there was no increase to Treasury’s
senior preferred stock investment in Freddie Mac.

As required by Dodd-Frank, Treasury and the Department of Housing and Urban Development
conducted a study on ending the conservatorship of Fannie Mae and Freddie Mac and
minimizing the cost to taxpayers. The report on this study was presented to Congress in February
2011. Regarding the long-term structure of housing finance, the report provided three options for
consideration without recommending a specific option. The three options are (1) a privatized
system of housing finance with the government insurance role limited to the Federal Housing
Administration (FHA), the U.S. Department of Agriculture (USDA), and the Department of
Veterans Affairs (VA) with assistance for narrowly targeted groups of borrowers; (2) a
privatized system of housing finance with assistance from FHA, USDA, and VA for narrowly
targeted groups of borrowers and a guarantee mechanism to scale up during times of crisis; and
(3) a privatized system of housing finance with FHA, USDA, and VA assistance for low- and
moderate-income borrowers and catastrophic reinsurance behind significant private capital. The
legislative process for housing finance reform is in an early stage and it is difficult to predict
what lies ahead for winding down the Fannie Mae and Freddie Mac conservatorships and
reforming housing finance in the long run.

TARP, established under EESA, gave Treasury the authorities necessary to bolster credit
availability and address other serious problems in the domestic and world financial markets.
Treasury’s Office of Financial Stability administers TARP, and through several of its programs,
made purchases of direct loans and equity investments in many financial institutions and other
businesses, as well as guaranteed other troubled mortgage-related and financial assets. Authority
to make new investments under the TARP program expired on October 3, 2010. Treasury,
however, is continuing to make payments for programs which have existing contracts and
commitments. Treasury’s challenge in this area has changed from standing-up and running
TARP programs to winding them down and recovering its investment. That means Treasury’s
focus is on managing and exiting from its current TARP investments. To date, Treasury has
reported positive returns from the sale of its investments in the banking industry and has begun
reducing its investment in American International Group (AIG). EESA also established a special
inspector general for TARP and imposed oversight and periodic reporting requirements on both
the special inspector general and Government Accountability Office.

As conditions improve, Treasury will need to continue to work with its partners to disassemble
the structure established to support recovery efforts and ensure that federal funds no longer
needed for those efforts are returned in an orderly manner to the Treasury general fund.

2012 Pending Initiatives

In addition to SBLF and SSBCI, the Small Business Jobs Act of 2010 provided Treasury with
authority to guarantee the full amounts of bonds and notes issued for community and economic
development activities not to exceed 30 years. Under this authority, Treasury may issue up to




                                               170
Page 9

10 guarantees of no less than $100 million each, but may not exceed $1 billion in total aggregate
guarantees in any fiscal year. As the program administrator, the Community Development
Financial Institutions Fund is tasked with setting regulations and implementing the program by
September 27, 2012. Our office plans to assess the progress of the program’s implementation in
2012.

Included in the President’s legislative proposal, “The American Jobs Act of 2011,” is a provision
establishing the American Infrastructure Financing Authority (AIFA), as a wholly owned
Government Corporation, that would provide direct loans and loan guarantees to facilitate
infrastructure projects that are both economically viable and of regional or national significance.
The proposed aggregate amount of direct loans and loan guarantees made by AIFA in any single
fiscal year may not exceed (1) $10 billion during the first 2 years of operations; (2) $20 billion
during years 3 through 9 of operations; or (3) $50 billion during any year thereafter. Although
not a Treasury program, the legislation calls for Treasury to assist in implementing AIFA and in
carrying out its purpose. Under the proposal, our office would provide oversight of AIFA for the
first 5 years and thereafter the oversight would be provided by a Presidentially-appointed,
Senate-confirmed special inspector general. Given the potential implications to our office, we
will monitor the Congress’s consideration of the proposal and respond appropriately.

Challenge 3: Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
Enforcement

As we have reported in the past, ensuring criminals and terrorists do not use our financial
networks to sustain their operations and/or launch attacks against the U.S. continues to be a
challenge. Following the terrorist attacks of 2001, Treasury established the Office of Terrorism
and Financial Intelligence (TFI). TFI is dedicated to disrupting the ability of terrorist
organizations to fund their operations. TFI brings together intelligence gathering and analysis,
economic sanctions, international cooperation, and private-sector cooperation to identify donors,
financiers, and facilitators supporting terrorist organizations, and disrupt their ability to fund
them. Enhancing the transparency of the financial system is one of the cornerstones of this effort.
Treasury carries out its responsibilities to enhance financial transparency through the Bank
Secrecy Act (BSA) and USA Patriot Act. The Financial Crimes Enforcement Network (FinCEN)
is the Treasury bureau responsible for administering BSA.

Over the past decade, TFI has made good progress in closing the vulnerabilities that allowed
money launderers and terrorists to use the financial system to support their activities.
Nonetheless, significant challenges remain. One challenge is ensuring the continued cooperation
and coordination of all the organizations involved in its anti-money laundering and combating
terrorist financing efforts. A large number of federal and state entities participate with FinCEN to
ensure compliance with BSA, including the four federal banking agencies, the Internal Revenue
Service (IRS), the Securities and Exchange Commission, the Department of Justice, and all the
state regulators. Many of these entities also participate in efforts to ensure compliance with U.S.
foreign sanction programs administered by Treasury’s Office of Foreign Assets Control (OFAC).




                                                171
Page 10

To be effective, Treasury must establish and maintain working relationships with these numerous
entities. Neither FinCEN nor OFAC have the resources or capability to maintain compliance
with their programs without significant help from these other organizations. To this end,
Treasury has entered into memoranda of understanding with many federal and state regulators in
an attempt to build a consistent and effective process. As of last year, FinCEN had signed
memoranda of understanding with 7 federal and 51 state regulators to ensure that information is
exchanged between FinCEN and the entities charged with examining for BSA compliance.
While important to promote the cooperation and coordination needed, it should be noted that
these instruments are nonbinding and carry no penalties for violations, and their overall
effectiveness has not been independently assessed.

Last year, financial institutions filed approximately 15 million BSA reports, including over 1.3
million suspicious activity reports. While the number of suspicious activity reports has been
increasing since 2001, the numbers alone do not necessarily indicate everything is going well.
Audits we have done have found problems with the quality of the data reported. Other audits
have also identified gaps in the regulatory examination programs of the bank regulators and
examining agencies. FinCEN needs to continue its efforts to work with regulators and examining
agencies to ensure that financial institutions establish effective BSA compliance programs and
file accurate and complete BSA reports, as required. Furthermore, FinCEN still needs to
complete work to issue anti-money laundering regulations as it determines appropriate for some
non-bank financial institutions, such as vehicle dealers; pawnbrokers; travel agents; finance
companies; real estate closing and settlement services; and financial services intermediaries, such
as investment advisors.

BSA data is currently maintained by IRS and access to the database is generally handled through
an IRS system known as WebCBRS. FinCEN’s BSA Information Technology (IT)
Modernization program, begun in 2008, is being built to ensure efficient management,
safeguarding, and use of BSA information. BSA IT Modernization will reengineer BSA data
architecture, update the infrastructure, implement more innovative web services and enhanced
electronic filing, and provide increased analytical tools. FinCEN believes modernization will
provide increased data integrity, and maximize value for its state and federal partners. This
program, which we believe is needed, has yet to reach a point of broad-based integration testing
and is highly dependent on continued funding, a challenge for many programs today. The BSA
IT Modernization project is also discussed in challenge 4.

FinCEN is mandating the use of its BSA E-Filing network starting in June 2012. BSA E-Filing
allows financial institutions to file reports with FinCEN electronically. We anticipate that this
will improve data quality in that data will be more quickly entered into the database and that
some of the errors or omissions that previously occurred through paper filings should be reduced
if not eliminated. However, until this can be verified, FinCEN and IRS will need to continue to
monitor data quality. Last year we noted that FinCEN has a particularly difficult challenge in
dealing with MSBs. FinCEN has taken steps to improve MSB examination coverage and
compliance. In the past year, FinCEN has finalized new rules and increased enforcement
designed to ensure MSBs comply with BSA requirements, including registration and report filing
requirements. However, ensuring MSBs register with FinCEN has been a continuing challenge.



                                               172
Page 11

Furthermore, IRS serves as the examining agency for MSBs but has limited resources to inspect
MSBs or even identify unregistered MSBs. FinCEN and IRS need to work together to ensure that
MSBs operating in this country are identified, properly registered, and in compliance with all
applicable laws and regulations.

FinCEN has also been concerned with MSBs that use informal value transfer systems and with
MSBs that issue, redeem, or sell prepaid access, through physical (cards or other devices) or non-
physical (e.g., code, electronic serial number, mobile identification number, and/or personal
identification number) means. MSBs using informal value transfers have been identified in a
number of attempts to launder proceeds of criminal activity or finance terrorism. Similarly,
prepaid access can make it easier for some to engage in money laundering or terrorist financing.
In September 2010, FinCEN notified financial institutions to be vigilant and file suspicious
activity reports on MSBs that may be inappropriately using informal value transfers when they
use financial institutions to store currency, clear checks, remit and receive funds, and obtain
other financial services. This past summer, FinCEN issued a final rule applying customer
identification, recordkeeping, and reporting obligations to providers and sellers of prepaid
access. Ensuring compliance with these rules will be a major challenge.

To detect possible illicit wire transfer use of the financial system, FinCEN also proposed a
regulatory requirement for certain depository institutions and MSBs to report cross-border
electronic transmittals of funds. FinCEN determined that establishing a centralized database will
greatly assist law enforcement in detecting and ferreting out transnational organized crime,
multinational drug cartels, terrorist financing, and international tax evasion. Ensuring financial
institutions, particularly MSBs, comply with the cross-border electronic transaction reporting
requirements, as well as managing this new database, will be another significant challenge for
FinCEN. It should be noted that this system cannot be fully implemented until FinCEN
completes its work on its BSA IT Modernization project, scheduled for 2014.

Other matters of concern are beginning to appear or are on the horizon. One concern we reported
before is that the focus on safety and soundness resulting from the recent financial crisis may
have reduced the attention financial institutions have given to BSA and OFAC compliance.
Another concern is the increasing use of mobile devices for banking, internet banking, internet
gaming, and peer-to-peer transactions. FinCEN, OFAC, and other regulatory agencies will need
to ensure that providers of these services ensure transactions are transparent and conform to BSA
requirements. Monitoring the transactions of tomorrow may prove to be increasingly difficult for
Treasury.

Given the criticality of this management challenge to the Department’s mission, we continue to
consider anti-money laundering and combating terrorist financing as inherently high-risk.
Mandatory work, particularly material loss reviews of failed banks, prevented us from starting
any new audits in this area in fiscal years 2009 and 2010. In fiscal year 2011, we initiated audits
of the MSB compliance program, the BSA IT Modernization project, and OFAC licensing (a
program that allows exceptions to sanction programs upon OFAC’s legal review and approval),
which we plan to complete in fiscal year 2012.




                                                173
Page 12

Challenge 4: Management of Capital Investments

Managing large capital investments, particularly information technology investments, is a
difficult challenge for any organization, whether public or private. As a new development, after
several years of attempting to centrally manage large infrastructure investments at the
Department level, Treasury has announced that it will de-consolidate all infrastructure
investments to the bureaus. This move is intended to improve efficiency and transparency, cost
savings and avoidance, and overall governance.

In prior years, we reported on a number of capital investment projects that either failed or had
serious problems. This year, we continue to identify challenges with ongoing IT investments.

   Replacement telecommunications platform Treasury plans to spend $3.7 billion on its
   Information Technology Infrastructure Telecommunications Systems and Services
   investment. Treasury was originally to have begun implementation of TNet, a major
   component, in November 2007 but the project was delayed until August 2009. In September
   2011, we reported serious problems with the initial contracting and project management of
   TNet that contributed to the delay and the unnecessary expenditure of $33 million to
   maintain the prior telecommunications system in the interim. While TNet has become
   operational across Treasury, it is not yet fully compliant with Federal security requirements,
   and issues with change requests, incident response, and contractor billings need to be
   addressed.

   Common identity management system The Treasury Enterprise Identity, Credential and
   Access Management (TEICAM) is a $147 million effort to implement Homeland Security
   Presidential Directive 12 requirements for a common identity standard. As of August 2011,
   Treasury reported that the system was $40 million over planned costs.

   Data center consolidation OMB initiated the Federal Data Center Consolidation Initiative to
   reduce the number of federal data centers. In this regard, Treasury had over 60 data centers
   around the country. During fiscal year 2011, Treasury closed 3 data centers. This was
   accomplished in part by the Financial Management Service and the Bureau of the Public
   Debt consolidating their infrastructure and data center operations. Treasury plans to close
   another 12 data centers by 2015. Its ability to successfully consolidate data centers and
   achieve budget savings is contingent on adapting shared infrastructure services.

   FinCEN BSA IT Modernization As discussed in Challenge 3, Treasury, through FinCEN, is
   undertaking a major project known as BSA IT Modernization. Already underway, the project
   is expected to cost about $120 million and is expected to be completed in 2014. The project
   has yet to undergo broad-based integration testing, is complicated, and will require continued
   coordination between FinCEN and IRS. A prior attempt, from 2004 to 2006, to develop a
   new BSA system ended in failure with over $17 million wasted because of shortcomings in
   project planning, management, and oversight. However, early indications from our audit
   work are that project management is much improved for this project.




                                                174
Page 13

Treasury should exercise continuous vigilance in managing the investments described above and
others due to previously reported problems with large capital investments, and billions of
procurement dollars at risk. Moreover, it remains to be seen whether Treasury’s decision to de-
consolidate all infrastructure investments will improve efficiency and transparency, cost savings
and avoidance, and overall governance as intended. We plan to assess the results of this change
in managing Treasury’s infrastructure investments going forward.

Matter of Concern

Although we are not reporting this as a management and performance challenge, we want to
highlight an area of increasing concern -- information security.

We reported information security as a serious management and performance challenge at
Treasury for a number of years but removed the challenge in 2009. We did so because Treasury
had made significant strides in improving and institutionalizing its information security controls,
as was evident from our annual Federal Information Security Management audits and
evaluations. We believe that remains the case today. However, notwithstanding Treasury’s
strong security stance, cyber attacks against federal government systems by foreign governments
and the hacker community are unrelenting and increasing. Treasury’s information systems are
critical to the Nation, and thus potential targets of those wishing to do grave harm. Accordingly,
this is a very troubling situation that requires the highest level of continual attention to ensure, as
we said when we removed the challenge, that information security policies remain current and
practices do not deteriorate.

We would be pleased to discuss our views on these management and performance challenges in
more detail.

cc:      Daniel Tangherlini
      Assistant Secretary for Management, Chief Financial Officer, and
        Chief Performance Officer




                                                  175
                                          DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20005



INSPECTOR GENERAL
    FOR TAX
 ADMINISTRATION



                                               October 14, 2011


MEMORANDUM FOR SECRETARY GEITHNER


FROM:                             J. Russell George
                                  Inspector General

SUBJECT:                          Management and Performance Challenges Facing the Internal
                                  Revenue Service for Fiscal Year 2012

The Reports Consolidation Act of 20002 requires that the Treasury Inspector General for Tax
Administration (TIGTA) summarize, for inclusion in the Department of the Treasury
Accountability Report for Fiscal Year 2011, its perspective on the most serious management
and performance challenges confronting the Internal Revenue Service (IRS). The issues
described in this document are derived from a variety of activities conducted and reviewed by
TIGTA.
Each year, TIGTA evaluates IRS programs, operations, and management functions to identify
the areas of highest vulnerability to the Nation’s tax system. For Fiscal Year 2012, the top 10
management and performance challenges in order of priority are:
        1.   Security for Taxpayer Data and Employees;
        2.   Tax Compliance Initiatives;
        2.   Modernization;
        4.   Implementing Major Tax Law Changes;
        5.   Fraudulent Claims and Improper Payments;
        6.   Providing Quality Taxpayer Service Operations;
        7.   Human Capital;
        8.   Globalization;
        9.   Taxpayer Protection and Rights; and
       10.   Achieving Program Efficiencies and Cost Savings.
TIGTA’s assessment of the major IRS management challenges for Fiscal Year 2012 has
changed from the prior fiscal year. Due to the mission-critical nature of both modernization and
tax compliance initiatives, TIGTA considers tax compliance and modernization as serious
enough management challenges to jointly rank at number two, following security. However, the
current status of the United States economy and the watchful eye of the American public on the
management of our Nation’s Government are driving the need more than ever for the IRS to
efficiently and effectively collect taxes




2
    31 U.S.C. § 3516(d) (2006).




                                                      176
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Two

owed to the Federal Government. In addition, the IRS recently downgraded its longstanding
material weakness3 status of the Modernization Program. As such, tax compliance is listed
before the ongoing major challenge of modernization. Also note that the prior Erroneous and
Improper Payments and Credits challenge has expanded to become Fraudulent Claims and
Improper Payments and has moved from the seventh to the fifth most significant challenge
facing the IRS.
Although not listed, complexity of the tax law remains a serious underlying issue that has wide-
ranging implications for both the IRS and taxpayers. This complexity, including frequent
revisions to the Internal Revenue Code, makes it increasingly difficult for the IRS to explain and
enforce the tax laws and more costly and time-consuming for taxpayers who want to comply.
When the Internal Revenue Code is used as a vehicle for implementation of policy changes, the
IRS will continue to face the challenge of responding quickly by shifting resources and altering
established plans.
The following information for each of these management and performance challenges is being
provided to promote economy, efficiency, and effectiveness in the IRS’s administration of the
Nation’s tax laws.
SECURITY FOR TAXPAYER DATA AND EMPLOYEES
As our Nation’s tax collector and administrator of the Internal Revenue Code, the IRS received
more than 230 million tax returns, of which 141 million were from individual taxpayers, and
collected more than $2.3 trillion in revenue in 2010. Information from these tax returns is
converted into electronic format, processed, and maintained in over 190 computer system
applications for use by IRS employees. As computer use continues to be inextricably integrated
into the IRS’s core business processes, effective information systems security becomes
essential to ensure that data are protected against inadvertent or deliberate misuse, improper
disclosure, or destruction, and that computer operations supporting tax administration are
secured against disruption or compromise.
The IRS faces the daunting task of securing its computer systems against the growing threat of
cyberattack. According to the Department of Homeland Security’s U.S. Computer Emergency
Readiness Team, cyberattacks against Federal websites and networks increased almost 40
percent in 2010. More recently, in July 2011, the Pentagon acknowledged a serious data
breach when a Department of Defense contractor suffered one of its largest cyberattacks ever
and more than 24,000 files containing sensitive data were stolen by a foreign government.
Computer security has been problematical for the IRS since 1997, when the IRS initially
reported computer security as a material weakness during its annual evaluation of internal
accounting and administrative controls under the Federal Managers Financial




3
 In the event that an agency determines the existence of shortcomings in operations or systems which
severely impair or threaten its ability to accomplish its mission or to prepare timely and accurate financial
statements, the Department of the Treasury directs its bureaus to declare a material weakness on that
particular area.




                                                     177
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Three
Integrity Act of 1982.4 The IRS further divided this material weakness into nine areas: (1)
network access controls; (2) key computer applications and system access controls; (3)
software configuration; (4) functional business, operating, and program unit security roles and
responsibilities; (5) segregation of duties between system and security administrators; (6)
contingency planning and disaster recovery; (7) monitoring of key networks and systems; (8)
security training; and (9) certification and accreditation.
As of April 2011, the IRS had officially closed three of the nine areas: segregation of duties
between system and security administrators (closed in September 2005), security training (June
2008), and certification and accreditation (December 2008). In addition, the IRS completed all
corrective actions on two other areas: network access controls (completed in July 2010) and
functional business, operating, and program unit security roles and responsibilities
(March 2009). The other four material weakness areas remain open and are actively being
resolved. While the IRS has made progress in the area of computer security, it needs to
continue to place a high priority on its improvement.
In addition, identity theft continues to be a significant problem for taxpayers and the IRS.
Identity thieves are filing fraudulent tax returns and obtaining refunds. The IRS usually does not
become aware of a problem until after the legitimate taxpayer files a tax return. At that time, the
IRS often determines that two tax returns have been filed using the same name and Social
Security Number. The legitimate taxpayer’s refund is then delayed while the IRS attempts to
determine who the legitimate taxpayer is. Meanwhile, the identity thief has obtained a
fraudulent tax refund, which the IRS is unlikely to recover. As such, effectively authenticating
legitimate taxpayers is a pressing challenge for the IRS as it develops and implements updates
to its mission-critical systems and processes.
Beyond safeguarding a vast amount of sensitive financial and personal data, the IRS must also
protect approximately 100,000 employees and contractors working in over 700 facilities
throughout the country. The February 2010 attack on an IRS facility in Austin, Texas, was a
stark reminder of the dangers that IRS employees face each day in trying to perform their jobs.
Animosity towards the tax collection process is nothing new, but the Austin incident highlights a
surge in hostility towards the Federal Government. Also, the ongoing public debate regarding
the new health care law and continued concerns over the country’s economy could fuel threats
against the Federal Government, including IRS employees and facilities. These are challenging
operating conditions for the IRS that underscore the need for continued vigilance in the area of
physical and personnel security.




4
  31 U.S.C. §§ 1105, 1106, 1108, 1113, 3512 (2006). The Federal Managers’ Financial Integrity Act
(FMFIA) requires that agency management establish and maintain effective internal controls to achieve
the objectives of: 1) effective and efficient operations, 2) reliable financial reporting, and 3) compliance
with applicable laws and regulations. The FMFIA also requires the head of each Executive agency to
report annually to the President and Congress on the effectiveness of the internal controls and any
identified material weaknesses in those controls. Reporting material weaknesses under the FMFIA is not
limited to weaknesses over financial reporting.




                                                    178
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Four

TAX COMPLIANCE INITIATIVES
Another serious challenge confronting the IRS is tax compliance. Despite an estimated
voluntary compliance rate of 84 percent and IRS enforcement efforts, a significant amount of
income remains unreported and unpaid. Tax compliance initiatives include the administration of
tax regulations, collection of the correct amount of tax from businesses and individuals, and the
oversight of tax-exempt and government entities.
The IRS’s challenge related to tax-exempt and government entities is providing assistance to
those entities that provide a valued societal benefit while ensuring that these entities remain in
compliance with the tax laws associated with their tax-exempt status. The various types of tax-
exempt entities include exempt organizations, sponsors of retirement plans, Indian tribal
governments, issuers of tax-exempt and other tax-advantaged bonds, and Federal, State, and
local governments.
Increasing voluntary taxpayer compliance and reducing the Tax Gap5 are the focus of many IRS
initiatives. The IRS continues to face significant challenges in obtaining complete and timely
compliance data and in developing methods necessary to interpret the data. Even with
improved data collection, however, the IRS needs broader strategies and more research to
determine what actions are most effective in addressing taxpayer noncompliance. The IRS’s
strategy for reducing the Tax Gap is largely dependent on funding for additional compliance
resources and legislative changes. In its Fiscal Year 2012 budget submission, the IRS
requested a 2.9 percent increase in enforcement funds over its Fiscal Year 2011 request.
    Businesses and Individuals
    The IRS estimated the gross Tax Gap for Tax Year 2001 (the most current figures available)
    to be approximately $345 billion. Underreporting of taxes, which comprises four major
    components (individual income tax, employment tax, corporate income tax, and estate and
    excise taxes), is estimated at $285 billion and accounts for the largest portion (over
    80 percent) of the Tax Gap. In fact, the underreporting of individual income tax and
    employment tax combined constitutes over 70 percent of the gross Tax Gap.
    The absence of laws to prevent Federal agencies, including the IRS, from awarding
    contracts to businesses that have delinquent tax liabilities is contributing to the Tax Gap.
    During Fiscal Year 2010, President Obama directed the Department of the Treasury and the
    Office of Management and Budget to evaluate agencies’ contract award processes and
    make recommendations to ensure that Federal contractors with serious tax delinquencies
    do not receive new work from Federal agencies. In a Fiscal Year 2011 report,6 we
    determined that the IRS has opportunities to improve the use of the Federal Payment Levy
    Program7 to collect delinquent tax liabilities




5
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the amount they
voluntarily and timely paid for a tax year.
6
  TIGTA, Ref. No. 2011-30-013, Existing Practices Allowed IRS Contractors to Receive Payments While Owing
Delinquent Taxes (2011).
7
 The Federal Payment Levy Program is an automated process that issues tax levies to collect delinquent
Federal taxes through the Financial Management Service from Social Security payments, Federal agency
salaries, retirement, and contract awards.




                                                     179
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Five

    from IRS contractors. Our audit identified that the IRS blocked 11 contractors with
    delinquent liabilities totaling approximately $4.3 million from inclusion in the Program.
    These contractors received more than $356 million in payments from the IRS and
    approximately $3.7 billion in payments from other Federal agencies. For eight of these
    contractors, the amount of delinquent taxes that could have been collected if the tax
    accounts had not been blocked from inclusion totaled $3.8 million.
    Tax-Exempt Entities
    The IRS continues to face challenges in administering programs focused on ensuring that
    tax-exempt organizations comply with applicable laws and regulations to qualify for their
    exempt status. Legislative changes and judicial decisions contribute to a constantly
    changing environment affecting today’s nonprofit and tax-exempt organizations. For
    example, the Patient Protection and Affordable Care Act (Affordable Care Act)8 added
    several new requirements for tax-exempt hospitals to maintain their exempt status.
    Since more than $15 trillion in U.S. assets are currently controlled by tax-exempt
    organizations or held in exempt retirement programs and financial instruments, the IRS
    recognized in its most recent strategic plan that careful oversight of the nonprofit and
    exempt sector is more important than ever before. In its Fiscal Year 2012 budget
    submission, the IRS stated that it must continue focused oversight of the tax-exempt sector.
    In a report issued in Fiscal Year 2011,9 we reviewed the IRS process that allows public
    employers who determine they are not in compliance with various employment and income
    tax laws to step forward and be accountable by entering into an agreement with the IRS to
    become compliant. While this assists the IRS in improving compliance in the government
    sector without using scarce resources to uncover noncompliance, the IRS did not always
    properly control, process, and monitor all requests for agreements received from its
    customers. As a result, TIGTA found inconsistencies, inaccuracies, potential taxpayer rights
    violations, and weak internal controls that increased the risk of error, fraud, or abuse. In
    addition, TIGTA identified changes that could lead to an increase in the number of
    agreements being requested, heightening the need to begin building a more defined
    agreement program.
    Tax Return Preparers
    Greater numbers of taxpayers are turning to tax return preparers for assistance. In
    Calendar Year 2010, the IRS processed approximately 81.5 million individual Federal
    income tax returns prepared by paid preparers. However, these preparers were not
    required to meet or comply with any national standards before selling tax preparation
    services to the public.




8
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of 18 U.S.C.,
20 U.S.C., 21 U.S.C., 25 U.S.C., 26 U.S.C., 28 U.S.C., 29 U.S.C., 30 U.S.C., 31 U.S.C., 35 U.S.C., and
42 U.S.C.).
9
  TIGTA, Ref. No. 2011-10-042, Improvements Are Needed in the Voluntary Closing Agreement Process
for Public Employers (2011).




                                                 180
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Six
     A series of reports (including reviews conducted by TIGTA, the U.S. Government
     Accountability Office, and other agencies) strongly suggested a need to regulate those who
     prepare Federal tax returns and led the IRS to launch its Return Preparer Review in June
     2009. The following December, after its own six-month study of the problem, the IRS
     announced a suite of proposed reforms to improve oversight of the return preparer
     community.
     The IRS began implementing the new preparer requirements in Fiscal Year 2011, but we
     reported in September 2010 that it will take years for the IRS to implement the Return
     Preparer Program and to realize its impact.10 When the decision was made to register
     preparers in September 2010, the IRS had only begun to implement the Return Preparer
     Program and had not established all of its requirements. The IRS also had not established
     the organizational structure of the Program, determined how it will test to ensure all
     preparers met the requirements, determined how it will enforce Program requirements, or
     developed the system(s) and processes necessary to administer and oversee the Program.
     It will not be until Calendar Year 2014 that all preparers will be subjected to all suitability and
     competency tests. In the meantime, the IRS will develop and implement an enforcement
     strategy. Currently, the IRS does not have a sufficient management information system to
     gather data on preparers. Further, the IRS will need to ensure that taxpayers understand
     the new requirements and the importance of using only registered preparers to prepare their
     tax returns.
MODERNIZATION
The Business Systems Modernization Program (Modernization Program) is a complex effort to
modernize IRS technology and related business processes. It involves integrating thousands of
hardware and software components while replacing outdated technology and maintaining the
current tax system. The IRS originally estimated that the Modernization Program would last up
to 15 years and incur contractor costs of approximately $8 billion. The Program is going on its
14th year and has received approximately $3.46 billion for contractor services, plus an additional
$554 million for internal IRS costs.
Factors that characterize the IRS’s complex information technology environment include widely
varying inputs from taxpayers (from simple concise records to complex voluminous documents),
seasonal processing with extreme variations in processing loads, transaction rates on the order
of billions per year, and data storage measured in trillions of bytes. The Modernization Program
is working toward providing improved benefits to taxpayers that include:
        Issuing refunds, on average, five days faster than existing legacy systems;
        Offering electronic filing capability for individuals, large corporations, small businesses,
         tax-exempt organizations, and partnerships, with dramatically reduced processing error
         rates;




10
 TIGTA, Ref. No. 2010-40-127, It Will Take Years to Implement the Return Preparer Program and to
Realize Its Impact (2010).




                                                  181
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Seven

        Delivering web-based services for tax practitioners, taxpayers, and IRS employees; and
        Providing IRS customer service representatives with faster and improved access to
         taxpayer account data with real-time data entry, validation, and updates of taxpayer
         addresses.

The IRS’s modernization efforts continue to focus on core tax administration systems designed
to provide more sophisticated tools to taxpayers and to IRS employees. The Modernization
Program provides new information technology capabilities and the related benefits. Since
January 2011, the IRS has implemented new versions of the current Customer Account Data
Engine,11 the Modernized e-File system,12 and the Account Management Services system.13
Additionally, the IRS has continued making progress in preparing for the deployment of the
Customer Account Data Engine 2 system.14
The Modernization Program has continued to help improve IRS operations and has
demonstrated successes in improving business practices by implementing new information
technology solutions. Management of project costs and schedules has shown dramatic
improvement since the previous year, but some systems development disciplines continue to
need attention.
Since 1995, the IRS had identified and reported the Modernization Program as a material
weakness. In June 2011, the IRS Commissioner certified, in a memorandum to the Department
of the Treasury’s Assistant Secretary for Management and Chief Financial Officer, that the
previously identified internal and management control issues had been fully addressed and the
Modernization Program no longer warranted being identified as a material weakness. While we
support the IRS’s decision, we believe the Program remains a risk for the IRS, and we suggest
that it continue to stress improvements in its overall processes and performance.
IMPLEMENTING MAJOR TAX LAW CHANGES
Each filing season tests the IRS’s ability to implement tax law changes made by the Congress.
Most individual taxpayers file their income tax returns during the annual January through April
period and, if needed, it is usually during this same time period that they contact the IRS with
questions about specific tax laws or filing procedures. Correctly implementing late tax law
changes remains a significant challenge because




11
   The Customer Account Data Engine is the foundation for managing taxpayer accounts in the IRS
Modernization plan. When completed, its databases and related applications will replace existing IRS
Master File processing systems and will include applications for daily posting, settlement, maintenance,
refund processing, and issue detection for taxpayer tax account and return data.
12
   The Modernized e-File system is a replacement of the current IRS tax return filing technology with a
modernized, Internet-based electronic filing platform.
13
   The Account Management Services system provides IRS employees with the ability to view, access,
update, and manage taxpayer data.
14
   The Customer Account Data Engine 2 system creates a modernized processing and data-centric
infrastructure that will enable the IRS to improve the accuracy and speed of individual taxpayer account
processing, enhance the customer experience through improved access to account information, and
increase the effectiveness and efficiency of agency operations.




                                                   182
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Eight
the IRS must often act quickly to assess the changes and determine the necessary actions to
ensure all legislated requirements are satisfied. In addition, the IRS must often create new or
revise existing tax forms, instructions, and publications; revise internal operating procedures;
and reprogram major computer systems used for processing tax returns. Pertinent examples of
major tax law changes that contribute to this management and performance challenge are
provided below.
   Health Care
   The recently enacted health care reform statute known as the Affordable Care Act contains
   an extensive array of tax law changes that will present a continuing source of challenges for
   the IRS in the coming years. While the Department of Health and Human Services will have
   the lead role in the policy provisions of the Affordable Care Act, the IRS will administer the
   law’s numerous tax provisions. The IRS estimates that at least 42 provisions will either add
   to or amend the tax code and at least eight will require the IRS to build new processes that
   do not exist within the current tax administration system. Examples of new IRS
   responsibilities resulting from this law include:
            Providing tax credits to businesses and individuals to assist in covering the cost of
             health coverage;
            Administering the mandate for individuals to purchase health coverage or be subject
             to a penalty on their individual Federal tax returns; and
            Administering multiple tax provisions designed to raise revenues to offset the cost of
             health care reform.
   For Fiscal Years 2011 and 2012, TIGTA identified a critical need to initiate 16 audits related
   to the Affordable Care Act to oversee the implementation of such significant provisions as:
            Small Business Health Care Tax Credit;
            Qualified Therapeutic Discovery Project Credit;
            Annual Fees Assessed on Branded Prescription Pharmaceutical Manufacturers and
             Importers;
            Expansion of the Adoption Credit;
            Indoor Tanning Excise Tax;
            Tax-Exempt Hospital Provisions; and
            Reporting Requirements Included in the Affordable Care Act.
   TIGTA’s audit results to date illustrate the significant need for continued oversight of the
   IRS’s administration of many of these tax-related provisions. For example, taxpayers
   erroneously received millions in Adoption Credits; the IRS did not require sufficient
   information to determine if taxpayers claiming Small Business Health Care Tax Credits filed
   required employment taxes when these taxpayers entered into a contractual relationship
   with professional employment organizations to manage




                                                 183
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Nine
     human resources; and the IRS did not take adequate steps to ensure taxpayers potentially
     liable for the indoor tanning excise tax were aware of the new law, particularly after the
     number of taxpayers filing tax returns reporting the excise tax for tanning services was much
     lower than expected.
     A provision in this law increased the Adoption Credit from $12,150 to $13,170 and made the
     tax credit refundable.15 Although the IRS requires taxpayers to attach documentation to
     their tax returns supporting Adoption Credit claims, it does not have math error authority to
     deny the credits if documentation is not provided. As a result, tax returns without required
     documentation must be sent to the Examination function, increasing costs for the IRS and
     burden for the taxpayer. As of April 30, 2011, of the 72,330 Adoption Credit claims
     received, 41,591 (58 percent) either had no required documentation or the documentation
     was invalid or insufficient. Furthermore, as of April 30, 2011, 736 taxpayers had erroneously
     received more than $4 million in Adoption Credits.
     American Recovery and Reinvestment Act
     The American Recovery and Reinvestment Act of 2009 (Recovery Act)16 was enacted on
     February 17, 2009. The Recovery Act presented significant challenges to all Federal
     agencies to implement provisions quickly while attempting to minimize risk and meet
     increased standards for transparency and accountability. With its 56 tax provisions (20
     related to individual taxpayers and 36 related to business taxpayers), the Recovery Act
     poses significant challenges to the IRS. TIGTA has issued numerous reports related to the
     IRS’s efforts to implement Recovery Act tax provisions. Some examples include:
            A review of the Plug-in Electric and Alternative Motor Vehicle Credit identified 12,920
             individuals who erroneously claimed $33 million in plug-in electric and alternative
             motor vehicle credits on electronically filed (e-filed) tax returns. Furthermore, 1,719
             of the 12,920 individuals erroneously reduced the amount of the Alternative Minimum
             Tax owed by almost $5.3 million.17
            A review of the Residential Energy Credit identified that the IRS cannot verify
             whether individuals claiming Residential Energy Credits were entitled to them at the
             time their tax returns are processed. The IRS does not require individuals to provide
             any third-party documentation to verify eligibility.18
            A review of the IRS’s compliance with requirements over procurements funded by
             the Recovery Act determined that the IRS did not always comply




15
  A refundable tax credit is a tax credit that is treated as a payment and can be refunded to the taxpayer.
Refundable credits can create a Federal tax refund that is larger than the amount a person actually paid
in taxes during the year.
16
   Pub. L. No. 111-5, 123 Stat. 115.
17
   TIGTA, Ref. No. 2011-41-011, Individuals Received Millions of Dollars in Erroneous Plug-in Electric and Alternative
Motor Vehicle Credits (2011).
18
   TIGTA, Ref. No. 2011-41-038, Processes Were Not Established to Verify Eligibility for Residential Energy Credits
(2011).




                                                         184
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Ten
            with the Recovery Act and its implementing guidance in planning and awarding those
            procurements.19
           A review of the IRS’s use of compliance check questionnaires regarding Build
            America Bonds found that the questionnaires issued by the Tax Exempt Bonds office
            were appropriate for identifying indications of a high risk of potential noncompliance
            for Build America Bonds. However, the office did not have formal written procedures
            for developing and conducting compliance checks that would aid in the development
            of compliance check programs and provide added assurance the IRS does not
            exceed its authority when executing such programs.20
     TIGTA continues to support the Recovery Accountability and Transparency Board
     (Recovery Board) in fulfilling its responsibilities for providing transparency for Recovery Act-
     related funds and for preventing and detecting fraud, waste, and mismanagement. We also
     continue to evaluate the IRS’s compliance with Recovery Act and Office of Management
     and Budget guidance. Additionally, we have evaluated multiple Recovery Board leads that
     contain allegations of misuse of Recovery Act funds.
     Other Tax Law Changes
     Along with the usual required updates21 for the 2011 Filing Season, the late passage of the
     Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010
     (enacted December 17, 2010)22 resulted in a need for the IRS to reprogram its computer
     systems to accommodate provisions extended by this law. As a result, taxpayers who
     claimed one or more of the three affected deductions or who itemized deductions were
     unable to file their tax returns until February 14, 2011. The IRS reported it had Electronic
     Return Originators hold approximately 6.5 million e-filed tax returns for transmission until
     February 14, 2011, and as of February 11, 2011, the IRS itself had received and held for
     processing approximately 100,000 paper tax returns.
     In addition, more than 1.5 million taxpayers who purchased a home between April 9 and
     December 31, 2008, and claimed the First-Time Homebuyer Credit (Homebuyer Credit)
     were required to begin repaying the credit on their Tax Year 2010 tax return. The credit is
     intended to be repaid over 15 years, in equal annual installments. However, the IRS
     experienced difficulties in implementing the repayment process. As of April 30, 2011, we
     identified 26,649 taxpayers for whom the Homebuyer Credit was inaccurately processed,
     which resulted in the IRS not assessing more than $5.8 million in repayment amounts owed
     but not paid and erroneously assessing $675,063 as a repayment amount in excess of what
     was owed by the taxpayer.




19
 TIGTA, Ref. No. 2011-11-132, Procurements Were Not Processed in Compliance With the American Recovery and
Reinvestment Act of 2009 (2011).
20
   TIGTA, Ref. No. 2011-11-053, The Direct Pay Build America Bond Compliance Check Program Has
Yet to Result in Wide-Scale Examinations (2011).
21
   Each year, tax products must be updated to reflect current tax rates, exemption amounts, and cost of
living adjustments as shown in Revenue Procedures.
22
   Pub. L. No. 111-312, 124 Stat. 3296.




                                                   185
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Eleven

     These difficulties resulted in inaccurate processing of repayments and significant delays in
     providing refunds to taxpayers with repayment requirements.
FRAUDULENT CLAIMS AND IMPROPER PAYMENTS
The Improper Payments Information Act of 200223 defines an improper payment as any
payment that should not have been made or that was made in an incorrect amount (both
overpayments and underpayments) under statutory, contractual, administrative, or
other legally applicable requirements. Improper payments include any payment to an ineligible
recipient or for an ineligible service, any duplicate payment, any payment for services not
received, and any payment that does not account for credit for applicable discounts. The
Administration has emphasized the importance of reducing improper payments, and on
November 20, 2009, the President signed Executive Order 13520,24 which included a strategy
to reduce improper payments by increasing transparency, holding agencies accountable, and
creating strong incentives for compliance. In addition, the Improper Payments Elimination and
Recovery Act of 201025 placed additional requirements on Federal agencies to reduce improper
payments. Erroneous and improper payments issued by the IRS generally involve improperly
paid refunds, tax return filing fraud, or improper payments to vendors or contractors.
     Refundable Credits
     The IRS administers numerous refundable tax credits. These refundable credits allow
     individual taxpayers to reduce their tax liability to below zero and thus receive a tax refund
     even if no income tax was withheld or paid. Two significant refundable credits are the
     Earned Income Tax Credit (EITC) and the Additional Child Tax Credit. The Recovery Act
     also authorized several temporary refundable credits, examples of which include the
     Homebuyer Credit and the American Opportunity Tax Credit.
     Our reviews have shown the need for appropriate controls to be established before
     refundable credits are issued. This includes requiring documentation to substantiate claims,
     implementing filters timely to identify erroneous claims, and entering key information into
     IRS computers so that it can be used to verify eligibility.26
     The EITC remains the largest refundable credit, based on the total claims paid, and it
     continues to be vulnerable to a high rate of noncompliance, including incorrect or erroneous
     claims caused by taxpayer error or resulting from fraud. We recently assessed the IRS’s
     efforts to implement Executive Order 13520, which requires the IRS to intensify its efforts
     and set targets to reduce EITC improper payments. It also requires the IRS to provide
     TIGTA with its plans and supporting analysis for meeting those targets. The IRS’s report to
     TIGTA did not include any quantifiable targets to reduce EITC improper payments. Without
     targets to reduce EITC improper




23
   Pub. L. No. 107-300, 116 Stat. 2350.
24
   Executive Order No. 13,520, 74 Fed. Reg. 62201 (Nov. 25, 2009), Reducing Improper Payments and
Eliminating Waste in Federal Programs.
25
   Pub. L. No. 111-204, 124 Stat. 2224.
26
   TIGTA, Ref. No.2011-41-035, Administration of the First-Time Homebuyer Credit Indicates a Need for
Improved Controls Over Refundable Credits (2011).




                                                 186
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Twelve

     payments as required by the Executive Order, there is a lack of accountability for eliminating
     payment error, waste, fraud, and abuse.27 As such, the risk remains high that the IRS will
     continue to pay billions of dollars in EITC improper payments annually. The IRS continues
     to report that 23 to 28 percent of EITC payments are issued improperly each year. In Fiscal
     Year 2009, this equated to $11 to $13 billion in EITC improper payments.
     The Additional Child Tax Credit is the second largest refundable credit available
     to individuals. Refunds for the credit processed in Fiscal Year 2010 totaled $28.3 billion,
     and we have reported that the IRS paid $4.2 billion for this credit in Processing Year 2010 to
     individuals who were not authorized to work in the United States. Furthermore, the
     Examination function does not effectively and efficiently work Additional Child Tax Credit
     cases of those individuals filing with an Individual Taxpayer Identification Number. We have
     recommended that the IRS work with the Department of the Treasury to seek clarification in
     the law as to whether this and other refundable credits may be paid to individuals who are
     not authorized to work in the United States.
     The Recovery Act amended the Hope Scholarship Credit to provide for a refundable tax
     credit called the American Opportunity Tax Credit to help taxpayers offset the costs of
     higher education. TIGTA identified 2.1 million taxpayers who appear to have received
     $3.2 billion in erroneous education credits. This includes 1.7 million taxpayers who received
     $2.6 billion in education credits for students for whom there was no supporting
     documentation in IRS files establishing that they attended an educational institution. This is
     further indication that the IRS needs to have processes in place to verify eligibility for
     refundable credits at the time a tax return is processed.
     Contract and Other Payments
     Federal contract spending has nearly doubled since 2002. In Fiscal Year 2010, the Federal
     Government spent approximately $538 billion to acquire goods and services. Similarly,
     contract spending by the IRS represents a significant outlay of funds. As of May 2011, the
     IRS administered more than 1,000 procurements, including 807 contracts of varying types
     and 201 Blanket Purchase Agreements and Interagency Contracts and Agreements. These
     1,008 active contracts have a reported systems life value of approximately $39.2 billion.
     Numerous past TIGTA investigations and audits have identified millions of dollars in
     questioned costs and several instances of contractor fraud.
     During Fiscal Years 2010 and 2011, court-ordered civil settlements directed $156 million
     and $113 million, respectively, to be paid back to the U.S. Treasury as a result of TIGTA
     criminal investigative efforts. During these investigations, two recurring trends emerged.
     Contracting Officer’s Technical Representatives were frequently overwhelmed by their
     workloads, and current business practices have not enhanced the IRS’s ability to identify
     anomalies warranting additional review.




27
 TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to
Reduce the Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (2011).




                                                187
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Thirteen

     Further, in a recent review of the IRS Purchase Card Program, TIGTA determined that,
     while some purchase card controls were working as intended, overall management controls
     were inadequate to ensure the appropriate use of IRS purchase cards. TIGTA found
     violations of applicable laws and regulations that included purchases made without
     necessary approvals and verification of funding, purchases that were potentially split into
     two or more transactions to circumvent micro-purchase limits, and purchases made from
     improper sources.28
PROVIDING QUALITY TAXPAYER SERVICE OPERATIONS
The Department of the Treasury and the IRS recognize that the delivery of effective taxpayer
service has a significant impact on voluntary tax compliance. Answering taxpayers’ questions to
assist them in correctly preparing their returns reduces the need to send notices and
correspondence when taxpayers make errors. Taxpayer service also reduces unintentional
noncompliance and shrinks the need for future collection activity. The IRS continues to focus
on the importance of improving service by emphasizing it as a main goal in its strategic plan,
including seeking innovative ways
to simplify or eliminate processes that unnecessarily burden taxpayers or Federal Government
resources.
In a review of the taxpayer experience during the 2011 Filing Season,29 the overall experiences
of TIGTA auditors who posed as taxpayers to obtain answers to tax law questions from the toll-
free telephone assistance lines, IRS.gov, and Taxpayer Assistance Centers were generally
positive. However, taxpayers were experiencing long wait times at Taxpayer Assistance
Centers and on telephones. At Taxpayer Assistance Centers, our auditors waited an average of
one hour to receive assistance and, in some cases, were turned away and told to return another
day to obtain services. In addition, Taxpayer Assistance Centers do not always allow qualified
taxpayers to schedule appointments and do not consistently apply new taxpayer screening
guidelines and procedures.
Our recent review of the Taxpayer Advocate Service’s process for selecting systems advocacy
projects30 determined it can improve the process used for identifying these projects.
Specifically, we found that Taxpayer Advocate Service management primarily relies on IRS
employees and external stakeholders to submit issues for consideration as potential projects.
However, we found that Taxpayer Advocate Service could improve the research it performed
during the screening process to better identify systemic problems affecting multiple taxpayers.
Such improvements will assist management in identifying and resolving broad-based taxpayer
problems, thereby preventing or reducing similar problems in the future.




28
   TIGTA, Ref. No. 2011-10-075, Controls Over the Purchase Card Program Were Not Effective in
Ensuring Appropriate Use (2011).
29
   TIGTA, Ref. No. 2011-40-070, The Internal Revenue Service Provides Helpful and Accurate Tax Law
Assistance, but Taxpayers Experience Lengthy Wait Times to Speak With Assistors (2011).
30
   TIGTA, Ref. No. 2011-10-062, The Identification and Evaluation of Systemic Advocacy Projects
Designed to Resolve Broad-Based Taxpayer Problems Can Be Improved (2011).




                                                188
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Fourteen
HUMAN CAPITAL
Human capital is the Federal Government’s most critical asset. At a time when the Federal
Government is preparing for increased retirements and taking on such new challenges as the
implementation of health care reform, the recruitment of new employees and retention of
existing employees is critical to ensuring the maintenance of a quality workforce capable of
meeting the needs of the American public. Like many Federal agencies, the IRS is faced with
the major challenge of replacing existing talent because of a large number of retirements
expected over the next several years. This challenge is especially evident in the IRS’s
leadership ranks, where about one-third of all executives and almost 20 percent of managers
are already retirement eligible. Within five years, nearly 70 percent of all IRS executives and
almost 50 percent of managers are projected to be eligible for retirement.
The IRS’s challenge of having the right people in the right place at the right time is made more
difficult by many complex internal and external factors. The work performed by IRS employees
continually requires greater expertise as tax laws become more complex, manual systems used
to support tax administration become computer-based, and attempts by taxpayers and tax
practitioners to evade compliance with the tax laws become more sophisticated. The IRS must
also compete with other Federal, State, and local governmental agencies and the private sector
for the same human resources, an effort that becomes more complicated as younger
generations of employees move between jobs more frequently than employees in the past.
Furthermore, budget constraints, legislative changes, and economic shifts can create
unforeseen challenges for the IRS in addressing its long-term human capital issues.
The IRS is improving in its human capital management practices and has developed a
comprehensive agency-wide recruitment strategy. However, there is still much work left to be
done. For example, we recently determined that the IRS, like other Government agencies, was
struggling to accomplish the basic tasks in acquisition workforce planning, including identifying
its acquisition workforce, determining the number of acquisition workforce personnel it needs to
accomplish its mission, and determining the skills its employees have compared to the skills it
requires. If the IRS does not take action to improve its acquisition workforce planning, it: (1)
may not be able to easily determine whether its acquisition workforce has enough people with
the right skills to perform acquisition duties, (2) may be understaffed to handle the anticipated
acquisition workload, and (3) may not have all the prerequisite skills to oversee procurements.31
The IRS also faces challenges to maintain the number of Revenue Officers needed, due to
attrition and an increasing inventory. The IRS’s Revenue Officer hiring initiative added 1,515
new Revenue Officers throughout the country between June 2009 and February 2010. The
methodology to assign these new employees was effective in placing them in the Collection
areas with the greatest need. However, even though 1,515 Revenue Officers were hired over a
nine-month period, the net increase was only 580 Revenue Officers. The IRS has also
projected that planned hiring for Fiscal




31
 TIGTA, Ref. No. 2011-10-072, Additional Actions and Data Are Needed to Further Analyze the Size and
Skills of the Acquisition Workforce (2011).




                                                189
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Fifteen

Years 2011 and 2012 will barely cover attrition losses. Meanwhile, the percentage of delinquent
accounts closed has steadily decreased because of increasing inventory.
GLOBALIZATION

The scope, complexity, and magnitude of the international financial system present significant
enforcement challenges for the IRS. International business holdings and investment in the
United States have grown from nearly $188 billion in 1976 to over $14.5 trillion in 2007, while
U.S. business and investment grew from nearly $368 billion to nearly $15 trillion over the same
period. As technology continues to advance and cross-border transactions rise, the IRS is
increasingly challenged by economic globalization. Technological advances have provided
opportunities for offshore investments that were once only possible for large corporations and
wealthy individuals.
The number of taxpayers that conduct international business transactions, including individuals,
businesses, and tax-exempt organizations, continues to grow. The IRS is still challenged by a
lack of information reporting on many cross-border transactions. In addition, the varying legal
requirements imposed by different jurisdictions result in complex business structures that make
it difficult to determine the full scope and effect of cross-border transactions.
Over the past few years, the Federal Government has taken actions to better coordinate
international tax compliance issues. The IRS has developed a strategic plan specifically for
international tax issues with two major goals: (1) enforce the law to ensure all taxpayers meet
their obligation to pay taxes, and (2) improve service to make voluntary compliance less
burdensome. The IRS continues to realign and expand its international efforts under its Large
Business and International Division. The IRS expects that these efforts will improve
international tax compliance by allowing it to focus on high-risk issues and cases with greater
consistency and efficiency.
The IRS continues to work with the U.S. Department of Justice on tax evasion cases involving
foreign countries with bank secrecy laws that prevent the United States from obtaining
information on taxpayer transactions. In addition, the 2009 and 2011 Offshore Voluntary
Disclosure Initiatives have encouraged taxpayers with hidden offshore assets and income to
come back into the tax system using the IRS’s Voluntary Disclosure Program. The Initiatives
offer a uniform penalty structure for taxpayers who voluntarily disclose their hidden offshore
assets and income to the IRS and, in return, ensure that the taxpayers receive consistent tax
and penalty treatment. They also provide the opportunity to calculate, with a reasonable degree
of certainty, the total cost of resolving all outstanding offshore tax issues related to the
undisclosed foreign bank and financial accounts and assets. Taxpayers with undisclosed
foreign accounts and assets who do not submit a voluntary disclosure run the risk of detection
by the IRS. If caught, these taxpayers face the imposition of substantial penalties, including the
fraud and foreign information return penalties, as well as an increased risk of criminal
prosecution.
In addition, one of the biggest challenges currently facing the IRS is the implementation of the
Foreign Account Tax Compliance Act (FATCA).32 As capital markets become




32
     Pub. L. No. 111-147, 124 Stat. 71 (2010) (codified in scattered sections of 26 U.S.C.).




                                                      190
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Sixteen

increasingly globalized, U.S. investors may be able to benefit from a corresponding increase in
international investment opportunities. The FATCA was enacted to combat tax evasion by U.S.
persons holding investments in offshore accounts. Under this Act, a U.S. taxpayer with financial
assets outside the United States will be required to report those assets to the IRS. In addition,
foreign financial institutions will be required to report to the IRS certain information about
financial accounts held by U.S. taxpayers or by foreign entities in which U.S. taxpayers hold a
substantial ownership interest.
Foreign financial institutions that do not enter into an agreement to report this information to the
IRS will be subject to withholding on certain types of payments, including U.S. source interest
and dividends, gross proceeds from the disposition of U.S. securities, and pass-through
payments. To avoid being withheld upon, foreign financial institutions will have to enter into an
agreement with the IRS to:
        Identify U.S. accounts;
        Report certain information to the IRS regarding U.S. accounts; and
        Withhold a 30-percent tax on certain payments to nonparticipating foreign financial
         institutions and account holders who are unwilling to provide the required information.
According to the IRS Commissioner, “FATCA is an important development in U.S. efforts to
combat offshore noncompliance. At the same time, the IRS recognizes that implementing
FATCA is a major undertaking for financial institutions.”33 Based on the initial feedback from
foreign financial institutions as well as foreign governments, the IRS will continue to face
significant opposition from abroad in implementation of this Act.
TAXPAYER PROTECTION AND RIGHTS
The IRS must ensure that tax compliance activities are balanced against the rights of taxpayers
to receive fair and equitable treatment. The IRS continues to dedicate significant resources and
attention to implementing the taxpayer rights provisions of the IRS Restructuring and Reform
Act of 1998 (RRA 98).34 Annual audit reports are mandated for the following taxpayer rights
provisions:
        Notice of Levy;
        Restrictions on the Use of Enforcement Statistics to Evaluate Employees;
        Fair Debt Collection Practices Act35 Violations;
        Notice of Lien;
        Seizures;
        Illegal Protestor Designations;



33
   IRS News Release IR-2011-76, Treasury and IRS Issue Guidance Outlining Phased Implementation of
FATCA Beginning in 2013 (July 14, 2011).
34
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
35
   15 U.S.C. §§ 1601 note, 1692-1692o (2006).




                                                 191
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Seventeen

        Assessment Statute of Limitations;
        Collection Due Process Appeals;
        Denial of Requests for Information;
        Restrictions on Directly Contacting Taxpayers Instead of Authorized Representatives;
         and
        Separated or Divorced Joint Filer Requests.
In general, the IRS has improved its compliance with these statutory taxpayer rights provisions.
The IRS has shown improvement over prior years when documenting that taxpayers were
informed of their rights. However, the IRS did not fully comply with requirements concerning the
use of records of tax enforcement results to evaluate employees36 and did not always follow
procedures for mailing notices to taxpayers or their representatives in Federal tax lien cases.37
IRS management information systems do not track all cases that require mandatory annual
audit coverage.38 Thus, neither TIGTA nor the IRS could evaluate the IRS’s compliance with
certain RRA 98 provisions.
In addition, identity theft remains the single largest type of complaint submitted to the Federal
Trade Commission’s Consumer Sentinel Network. The Federal Trade Commission estimates
that as many as 9 million Americans have their identities stolen each year. Identity theft affects
the IRS and tax administration in two ways – fraudulent tax returns and misreporting of income.
Both can potentially harm taxpayers who are the victims of the identity theft. The IRS is seeing
a significant growth in identity theft cases. At a recent hearing39 of the House Oversight and
Government Reform Subcommittee on Government Organization, Efficiency, and Financial
Management, identity theft victims testified that other individuals had filed fraudulent tax returns
using their identities. The victims stated that the IRS withheld their tax refunds, sometimes
more than once, and further stated that they had been treated unprofessionally by numerous
IRS employees while they tried to resolve their problems.
ACHIEVING PROGRAM EFFICIENCIES AND COST SAVINGS
Given the current economic environment and the increased focus by the Administration,
Congress, and the American people on Federal Government accountability and efficient use of
resources, the American people must be able to trust that their Government is taking action to
stop wasteful practices and ensure that every tax dollar is spent wisely. On June 13, 2011,
President Obama signed an Executive Order40 to cut waste,




36
   TIGTA, Ref. No. 2010-30-076, Fiscal Year 2010 Statutory Audit of Compliance With Legal Guidelines Restricting
the Use of Records of Tax Enforcement Results (2010).
37
   TIGTA, Ref. No. 2010-30-072, Actions Are Needed to Protect Taxpayers’ Rights During the Lien Due Process
(2010).
38
   TIGTA, Ref. No. 2010-30-026, Fiscal Year 2010 Statutory Review of Disclosure of Collection Activity With Respect
to Joint Returns (2010) and TIGTA, Ref. No. 2010-30-060, Fiscal Year 2010 Statutory Review of Restrictions on
Directly Contacting Taxpayers (2010).
39
   IRS E-File and Identity Theft, Hearing Before the House Oversight and Government Reform Subcommittee on
                                                                      th
Government Organization, Efficiency, and Financial Management, 112 Cong. (2011).
40
 Executive Order No. 13,576, 76 Fed. Reg. 35297 (June 16, 2011), Delivering an Efficient, Effective, and
Accountable Government.




                                                        192
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Eighteen
streamline Government operations, and reinforce the performance and management reform
gains achieved by his Administration. In addition, the Government Accountability Office is now
statutorily required to identify and report to the Congress those Federal programs, agencies,
offices, and initiatives, either within departments or Government-wide, that have duplicative
goals or activities.
While the IRS has made progress in using its data to improve program effectiveness and reduce
costs, this area continues to be a major challenge. In a recent audit,41 we reviewed the IRS’s
$88 million contract with a private vendor to provide support-service functions, including storage
and management, throughout IRS facilities. We determined that the IRS should take additional
steps to ensure support services are managed in a more cost-effective manner. Specifically,
the IRS should evaluate whether it is cost effective to continue to move into storage rather than
dispose of furniture and equipment that has not been clearly determined to be of future
usefulness. As a result, the IRS may be paying more for its support services than is necessary.
The IRS is reducing publishing and mail costs, but recent reductions have resulted from budget
cuts and were not part of a long-term strategy. In response to the cost savings proposed in the
Fiscal Year 2011 budget request, the IRS formed task forces to identify ways to achieve cost
savings.42 A task force proposed 25 actions to reduce publishing and mail costs and lay the
foundation for long-term implementation of cost reductions for Fiscal Year 2011 and beyond.
However, the task force proposal did not include documentation to show the methodology used
to make the proposals, the method used to calculate or validate its estimates, or the manner in
which the IRS will measure the results or the cost savings of the proposals. As the IRS moves
forward with the proposed cost savings or pursues other methods of saving publishing and mail
costs, it needs to implement sufficient controls and procedures to ensure the methodology for
the decisions are documented and that the data used are accurate and complete.
In a prior audit,43 we reviewed the IRS’s methodology to reasonably and accurately calculate the
cost of Unemployment Trust Fund administrative expenses. This fund was established to
provide a portion of extended unemployment benefits during periods of high unemployment.
The IRS is reimbursed the costs of collecting and processing the taxes that are deposited to the
fund. However, we determined that there were insufficient controls to ensure that expenses
associated with the administration of the Unemployment Trust Fund are accurately calculated.
Specifically, we found that the IRS overestimated the related expenses by $63 million during
Fiscal Years 2005 through 2009. As a result, these funds were not available during this period
to fund the Federal Government’s share of unemployment benefit payments to eligible
taxpayers.




41
   TIGTA, Ref. No. 2011-10-086, Controls Over Costs and Building Security Related to Outsourced Office
Support Services Need to Be Improved (2011).
42
   TIGTA, Ref. No. 2011-40-025, Publishing and Mail Costs Need to Be More Effectively Managed to
Reduce Future Cost (2011).
43
   TIGTA, Ref. No. 2010-10-039, Internal Accounting Errors Reduced the Federal Funding Available for
Unemployment Benefits by $63 Million During Fiscal Years 2005 Through 2009 (2010).




                                                 193
IRS MANAGEMENT CHALLENGES MEMORANDUM
Page Nineteen

CONCLUSION
This correspondence is provided as our annual summary of the most serious major
management and performance challenges confronting the IRS in Fiscal Year 2012. TIGTA’s
Fiscal Year 2012 Annual Audit Plan contains our proposed reviews, which are organized by
these challenges. If you have questions or wish to discuss our views on the challenges in
greater detail, please contact me at (202) 622-6500.

cc:    Deputy Secretary
       Assistant Secretary for Management and Chief Financial Officer
       Commissioner of Internal Revenue




                                            194
                                                                    U.S. Department of the Treasury | Fiscal Year 2011


                              MANAGEMENT’S RESPONSE TO THE
                 MANAGEMENT AND PERFORMANCE CHALLENGES IDENTIFIED BY THE
                               TREASURY INSPECTOR GENERAL
                                           AND
                    TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION


    In their memoranda dated October 24 and 14, 2011, the Treasury Inspector General (IG) and Treasury Inspector
    General for Tax Administration (TIGTA), respectively, identified the major challenges facing management. The
    Department of the Treasury concurs with the IG and TIGTA on these challenges. These challenges do not
    necessarily indicate deficiencies in performance; rather, some represent inherent risks that must be monitored
    continuously. Moving forward, Treasury will continue to address these issues proactively. The following tables
    summarize the major management and performance challenges facing the Department of Treasury, and provide
    information on the actions taken by Treasury in fiscal year 2011 and planned for fiscal year 2012 and beyond.




    Timothy F. Geithner
    Secretary of the Treasury
    November 15, 2011

                                                   RESPONSE TO OIG

OIG CHALLENGE NO. 1                                    SUMMARY OF MAJOR ISSUES

Transformation of Financial Regulation                  Implement and enforce the provisions of the Dodd-Frank Act
                                                         and other federal consumer financial laws consistently
                                                        Identify risks to financial stability that could arise from the
                                                         activities of large, interconnected financial companies; respond
                                                         to emerging threats to the financial system; and promote market
                                                         discipline
                                                        Assess and report on systemic risks
                                                        Monitor the insurance industry
                                                        Streamline and improve supervision of depository institutions
                                                         and holding companies

Financial Stability Oversight Council (FSOC)
Fiscal Year 2011 Accomplishments
    Held nine meetings of the FSOC to discuss and analyze emerging market developments and financial regulatory
     issues
    Initiated monitoring for potential risks to U.S. financial stability, with a focus on significant financial market
     developments and structural issues within the financial system
    Issued an advance notice of proposed rulemaking and notice of proposed rulemaking on determination of
     nonbank financial companies for consolidated supervision by the Federal Reserve and enhanced prudential
     standards
    Issued a final rule on the designation of financial market utilities that will be subject to enhanced prudential
     standards and supervisory requirements
    Published the following studies and reports on:
     o Comprehensive view of financial market developments and potential threats to the financial system
     o Implementation of the Volcker Rule, which generally prohibits banking entities from engaging in proprietary
       trading and limits their investments in or sponsorship of hedge funds and private equity funds
     o Financial sector concentration limits established by the Dodd-Frank Act
     o Secured creditor haircuts, which evaluated the importance of maximizing U.S. taxpayer protections and
       promotion of market discipline for the treatment of fully secured creditors in the utilization of the orderly
       liquidation authority

                                                            195
                                                                  U.S. Department of the Treasury | Fiscal Year 2011

    o Risk-retention requirements for asset-backed securities that will promote safe and efficient lending
    o Economic impact of possible financial services regulatory limitations intended to reduce systemic risk
   Continued to build out the FSOC’s institutional framework, adopting rules of operation, releasing proposed
    regulations implementing FOIA obligations, adopting a transparency policy, and passing a budget for FSOC
    operations
Actions Planned or Underway
   Coordinate with FSOC member agencies to consult with the Federal Reserve on developing rules for establishing
    enhanced prudential standards
   Publish a final rule on the determination of nonbank financial companies for supervision by the Federal Reserve
    and begin identification of specific nonbank financial companies
   Coordinate issuance of final regulations implementing the Volcker Rule with member agencies and on credit risk
    retention for asset-backed securities with member agencies
Office of Financial Research (OFR)
Fiscal Year 2011 Accomplishments
   Gathered input from regulators, private stakeholders, and eminent researchers on the OFR’s functions and
    strategic priorities
   Began delivery of data and research-related services to the FSOC and its committees, which included contracting
    with leading outside researchers and initiation of support for the FSOC Data Committee
   Worked with policymakers, regulators, and the private sector to allow for a mutually agreeable and effective global
    Legal Entity Identifier (LEI) solution which will fill a critical gap in financial sector data
   Initiated development of a comprehensive catalogue of existing financial and economic datasets among FSOC
    members
   Developed initial organizational structure, hiring procedures, and pay structures; recruited OFR leadership; and
    began to plan and design a target information technology architecture linked to achieving OFR’s strategic
    priorities
Actions Planned or Underway
   Implement a comprehensive strategic framework to support the evolving needs for the OFR (including governance
    and procedures, program management and business systems, strategic budgeting, and performance
    measurement)
   Expand core analytic outputs for the FSOC and broader stakeholders, hold the first OFR-sponsored conference,
    and promote the continued build-up of a virtual community of researchers and academics on financial stability
   Implement the LEI solution to fill a critical gap in financial sector data and follow-up with the build of a robust
    data management solution for the FSOC and its members that avoids duplication and unnecessary burden
   Accelerate hiring across the full range of functions and further elaborate the human resource framework to serve
    the needs of the growing organization
Federal Insurance Office (FIO)
Fiscal Year 2011 Accomplishments
   Completed an inventory of insurance-related skill sets and expertise within all federal agencies with the objective
    of avoiding duplication of personnel
   Continued to gather input on FIO’s functions, authorities, and strategic priorities
Actions Planned or Underway
   Further develop data collection and analyses processes with OFR
   Generate the studies and reports required by the Dodd-Frank Act
Office of the Comptroller of the Currency (OCC)
Fiscal Year 2011 Accomplishments
   Completed the transfer and integration of Office of Thrift Supervision (OTS) employees and brought federal
    savings associations under OCC supervision, creating a single regulator for national banks and federal thrifts
   Conducted 17 outreach sessions nationwide to over 1,000 thrift executives and issued several communications to
    thrift directors and executives

                                                           196
                                                                  U.S. Department of the Treasury | Fiscal Year 2011

   Republished OCC rules to incorporate those OTS regulations that the OCC has authority to administer and enforce
    going forward
   Assisted in the development of the CFPB’s procurement and personnel management processes and executed a
    memorandum of understanding to ensure the new agency has the supervisory and other confidential information
    it needs about the banks and thrifts it will supervise
   Continued to operate the Customer Assistance Group which handles consumer complaints about large banks now
    under CFPB supervision while the CFPB builds its own capacity to handle consumer complaints
   Participated in the interagency effort to establish the FSOC and in FSOC principal-level and deputy-level
    discussions
Actions Planned or Underway
   Continue to conduct on-site supervisory assessments of national banks and federal savings associations, focusing
    on the quality of credit risk management practices (including effective credit risk rating systems and problem loan
    identification), adequacy of loan-loss reserves, and effective loan work-out strategies
   Continue to perform individual bank examinations on a variety of other activities aimed at identifying and
    responding to systemic trends and emerging risks that could adversely affect asset quality or the availability of
    credit at national banks and the banking system, and fair access to financial services
   Work closely within Treasury and with other federal financial regulatory agencies to implement the Dodd-Frank
    Act reforms and to monitor and respond to any residual threats to a robust economic recovery of the U.S. financial
    system

OIG CHALLENGE NO. 2                                            SUMMARY OF MAJOR ISSUES

Management of Treasury’s Authorities Intended                   Protect the taxpayer from unnecessary risk associated
to Support and Improve the Economy                               with the implementation and administration of
                                                                 programs intended to support and improve the
                                                                 economy, including the provisions of the:
                                                                 - Small Business Jobs Act of 2010
                                                                 - American Recovery and Reinvestment Act of 2009
                                                                 - Housing and Economic Recovery Act of 2008
                                                                 - Emergency Economic Stabilization Act of 2008

Small Business Lending Fund (SBLF)
Fiscal Year 2011 Accomplishments
   Reviewed and evaluated 932 applications from community banks and loan funds in accordance with the terms and
    timetable of the Small Business Jobs Act of 2010
   Invested in approximately 300 community banks and loan funds for approximately $4.0 billion in funds intended
    to increase qualified small business lending across the country
Actions Planned or Underway
   Implement an asset management and compliance monitoring program to ensure the institutions participating in
    SBLF comply with the terms of the program and Treasury’s investment is well-managed
State Small Business Credit Initiative (SSBCI)
Fiscal Year 2011 Accomplishments
   Approved 35 states and D.C. for $1.3 billion in SSBCI allocations; 30 states received their first of three
    disbursements of funds; conducted outreach to municipalities in the three eligible states that did not apply for
    SSBCI funding
   Conducted outreach to states through webinars and conference calls to increase awareness of the program, and
    provided intensive individualized technical assistance to states
Actions Planned or Underway
   Take final actions on the remaining state applications no later than the first quarter of fiscal year 2012
   Develop national compliance standards for states in response to OIG recommendations
   Create an on-line reporting system for states to submit quarterly and annual reports


                                                           197
                                                               U.S. Department of the Treasury | Fiscal Year 2011

Management of Recovery Act Programs
Fiscal Year 2011 Accomplishments
   Transitioned most programs from active/implementation phase to oversight and compliance monitoring phase,
    maintaining Treasury’s 100 percent compliance rate with recipient reporting under Section 1512 and
    administration of more than 50 tax code changes through tax year 2010
   Performed site visits to review 37 of the 69 Recovery Act CDFI Program and Native American CDFI Assistance
    Program awardees (54 percent coverage), focusing on Recovery Act reporting and compliance issues
   Managed the low income housing and specified energy property programs, including the extension of the specified
    energy property program by one year under Section 707 of the Job Creation Act, by supplementing a small core
    staff in Departmental Offices with support from Treasury bureaus
   Continued an interagency agreement for the energy program with the Department of Energy to assist with the
    technical aspects of that program
   Implemented an annual reporting process for the low income housing program to ensure projects funded under
    the program remain qualified
Actions Planned or Underway
   Complete site visits and desk reviews of state housing agencies to ensure compliance with the low income housing
    program's terms and conditions
   Continue the compliance monitoring programs related to the low-income housing and specified energy property
    programs
   Continue to coordinate with the IRS to implement a compliance initiative project regarding the energy program
   Continue assessment of staffing needs
Management of the Housing and Economic Recovery Act (HERA) and the Emergency Economic
Stabilization Act (EESA)
Fiscal Year 2011 Accomplishments
   Focused principally on exiting remaining TARP-related investments, maximizing the return for taxpayers, and
    continuing to help homeowners avoid preventable foreclosures
   Made substantial progress in recovering investments made in the Automotive Industry Financing Program and
    American International Group
Actions Planned or Underway
   Continue to focus on exiting remaining TARP-related investments, maximizing the return for taxpayers, and
    continuing to help homeowners avoid preventable foreclosures


OIG CHALLENGE NO. 3                                         SUMMARY OF MAJOR ISSUES

Anti-Money Laundering and Terrorist                          Prevent and detect money laundering and terrorist
Financing/Bank Secrecy Act (BSA) Enforcement                  financing
                                                             Promote U.S. and international financial systems that
                                                              are safe and transparent
                                                             Create safeguards over the use of BSA information

FinCEN
Fiscal Year 2011 Accomplishments
   Subjected providers and sellers of prepaid access products to more comprehensive BSA requirements
   Clarified money services business (MSB) definitions, including ensuring that foreign-located MSBs doing business
    in the United States are subject to BSA requirements
   Strengthened the confidentiality of suspicious activity reports (SARs) and provided accompanying guidance to
    financial institutions on sharing SAR information within their organizational structure
   Issued Notice of Proposed Rulemakings to apply anti-money laundering (AML) program and suspicious activity
    reporting rules to non-bank residential mortgage lenders and originators
   Conducted strategic analytical studies and published reports promoting greater awareness of emerging money
    laundering trends and vulnerabilities which included publishing analytic products:

                                                        198
                                                                  U.S. Department of the Treasury | Fiscal Year 2011

    o Assessments of suspicious activity reporting related to identify theft by depository institutions and securities
      and futures firms
    o SARs-related reports on commercial real estate financing fraud, mortgage loan fraud, and loan modification
      fraud
   Studied suspicious activities involving title and escrow companies, prepaid access devices, remote deposit capture,
    and debt settlement and debt relief fraud
   Issued reports to state regulatory authorities on activities involving MSBs in addition to overall BSA filing trends
    within their jurisdictions
   Provided high level information on suspicious hedge fund activities and principals to the Securities and Exchange
    Commission
   Submitted monthly referrals to the Special Inspector General for the Troubled Asset Relief Program involving
    potential fraud against federal programs supporting the housing market
   Continued to work with the IRS on better risk targeting of non-bank financial institutions that the IRS examines
    under delegated authority from FinCEN, to better enable FinCEN to develop cases and pursue enforcement
    actions where warranted
Actions Planned or Underway
   Promote greater leveraging of resources between the IRS and state regulatory agencies, particularly with regard to
    non-bank financial institution examinations, and implementation of compliance strategies for industries that have
    been recently subject to BSA requirements
   Continue working toward finalizing rulemaking proposals, as well as proposed and/or final regulations related to
    BSA requirements for government-sponsored enterprises; reporting requirements on the international transport
    of prepaid access products; and AML program and suspicious activity reporting rules for investment advisers
   Pursue MOUs with additional state regulators, with specific focus on state insurance regulators
   Continue to exercise enforcement authorities for violations of BSA requirements
OCC
Fiscal Year 2011 Accomplishments
   Examined national banks to combat money laundering and terrorist financing, and to protect the integrity of the
    U.S. financial system through banks’ compliance with the BSA, AML, and USA PATRIOT Act laws and regulations,
    taking enforcement actions when appropriate
Actions Planned or Underway
   Continue examination, enforcement activities, and cooperative efforts with FinCEN and other federal banking
    agencies


OIG CHALLENGE NO. 4                                           SUMMARY OF MAJOR ISSUES

Management of Capital Investments                             Implement controls for effective use of taxpayer funds
                                                              over large capital investments

Evaluation of IT Investments
Fiscal Year 2011 Accomplishments
   Created a new investment reporting process and launched development of an IT Capital Dashboard to improve
    transparency and provide management with timely and accurate information
Actions Planned or Underway
   Deploy first iteration of Treasury IT Capital Dashboard
   Incorporate measures on operational performance and non-major project cost and schedule into IT Capital
    Dashboard
Infrastructure Optimization/Data Center Consolidation and Shared Services
Fiscal Year 2011 Accomplishments
   Submitted strategy to OMB for reducing the number of Treasury data centers
   Continued to focus on data center consolidation and shared services as key strategies to better manage costs of IT
    investments

                                                          199
                                                                U.S. Department of the Treasury | Fiscal Year 2011

   Established a five year Telecommunications Improvement Plan concluding in September 2015, which includes
    milestones related to program management and governance, technology convergence, and implementation of
    Departmental telecommunications standards and common architecture
Actions Planned or Underway
   Implement plans to close an additional 12 data centers by 2015, and expand approach to integrate consolidation as
    an outcome of cloud service adoption or shared service adoption
   Establish a data management organization that integrates data sets from across Treasury to better inform
    management policy across the Department
   Establish Department-wide platforms for personal identity verification (PIV)-enabled authentication
   Benchmark and establish baseline performance metrics for ongoing monitoring of improvement initiatives with
    the Treasury-wide area network telecommunications vendor


                                              RESPONSE TO TIGTA


TIGTA CHALLENGE NO. 1                                        SUMMARY OF MAJOR ISSUES

Security for Taxpayer Data and Employees                     Promote measures for appropriate physical security and
                                                             protection of financial, personal, and other information

Fiscal Year 2011 Accomplishments
   Established the Identity Theft Assessment and Action Group to identify new protections and to improve and
    expand existing protections for taxpayers who have had their identities compromised outside the tax system;
    launched an Identity Protection Personal Identification Number (IPPIN) pilot to ensure that taxpayers subject to
    identity theft in the past do not encounter delays in processing their tax returns
   Improved processing of taxpayer accounts impacted by identity theft by deploying additional account ―markers‖ to
    (1) distinguish legitimate returns from fraudulent returns, (2) track taxpayers with identity theft-related tax
    problems and issues encountered by identity theft victims, and (3) prevent victims from facing the same problems
    every year; and protected $1.3 billion from leaving the U.S. Treasury as a result of the improved identity theft
    detection
   Implemented a 10-point security plan designed to strengthen physical security and incident reporting capabilities,
    stemming from the Austin tragedy in 2010
   Disabled over 10,000 fraudulent IRS-related scams using the IRS name or likeness to entice victims, including
    9,272 phishing/malware websites (with a median takedown time of 67 minutes), 352 fax numbers, and 534 e-mail
    drop boxes
Actions Planned or Underway
   Use results from the fiscal year 2011 IPPIN pilot to improve and expand the program to additional taxpayers
   Deploy the enterprise Authorization (e-Auth) project to provide a framework to register individual identities and
    validate credentials for electronic access to IRS systems and applications

TIGTA CHALLENGE NO. 2 (tied)                                 SUMMARY OF MAJOR ISSUES

Tax Compliance Initiatives                                   Improve compliance and fairness in the application of
                                                             the tax laws

Businesses and Individuals
Fiscal Year 2011 Accomplishments
 Completed testing an enhanced Automated Underreporter (AUR) case identification and selection analytics tool to
  be used in selection of tax year 2010 returns
 Continued testing soft notices as alternatives to conducting examinations, issuing 27,000 AUR soft notices
 Continued testing the effects of education, compliance notices, and telephone contacts on the accuracy of returns
  prepared for Earned Income Tax Credit (EITC) first-time and low-risk paid preparers
   Established a task group to expand IRS revenue protection and scheme detection capabilities, improving fraud
    detection at filing, before the refund is released



                                                         200
                                                                U.S. Department of the Treasury | Fiscal Year 2011

 Rolled out a series of ―fresh start‖ programs specifically designed to assist business and individual taxpayers
  struggling with outstanding tax liabilities
 Launched multiple compliance analytics pilot projects to explore new methods of using data and analytics to
  improve compliance programs
Actions Planned or Underway
 Continue to modify examination case selection and modeling
 Continue to test soft notices as alternatives to conducting examinations in AUR
 Continue to promote the Compliance Assurance Process (CAP) as a model for how IRS and corporate taxpayers
  should interact
Tax-Exempt Entities
Fiscal Year 2011 Accomplishments
 Developed guidance on how to process, review, and monitor Voluntary Closing Agreements; followed-up on
  taxpayers whose rights were potentially violated; researched claims and took action to ensure future claims were
  worked properly; and improved inventory and case management controls
 Completed statutorily-required revocation of approximately 386,000 organizations whose tax exempt status was
  revoked based on rules established by the Pension Protection Act of 2006
 Developed a fraud report to identify fraud schemes and monitor operational effectiveness of fraud detection and
  mitigation methodologies
Actions Planned or Underway
 Improve compliance by identifying the needs of small exempt organizations and by performing post reviews of
  Form 990-N, e-Postcard, filers ineligible to file the e-Postcard
 Identify non-compliant exempt organizations based on data from the redesigned Form 990, Return of
  Organization Exempt From Income Tax
Tax Return Preparers
Fiscal Year 2011 Accomplishments
 Implemented Phase 1 of the Return Preparer Initiative (RPI), which required paid return preparers to register with
  the IRS and use a Preparer Tax Identification Number (PTIN) to sign returns; over 735,000 paid preparers
  registered in the first year
 Identified high risk tax return preparers using new risk based scoring, resulting in the issuance of more than
  10,000 potential noncompliance letters and visits to more than 5,000 preparers to address multiple areas of
  concern including EITC filings, e-file, and questionable certified acceptance agents
Actions Planned or Underway
 Implement Phase 2 of the RPI requiring paid return preparers, except attorneys, certified public accountants, and
  enrolled agents, to pass a competency test and complete continuing professional education of 15 hours per year


TIGTA CHALLENGE NO. 2 (tied)                                 SUMMARY OF MAJOR ISSUES

Modernization                                                Improve taxpayer service and efficiency of operations

Fiscal Year 2011 Accomplishments
 Deployed current Customer Account Data Engine (CADE) Release 6.2 to deliver the 2011 filing season tax law
  changes affecting individual taxpayers, and to provide technical improvements to the infrastructure and
  availability of the current system
 Deployed Modernized e-File (MeF) Release 6.2 in January 2011 to deliver Business and Individual Master File
  returns; MeF accepted almost 18.5 million returns in 2011, a 262% increase compared to the same period in
  calendar year 2010
 Implemented a Remittance Strategy for Paper Check Conversion system, allowing paper checks to be converted
  into electronic transactions and processing nearly 3.6 million checks, totaling almost $7.8 billion
 Implemented an auto`mated transcript process allowing taxpayers to request mailing of account and return
  transcripts through IRS.gov, eliminating the need to contact IRS
 Completed logical and physical designs of CADE2 Transition State 1


                                                         201
                                                                U.S. Department of the Treasury | Fiscal Year 2011

Actions Planned or Underway
 Deploy Transition State 1 of CADE2 for filing season 2012, which will support daily versus weekly processing and a
  relational account database
 Commence ―Send A Transcript‖ proof of concept which allows taxpayers to make an online request to send an
  official transcript to banks and other financial institutions, without the need to call or complete a paper Form
  4506-T, Request for Transcript of Tax Return


TIGTA CHALLENGE NO. 4                                       SUMMARY OF MAJOR ISSUES

Implementing Major Tax Law Changes                          Effectively implement new tax provisions, including tax-
                                                            related health care provisions of the Patient Protection
                                                            and Affordable Care Act (ACA), and the American
                                                            Recovery and Reinvestment Act (Recovery Act)

ACA
Fiscal Year 2011 Accomplishments
 Implemented early provisions of the ACA, including the revision of approximately 60 tax products, creation of
  three new tax forms, and release of applicable guidance related to the:
   o Small employer tax credit
   o Excise tax on indoor tanning services
   o Adoption credit
   o Branded pharmaceutical fee
   o Qualified therapeutic discovery credit
   o New charitable hospital requirements
Actions Planned or Underway
 Partner with the Department of Health and Human Services on outreach, guidance, business processes, and IT
  deployment relating to the insurance market reforms and insurance exchange system
 Identify impacted stakeholders and commence outreach activities on all aspects of ACA implementation, including
  individuals, employers, states, insurers, tax professionals, and other third parties
Recovery Act
Fiscal Year 2011 Accomplishments
 Continued administration of numerous tax incentives included in the Recovery Act, including enhanced
  compliance procedures
 Published new Internal Revenue Manual provisions to clarify the processes for handling rebate refund cases for
  tax exempt bonds
 Implemented new voluntary compliance procedures for Build America Bonds and other direct-pay bonds to
  resolve tax law issues
Actions Planned or Underway
 Revise Form 5695, Residential Energy Credits, to request additional information to support eligibility
  requirements
Other Tax Law Changes
Fiscal Year 2011 Accomplishments
 Delivered a successful 2011 filing season, processing 144.7 million individual returns and issuing 109.3 million
  refunds totaling $419.5 billion
 Implemented procedures to process the first year of the required 15 year repayment for 2008 homebuyers who
  claimed the First-Time Home Buyer Credit (FTHBC), including use of the math error authority when the
  repayment was not identified on the return
 Promoted accurate self-reporting in anticipation of the filing season by sending approximately 1.5 million
  reminder notices to taxpayers who claimed the First-Time Home Buyer Credit for a home purchased in 2008
Actions Planned or Underway
 Administer any new tax law provisions that may be enacted in 2011 for filing season 2012

                                                        202
                                                               U.S. Department of the Treasury | Fiscal Year 2011


TIGTA CHALLENGE NO. 5                                       SUMMARY OF MAJOR ISSUES

Fraudulent Claims and Improper Payments                     Effective use of taxpayer funds

Refundable Credits
Fiscal Year 2011 Accomplishments
 Required taxpayers to provide supporting documentation to verify eligibility for many refundable tax credits
  including the FTHBC
 Improved methods to identify erroneous FTHBC claims through better filters and the use of third party
  information for use in the 2012 filing season
 Protected over $3.7 billion in revenue through EITC enforcement efforts, including the examination of almost
  484,000 original and amended returns claiming the EITC, over 1.2 million document matching reviews, and
  300,000 math error process corrections
 Increased EITC paid preparer due diligence visits, resulting in a 100 percent increase in the number of preparers
  penalized over fiscal year 2010 and proposed due diligence and other penalties of more than $10.6 million
 Improved the accuracy of EITC returns by refining EITC paid preparer treatment activities, including doubling the
  number of due diligence audits, increasing visits by revenue and criminal investigation agents by 50 percent, and
  increasing educational and compliance notices to first-time and experienced preparers by 25 percent, to influence
  the accuracy of EITC returns filed
 Initiated a test on Additional Child Tax Credit (ACTC) returns with dependent issues not selected for examination
  to assist in developing the ACTC compliance strategy moving forward
 Required documentation to accompany returns claiming the Adoption Credit to reduce fraud, and developed new
  cross-functional procedures to minimize delays in return processing
Actions Planned or Underway
 Implement the requirement that EITC paid preparers attach Form 8867, Paid Preparer’s Earned Income Credit
  Checklist, to their clients’ returns to encourage preparer compliance with EITC due diligence requirements
 Continue to focus on EITC paid preparer treatments, including due diligence audits, visits, streamlined
  injunctions, and educational and compliance notices to first-time and experienced preparers to influence the
  accuracy of EITC returns filed
 Review results of the ACTC test and adjust compliance strategy, if necessary; expand outreach and education to
  taxpayers and preparers around ACTC requirements to reduce improper claims
 Implement robust compliance and outreach strategies related to the American Opportunity Tax Credit directed
  toward students, taxpayers, preparers, and educational institutions to address eligibility requirements; send soft
  educational notices as part of this strategy
Contracts and Other Payments
Fiscal Year 2011 Accomplishments
 Changed reviews of split-purchase transactions and expanded oversight reviews to include the use of contract
  vendors and preferred sources
 Revised policy and procedures to ensure distribution of Defense Contractor Audit Agency reports to all
  appropriate procurement staff, when appropriate, for use in determining whether to implement additional
  controls to monitor costs on contracts and task orders
 Revised reporting process to ensure that all agreed-to questionable charges are repaid by contractors and
  documented prior to closure of corrective actions
Actions Planned or Underway
 Provide guidance on oversight and enforcement responsibilities, develop examples and scenarios that constitute a
  split-purchase, evaluate whether current span of control provides appropriate oversight, and make changes, as
  appropriate
 Develop and provide clear guidance to Credit Card Services on performance of their oversight and enforcement
  responsibilities for compliance with Purchase Card Program procedures




                                                        203
                                                               U.S. Department of the Treasury | Fiscal Year 2011


TIGTA CHALLENGE NO. 6                                       SUMMARY OF MAJOR ISSUES

Providing Quality Taxpayer Service Operations               Improve taxpayer service

Fiscal Year 2011 Accomplishments
 Implemented a new toll-free number for taxpayer transcript requests and a new web application that allows
  taxpayers to order transcripts on IRS.gov
 Released the IRS2GO smartphone application, which lets taxpayers interact with the IRS using their mobile
  devices; IRS2Go averaged four out of five stars in hundreds of reviews and over 360,000 downloads
 Increased the number of Limited English Proficiency products, translating key notices into different languages and
  delivering an enhanced multilingual web site that offers an array of tax information
 Broadened awareness of accessible tax products that serve and support visually and hearing impaired taxpayers,
  through partnership with the Library of Congress and National Library Service for the Blind and Physically
  Handicapped
 Engaged partners and provided greater access to available services through Saturday service events and other
  special service days, e.g., EITC Awareness Days
 Participated in outreach events to educate partners and the public about the tax treatment of the 2010 Gulf Oil
  Spill payments; in the Gulf region, over 169,000 individuals and businesses received emergency advance
  payments for lost income or profits in 2010
 Implemented new quality initiatives at Taxpayer Assistance Centers (TACs) and volunteer return preparation sites
  using sampling reviews of selected returns to determine the accuracy of returns prepared
 Gathered feedback from professional organizations that represent external stakeholders (i.e., accountants,
  reporting agents, et al) to simplify forms and the tax filing process
Actions Planned or Underway
 Implement the changes necessary to support roll-out of CADE2
 Release an updated version of IRS2Go with improved functionality
 Continue to engage IRS partners to disseminate information and simplify forms and the tax filing process
 Continue to engage partners in support of special service days and outreach efforts with advocacy groups that
  serve and support the visually and hearing impaired
 Update IRS.gov and TAC telephone recordings to include more information for taxpayers seeking assistance at a
  TAC, including advising taxpayers they may be asked to provide valid photo ID and a Taxpayer Identification
  Number (TIN), such as a Social Security number (SSN), to receive services


TIGTA CHALLENGE NO. 7                                       SUMMARY OF MAJOR ISSUES
Human Capital                                               Enable the IRS to achieve its mission

Fiscal Year 2011 Accomplishments
 Implemented the Hiring Reform Initiative which included transitioning from a ―reinvestigation‖ background
  investigation program to a ―one-stop shop‖ with streamlined and efficient services, reducing the time required for
  background investigations by 30 days
 Improved technology and communication tools to enhance recruitment and deliver a more diverse applicant pool
 Continued an emphasis on veteran hiring, with veterans comprising 7 percent of total hires in fiscal year 2011
 Implemented the Warrior Intern Program, previously piloted in fiscal year 2010, and the Non-Paid Work
  Experience program, conducted in partnership with the Departments of Defense and Veteran Affairs, to provide
  qualified veterans with quantifiable work experience at the IRS through non-paid internship opportunities
 Established a Telework Program Office and expanded telework opportunities to over 36,000 employees to further
  enhance recruitment, development, and retention of employees
Actions Planned or Underway
 Educate internal and external IRS stakeholders on recruitment by providing the Careers Pathway website tool to
  assist applicants and career development outreach to enhance internal recruitment efforts


                                                        204
                                                                U.S. Department of the Treasury | Fiscal Year 2011

 Build a diverse talent management pipeline by deploying cost effective recruitment strategies
 Develop and document an IRS-wide approach to ensure effective monitoring of the adequacy of the acquisition
  workforce

TIGTA CHALLENGE NO. 8                                       SUMMARY OF MAJOR ISSUES

Globalization                                               Increase the outreach efforts to foreign governments on
                                                            cross-border transactions

Fiscal Year 2011 Accomplishments
 Completed realignment of IRS international operations by integrating international expertise into the new Large
  Business and International organization
 Conducted examinations of taxpayers who applied under the Offshore Voluntary Disclosure Program
 Continued to combat international illicit money networks and professional money launderers via the Global Illicit
  Financial Team by further developing policies, targeting criteria, and case development procedures
 Coordinated joint audits and strengthened relations with foreign tax administrations, including seeking additional
  opportunities to improve and expand the Joint Audit Initiative with foreign administrations and taxpayers
Actions Planned or Underway
 Continue examinations of taxpayers who applied under both Offshore Voluntary Disclosure Initiatives
 Continue to enhance relationships with treaty partners and international organizations to improve international
  compliance
 Continue to identify and address emerging tax-exempt compliance issues, including ensuring that charities adhere
  to requirements for foreign bank accounts and expanding coordination of employment tax compliance with
  foreign countries
 Continue to combat international illicit money networks and professional money launderers via the Global Illicit
  Financial Team by further developing policies, targeting criteria, and case development procedures


TIGTA CHALLENGE NO. 9                                       SUMMARY OF MAJOR ISSUES

Taxpayer Protection and Rights                              Apply the tax laws fairly

Fiscal Year 2011 Accomplishments
 Issued guidance to remind managers of Section 1204 and Reg. 801, which prohibit the use of Records of Tax
  Enforcement to evaluate and to impose or suggest production goals or quotas; updated appropriate training
  materials regarding the explanation of the retention standard
 Reviewed undelivered mail procedures to ensure consistency across the organization and to support the timely
  resolution of undeliverable notices
 Produced 104 redesigned/new notices, including the Taxpayer Delinquent Account collection notices, containing
  new language to help taxpayers more clearly understand the collection process and options available to them
Actions Planned or Underway
 Improve IRS assistance services to taxpayers who are victims of identity theft outside the tax system, but who
  encounter IRS issues because of that theft
 Continue to redesign notices and produce new notices containing language that clearly explains the collection
  process and options available to taxpayers
 Continue to reinforce culture of taxpayer protection and rights through leadership messages at all levels of the
  organization




                                                        205
                                                                U.S. Department of the Treasury | Fiscal Year 2011

TIGTA CHALLENGE NO. 10                                       SUMMARY OF MAJOR ISSUES

Achieving Program Efficiencies and Cost Savings              Use resources to focus on producing the best value for
                                                             stakeholders

Fiscal Year 2011 Accomplishments
 Implemented a number of cost savings initiatives as part of the Postage and Printing cost reduction strategy,
  including the elimination of tax packages for individual taxpayers and the elimination/reduction of direct mailing
  of a number of tax packages to businesses; these eliminations/reductions have resulted in postage and printing
  cost savings in excess of $20 million
 Enhanced electronic receipt of background investigation cases through eDelivery, resulting in a cost savings of
  $820,621 and significant improvements in data communications with the Office of Personnel Management
 Closed the Atlanta Submission Processing center, the fifth such closure in recent years, reflecting the success of
  IRS’s e-File program and reduced need for paper processing
 Deployed the paper check conversion technology to 401 TACs to process checks through electronic transmission,
  improving reporting systems, reducing the amount of time to process checks that TACs previously mailed to
  central locations for processing, and reducing the number of lost remittances from transshipments
 Expanded use of cost accounting information to improve program effectiveness, including analysis of programs
  within the CFO function, the notice process, the Combined Annual Wage Reporting/Federal Unemployment Tax
  Act and 6020(b) programs, and certain criminal investigation processes
 Started an initiative to develop standard operating procedures to address storage needs for property; these
  procedures will consider current and future budget constraints, the sustainability initiative to increase the re-use
  and recycling of furniture, costs to store versus to purchase new furniture, and transportation costs
 Updated procedures used by the business units to calculate their unemployment trust fund (UTF) administrative
  expenses; required retention of audit files for a minimum of three years; and instituted periodic Chief Financial
  Officer (CFO) reviews of the business units’ UTF expense submissions and supporting documentation
Actions Planned or Underway
 Continue to review internal operations, conducting additional cost benefit analyses and development
  of performance measures to improve program evaluation and decision making




                                                         206
                                                                                U.S. Department of the Treasury | Fiscal Year 2011

APPENDIX D:
MATERIAL WEAKNESSES, AUDIT FOLLOW-UP, AND
FINANCIAL SYSTEMS
This section provides detailed descriptions of Treasury’s material weakness inventory, including summaries of actions taken and
planned to resolve the weaknesses; tracking and follow-up activities related to Treasury’s GAO, OIG, TIGTA, and SIGTARP audit
inventory; an analysis of potential monetary benefits arising from audits performed by Treasury’s three IGs; and an update on
Treasury’s financial management systems framework.

I.     Treasury’s Material Weaknesses

Management may declare audit findings or internal situations as a material weakness whenever a condition exists that may
jeopardize the Treasury mission or continued operations. The FMFIA and FFMIA require agency reporting on material
weaknesses.

FMFIA

The FMFIA requires agencies to establish and maintain internal controls. The Secretary must evaluate and report annually on
the operations and financial reporting controls (FMFIA Section 2) and financial systems (FMFIA Section 4 and FFMIA) that
protect the integrity of federal programs. The requirements of the FMFIA serve as an umbrella under which other reviews,
evaluations, and audits should be coordinated and considered to support management’s assertion about the effectiveness of
internal control over operations, financial reporting, and compliance with laws and regulations.

On April 20, 2011, the IRS’s FMC ESC recommended downgrade of the material weakness titled ―Improve Modernization
Management Controls and Processes.‖ IRS provided documentation to both GAO and TIGTA that validated completion of
corrective actions that addressed the identified internal management processes and control weaknesses. On August 5, 2011, the
Assistant Secretary for Management and Chief Financial Officer concurred with the request to downgrade this material weakness
to a control deficiency.

As of September 30, 2011, Treasury had three material weaknesses under Section 2 of the FMFIA, summarized as follows:

Summary of FMFIA and FFMIA Material Weaknesses                                          Section 2              Section 4               Total
Balance at the Beginning of FY 2011                                                         4                      0                     4
Closures/Downgrades during FY 2011                                                          1                      0                     1
Reassessed during FY 2011                                                                   0                      0                     0
New MW Declared during FY 2011                                                              0                      0                     0
Balance at the End of FY 2011                                                               3                      0                     3

Below are detailed descriptions of Treasury’s three material weaknesses:

Material Weakness Description
Internal Revenue Service – Unpaid Tax Assessments

The IRS needs to improve its internal control over Unpaid Assessments. Original key elements:
  Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
  Untimely posting of TFRP assessments and untimely review of TFRP accounts
  IRS’ general ledger for its custodial activities does not use the standard federal accounting classification structure
                           Actions Completed                                                        What Remains to be Done

 Implemented programming in the Custodial Detail Data Base in                         Achievement of CADE 2 Transition State 2 target of a single,
  February 2011, to improve classification when either the business or                 data-centric solution system which provides for daily
  related TFRP individual modules are removed from the Unpaid Tax                      processing of taxpayer accounts
  Assessments inventory, and to reduce the amount of adjustments to                    Targeted Downgrade/Closure: Fiscal year 2015
  the financial statements. The programming change improved
  classification of instances, where previously, multiple tax periods
  were rolled up into one module.

                                                                        207
                                                                                U.S. Department of the Treasury | Fiscal Year 2011

Material Weakness Description
Internal Revenue Service - Computer Security

The IRS has various computer security controls that need improvement. Original key elements:
  Adequately restrict electronic access to and within computer network operational components
  Adequately ensure that access to key computer applications and systems is limited to authorized persons for authorized purposes
  Adequately configure system software to ensure the security and integrity of system programs, files, and data
  Appropriately delineate security roles and responsibilities within functional business operating and program units, per FISMA
  Appropriately segregate system administration and security administration responsibilities
  Sufficiently plan or test the activities required to restore certain critical business systems where unexpected events occur
  Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations
  Provide sufficient technical, security-related training to key personnel
  Certify and accredit 90 percent of all systems
                            Actions Completed                                                         What Remains to be Done

  Developed and executed implementation plans for                                    Develop application monitoring capability for Release 2
   systems/application access controls                                                Supplement – Audit Trails
  Documented security configuration standards and change control                     Network and system monitoring for Release 3 – Audit Trails
   process in place; secure configuration baselines implemented and                   Deployment of Release 3 – Audit Trails
   maintained; system software patched; processes in place for systems                Targeted Downgrade/Closure: Fiscal year 2012
   software configuration access controls
  Implemented back-up recovery capabilities for contingency planning
  Deployed Release 1 - Audit Trails


Material Weakness Description
Financial Management Service – Systems, Controls, and Procedures to Prepare the Government-wide Financial Statements

The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-wide Financial
Statements. Original key elements:
  The government lacks a process to obtain information to effectively reconcile the reported excess of net costs over revenue with the budget
    deficit, and when applicable, a reported excess of revenue over net costs with the budget surplus
  Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial Statements
                            Actions Completed                                                       What Remains to be Done
  Partially reconciled fiscal year 2010 operating revenues with budget               Complete  reconciliation  of operating revenues to budget
    receipts                                                                          receipts
  Refined analysis model for unreconciled transactions that affect the               Complete reciprocal category for the Treasury General Fund
    change in net position                                                            Implement changes identified by the Office of the Fiscal
  Accounted for intra-governmental differences through formal                        Assistant Secretary as a result of its review of the Reporting
    consolidating and elimination accounting entries using all reciprocal             Entity definitions per the Financial Accounting Standards
    fund categories including the General Fund                                        Advisory Board criteria
  Completed closing package submitted to GAO by federal agencies                     Include all disclosures as appropriate
  Established traceability from agency footnotes to the Consolidated                 Include all loss contingencies as appropriate
    Financial Statements (CFS) for completeness                                       Targeted Downgrade/Closure: Fiscal year 2014


II.    Audit Follow-up Activities

During fiscal year 2011, Treasury continued to place emphasis on both the general administration of internal control issues
throughout the Department and the timely resolution of findings and recommendations identified by GAO, OIG, TIGTA,
SIGTARP, external auditors, and management. During the year, Treasury continued to implement enhancements to the tracking
system called the ―Joint Audit Management Enterprise System‖ (JAMES). JAMES is a Department-wide, interactive, web-based
system accessible to the OIG, TIGTA, SIGTARP, management, and others. The system tracks information on audit reports from
issuance through completion of all corrective actions required to address findings and recommendations contained in an audit
report. JAMES is the official system of record for Treasury’s audit follow-up program.

Potential Monetary Benefits

The Inspector General Act of 1978, as amended, Public Law 95-452, requires the IGs and secretaries of executive agencies and
departments to submit semiannual reports to the Congress on actions taken on audit reports issued that identify potential
monetary benefits. The Department consolidates and analyzes all relevant information for inclusion in this report. The
information contained in this section represents a consolidation of information provided separately by OIG, TIGTA, SIGTARP,
and Treasury management.
                                                                       208
                                                                                 U.S. Department of the Treasury | Fiscal Year 2011

In the course of their audits, the IGs periodically identify questioned costs, recommend that funds be put to better use, and
identify measures that demonstrate the value of audit recommendations to tax administration and business operations.
―Questioned costs‖ include a:

         Cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other requirement
          governing the expenditure of funds

         Finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an unsupported
          cost)

         Finding that expenditure of funds for the intended purpose is unnecessary or unreasonable

The Department regularly reviews progress made by the bureaus to realize potential monetary benefits identified in audit
reports, and coordinates with the auditors as necessary to ensure the consistency and integrity of information on monetary
benefit recommendations tracked in JAMES.

The statistical data in the following summary tables represent audit report activity for the period from October 1, 2010 through
September 30, 2011. The data reflect information on OIG, TIGTA, and SIGTARP reports that identified potential monetary
benefits. Fiscal year 2011 was the first year that SIGTARP issued reports containing monetary benefits.

                                Audit Report Activity With Potential Monetary Benefits
                               for Which Management Has Identified Corrective Actions
                                             (OIG, TIGTA, and SIGTARP)
                                     October 1, 2010 through September 30, 2011
                                                 (Dollars in Millions)
                                                            Funds Put to                   Revenue
                            Disallowed Costs                                                                                   Totals
                                                             Better Use                  Enhancements
                                                                                                                      Report             Total
                            Reports       Dollars      Reports         Dollars         Reports        Dollars
                                                                                                                       Total            Dollars
Beginning Balance                  4         $33.0           13          $2,822.6           17          $5,558.9             34           $8,414.5

New Reports                        9           39.7           8              7,412.1         8           2,524.8             25            9,976.6

Total                             13           72.7          21           10,234.7          25           8,083.7             59            18,391.1

Reports Closed                     3            0.5          10               329.5         17           4,348.0             30            4,678.0
  a. Realized or
                                   2            0.1           6               142.3          6             402.1              14             544.5
     Actual1
  b. Unrealized or
                                   2            0.4           8              187.22         14          3,945.93             24             4,133.5
     Written off1
Ending Balance                   10          $72.2           11         $9,905.2             8         $3,735.7              29          $13,713.1

  1   Report numbers in categories a and b may not equal the Reports Closed. One report can be included in one or both categories.
  2   This figure includes one TIGTA report, with $18.3 million written off, for which IRS management did not concur with TIGTA’s projected
       benefits; and three TIGTA reports with $132.9 million written off, for which TIGTA does not agree with the IRS that the benefits have not
       been realized.
  3   This figure includes ten TIGTA reports, with $2,124.5 million written off, for which IRS management did not concur with TIGTA’s
       projected benefits; and two TIGTA reports, with $390.4 million written off, for which TIGTA does not agree with the IRS that the benefits
       have not been realized.




                                                                       209
                                                                            U.S. Department of the Treasury | Fiscal Year 2011

 The following table presents a summary of OIG, TIGTA, and SIGTARP audit reports with potential monetary benefits that were
 open for more than one year as of the end of fiscal years 2009, 2010, and 2011.


                              Number of Reports with Potential Monetary Benefits
                                        Open for More than One Year
                                            (Dollars In Millions)
                 PAR/AFR Report Year                               9/30/2009                          9/30/2010                 9/30/2011
                 No. of Reports                                                 0                               1                          0
 OIG
                 $ Projected Benefits                                          $0                          $ 10.5                         $0
                 No. of Reports                                                 10                             12                          11
 TIGTA
                 $ Projected Benefits                                      $ 673.8                      $ 1,783.7                   $ 4,384.6
                 No. of Reports                                                  0                              0                           0
 SIGTARP
                 $ Projected Benefits                                          $0                             $0                          $0

 The following table presents a summary of the audit reports containing potential monetary benefits, broken out by year of report
 issuance, on which management decisions were made on or before September 30, 2010, but the final actions had not been taken
 as of September 30, 2011.


                    Details of the Audit Reports with Potential Monetary Benefits
            on Which Management Decisions Were Made On or Before September 30, 2010,
                  But Final Actions Have Not Been Taken as of September 30, 2011
                                         (Dollars In Millions)
                                                                              Dis-         Funds        Revenue
                           Report
Bureau     Report No.                        Brief Description              allowed        Put to       Enhance-        Total         Due Date
                         Issue Date
                                                                             Costs       Better Use       ment
                                        The IRS Contracting Officer
                                        (CO) should use the results of
                                                                                                                                      10/15/2012
                                        the Defense Contract Audit
  IRS      2006-1c-142    9/25/2006                                            $ 32.4             -                 -    $ 32.4
                                        Agency (DCAA) report to fulfill
                                                                                                                                       (delayed)
                                        his/her duties in awarding and
                                        administering contracts.
FY 2006         1                                                              $ 32.4                                    $ 32.4
FY 2007       N/A            N/A                                                     -            -                 -           -        N/A
FY 2008       N/A            N/A                                                     -            -                 -           -        N/A
                                        IRS should develop procedures
                                        requiring that workstation
                                        sharing levels are included in
                                        space needs assessments. When
                                        implementing these                                                                             1/15/2014
  IRS      2009-10-107    7/24/2009     procedures, IRS should adjust                -         30.0                 -      30.0
                                        its space needs to reflect                                                                     (delayed)
                                        workstation sharing and take
                                        action to release any unneeded
                                        space identified, where
                                        appropriate.
                                        IRS should develop processes to
                                        identify erroneous Health
                                        Coverage Tax Credit claims
                                        based on criteria used to select
                                                                                                                                      12/15/2012
                                        taxpayers for examination and
  IRS      2009-40-137    9/24/2009                                                  -          9.0                 -       9.0
                                        reject e-filed tax returns or
                                                                                                                                       (delayed)
                                        forward paper-filed tax returns
                                        to the Error Resolution
                                        function at the time the tax
                                        return is filed.

                                                                                                          Table continued on the next page




                                                                   210
                                                                         U.S. Department of the Treasury | Fiscal Year 2011

                                                                           Dis-       Funds       Revenue
                          Report
Bureau    Report No.                       Brief Description             allowed      Put to      Enhance-      Total       Due Date
                        Issue Date
                                                                          Costs     Better Use     ment
                                     IRS should discontinue
                                     providing the option to
                                     taxpayers of self-identifying by
                                     annotating a tax return with
  IRS     2009-40-138   9/23/2009                                               -             -          1.1          1.1    1/15/2012
                                     ―Combat Zone‖ and continue to
                                     provide individuals the option
                                     of self-identifying by telephone
                                     or electronically.
                                     The IRS CO should use the
                                     results of the DCAA report to
  IRS     2009-1c-134   9/28/2009    fulfill his/her duties in                0.1             -            -          0.1   10/15/2012
                                     awarding and administering
                                     contracts.
FY 2009       4                                                             $ 0.1       $ 39.0        $ 1.1       $ 40.2

                                     IRS should ensure policies and
                                     procedures are established to
                                     evaluate and determine which
  IRS     2010-20-044   5/07/2010                                             3.2             -            -          3.2   12/15/2011
                                     best practices to implement to
                                     improve data center energy
                                     efficiency

                                     IRS should ensure that paper
                                     and electronically filed returns
                                     with Forms 8919 attached are
                                     compared to filed Forms SS-8
                                     through a post-filing
  IRS     2010-30-025   3/23/2010                                               -             -        131.1        131.1    1/15/2012
                                     compliance program, and
                                     ensure that paper returns
                                     flagged during processing are
                                     reviewed and any
                                     noncompliance addressed.
                                     IRS should explore the
                                     feasibility of making greater use
                                     of Currency Transaction
  IRS     2010-30-104   9/17/2010                                               -             -     1,300.0      1,300.0    6/15/2013
                                     Reports to pursue additional
                                     nonfilers and underreporters
                                     for audit.
                                     IRS should ensure a Service-
                                     wide strategy is developed to
                                     address retirement provision
                                     noncompliance. This strategy
                                     should include the development
  IRS     2010-40-043   3/29/2010                                               -             -       405.1        405.1    10/15/2012
                                     of processes to identify
                                     individuals who do not comply
                                     with retirement provisions
                                     along with compliance efforts to
                                     address the noncompliance.
                                     IRS should use the authority
                                     already provided in the law to
                                     (1) freeze refunds while
                                     contacting those taxpayers with
                                     potentially invalid EITC claims
                                     or questionable information on
  IRS     2010-40-062   7/13/2010                                               -       1,175.0            -      1,175.0    1/15/2012
                                     their tax returns, (2) require a
                                     valid response from the
                                     taxpayers before allowing the
                                     EITC, and (3) adjust the return
                                     if the taxpayer does not respond
                                     within a specified time period.




                                                                                                    Table continued on the next page




                                                                 211
                                                                           U.S. Department of the Treasury | Fiscal Year 2011

                                                                             Dis-       Funds        Revenue
                             Report
Bureau      Report No.                        Brief Description            allowed      Put to       Enhance-     Total       Due Date
                           Issue Date
                                                                            Costs     Better Use      ment
                                        IRS should revise the criteria
                                        used to determine who will
                                        receive a notice to include
                                        individuals identified by the
                                        Duplicate TIN Use database
                                        when (1) a TIN is used as a
                                        secondary taxpayer on one tax
  IRS        2010-40-117   9/14/2010    return and as a dependent                 -       1,297.6            -      1,297.6   1/15/2013
                                        and/or for the EITC on another
                                        tax return, and (2) a TIN is
                                        used as a qualifying child for
                                        the child and dependent care
                                        credit, adoption credit,
                                        education credits, and child tax
                                        credit.
FY 2010           6                                                           $ 3.2    $ 2,472.6     $ 1,836.2     $ 4,312
 Total            12                                                         $ 35.7    $ 2,511.6     $ 1,837.3   $ 4,384.6

 The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations reported in previous
 semiannual reports for which corrective actions had not been completed as of September 30, 2010 and September 30, 2011,
 respectively. OIG and TIGTA define ―significant‖ as any recommendation open for more than one year. There were no
 ―Undecided Audit Recommendations‖ during the same periods.

                           Audit Reports with Significant Unimplemented Recommendations
                                           9/30/2010                             9/30/2011
                                     OIG               TIGTA               OIG                                    TIGTA
 No. of Reports                       6                  24                 7                                       12

 SIGTARP issued its first report on TARP-related activity in April 2009. The following table provides a snapshot of the number
 of recommendations made in SIGTARP audit reports and quarterly reports for which corrective actions had not been completed
 as of September 30, 2010, and September 30, 2011, respectively. SIGTARP defines a recommendation as ―unimplemented‖ if it
 is listed as ―partially implemented,‖ ―in process,‖ or ―not implemented‖ in SIGTARP’s quarterly report.

                                        Unimplemented SIGTARP Recommendations
                                             9/30/2010                                              9/30/2011
 No. of Unimplemented
                                                    30                                                 12
 Recommendations

 III.       FINANCIAL MANAGEMENT SYSTEMS FRAMEWORK
 Overview
 The Department of the Treasury’s financial management systems structure consists of financial and mixed systems maintained
 by the Treasury bureaus and the Department-wide Financial Analysis and Reporting System (FARS). The bureau systems
 process and record the detailed financial transactions and submit summary-level data to FARS on a scheduled basis. FARS
 maintains the key financial data necessary for consolidated financial reporting. In addition, the FARS modules also maintain
 data on the status of audit-based corrective actions. Under this systems structure, the bureaus are able to maintain financial
 management systems that meet their specific business requirements. On a monthly basis, the required financial data submitted
 to FARS to meet Departmental analysis and reporting requirements. The Department uses FARS to produce its periodic
 financial reports as well as the annual Agency Financial Report. This structured financial systems environment enables Treasury
 to receive an unqualified audit opinion and supports its required financial management reporting and analysis requirements.

 The FARS structure consists of the following components:

           Bureau core and financial management systems that process and record detailed financial transactions
           Treasury Information Executive Repository (TIER) - consolidates bureau financial data


                                                                   212
                                                                       U.S. Department of the Treasury | Fiscal Year 2011

        CFO Vision - produces monthly financial statements and performs financial analysis
        JAMES - tracks information on audit findings, recommendations, and planned corrective actions
Bureaus submit summary-level financial data to TIER on a monthly basis, within three business days of the month-end. These
data are then used by CFO Vision to generate financial statements and reports on both a Department-wide and bureau-level
basis. This structure enables the Department to produce its audited annual financial statements and monthly management
reports. During fiscal year 2011, Treasury continued to upgrade its FARS applications to take advantage of technology
improvements such as information security and the technical environment.

As part of the Department’s enhancement effort, 14 Treasury bureaus and reporting entities are cross-serviced for financial
systems by the Bureau of the Public Debt’s (BPD) Administrative Resource Center (ARC). Cross-servicing enables these bureaus
to have access to core financial systems without having to maintain the necessary technical and systems architectures.
BPD/ARC also provides administrative services in the areas of accounting, travel, payroll, human resources, and procurement to
Treasury bureaus and offices and to other federal entities to support core business activities. In an ongoing effort to streamline
its financial systems environment, Treasury continues to work with the bureaus to evaluate plans for continuous improvement to
their financial management systems structure.

Continued Improvement
Treasury’s target financial management systems structure continues to build upon the current FARS foundation. Treasury has
enhanced FARS to support new financial and performance requirements and continues to provide management with the
appropriate tools needed to align the Department’s goals and objectives.

In fiscal year 2011, the TIER Focus Group continued to meet to improve communication with the bureaus and coordinate
changes impacting financial management systems and financial operations. Treasury enhanced the FARS applications to be
Section 508 compliant, which assists users with disabilities in accessing reports and performing data entry. In addition,
Treasury upgraded the FARS servers to improve performance.

The IRS continued to modernize its tax administration systems, improving the speed in which the IRS processes tax returns. In
fiscal year 2011, the Customer Account Data Engine (CADE) posted over 40 million tax returns and over 35.1 million refunds.
The Account Management Services System, which stores taxpayer information, has been enhanced to eliminate the processing of
paper and reduce case cycle time from 14 days to zero (real-time); and IRS upgraded the servers which host the financial
management system. In fiscal year 2012, CADE is expected to be a single integrated tax processing environment, resulting in
even faster refunds, improved customer service, elimination of notices based on out-of-date information, faster resolution of
taxpayer account issues, and better online tools and services for taxpayers.

In fiscal year 2011, BPD/ARC upgraded the core financial management systems platform to increase its responsiveness in
producing financial management reports and to align with new financial reporting governance standards. BPD/ARC also began
implementing the Internet Payment Platform system to convert a paper-based process to an electronic centralized invoice
payment information service for use by their customers and suppliers.

In fiscal years 2012 and 2013, the Department and BPD/ARC plan to develop their financial management system to transition to
the Common Government-wide Accounting System and plan to meet compliance expectations. In addition, the Department and
BPD/ARC are developing projects which will capture business analytics data at a high level to gain insight on business
performance and assist with business planning.

The Bureau of Engraving and Printing (BEP) completed the first phase of replacing its legacy core manufacturing system to a
fully integrated system and converted the general ledger, accounts receivable, and fixed assets modules to the new
manufacturing system in fiscal year 2011. The second phase will be implemented early in fiscal year 2012, and will include the
conversion of supply chain management, manufacturing management, project accounting, and contract lifecycle management
modules to the new system.
                                                               213
                                                                        U.S. Department of the Treasury | Fiscal Year 2011

APPENDIX E:
GLOSSARY OF ACRONYMS
Glossary of Acronyms                                                    Glossary of Acronyms

ABS               Asset-Backed Securities                               CIF               Climate Investment Fund
ACA               Patient Protection and Affordable Care Act            CIGFO             Council of Inspectors General on Financial
                                                                                          Oversight
ACD               Advanced Counterfeit Deterrent                        CIO               Chief Information Officer
ACH               Automated Clearing House                              CMBS              Commercial Mortgage Backed Securities
AD                Audit Division                                        CMF               Capital Magnet Fund
ADR               Alternative Dispute Resolution                        CO                Contracting Officer
AFR               Agency Financial Report                                                 Consolidated Omnibus Budget Reconciliation Act of
                                                                        COBRA
                                                                                          1985
AGI               Adjusted Gross Income
                                                                        COP               Congressional Oversight Panel
AGP               Asset Guarantee Program
                                                                                          Committee of Sponsoring Organizations of the
                                                                        COSO
AIFP              Automotive Industry Financing Program                                   Treadway Commission
                                                                        CPP               Capital Purchase Program
AIG               American International Group, Inc.
                                                                        CRA               Community Reinvestment Act
AML               Anti-money laundering
                                                                        CRE               Commercial Real Estate
AMS               Account Management Services

APR               Annual Performance Report                                               Credit Card Accountability, Responsibility, and
                                                                        Credit CARD Act
                                                                                          Disclosure Act of 2009
ARC               Administrative Resource Center
                  Assistant Secretary for Management & Chief            CSI               Customer Service Index
ASM/CFO
                  Financial Officer
                                                                        CSR               Customer Service Representative
ATFC              Afghanistan Threat Finance Cell
                                                                        CSRS              Civil Service Retirement System
AUR               Automated Underreporter
                                                                        CTF               Clean Technology Fund
BCPO              Bureau Chief Procurement Officer
                                                                                          Office of the Deputy Assistant Secretary for Human
                                                                        DASHR/CHCO
BEP               Bureau of Engraving and Printing                                        Resources/Chief Human Capital Officer

BPD               Bureau of the Public Debt                                               Deputy Assistant Secretary for Management and
                                                                        DASMB
                                                                                          Budget
BSA               Bank Secrecy Act
                                                                                          Deputy Assistant Secretary for Privacy,
BSM               Business Systems Modernization                        DASPTR
                                                                                          Transparency, and Records
CADE              Customer Account Data Engine                          DCAA              Defense Contract Audit Agency

CAP               Capital Assistance Program                            DCFO              Deputy Chief Financial Officer

CAP               Compliance Assurance Process                          DCIA              Debt Collection Improvement Act of 1996

CAR               Collection Activity Report                            DCP               Office of D.C. Pensions

CBP               U.S. Customs and Border Patrol                        DIP               Debtor-in-Possession

CBLI              Consumer and Business Lending Initiative              DISC              Discontinued

CBO               Congressional Budget Office                           DMAS              Debt Management Account System

                                                                        DO                Departmental Offices
CCMM              Collections and Cash Management Modernization
                                                                                          Dodd-Frank Wall Street Reform and Consumer
CDCI              Community Development Capital Initiative              Dodd-Frank Act
                                                                                          Protection Act of 2010

CDFI              Community Development Financial Institutions          DOJ               Department of Justice

                                                                        EBRD              European Bank for Reconstruction and
CDS               Credit Default Swaps
                                                                                          Development
CFPB              Consumer Financial Protection Bureau                  ECM               Enterprise Content Management

CFO               Chief Financial Officer                               EEO               Equal Employment Opportunity

CFS               Consolidated Financial Statements                     EESA              Emergency Economic Stabilization Act of 2008

                                                                        EFT               Electronic Funds Transfer
CFTC              Commodity Futures Trading Commission
                                                                        EFTPS             Electronic Federal Tax Payment System
CHCO              Chief Human Capital Officer
                                                                        EGTRRA            Economic Growth and Tax Relief Reconciliation Act
                  Children’s Health Insurance Program
CHIPRA
                  Reauthorization Act of 2009                           EITC              Earned Income Tax Credit
CI                Criminal Investigation (or Investigator)              EO                Executive Order

                                                                  214
                                                                             U.S. Department of the Treasury | Fiscal Year 2011

Glossary of Acronyms                                                         Glossary of Acronyms

ERP               Economic Recovery Payment                                  FTO               Fine Troy Ounce

ESC               Executive Steering Committee                               FY                Fiscal Year

ESF               Exchange Stabilization Fund                                G-7               Group of Seven

ETD               Error Tracking Database                                    G-20              Group of Twenty

EU                European Union                                             GAAP              Generally Accepted Accounting Principles

FAET              Firearms and Ammunition Excise Tax                         GAB               General Arrangement to Borrow

Fannie Mae        Federal National Mortgage Association                      GAFSP             Global Agriculture and Food Security Program

FARS              Financial Analysis and Reporting System                    GAIS              Government Agency Investment Services

FASAB             Federal Accounting Standards Advisory Board                GAO               Government Accountability Office

FATCA             Foreign Account Tax Compliance Act                         GEF               Global Environmental Facility

FATF              Financial Action Task Force                                GFRA              General Fund Receipt Account

FCDA              Foreign Currency Denominated Assets                        Ginnie Mae        Government National Mortgage Association

FCRA              Federal Credit Reform Act                                  GM                General Motors Company

FDIC              Federal Deposit Insurance Corporation                      GMAC              General Motors Acceptance Corporation

FECA              Federal Employees’ Compensation Act                        GPRA              Government Performance and Results Act

FEGLI             Federal Employees Group Life Insurance                     GSA               General Services Administration

FEHBP             Federal Employees Health Benefits Program                  GSE               Government Sponsored Enterprise

FFB               Federal Financing Bank                                     GWA               Government-wide Accounting

FFETF             Financial Fraud Enforcement Task Force                     HAMP              Home Affordable Modification Program

FFIEC             Federal Financial Institutions Examination Council         HCTC              Health Coverage Tax Credit

FFMIA             Federal Financial Management Improvement Act               HEAT              Health Care Fraud Prevention and Enforcement
                                                                                               Action Team
FHA               Federal Housing Administration                             HECM              Home Equity Conversion Mortgage

FHFA              Federal Housing Finance Agency                             HERA              Housing and Economic Recovery Act
FHLB              Federal Home Loan Bank
                                                                             HFA               Housing Finance Agency
FinCEN            Financial Crimes Enforcement Network
                                                                             HFFI              Healthy Food Financing Initiative
FinTRACA          Financial Transactions and Reports Analysis Center
                  of Afghanistan                                             HHF               Hardest Hit Fund
FIO               Federal Insurance Office
                                                                             HHS               Department of Health and Human Services
FISMA             Federal Information Security Management Act                HIRE              Hiring Incentives to Restore Employment Act of
                                                                                               2010
                  Financial Information and Reporting
FIRST                                                                        HRF               Haitian Reconstruction Fund
                  Standardization
FIST              Fraud Investigative Strike Team                            HSPD              Homeland Security Presidential Directive

FIU               Financial Intelligence Unit                                HUD               Department of Housing and Urban Development

FMFIA             Federal Managers’ Financial Integrity Act                  I&E               Inspections and Evaluations

FMIS              Financial Management Information System                    IAP               International Assistance Programs

FMS               Financial Management Service                               IDB               Inter-American Development Bank

                                                                             IEEPA             International Emergency Economic Powers Act
FOIA              Freedom of Information Act
                                                                             IFI               International Financial Institution
FONL              Formulas Online
                  Consolidated Financial Report of the United States         IFSR              Iranian Financial Sanctions Regulations
FR
                  Government
                                                                             IG                Inspector General
FRB               Federal Reserve Bank
                                                                             IMF               International Monetary Fund
FRBNY             Federal Reserve Bank of New York
                                                                                               Improper Payments Elimination and Recovery Act
Freddie Mac       Federal Home Loan Mortgage Corporation                     IPERA
                                                                                               of 2010
FSB               Financial Stability Board                                  IPIA              Improper Payments Information Act of 2002
FSOC              Financial Stability Oversight Council                      IPP               Internet Payment Platform
FST               Floor Stocks Tax
                                                                             IPPIN             Identify Protection Personal Identification Number
FTD               Federal Tax Deposit
                                                                             IRC               Internal Revenue Code
FTHBC             First-Time Homebuyer Credit
                                                                             IRIS              Integrated Revenue Information System

                                                                       215
                                                                            U.S. Department of the Treasury | Fiscal Year 2011

Glossary of Acronyms                                                        Glossary of Acronyms

IRISL             Islamic Republic of Iran Shipping Lines                   ORB               Other Retirement Benefits

IRS               Internal Revenue Service                                  OTC               Over-the-Counter

ISO               International Organization for Standardization            OTS               Office of Thrift Supervision

IT                Information Technology                                    PACT Act          Prevent All Cigarette Trafficking Act of 2009

ITA               Interactive Tax Law Assistant                             PAM               Payments Application Modernization

ITR               Iranian Transactions Regulations                          PAR               Performance and Accountability Report

JAMES             Joint Audit Management Enterprise System                  PB                President’s Budget

Kingpin Act       Foreign Narcotics Kingpin Designation Act                 PCA               Planned Corrective Action

LIBOR             London Interbank Offered Rate                             PII               Personal Identifiable Information

LIC               Low-Income Community                                      P.L.              Public Law

MBS               Mortgage-Backed Security                                  PONL              Permits Online

MDB               Multilateral Development Bank                             PP&E              Property, Plant, and Equipment

MeF               Modernized Electronic File                                PPIF              Public-Private Investment Fund

MHA               Making Home Affordable Program                            PPIP              Public-Private Investment Program

MOU               Memorandum of Understanding                               PSPA              Preferred Stock Purchase Agreements

MRADR             Market Risk Adjusted Discount Rate                        PTIN              Preparer Tax Identification Number

MSB               Money Services Business                                   QEO               Qualified Equity Offering

MV&S              Modernization, Vision, and Strategy                       QFI               Qualified Financial Institution

NAB               New Arrangement to Borrow                                 QTDP              Qualified Therapeutic Discovery Project

NDIC              National Drug Intelligence Center                         Recovery Act      American Recovery and Reinvestment Act of 2009

NEI               National Export Initiative                                RMBS              Residential Mortgage Backed Securities

NOL               Net Operating Loss                                        RRACS             Redesign Revenue Accounting Control System

NPRM              Notice of Proposed Rulemaking                             S&ED              Strategic and Economic Dialogue
                                                                                              Secure and Fair Enforcement for Mortgage
NRC               National Revenue Center                                   S.A.F.E. Act
                                                                                              Licensing Act of 2008
NTDO              Non-Treasury Disbursing Office                            SAR               Suspicious Activity Report

OA                Office of Audits                                          SAS               Statement on Auditing Standards

OCC               Office of the Comptroller of the Currency                 SBA               Small Business Administration

ODM               Office of Debt Management                                 SBLF              Small Business Lending Fund
                  Organization for Economic Co-operation and
OECD                                                                        SBR               Statement of Budgetary Resources
                  Development
OFAC              Office of Foreign Assets Control                          SCAP              Supervisory Capital Assessment Program

OFAS              Office of the Fiscal Assistant Secretary                  SCF               Strategic Climate Fund

OFIT              Office of Financial Innovation and Transformation         SCMA              Strategic Cash Management Agreements

OFP               Office of Fiscal Projections                              SDR               Special Drawing Rights

OFPP              Office of Federal Procurement Policy                      SEC               Securities and Exchange Commission

OFR               Office of Financial Research                              SES               Senior Executive Service
                                                                                              Statement of Federal Financial Accounting
OFS               Office of Financial Stability                             SFFAS
                                                                                              Standards
OI                Office of Investigations                                  SFP               Supplementary Financing Program

OIA               Office of Intelligence and Analysis                       SIG               Special Inspector General

OID               Original Issue Discount                                   SIGTARP           Special Inspector General for TARP

OIG               Office of Inspector General                               SME               Small and Medium-sized Enterprise

OMB               Office of Management and Budget                           SNC               Statement of Net Cost
OPCL              Office of Privacy and Civil Liberties                     SOI               Statistics of Income
OPE               Office of the Procurement Executive                       SOMA              System Open Market Account
OPEB              Other Post-Employment Benefits                            SPSPA             Senior Preferred Stock Purchase Agreements
OPM               Office of Personnel Management                            SPV               Special Purpose Vehicle


                                                                      216
                                                                             U.S. Department of the Treasury | Fiscal Year 2011

Glossary of Acronyms

SSBCI             State Small Business Credit Initiative

SSG               Senior Supervisors’ Group

SSP               Shared Service Provider

SSP               Stable Share Price

STR               Suspicious Transaction Report

TAC               Taxpayer Assistance Center

TAIFF             Troubled Asset Insurance Finance Fund

TALF              Term Asset-Backed Securities Loan Facilities

TARP              Troubled Asset Relief Program

TCE               Tax Counseling for the Elderly

TCLP              Temporary Credit and Liquidity Program

TE/GE             Tax Exempt and Government Entities

TEOAF             Treasury Executive Office for Asset Forfeiture

TFF               Treasury Forfeiture Fund

TFFC              Office of Terrorist Financing and Financial Crimes

TFI               Terrorism and Financial Intelligence

TFR               Thrift Financial Reports

TFTP              Terrorist Finance Tracking Program

TIER              Treasury Information Executive Repository

TIGTA             Treasury Inspector General for Tax Administration

TIP               Targeted Investment Program

TIN               Taxpayer Identification Number

TIPS              Treasury Inflation-Protected Securities

TOP               Treasury Offset Program

TPP               Trans-Pacific Partnership

TRIA              Terrorism Risk Insurance Act

TTB               Alcohol and Tobacco Tax and Trade Bureau

TWEA              Trading with the Enemy Act

UN                United Nations

UNSCR             United Nations Security Council Resolution

UP                Unemployment Program
                  Uniting and Strengthening America by Providing
USA PATRIOT
                  Appropriate Tools Required to Intercept and
Act
                  Obstruct Terrorism Act of 2001
USDA              United States Department of Agriculture

USC               United States Code

USPS              United States Postal Service

USSGL             United States Standard General Ledger

UTF               Unemployment Trust Fund

VA                Department of Veterans Affairs

VITA              Volunteer Income Tax Assistance
                  Worker, Homeownership, and Business Assistance
WHBAA
                  Act of 2009
WMD               Weapons of Mass Destruction

WTO               World Trade Organization




                                                                       217
      U.S. Department of the Treasury | Fiscal Year 2011




218
      U.S. Department of the Treasury | Fiscal Year 2011




219
